<html>
<title> - DELUGE OF OIL HIGHLIGHTS RESEARCH AND TECHNOLOGY NEEDS FOR EFFECTIVE CLEANUP OF OIL SPILLS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   DELUGE OF OIL HIGHLIGHTS RESEARCH
                        AND TECHNOLOGY NEEDS FOR
                    EFFECTIVE CLEANUP OF OIL SPILLS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 9, 2010

                               __________

                           Serial No. 111-98

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
57-176                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc9b8c93bc9f898f889499908cd29f9391d2">[email&#160;protected]</a>  

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                  HON. BRIAN BAIRD, Washington, Chair
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
JOHN GARAMENDI, California               
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  CHRIS KING Democratic Staff Director
         SHIMERE WILLIAMS Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
            JETTA WONG Democratic Professional Staff Member
            ANNE COOPER Democratic Professional Staff Member
          ROBERT WALTHER Democratic Professional Staff Member
             DAN BYERS Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                      JANE WISE Research Assistant
                    ALEX MATTHEWS Research Assistant


                            C O N T E N T S

                            Date of Hearing

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     9

Statement by Representative Ralph M. Hall, Ranking Minority 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    12
    Written Statement............................................    12

Prepared Statement by Representative Jerry F. Costello, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    13

                                Panel I:

Mr. Douglas Helton, Incident Operations Coordinator, Office of 
  Response and Restoration, National Ocean Service, National 
  Oceanic and Atmospheric Administration (NOAA)
    Oral Statement...............................................    14
    Written Statement............................................    15
    Biography....................................................    21

Captain Anthony Lloyd, Chief, Office of Incident Management and 
  Preparedness, United States Coast Guard
    Oral Statement...............................................    22
    Written Statement............................................    23
    Biography....................................................    30

Ms. Sharon Buffington, Chief, Engineering and Research Branch, 
  Offshore Energy and Minerals Management, Minerals Management 
  Service
    Oral Statement...............................................    31
    Written Statement............................................    32
    Biography....................................................    37

Dr. Albert Venosa, Director, Land Remediation and Pollution 
  Control Division, National Risk Management Research Laboratory, 
  Office of Research and Development, Environmental Protection 
  Agency
    Oral Statement...............................................    37
    Written Statement............................................    39
    Biography....................................................    43

Discussion
  A Possible Lack of Information on Deepwater Drilling...........    44
  Causes of the Deepwater Horizon Spill..........................    45
  International and Best Practice Coordination...................    46
  MMS Spill Preparedness.........................................    49
  The Federal Oil Spill Research Act and Agency Responsibility...    50
  Ecological Impacts of Oil and Dispersants......................    52
  Research Activities in California and Coast Guard Preparedness.    53
  Contingency Plans and the Effects of Oil Dispersants...........    55
  Hurricane Impacts..............................................    57
  BP Research Funding Priorities.................................    58
  Federal Research Funding Levels................................    58
  Forecasting Spill Impacts......................................    59
  More on Dispersants............................................    61
  Drilling Safety Standards Abroad...............................    63
  Approval for Local Spill Response Efforts......................    65
  More on Dispersants............................................    68

                               Panel II:

Dr. Jeffrey Short, Pacific Science Director, Oceana
    Oral Statement...............................................    70
    Written Statement............................................    71
    Biography....................................................    80

Dr. Samantha Joye, Professor of Marine Sciences, University of 
  Georgia
    Oral Statement...............................................    80
    Written Statement............................................    81
    Biography....................................................    87

Dr. Richard Haut, Senior Research Scientist, Houston Advanced 
  Research Center
    Oral Statement...............................................    88
    Written Statement............................................    89
    Biography....................................................    94

Dr. Nancy Kinner, University of New Hampshire, Co-Director, 
  Coastal Response Research Center
    Oral Statement...............................................    94
    Written Statement............................................    96
    Biography....................................................   123

Mr. Kevin Costner, Partner, Ocean Therapy Solutions, WestPac 
  Resources
    Oral Statement...............................................   123
    Written Statement............................................   126
    Biography....................................................   132

Discussion
  Industry Funding for Spill Impacts Research....................   132
  Impacts on Corals and Algae....................................   133
  Early Warning Mechanisms.......................................   135
  R&D Budget Priorities..........................................   135
  Existing Cleanup Technologies..................................   136
  Technology Transfer............................................   136
  Challenges for Implementing New Technologies...................   139
  The Cosco Busan Spill and the Interagency Committee............   141
  More on Technology Transfer....................................   142
  Dispersants vs. Oil Collection.................................   143
  Entrepreneurial Solutions......................................   145
  More on Technology Transfer....................................   146

             Appendix 1: Answers to Post-Hearing Questions

Mr. Douglas Helton, Incident Operations Coordinator, Office of 
  Response and Restoration, National Ocean Service, National 
  Oceanic and Atmospheric Administration (NOAA)..................   152

Captain Anthony Lloyd, Chief, Office of Incident Management and 
  Preparedness, United States Coast Guard........................   158

Ms. Sharon Buffington, Chief, Engineering and Research Branch, 
  Offshore Energy and Minerals Management, Minerals Management 
  Service........................................................   166

Dr. Albert Venosa, Director, Land Remediation and Pollution 
  Control Division, National Risk Management Research Laboratory, 
  Office of Research and Development, Environmental Protection 
  Agency.........................................................   174

Dr. Jeffrey Short, Pacific Science Director, Oceana..............   180

Dr. Samantha Joye, Professor of Marine Sciences, University of 
  Georgia........................................................   186

Dr. Richard Haut, Senior Research Scientist, Houston Advanced 
  Research Center................................................   190

Dr. Nancy Kinner, University of New Hampshire, Co-Director, 
  Coastal Response Research Center...............................   195

Mr. Kevin Costner, Partner, Ocean Therapy Solutions, WestPac 
  Resources......................................................   209

             Appendix 2: Additional Material for the Record

Letter from Noel Jones, Legislative Affairs Specialist, National 
  Oceanic and Atmospheric Administration.........................   214


 DELUGE OF OIL HIGHLIGHTS RESEARCH AND TECHNOLOGY NEEDS FOR EFFECTIVE 
                         CLEANUP OF OIL SPILLS

                              ----------                              


                        WEDNESDAY, JUNE 9, 2010

                  House of Representatives,
                     Subcommittee on Energy and Environment
                        Committee on Science and Technology
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                     U.S. HOUSE OF REPRESENTATIVES

                 Deluge of Oil Highlights Research and

                 Technology Needs for Oil Recovery and

                    Effective Cleanup of Oil Spills

                        wednesday, june 9, 2010
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, June 9, 2010 the House Committee on Science and 
Technology, Subcommittee on Energy and Environment will hold a hearing 
entitled ``Deluge of Oil Highlights Research and Technology Needs for 
Oil Recovery and Effective Cleanup of Oil Spills.'' The purpose of this 
hearing is to explore the research, development, and technology needs 
for the recovery of oil and effective cleanup of oil spills. The 
Committee will examine Federal agency roles in oil spill response 
research, the activities and programs Federal agencies have pursued 
since the passage of the Oil Pollution Act of 1990, the current gaps in 
spill response research and technology development, and what is needed 
to improve the coordinated Federal response going forward.
    In addition, the Committee seeks to understand how oil interacts 
with the natural environment, the extent to which oil can be 
bioremediated through natural processes, the ecosystem effect(s) of 
chemically dispersed oil and of natural biodegradation, and the 
effectiveness of currently deployed technologies such as booms, 
skimmers, and in situ burns. The Committee also seeks to identify the 
barriers to the development and use of transformational technologies 
for oil spill cleanup.

Witnesses

Panel I

        <bullet>  Mr. Douglas R. Helton, Incident Operations 
        Coordinator, Office of Response and Restoration, National 
        Oceanic and Atmospheric Administration (NOAA), U.S. Department 
        of Commerce.

        <bullet>  Captain Anthony Lloyd, Chief, Office of Incident 
        Management and Preparedness, United States Coast Guard.

        <bullet>  Ms. Sharon Buffington, Chief, Engineering and 
        Research Branch, Offshore Energy and Minerals Management, 
        Minerals Management Service (MMS), U.S. Department of the 
        Interior.

        <bullet>  Dr. Albert Venosa, Director, Land Remediation and 
        Pollution Control Division, National Risk Management Research 
        Laboratory, Office of Research and Development (ORD), U.S. 
        Environmental Protection Agency (EPA).

Panel II

        <bullet>  Dr. Jeffrey Short, Pacific Science Director for 
        Oceana. Dr. Short was the lead government chemist for the 
        natural resource damage assessment and restoration of the Exxon 
        Valdez oil spill and led numerous studies on the distribution, 
        persistence, and effects of the oil.

        <bullet>  Dr. Samantha Joye, Professor of Marine Sciences, 
        University of Georgia. Dr. Joye studies the biogeochemical 
        cycling of nutrients and organic materials in coastal 
        environments, ecosystem and geochemical modeling, and microbial 
        ecology. She has been aboard the Walton Smith research vessel 
        in the Gulf of Mexico as a member of a multidisciplinary 
        science team, whose objectives are to conduct a comprehensive 
        study of the deepwater plumes, including the plume's 
        distribution, microbial activity, and geochemical constituents.

        <bullet>  Dr. Richard Haut, Senior Research Scientist, Houston 
        Advanced Research Center. HARC is a non-profit based in the 
        Woodlands, Texas that is dedicated to improving human and 
        ecosystem well-being through the application of sustainability 
        science and principles of sustainable development. Dr. Haut 
        serves as the team lead for the Environmentally Friendly 
        Drilling program.

        <bullet>  Dr. Nancy Kinner, Professor of Civil and 
        Environmental Engineering, University of New Hampshire and Co-
        Director of the Coastal Response Research Center (CRRC). CRRC 
        is a partnership between NOAA's Office of Response and 
        Restoration (ORR) and the University of New Hampshire. Dr. 
        Kinner is a Response Technology Engineer who works to transform 
        research results into practice and conducts research on 
        bioremediation of contaminated subsurface environments.

        <bullet>  Mr. Kevin Costner, Partner, Ocean Therapy Solutions 
        (OTS). Mr. Costner's firm developed a device that separates oil 
        from water that is currently being tested by BP in the Gulf of 
        Mexico.

Background

    Oil spills are reported every day in the United States. Few spills 
are environmental disasters of national or global significance; most of 
the three million gallons of oil \1\ that is spilled into U.S. waters 
each year goes unnoticed by the public. Regardless of the level of 
public awareness in each case, natural resources such as fish, corals, 
marine mammals, sea turtles, birds, beaches, coastal habitats, and 
water quality are often negatively affected, as are the businesses and 
industries which depend on the immediate and long-term health of these 
resources.
---------------------------------------------------------------------------
    \1\ Oil and refined petroleum product
---------------------------------------------------------------------------
    The United States has incorporated lessons learned from past spills 
into Federal law \2\ and relevant response readiness practices. We now 
have response tools and trained personnel at ports and aboard vessels 
across the nation. Oil recovery and clean up techniques, including in 
situ burns, chemical dispersants, skimmers, and floating oil-capturing 
barriers called ``booms'' have changed little since the Exxon Valdez 
oil spill of 1989.
---------------------------------------------------------------------------
    \2\ The Federal Government's oil spill response framework is found 
in the National Contingency Plan (40 CFR Part 300). Congress first 
established the National Oil and Hazardous Substances Pollution 
Contingency Plan (NCP) in 1968, after U.S. policymakers observed the 
response to a 37-million-gallon oil tanker spill (Torrey Canyon) off 
the coast of England. Subsequent laws have amended the NCP, including 
the Clean Water Act in 1972; the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA or Superfund) in 1980; and the 
Oil Pollution Act (OPA) in 1990.

Learning from the Past
    The Exxon Valdez oil spill occurred in Prince William Sound, Alaska 
on March 24, 1989, when the Exxon Valdez oil tanker hit Bligh Reef and 
spilled at least 11 million gallons of crude oil, which eventually 
covered 1,300 miles of coastline \3\ and 11,000 square miles of 
ocean.\4\ The Exxon Valdez oil spill is considered to be one of the 
most devastating human-caused environmental disasters in U.S. 
history.\5\
---------------------------------------------------------------------------
    \3\ Questions and Answers. Exxon Valdez Oil Spill Trustee Council. 
http://www.evostc.state.ak.us Accessed 05 June 2010.
    \4\ The Exxon Valdez Spill is All Around Us. March 2009. Wired 
Science. http://www.wired.com/wiredscience/2009/03/valdezlegacy/ 
Accessed 05 June 2010.
    \5\ Oil Spill Facts. Exxon Valdez Oil Spill Trustee Council. http:/
/www.evostc.state.ak.us Accessed 07 June 2010.
---------------------------------------------------------------------------
    The Exxon Valdez spill became a learning opportunity for spill 
responders and scientists from industry, government, academia, and the 
private sector. For example, although over 10,000 people contributed to 
the recovery effort, standard response technologies were largely 
ineffective due to weather conditions and properties of the spilled oil 
and the local environment. Response equipment was in short supply and 
inaccessible, and the remote location of the spill (accessible only by 
helicopter, plane and boat) strained government and industry response 
efforts. In addition to these constraints, the predominant scientific 
advice and public pressure at the time was to clean up one-hundred 
percent of the oil, which in some cases had adverse consequences. For 
example, shoreline cleanup methods such as the application of high-
pressure hot water displaced and destroyed microbial populations; many 
of these organisms are the basis of the coastal marine food chain, and 
others (certain bacteria and fungi) are capable of facilitating the 
biodegradation of oil.
    Despite the magnitude of the cleanup response, oil from the Exxon 
Valdez spill has left a lasting impact on Prince William Sound. Less 
than 10% of the oil was recovered from this spill, and a NOAA study 
determined that as of early 2007, more than 26,000 gallons of oil 
remained in the sandy soil of the contaminated shoreline, declining at 
a rate of less than 4% per year. \6\ In addition to the long term 
ecological consequences of the Exxon Valdez oil spill, some important 
commercial fisheries have yet to recover in the region.\7\
---------------------------------------------------------------------------
    \6\ Short JW, Irvine GV, Mann DH, Maselko JM, Pella JJ, Lindeberg 
MR, Payne JR, Driskell WB, and Rice SD. 2007. Slightly weathered Exxon 
Valdez oil persists in Gulf of Alaska beach sediments after 16 years. 
Environmental Science and Technology. 41: 1245-1250.
    \7\ Brown ED, Norcross BL, and Short JW. 1996a. An introduction to 
studies on the effects of the Exxon Valdez oil spill on early life 
history stages of Pacific herring, Clupea pallasi, in Prince William 
Sound, Alaska. Canadian Journal of Fisheries and Aquatic Science 53: 
2337-2342.

Legislative Response
    The Oil Pollution Act (OPA) was signed into law, P.L. 101-380 (8-
18-1990), in August 1990, largely in response to rising public concern 
following the Exxon Valdez oil spill. The intent of OPA was to improve 
the nation's ability to prevent and respond to oil spills by 
establishing provisions that expand the Federal Government's ability, 
and provide the funding and resources necessary, to respond to oil 
spills. In addition, OPA created the national Oil Spill Liability Trust 
Fund, which is available to provide up to one billion dollars per spill 
incident.
    OPA also mandated new requirements for contingency planning both by 
government and industry. The National Oil and Hazardous Substances 
Pollution Contingency Plan (NCP) \8\ was expanded under OPA in a three-
tiered approach: the Federal Government is required to direct all 
public and private response efforts for certain types of spill events; 
Area Committees--composed of Federal, state, and local government 
officials--must develop detailed, location-specific Area Contingency 
Plans; and owners or operators of vessels and certain facilities that 
pose a serious threat to the environment must prepare their own 
Facility Response Plans. Lastly, OPA increased penalties for regulatory 
noncompliance, broadened the response and enforcement authorities of 
the Federal Government, and preserved State authority to establish law 
governing oil spill prevention and response.
---------------------------------------------------------------------------
    \8\ The NCP provisions specific to oil spill response are codified 
in 40 C.F.R. Part 300, Subpart D. As the primary response authority in 
coastal waters, the U.S. Coast Guard On-Scene Coordinator (OSC) has the 
ultimate authority to ensure that an oil spill is effectively removed 
and actions are taken to prevent further discharge from the source. The 
OSC is broadly empowered to direct and coordinate all response and 
recovery activities of Federal, state, local and private entities 
(including the responsible party), and will draw on resources available 
through the appropriate Area Contingency Plans and Regional Response 
Teams.

Key Provisions of the Oil Pollution Act for Oil Spill Response and 
---------------------------------------------------------------------------
        Cleanup

        <bullet>  Section 4202 Strengthens planning and prevention 
        activities by: (1) providing for the establishment of spill 
        contingency plans for all areas of the United States; (2) 
        mandating the development of response plans for individual tank 
        vessels and certain facilities for responding to a worst case 
        discharge or a substantial threat of such a discharge; and (3) 
        providing requirements for spill removal equipment and periodic 
        inspections.

                  The planning and prevention activities conducted 
                under this provision enables and guides the on-site 
                response to the BP Deepwater Horizon oil spill in the 
                Gulf of Mexico.

        <bullet>  Section 2761 Establishes an Interagency Coordinating 
        Committee on Oil Pollution Research (hereafter, ``Interagency 
        Committee'') to coordinate a comprehensive program of oil 
        pollution research, technology development, and demonstration 
        among the Federal agencies, in cooperation and coordination 
        with industry, universities, research institutions, state 
        governments, and other nations, as appropriate, and to foster 
        cost-effective research mechanisms, including the joint funding 
        of research. Fourteen Federal partners are named as members of 
        the Interagency Committee, and a representative of the Coast 
        Guard serves as Chairman.
    This program provides for research, development, and demonstration 
of new or improved technologies which are effective in preventing or 
mitigating oil discharges and which protect the environment, including 
oil pollution technology evaluation, oil pollution effects research, 
marine simulation research, demonstration projects, simulated 
environmental testing, and regional research programs. In carrying out 
the regional research programs, the members of the Interagency 
Committee may enter into contracts and cooperative agreements and make 
grants to universities, research institutions, and other relevant 
entities in order to address regional research and technology needs.

                  The Interagency Committee produced the first Oil 
                Pollution Research and Technology Plan in 1992 and, 
                after consulting with the National Academy of Sciences, 
                submitted a second plan in 1997. The plans identified 
                and prioritized twenty research and development program 
                areas. These areas focused on spill prevention; spill 
                response planning, training, and management; spill 
                countermeasures and cleanup; fate and transport; and 
                effects, monitoring, and restoration. The plans also 
                assigned research and development focus areas to ten 
                member agencies. The plan was last updated in 1997.

                  Despite the Interagency Committee's detailed 
                research plan, only modest technological advances have 
                been made in oil spill cleanup technology since 1990. 
                For example, the Interagency Committee reported that, 
                as late as 1997, ``most of the technology and 
                information gaps of 1990 remain,'' due to a failure to 
                appropriate sufficient funds for oil pollution 
                technology programs.\9\
---------------------------------------------------------------------------
    \9\ Interagency Coordinating Committee on Oil Pollution Research 
(1997) Oil Pollution Research and Technology Plan.

                  Of the fourteen members of the Interagency 
                Committee, NOAA, EPA, MMS, and the Coast Guard have 
                conducted the majority of oil pollution research. 
                Funding levels have been far lower than the $28 million 
---------------------------------------------------------------------------
                per year originally authorized for the program.

BP Deepwater Horizon Oil Spill

    On April 20, 2010, an explosion and fire occurred on the BP \10\ 
Deepwater Horizon drilling rig in the Gulf of Mexico. This resulted in 
the death of eleven workers, a massive oil release, and a national 
response effort in the Gulf of Mexico region by the Federal and state 
governments as well as BP.
---------------------------------------------------------------------------
    \10\ Formerly British Petroleum
---------------------------------------------------------------------------
    Estimates of the flow reveal that this spill is projected to be 
much larger than that which occurred in the Exxon Valdez spill. The 
flow rate from the damaged well head is the subject of much scientific 
debate. The Flow Rate Group led by the U.S. Geological Survey (USGS) 
recently estimated that oil is flowing out of the damaged well head at 
a rate of 12,000 to 19,000 barrels per day.\11\ To put these flow rate 
estimates into perspective, USGS's low estimate is equivalent to an oil 
spill the size of Exxon Valdez every 21 days and the high estimate is 
equivalent to an Exxon Valdez spill occurring every 13 days in the Gulf 
of Mexico. June 9, 2010 will be day 51 of the BP Deepwater Horizon oil 
spill.
---------------------------------------------------------------------------
    \11\ U.S. Geological Survey. May 27 2010. Updated June 3, 2010. 
Flow Rate Group Provides Preliminary Best Estimate of Oil Flowing from 
BP Oil Well. News Release. http://www.doi.gov/news/pressreleases/Flow-
Rate-Group-Provides-Preliminarv-Best-Estimate-Of-Oil-Flowing-from-BP-
Oil-Well.cfm# Accessed 06 June 2010.
---------------------------------------------------------------------------
    The response to the BP Deepwater Horizon oil spill is the largest 
operation of its kind in U.S. history. Vast quantities of boom and 
chemical dispersant have been mobilized and deployed, and more in situ 
burns have been conducted than ever before for a single incident. A 
disaster of this magnitude forces decision makers to evaluate the 
tradeoffs and the net long-term environmental benefits of each response 
strategy. Despite the scale of the BP Deepwater Horizon response, 
efforts to mitigate the tremendous flow of oil have had limited effect. 
Thus far, the spill has damaged natural resources in the area and 
impacted the regional economy.

Economy and Environment
    Oil spills can harm living organisms that inhabit ocean and coastal 
areas and may result in significant costs to businesses and the public. 
Coastal areas can be especially vulnerable because of oil stranding in 
wetlands and other coastal ecosystems. Oil coating, absorption, or 
ingestion can result in direct mortality and sub-lethal effects that 
reduce the fitness of regional organisms. When natural resources are 
affected by oil spills, services that benefit the public may be 
damaged.
    To date, crude oil has been washing into marshes and estuaries and 
onto beaches and affecting wildlife in states including Louisiana, 
Mississippi, Alabama, and Florida. Underwater plumes of oil have been 
confirmed by independent and Federal scientists. Wildlife has been 
killed and efforts are underway to save oil-coated birds and sea 
turtles. The most immediate economic impact of the oil spill has been 
on the Gulf fishing industry. Gulf fisheries, including seafood 
processing and related wholesale and retail businesses, support over 
200,000 jobs with related economic activity of $5.5 billion 
annually.\12\
---------------------------------------------------------------------------
    \12\ Hagerty CL and Ramseur JL. 27 May 2010. Deepwater Horizon Oil 
Spill: Selected Issues for Congress. Congressional Research Service. 
http://crs.gov/ReportPDF/R41262.pdf Accessed 07 June 2010.
---------------------------------------------------------------------------
    Chairman Baird. This hearing will now come to order. Good 
morning, and welcome to today's hearing.
    Today is the 51st day of a national tragedy that is still 
unfolding in the Gulf of Mexico. The BP Deepwater Horizon oil 
well blowout and the catastrophic explosion took the lives of 
11 men and resulted in an ongoing, massive oil spill. It 
devastated commercial fisheries and it is threatening coastal 
wetlands throughout the region.
    According to estimates by the U.S. Geological Survey, the 
BP Deepwater Horizon spill is now two to four times the size of 
the 1989 Exxon Valdez spill. It is now the largest oil spill 
ever to originate in U.S. waters, and it is growing every day.
    A little over a year ago, I had the privilege of chairing a 
hearing entitled, ``A New Direction for Federal Oil Spill 
Research and Development.'' That hearing was spurred by the 
Cosco Busan spill in San Francisco Bay in 2007 and Ms. 
Woolsey's subsequent legislation. I want to thank Ms. Woolsey 
for her leadership on that legislation and for her continued 
dedication to this important issue.
    Like most Americans, I am deeply frustrated by this. We 
have a massive, ongoing response effort with tens of thousands 
of people working in the Gulf to clean up this oil. Response 
workers are deploying boom, conducting in situ burns, skimming 
oil from the surface of the water, dispensing chemical 
dispersants, and picking up tar balls from beaches. Responders 
are working to protect the Gulf, its wetlands, beaches, 
fisheries, coral reefs and industries, and they are working to 
protect their way of life.
    Unfortunately, the response tools need improving. We are 
using essentially the same tools in the Gulf as we were using 
in 1989 in Prince William Sound, Alaska. Those tools did not 
work particularly well even then.
    In Alaskan coastal zones that were fouled by the Exxon 
Valdez spill, scientists discovered oil that has scarcely 
changed 16 years later. Beaches still ooze oil and scientists 
expect that oil to remain, perhaps even for centuries. It takes 
years to recover and clean up from oil spills.
    Exxon Valdez served as a catalyst for the passage of the 
Oil Pollution Act of 1990, also called OPA 90. This legislation 
expanded the federal government and industry's capacity for oil 
spill prevention, preparedness and response. The goal of Title 
VII of OPA 90 was to coordinate Federal research to encourage 
the development of new technologies to address oil spills. 
Despite the Interagency's detailed research plan, there have 
been modest technological advances in oil spill cleanup since 
those laws were enacted.
    Today, we will hear from our expert panel of witnesses on 
how we can fill these gaps and move forward with an effective 
response to spills, and particularly preventing spills as well. 
We have two excellent panels of witnesses who will discuss what 
is needed for an effective and coordinated Federal oil spill 
response as well as the research and technology needed for 
cleanup. I want to thank all of you for being here today. 
Because we have two panels, I will encourage my colleagues to 
be brief in their remarks opening and then in the questioning. 
We will hear in a moment from Mr. Hall, and then the Chairman 
of the Full Committee, Mr. Gordon, wants to offer comment.
    [The prepared statement of Chairman Baird follows:]

               Prepared Statement of Chairman Brian Baird

    Good morning and welcome to today's hearing.
    Today is the 51st day of a national tragedy that is still unfolding 
in the Gulf of Mexico. The BP Deepwater Horizon oil well blowout and 
catastrophic explosion took the lives of eleven men and resulted in an 
ongoing, massive oil spill. It devastated commercial fisheries and it 
is threatening coastal wetlands throughout the region.
    According to estimates by the U.S. Geological Survey, the BP 
Deepwater Horizon spill is now 2 to 4 times the size of the 1989 Exxon 
Valdez spill. This is the largest oil spill ever to originate in U.S. 
waters. And it is growing in size every day.
    A little over a year ago, I chaired a hearing entitled, ``A new 
direction for Federal oil spill research and development''. The hearing 
was spurred by the Cosco Busan spill in San Francisco Bay in 2007 and 
Ms. Woolsey's subsequent legislation. I want to thank Ms. Woolsey for 
her leadership on that legislation and for her continual dedication to 
this important issue.
    I, like most Americans, am frustrated. We have a massive ongoing 
response effort with tens of thousands of people working in the Gulf to 
clean up this oil. Response workers are deploying boom, conducting in 
situ burns, skimming oil from the surface of the water, dispensing 
chemical dispersants, and picking up tar balls from beaches. Responders 
are working to protect the Gulf, its wetlands, beaches, fisheries, and 
industries. They are working to protect our way of life.
    Unfortunately, our response tools need improving. We are using 
essentially the same tools in the Gulf as we were using in 1989 in 
Prince William Sound, Alaska. These tools did not work well then.
    In Alaskan coastal zones that were fouled by the Exxon Valdez 
spill, scientists discovered oil that has scarcely changed 16 years 
later. Beaches still ooze oil and scientists expect the oil to remain--
perhaps even for centuries. It takes years to recover and cleanup from 
oil spills.
    According to the Committee on the Marine Transportation of Heavy 
Oils, most oil spills experience a 10 to 15 percent rate of recovery. 
More research and development is necessary to reach acceptable levels 
of mitigation.
    Oil spills occur every day in America. We need a better 
understanding of how oil spills affect the environment and we need 
better tools to clean them up. There is a big need here for targeted 
scientific research, development and technology.
    Exxon Valdez served as a catalyst for the passage of the Oil 
Pollution Act of 1990 (OPA 90). This legislation expanded the Federal 
Government and industry's capacity for oil spill prevention, 
preparedness, and response. The goal of Title VII of OPA 90 was to 
coordinate Federal research to encourage the development of new 
technologies to address oil spills. Despite the Interagency Committee's 
detailed research plan, there have been modest technological advances 
in oil spill cleanup technology since the law was enacted.
    In 2007 the Cosco Busan spill highlighted our need for better oil 
spill response tools. And today, the BP Deepwater Horizon spill 
highlights the research and technology needs of oil spill cleanup 
again.
    The purpose of this hearing is to focus on how to better prepare 
ourselves for these incidents through scientific research and better 
Federal coordination.
    However, we face new challenges that require resources and our 
brightest minds to push the envelope of research and technology 
development. We face a future of oil exploration and transport at 
depths and in regions never before imagined. Spills will happen and we 
need proper tools to respond--to protect our economy, our environment, 
and our way of life. It is undeniable that the United States needs a 
more robust research and development strategy to reduce the 
environmental and economic impacts of oil spills.
    I think that I speak for us all when I say that watching the BP 
Deepwater Horizon oil spill on TV and in the paper is frustrating and 
discouraging. The challenges before us are great. And the time to act 
is now.
    Today we will hear from our expert panels of witnesses on how we 
can fill these gaps and move forward with an effective response to oil 
spills.
    We have two excellent panels of witnesses who will discuss what is 
needed for an effective and coordinated Federal oil spill response as 
well as the research and technology needs for oil spill cleanup.
    I thank all of you for being here with us today and now I recognize 
our Ranking Member, Mr. Inglis, for his opening statement.

    Chairman Baird. With that, I recognize Mr. Hall for five 
minutes.
    Mr. Hall. Mr. Chairman, I thank you, of course, for holding 
this hearing, and in the seven weeks since the April 20th 
explosion took the lives of 11 people in the rig Deepwater 
Horizon, our nation is still searching for answers on the 
causes of the explosion and is frustrated by the lack of 
progress in fully plugging the well and cleaning up the spill.
    I would like to first offer my condolences to the families 
of those lost in this horrible incident. Second, it is worth 
noting that BP is ultimately responsible for this oil spill, 
they are responsible for repairing the damaged well, and as the 
owner of the mineral rights to drill for oil in the Mississippi 
Canyon Block 252, BP is also accountable for the cleanup costs. 
To date, BP has paid out almost $49 million in claims and will 
be paying millions more moving forward.
    There have been suggestions that the Federal Government 
should play a more prominent role in this disaster such as 
taking over the process of capping the well. While I am 
frustrated with the lack of progress in efforts to contain the 
spill, I am still not sure the government has any more 
expertise in this area than the oil company. From the beginning 
of any incident, the company responsible should be responsible 
for fixing their equipment and working with the appropriate 
authorities to clean up the damage caused by it. After they 
correct their loss, then the Federal Government should bill 
them for the loss they caused.
    There are many in this Administration who argue that we 
should end offshore drilling altogether. This proposal of 
course will not solve the problem of oil spills and it only 
serves to shift drilling to other countries along with 
thousands of U.S. jobs. Rather, it is far more productive for 
the Federal Government to advance research and development to 
help industry not only drill responsibly but also more 
effectively clean the water and land after spills. The Outer 
Continental Shelf, the OCS, is one of the Nation's greatest 
resources for energy. The volume of oil coming up from the sea 
floor illustrates that this country still has valuable domestic 
resources as long as we have the technological feasibility to 
tap into them in a responsible manner.
    I have long believed that the OCS must be a part of our 
national energy policy, which is why I have been a supporter of 
oil and gas development in deepwater environments. My primary 
goal in advancing the Ultra Deepwater and Unconventional 
Resource program into law is to encourage the development of 
technologies required to reach these vast resources in a way 
that prevents the loss of life and economic and environmental 
damage we have witnessed in the last couple of months. It is 
much more desirable to prevent a spill than to deal with the 
aftermath of one.
    Beyond research into better drilling technology, we should 
also invest in research to ensure that we have the state-of-
the-art tools to clean up the damage from a spill as quickly as 
possible, and it is very clear from the current response that 
the resources being employed, containment booms, dispersants 
and in situ burns are decades-old technologies. While there 
have been many improvements in these technologies since their 
inception, limitations still exist. There have been thousands 
of suggestions and proposals given to BP and the Federal 
Government on how to clean up this spill. Of those thousands, 
are any worth deploying would have to be a question I would 
have to ask. Are these new technologies there that can be used 
for this spill? If so, why are the agencies involved in 
cleaning up oil spills not aware that they exist? What 
technologies have been developed from the millions of dollars 
these Federal agencies have spent in research in development in 
the last 20 years? How do we know what research needs exist if 
we do not even know what technology is already out there? I 
hope some of our panelists will be able to answer these 
questions.
    Mr. Chairman, thank you. I yield back.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Mr. Chairman, thank you for holding this hearing today. In the 
seven weeks since the April 20th explosion took the lives of 11 people 
on the rig Deepwater Horizon, our nation is still searching for answers 
on the causes of the explosion and is frustrated by the lack of 
progress in fully plugging the well and cleaning up the spill. I would 
like to first offer my condolences to the families of those lost in 
this horrible incident.
    Second, it is worth noting that BP is ultimately responsible for 
this oil spill. They are responsible for repairing the damaged well, 
and as the owner of the mineral rights to drill for oil in the 
Mississippi Canyon Block 252, BP is also accountable for the clean up 
costs. To date, BP has paid out almost $49 million in claims and will 
be paying millions more moving forward. There have been suggestions 
that the Federal Government should play a more prominent role in this 
disaster, such as taking over the process of capping the well. While I 
am frustrated with the lack of progress in efforts to contain this 
spill, I am not sure the government has any more expertise in this area 
than the oil company. From the beginning of any incident, the company 
responsible should be responsible for fixing their equipment and 
working with the appropriate authorities to clean up the damage caused 
by it.
    There are many in this Administration who argue that we should end 
offshore drilling altogether. This proposal, of course, will not solve 
the problem of oil spills, as it only serves to shift drilling to other 
countries along with thousands of U.S. jobs. Rather, it is far more 
productive for the Federal Government to advance research and 
development to help industry not only drill responsibly, but also more 
effectively clean the water and land after spills. The Outer 
Continental Shelf, or OCS, is one of the nation's greatest resources 
for energy. The volume of oil coming up from the sea floor illustrates 
that this country still has valuable, domestic resources as long as we 
have the technological feasibility to tap into them in a responsible 
manner. I have long believed that the OCS must be a part of our 
national energy policy, which is why I have been a supporter of oil and 
gas development in deepwater environments. My primary goal in advancing 
the Ultra-deepwater and Unconventional Resource program into law is to 
encourage the development of technologies required to reach these vast 
reserves in a way that prevents the loss of life and economic and 
environmental damage we have witnessed in the last couple of months. It 
is much more desirable to prevent a spill than to deal with the 
aftermath of one.
    Beyond research into better drilling technologies, we should also 
invest in research to ensure that we have state of the art tools to 
clean up the damage from a spill as quickly as possible. It is clear 
from the current response that the resources being employed--
containment booms, dispersants, in-situ burns--are decades-old 
technologies. While there have been many improvements in these 
technologies since their inception, limitations still exist.
    There have been thousands of suggestions and proposals given to BP 
and the Federal Government on how to clean up this spill. Of those 
thousands, are any worth deploying? Are there new technologies that can 
be used for this spill? If so, why are the agencies involved in 
cleaning up oil spills not aware that they exist? What technologies 
have been developed from the millions of dollars these Federal agencies 
have spent on research and development in the last 20 years? How do we 
know what research needs exist if we do not even know what technologies 
are already out there? I hope some of our panelists will be able to 
answer these questions.

    Chairman Baird. Thank you, Mr. Hall.
    I would like to recognize the chairman of the Full 
Committee, Mr. Gordon from Tennessee.
    Chairman Gordon. First, Chairman Baird, let me thank you 
for holding this important hearing. I know Mr. Hall has had an 
interest in this for a long time, but Ms. Woolsey really was 
the one that had foresight and she brought forth a bill last 
year which has come out of your Subcommittee and I think will 
be a good base for us to build upon to try to get action here.
    Tragically, as we all know, 11 lives were lost on April 
20th, and the livelihoods of many along the Gulf Coast will be 
affected for years to come by the oil that continues to flow 51 
days later.
    To date, there have been 13 Congressional hearings on the 
spill. However, this Committee is the first to look at the 
scientific and technological tools we need to effectively 
remove the oil from the water and clean up our ocean, marshes, 
and shorelines.
    Furthermore, I expect that the Committee will hold a 
similar hearing on the science and technology needs for spill 
prevention and mitigation at the wellhead.
    The BP Deepwater Horizon oil spill is an unprecedented 
tragedy, but oil spills happen in this country and around the 
world every day. We must push the envelope of research and 
technology to learn how to better respond to these incidents. 
The lack of an effective response to this spill highlights the 
need for a more reliable and standardized approach to response 
and remediation. We need to eliminate the guesswork, and go 
into spills knowing which tools are most effective in certain 
conditions.
    For example, a Norwegian company has made innovative 
strides in oil boom technology. If there are standards and 
technologies we can learn from other countries, or from our own 
university and industry scientists, we need to leverage them. 
We need to tap every resource of knowledge available to us.
    I understand it takes time and resources to research and 
develop new technologies and I am glad that we have two panels 
of experts to help us begin this conversation today. Thank you 
all for being here, and I yield back the balance of my time.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    Good morning. I want to thank the Energy and Environment 
Subcommittee for holding such an important hearing this morning.
    Tragically, eleven lives were lost on April 20th, and the 
livelihoods of many along the Gulf coast will be affected for years to 
come by the oil that continues to flow now 51 days later.
    To date, there have been 13 Congressional hearings on this spill. 
However, this Committee is the first to look at the scientific and 
technological tools we need to effectively remove the oil from the 
water and cleanup our ocean, marshes, and shorelines.
    Furthermore, I expect that the Committee will hold a similar 
hearing on the science and technology needs for spill prevention and 
mitigation at the wellhead.
    The BP Deepwater Horizon oil spill is an unprecedented tragedy, but 
oil spills happen in this country and around the world everyday. We 
must push the envelope of research and technology to learn how to 
better respond to these incidents.
    The lack of an effective response to this spill highlights the need 
for a more reliable and standardized approach to response and 
remediation. We need to eliminate the guesswork, and go into spills 
knowing which tools are most effective in certain conditions.
    For example, a Norwegian company has made innovative strides in oil 
boom technology. If there are standards and technologies we can learn 
from other countries, or from our own university and industry 
scientists, we need to leverage it. We need to tap every resource of 
knowledge available to us.
    I understand it takes time and resources to research and develop 
new technologies and I am glad that we have two panels of experts to 
help us begin this conversation today.
    Thank you all for being here and I look forward to your testimony.

    Chairman Baird. Thank you, Chairman Gordon.
    I want to also extend my respect and appreciation for Ms. 
Woolsey, who was certainly prescient in her legislation of last 
year and we hope that perhaps we can move that along with some 
other bills later on.
    If there are other Members who wish to submit opening 
statements, those statements will be added to the record at 
this point.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
to discuss research and technology needs for recovery and cleanup of 
oil spills, such as the Deepwater Horizon disaster in the Gulf of 
Mexico.
    The explosion of the Deepwater Horizon oil rig in April 2010 has 
resulted in the largest oil spill in U.S. history and an environmental 
and economic disaster for the Gulf Coast region. While British 
Petroleum (BP) appears to have captured some of the oil gushing from 
the broken well, we are still faced with a massive spill that may harm 
ecosystems and economies all along the Eastern Seaboard. We must 
examine the circumstances surrounding the explosion of the Deepwater 
Horizon rig and the response of BP and the Federal Government to this 
disaster. In addition, we must look at the technology available to 
address oil spills today and how research and development can improve 
our ability to respond to disasters like this in the future.
    I am interested in how the Federal Government and the private 
sector can work together to develop technologies necessary to increase 
our speed in responding to oil spill disasters. BP took six weeks to 
secure the containment cap onto the spilling well, allowing millions of 
gallons of oil to fill the Gulf and contaminate beaches. Even with the 
cap in place, oil continues to leak and will likely not stop until 
relief wells are drilled within the next two months. Even when the leak 
stops, oil will continue to spread and harm the shoreline. We must 
improve the technology available to address the spills and the speed 
with which companies can access and utilize that technology to address 
the leak, contain the spread of oil, and clean contaminated areas.
    Further, it is imperative that the Federal Government and private 
industry inspect and test new technology before deploying it in deep 
water. Under the Bush administration, there were no requirements for 
companies to test and certify equipment and technology before beginning 
to drill. The blowout preventer on Deepwater passed through several 
international companies and was never tested at 5,000 feet before it 
was put in use in the Gulf. Both BP and Transocean had no experience 
with a failure of these dimensions at this depth and no idea how to 
address the leak. As we work to develop technology to prevent leaks and 
improve clean-up, we must test and demonstrate new products to 
understand what can go wrong and how to fix problems before they become 
disasters on the scale of Deepwater.
    I welcome our panel of witnesses and I look forward to their 
testimony.

    I will inform my colleagues and the witnesses that it is 
our goal with two panels to try to finish with this panel at 
about 11:30, so I will ask my colleagues to keep their 
questions short. I will be strict with the five minute time 
frame, and that will give us ample time for both panels. We 
could obviously go on all day, I am sure, on this important 
topic.

                                Panel I:

    With that, it is my pleasure to introduce our first panel 
of witnesses. Mr. Douglas Helton is the Incident Response 
Operations Coordinator for the Office of Response and 
Restoration within the National Ocean Service at NOAA. Captain 
Anthony Lloyd is the Chief, Office of Incident Management and 
Preparedness for the U.S. Coast Guard. Ms. Sharon Buffington is 
Chief of the Engineering and Research Branch for Offshore 
Energy and Minerals Management Program at the Minerals 
Management Service, and Dr. Albert Venosa is the Director of 
the Land Remediation and Pollution Control Division of the 
National Risk Management Research Laboratory within the Office 
of Research and Development at EPA.
    As our witnesses know, we will have five minutes for spoken 
testimony followed by questions alternating between both sides 
of the aisle.
    Mr. Helton, please begin.

STATEMENTS OF DOUGLAS HELTON, INCIDENT OPERATIONS COORDINATOR, 
  OFFICE OF RESPONSE AND RESTORATION, NATIONAL OCEAN SERVICE, 
     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA)

    Mr. Helton. Thank you, Mr. Chairman and Members of the 
Subcommittee, for the opportunity to testify about NOAA's role 
in response to the Deepwater Horizon oil spill.
    My name is Doug Helton. I am the Incident Operations 
Coordinator for NOAA's Office of Response and Restoration. 
During spills, I help to manage emergency response efforts, 
focusing on NOAA's role as the primary scientific advisor to 
the U.S. Coast Guard.
    This event started with the tragic loss of the 11 crew 
members. Like the rest of the public, I am saddened by those 
events and frustrated as the spill continues to spread and 
disrupt communities and resources across the Gulf region.
    I came before this Committee almost a year ago today to 
talk about the risks of oil spills and oil spill research 
needs. As you mentioned, that hearing was prompted by the 
spills in San Francisco and also New Orleans. Those relatively 
modest spills caused concerns about the adequacy of response 
technologies. Now with this spill, we are faced with an 
incident that ultimately may prove to be thousands of times 
larger in terms of volume, impacts as well as the social and 
economic impacts. But all of the research priorities I 
mentioned last year in my testimony are still valid today, 
including questions about dispersant usage, modeling of 
deepwater releases and addressing the social and human 
dimensions of oil spills.
    NOAA has responded to thousands of oil spills and has a 
long history of making science-based decisions. My office was 
called over 200 times last year to provide emergency support. 
We have three primary roles during spills. We serve as a 
science advisor to the Coast Guard and we provide trajectory 
analyses and overflights. We identify sensitive areas and we 
conduct shoreline surveys to guide cleanups. We also conduct 
damage assessments to restore natural resources injured by the 
spill. And finally, we represent the Department of Commerce in 
spill response decision making through the national response 
team.
    My office was notified of the fire onboard the Deepwater 
Horizon at 2:24 a.m. on April 21st. Two hours later, we issued 
our first oil spill forecast. Since then, we have issued more 
than 260 of those forecasts, surveyed hundreds of miles of 
shorelines, flown hundreds of overflights to track the oil. All 
of my division staff, including all 11 of our regional 
scientific support coordinators, are working on the spill, and 
we have even recalled retired personnel to assist.
    In addition to my program, hundreds of additional NOAA 
personnel are working on ships, aircrafts and shorelines and 
command posts across the region to help with the spill. I don't 
have time to list all the things that NOAA is doing but those 
include the weather and satellite data to track the spill and 
to support planning. We are working on the sea turtle and 
marine mammal strandings. We are collecting and analyzing fish 
and shellfish for seafood safety. We are piloting the ships and 
aircraft that are being used to track the surface and 
subsurface oil.
    I would like to talk for a minute about additional research 
needs. The public has very high expectations for prompt and 
effective cleanup, and responders must be equipped with the 
appropriate tools to meet those expectations. A robust research 
and development program can improve how we respond, and 
Congress recognized that need when they passed the Oil 
Pollution Act of 1990, but the R&D envisioned under OPA has not 
been achieved. With fewer large spills and competing national 
priorities, there has been a decline in oil spill research in 
both the public and private sector.
    NOAA's most significant efforts in this oil spill research 
works through a partnership with the University of New 
Hampshire, and Dr. Kinner in the second panel will talk about 
those benefits, but they include many of the things that are 
issues here, including issues of dispersants and deepwater well 
blowouts.
    While that research has been beneficial, more work is 
needed as the Deepwater Horizon spill demonstrates a need to 
understand how oil behaves and moves and disperses in the water 
column. There is a need for understanding oil and dispersant 
interactions with marine life and habitats, and there is a need 
for understanding the long-term effects of oil spills.
    Finally, the human dimensions of how we can better help the 
communities that are affected by spills is a key aspect of 
research.
    So in conclusion, the Deepwater Horizon will affect the 
Gulf region for years to come. We are not going to be able to 
prevent the impacts but we can use science to help improve our 
response decisions. And when spills happen, there is a rush of 
science, but quality research takes time as well as continued 
and sustained resources. While we are working with all haste, 
it is important to ensure that that science is accurate and we 
must continue this work between spills so we can develop the 
tools and understanding before, rather than during, the next 
big spill.
    So I would like to conclude there, and thank you for 
allowing me to testify, and I would be happy to answer any 
questions.
    [The prepared statement of Mr. Helton follows:]

                  Prepared Statement of Douglas Helton

    Thank you, Chairman Baird and Members of the Committee, for the 
opportunity to testify on the Department of Commerce's National Oceanic 
and Atmospheric Administration's (NOAA's) role in the response to the 
Deepwater Horizon oil spill and NOAA's role in oil spill research and 
development.
    My name is Doug Helton and I am the Incident Operations Coordinator 
for the Emergency Response Division in NOAA's Office of Response and 
Restoration (OR&R). I appreciate the opportunity to discuss the 
critical roles NOAA serves during oil spills and the importance of our 
contributions to protect and restore the resources, communities, and 
economies affected by this tragic event. Before I move on to discuss 
NOAA's efforts, I would first like to express my condolences to the 
families of the 11 people who lost their lives in the explosion and 
sinking of the Deepwater Horizon platform.
    NOAA's mission is to understand and predict changes in the Earth's 
environment and conserve and manage coastal and marine resources to 
meet our Nation's economic, social, and environmental needs. NOAA is 
also a natural resource trustee and is one of the Federal agencies 
responsible for protecting, assessing, and restoring the public's 
coastal natural resources when they are impacted by oil spills, 
hazardous substance releases, and impacts from vessel groundings on 
corals and seagrass beds. As such, the entire agency is deeply 
concerned about the immediate and long-term environmental, economic, 
and social impacts to the Gulf Coast and the Nation as a whole from 
this spill. NOAA is fully mobilized and working tirelessly to lessen 
impacts on the Gulf Coast and will continue to do so until the spill is 
controlled, oil is cleaned up, natural resource injuries are assessed, 
and restoration is complete.
    My testimony today will discuss NOAA's role in the Deepwater 
Horizon response and natural resource damage assessment process 
associated with the Deepwater Horizon oil spill, for which BP is a 
responsible party; NOAA's role in oil spill research; and opportunities 
to strengthen the Federal response to future events through research 
and development.

NOAA'S ROLES DURING OIL SPILLS

    NOAA has three critical roles mandated by the Oil Pollution Act of 
1990 and the National Contingency Plan:

        1.  During the emergency response, NOAA serves as a conduit for 
        scientific information to the Federal On-Scene Coordinator. 
        NOAA provides trajectory predictions for spilled oil, conducts 
        overflight observations of oil on water, identifies highly 
        valued or sensitive environmental areas, and conducts shoreline 
        surveys to determine clean-up priorities.

        2.  As a natural resource trustee, NOAA conducts a joint 
        Natural Resource Damage Assessment (NRDA) with co-trustees to 
        assess and restore natural resources injured by the oil spill. 
        NRDA also assesses the lost uses of those resources, such as 
        recreational fishing, canoeing, and swimming, with the goal of 
        implementing restoration projects to address these injuries.

        3.  Finally, NOAA represents the Department of Commerce in 
        spill response decisionmaking activities through the National 
        Response Team.

Response
    The U.S. Coast Guard (USCG) is the Federal On-Scene Coordinator and 
has the primary responsibility for managing coastal oil spill response 
and clean-up activities in the coastal zone. During an oil spill, 
NOAA's Scientific Support Coordinators deliver technical and scientific 
support to the USCG. NOAA's Scientific Support Coordinators are located 
around the country in USCG Districts, ready to respond around the clock 
to any emergencies involving the release of oil or hazardous substances 
into the oceans or atmosphere. Currently, NOAA has all of its 
Scientific Support Coordinators located throughout the country working 
on the Deepwater Horizon oil spill.
    With over twenty years of experience and using state-of-the-art 
technology, NOAA continues to serve the Nation by providing its 
expertise and a suite of products and services critical for making 
science-based decisions. Examples include trajectory forecasts on the 
movement and behavior of spilled oil, overflight observations, spot 
weather forecasts, emergency coastal survey and charting capabilities, 
aerial and satellite imagery, and real-time coastal ocean observation 
data. Federal, state, and local entities look to NOAA for assistance, 
experience, local perspective, and scientific knowledge. NOAA's Office 
of Response and Restoration (OR&R) was called upon for scientific 
support 200 times in 2009.

Natural Resource Damage Assessment
    Stewardship of the Nation's natural resources is shared among 
several Federal agencies, states, and tribal trustees. NOAA, acting on 
behalf of the Secretary of Commerce, is the lead Federal trustee for 
many of the Nation's coastal and marine resources, and is authorized by 
the Oil Pollution Act of 1990 (OPA) to recover damages on behalf of the 
public for injuries to trust resources resulting from an oil spill. OPA 
encourages compensation in the form of restoration of the injured 
resources, and appropriate compensation is determined through the NRDA 
process.
    Since the enactment of OPA, NOAA, together with other Federal, 
state, and tribal co-trustees have recovered approximately $500 million 
worth for restoration of natural resources injured by oil, hazardous 
substances and vessel groundings.

National Response Team
    The National Oil and Hazardous Substances Pollution Contingency 
Plan, more commonly called the National Contingency Plan, is the 
Federal Government's blueprint for responding to both oil spills and 
hazardous substance releases. The purpose of the National Contingency 
Plan is to develop a national response capability and promote overall 
coordination among the hierarchy of responders and contingency plans. 
NOAA represents the Department of Commerce on the National Response 
Team and works closely with regional response teams and local area 
committees to develop policies on dispersant use, best clean-up 
practices and communications, and to ensure access to science-related 
resources, data, and expertise.

NOAA'S RESPONSE AND DAMAGE ASSESSMENT EFFORTS

    NOAA's experts have been assisting with the response to the 
Deepwater Horizon oil spill from the beginning, providing coordinated 
scientific services when and where they are needed most.
    At 2:24am (central time) on April 21, 2010, NOAA's OR&R was 
notified by the USCG of an explosion and fire on the Mobile Offshore 
Drilling Unit Deepwater Horizon, approximately 50 miles southeast of 
the Mississippi Delta. The explosion occurred at approximately 10:00pm 
on April 20, 2010. Two hours, 17 minutes after notification by the 
USCG, NOAA provided our first spill forecast predictions to the Unified 
Command in Robert, Louisiana. NOAA's National Weather Service Weather 
Forecast Office in Slidell, LA received the first request for weather 
support information from the USCG at 9:10am on April, 21, 2010 via 
telephone. The first graphical weather forecast was sent at 10:59am to 
the USCG District Eight Command Center in New Orleans.
    Support from NOAA has not stopped since those first requests for 
information by the USCG. Over the past 7 weeks, NOAA has provided 
scientific support, both on-scene and through our headquarters and 
regional offices. NOAA's support includes twice daily trajectories of 
the spilled oil, weather data to support short and long range 
forecasts, and hourly localized `spot' forecasts to determine the use 
of weather dependent mitigation techniques such as oil burns and 
chemical dispersant applications. We develop custom navigation products 
and updated charts to help keep mariners out of oil areas. NOAA uses 
satellite imagery and real-time observational data on the tides and 
currents to predict and verify oil spill location and movement. To 
ensure the safety of fishermen and consumer seafood safety, NOAA 
scientists are in the spill area taking water and seafood samples. In 
addition, NOAA's marine animal health experts are providing expertise 
and assistance with stranded sea turtles and marine mammals.
    To facilitate on-the-ground understanding of the spill's impacts, 
NOAA is awarding grants for rapid response projects to monitor the 
impacts of the oil spill on Louisiana's coastal marshes and fishery 
species through the Sea Grant Program. To support the local communities 
as they deal with the economic, social, and environmental impacts of 
the spill, the Gulf Coast Sea Grant Programs are hosting a series of 
open forums across the Gulf where citizens have the opportunity to 
interact with industry, government, and university representatives. 
NOAA-organized volunteer beach clean-ups to remove debris from state 
beaches are helping to facilitate the cleanup of oil along the 
shoreline.
    With multiple agencies supporting a diverse array of research 
projects in response to the Deepwater Horizon oil spill in the Gulf of 
Mexico, it is important to coordinate research activities to ensure the 
best use of limited resources. NOAA's Gulf Coast Sea Grant Programs are 
developing a web site to serve as a central database listing ongoing 
research activities and identifying funding opportunities for oil-spill 
related research, whether conducted by government, academic, or 
privately-supported scientists. The website's intent is to provide a 
single, comprehensive view of research activities in the Gulf that are 
being undertaken in connection with the Deepwater Horizon oil spill and 
to foster coordination of these efforts.
    At the onset of this oil spill, NOAA quickly mobilized staff from 
its Damage Assessment Remediation and Restoration Program to begin 
coordinating with Federal and state co-trustees and the responsible 
parties to collect a variety of data that are critical to help inform 
the NRDA. NOAA is coordinating the NRDA effort with the Department of 
the Interior (another Federal co-trustee), as well as co-trustees in 
five states and representatives for at least one responsible party, BP.
    While it is still too early in the process to know what the full 
scope of the damage assessment will be, NOAA and co-trustees continue 
to collect data in the Gulf and across the five states. This data will 
be used to determine what natural resources have been injured and what 
human uses have been lost due to the spill. Several technical working 
groups comprising NOAA, Federal and state co-trustees, and 
representatives from one responsible party (BP) are gathering existing 
scientific information and developing and implementing baseline (pre-
spill) and postimpact field studies for multiple resource categories. 
Hundreds of miles of coastal shoreline were surveyed by air and samples 
were taken to determine baseline levels prior to the oil hitting land, 
to identify where the oil has made landfall to support clean-up 
activities. Resources being assessed include fish and shellfish, 
bottom-dwelling plant and animal life, birds, marine mammals, turtles, 
and sensitive habitats such as wetlands, submerged aquatic vegetation 
or seagrasses, beaches, mudflats, bottom sediments, deep and shallow 
corals, chemosynthetic organisms, and the water column. Some of these 
resources may be included within National Estuarine Research Reserves 
and National Marine Sanctuaries. In addition, NOAA and co-trustee field 
teams are determining how human uses, including cultural uses, and 
natural resource services are being impacted.
    Needless to say, for both the response and the NRDA, offices 
throughout NOAA are mobilized and hundreds of NOAA personnel are 
dedicating themselves to assist with this unprecedented effort.

OPPORTUNITIES TO STRENGTHEN FEDERAL RESPONSE THROUGH RESEARCH AND 
                    DEVELOPMENT

    When passed in 1990, OPA envisioned a robust oil spill research and 
development program coordinated by the Interagency Coordinating 
Committee (ICC) on Oil Pollution Research. OPA recognized the need for 
research and created the ICC to coordinate and direct a dedicated 
program on oil pollution research, technology development, and 
demonstration among industry, universities, research institutions and 
Federal agencies, state governments and other nations, if appropriate. 
To date, funding has been provided through various state and Federal 
agencies and industry for oil pollution research. While coordinated 
interagency research activities are occurring, important research 
questions remain.
    Achievement of the comprehensive and collaborative research and 
development program envisioned by OPA can only increase the 
effectiveness of our Nation's oil spill response and restoration 
capabilities. While existing research has resulted in advancement of 
some research technologies, more must be done to strengthen our 
Nation's response capabilities. A renewed commitment of the ICC to 
focus on the most pressing research needs--particularly deepwater 
releases and releases in cold/icy waters--is one place to start. The 
Administration is committed to this effort.

NOAA'S OIL SPILL RESEARCH EFFORTS

    Strong science is critical to effective decision-making to minimize 
the economic impacts and mitigate the effects of oil spills on coastal 
and marine resources and associated communities.
    OPA grants NOAA the authority to carry out research and 
development. NOAA's most significant effort in oil spill research was 
in 2004-2007 through a partnership with the University of New 
Hampshire's Coastal Response Research Center. Research at the Coastal 
Response Research Center focused on spill preparedness, response, 
assessment, and implementation of optimum oil recovery strategies. The 
partnership brought together the resources of a research-oriented 
university and the field expertise of NOAA's OR&R. In addition, through 
the Coastal Response Research Center, NOAA worked with partners to 
address other pressing research areas including the behavior of 
submerged oil, human dimensions of spills, assessment and restoration 
of ecosystem services, environmental tradeoffs, integrated modeling, 
and methods associated with in-situ burning approaches in coastal 
marshes to minimize further injury to resources. Other NOAA partners 
have supported more limited spill response research using NOAA funds, 
including the Cooperative Institute for Coastal and Estuarine 
Environmental Technology at the University of New Hampshire, and some 
Sea Grant partners. For example, Louisiana Sea Grant funded a research 
project to study the effectiveness of oil remediation techniques in a 
brackish intertidal marsh after Hurricane Katrina.

ACTIVITIES TO IMPROVE FUTURE RESPONSE AND RESOURCE ASSESSMENT EFFORTS

    The Deepwater Horizon oil spill is a grave reminder that spills of 
national significance can occur despite the many safeguards and 
improvements that have been put into place since the passage of OPA. 
Although the best option is to prevent oil spills, the risk of oil 
spills remains a concern given the offshore and onshore oil 
infrastructure, pipes, and vessels that move huge volumes of oil 
through our waterways. If a spill does occur, responders must be 
equipped with the appropriate tools and information. An effective 
response, based on solid science and smart decision-making reduces 
environmental and socioeconomic impacts, as well as clean-up costs. 
Research and development and technological innovation by the public or 
private sector in the following areas would greatly enhance the tools 
and technologies available in the event of a spill.

        <bullet>  Oil Fate and Behavior from Deepwater Releases
           Our ability to know where the oil is located is limited by 
        what we can see and detect. As the Deepwater Horizon oil spill 
        is demonstrating, there is a need to understand how oil behaves 
        and disperses within the water column when released at deep 
        depths. The emerging advancement in modeling three 
        dimensionally can greatly enhance response operations and 
        mitigation efficacy. NOAA's surface trajectory models predict 
        where the oil on the surface is going based upon wind, 
        currents, and other processes, and visual overflights validate 
        where it is now. NOAA is currently employing facets of deep 
        water oil spill models that were developed in part from the 
        findings of the MMS DeepSpill Joint Industry Research Project 
        done in 1999-2000 with international participation. However, we 
        still understand little about the movement of oil deep in the 
        ocean or the movement of dispersed oil that is suspended in the 
        water column. The enhancement of three dimensional models will 
        improve our ability to predict the movement of oil at depth and 
        allow us to direct precious resources to validate the model's 
        trajectory. Currently, NOAA is working to implement FY 2010 
        funds to enhance three dimensional models.

        <bullet>  Technology for Oil Detection in the Water Column and 
        on the Seafloor
           Research on new technologies for rapid and accurate 
        detection of oil in deep water and plumes in the mid-water is 
        needed. This would include the development of technologies to 
        enhance our understanding of the fate and transport of oil, and 
        to better understand the effects of oil on mid-water and deep 
        water benthic habitat. There also appears to be some utility in 
        applying existing technologies in a new and unique way to reach 
        these same goals. For example, in limited research 
        applications, modern multibeam echo sounders have been able to 
        detect oil in the water column and on the seafloor. In 
        addition, sensors on autonomous underwater vehicles and gliders 
        are capable of detecting the presence of oil and gas in the 
        water column. Whether provided by new technologies, or through 
        re-examining the capabilities of current technologies, highly 
        accurate information on the precise location of spilled oil 
        would be of significant benefit to a spill response, such as 
        Deepwater Horizon oil spill. Timely understanding of the 
        precise location of the spilled oil would allow responders to 
        position their activities and better utilize limited resources 
        to maximize our contributions to protect and restore the 
        resources, communities, and economies affected by these tragic 
        events.

        <bullet>  Surface Observations and Trajectory Models
           Real-time data on currents, tides, and winds as well as 
        sustained observations of physical and chemical parameters of 
        the whole water column are important in driving the models that 
        inform the trajectory forecast for the spilled oil. As the 
        Integrated Ocean Observing System generates more data from 
        technological advances like high frequency radar, the 
        prediction of oil location can be improved by pulling these 
        observations into trajectory models in real-time. Through the 
        collaborative efforts of the U.S. Integrated Ocean Observing 
        System (IOOS), two of the three radars along the northern Gulf 
        of Mexico coast were quickly re-established and made 
        operational and now all three are delivering surface current 
        data. Because we cannot predict where a spill will occur, data 
        delivery from high frequency radars is envisioned to be part of 
        a seamless national system.
           Data collected by space-based synthetic aperture radar can 
        be used to produce high resolution images of the Earth's lands 
        and oceans and can also be used in all types of weather, as it 
        can ``see through'' clouds and darkness. Current use of NOAA-
        generated experimental products suggest that data from space-
        based synthetic aperture radar can assist in detecting and 
        refining the areal extent of oil, which would provide valuable 
        information to help determine where response efforts and 
        resources should be deployed.
           Current hydrographic surveys carry out sustained 
        observations of the whole water column in the Gulf of Mexico, 
        Florida Bay, Florida Keys, and will be extended if the oil or 
        dispersant spread through the Strait of Florida and into the 
        Gulf Stream. These surveys, along with satellite observations 
        and numerical models, allow monitoring of currents and features 
        responsible for the transport of oil and dispersant. A 
        sustained observing system for this region would allow NOAA to 
        provide predictive information about how the spill may impact 
        the East Coast of the United States.

        <bullet>  Long-Term Effects on Species and Habitats
           Spilled oil can remain in the sediments along the shoreline 
        and in wetlands and other environments for years. More than 20 
        years later, there are still toxic levels of sub-surface oil in 
        Prince William Sound from the Exxon Valdez spill. Research is 
        needed to improve our understanding of the long-term effects of 
        oil on sensitive and economically important species and 
        habitats. Continued research is also needed to determine the 
        effects of oil and dispersants that are suspended in the water 
        column on mid-water and pelagic species, as well as research on 
        the effects of oil on deep water corals, chemosynthetic 
        communities (animal communities living in the deep sea on 
        dissolved gases and benthic habitats) and benthic habitats. 
        Important interagency studies are currently underway which will 
        provide valuable information on the sensitivity and/or 
        resilience of these deepwater communities and can inform 
        response actions.

        <bullet>  Data Management Tools for Decision Making
           The key to effective emergency response is efficiently 
        integrating current science, information technology, and real-
        time observational data into response decision-making. NOAA has 
        developed the Emergency Response Management Application (ERMA), 
        a web-based information management application, to facilitate 
        preparedness, response, and restoration decision-making for oil 
        spills and for other coastal hazards. ERMA integrates real-time 
        observations (e.g., NOAA National Buoy Data Center data, 
        weather data, shoreline data, vessel traffic information, etc.) 
        with archived data sources (e.g., NOAA's National Oceanographic 
        Data Center's historical data) in an easy to use, Google-based 
        format to aid in evaluating resources at risk, visualizing oil 
        trajectories, and planning rapid tactical response operations, 
        injury assessment and habitat restoration. Having access to 
        retrospective data is critical to bring value to real-time 
        observational data being collected.
           NOAA is currently using certain components of the Gulf of 
        Mexico ERMA for the Deepwater Horizon oil spill response to 
        help manage the common operational picture for all command 
        posts. While still under development, when the Gulf of Mexico 
        ERMA is fully operational it will provide a more dynamic and 
        automated tool allowing for greater access, and provide more 
        layers of data and high resolution photography. ERMAs allow 
        users to navigate through different layers of information to 
        reveal actual data and magnify areas of geographic interest--
        ultimately improving decision-making. For example, ERMA could 
        provide a picture of diverse shoreline development (e.g., 
        industry, residential, protected habitats, tourist/ 
        recreational use), information on routine shipments of oil and 
        chemicals through the Gulf, and the proximity' of wildlife 
        management areas and conservation easements. Currently, ERMA is 
        fully operational in the U.S. Caribbean and New England.

        <bullet>  Natural Resource Protection Tools
           Environmental Sensitivity Index (EST) database and map 
        products provide information that helps reduce the 
        environmental, economic, and social impacts from oil and 
        hazardous substance spills. ESI maps include information on 
        biological resources (such as birds, shellfish beds, and 
        endangered species), sensitive shorelines (such as marshes, 
        tidal flats, and marine sanctuaries), and human-use resources 
        (such as public beaches, parks, and drinking water intakes). 
        ESI maps are one tool that spill responders can use to identify 
        priority areas to protect from the spreading oil, develop 
        cleanup strategies to minimize impacts to the environment and 
        coastal communities, and reduce overall cleanup costs. NOAA's 
        goal is to update ESI maps approximately every ten years to 
        ensure responders have up-to-date information.

        <bullet>  Research to Improve Tools for Assessment and 
        Restoration
           Current techniques to assess and restore injured natural 
        resources need to be constantly updated and refined. As our 
        understanding of complex ecosystems evolves, so should our 
        modeling tools and restoration techniques. For example, 
        currently, site-specific protocols for assessing injuries to 
        unique, high-value habitats such as those found in the Arctic 
        are needed. In addition, research and tools to better assess 
        and quantify natural resource services--such as water 
        filtration and capture, flood protection, carbon sequestration, 
        recreation, and education--across a range of habitat types can 
        help ensure the public is fully compensated and the environment 
        fully restored.

        <bullet>  Air Quality Impacts
           In addition to its marine responsibilities, NOAA is also 
        responsible for predicting the air quality impacts from oil and 
        hazardous substance spills. The characteristics of pollution 
        released from large areas of burning oil and the widespread 
        evaporation of oil are significantly different from routine air 
        quality/atmospheric dispersion scenarios. Research and 
        development of improved tools to estimate the characteristics 
        of compounds entering the atmosphere, and integration of those 
        tools with NOAA's existing atmospheric modeling capabilities, 
        would significantly improve NOAA's ability to predict smoke and 
        chemical concentrations in the atmosphere resulting from such 
        incidents.

        <bullet>  Oil in Arctic Environments
           Continued acceleration of sea-ice decline in the Arctic 
        Ocean as a consequence of global warming may lead to increased 
        Arctic maritime transportation and energy exploration that in 
        turn may increase the potential of oil spills in the Arctic. 
        Recent studies, such as the Arctic Monitoring and Assessment 
        Programme's Oil and Gas Assessment, indicate that we currently 
        lack the information to determine how oil will behave in icy 
        environments or when it sinks below the surface. We also lack a 
        basic understanding of the current environmental conditions, 
        which is important for conducting injury assessments and 
        developing restoration strategies. Research is needed to better 
        understand the challenges of spill response in Arctic waters 
        and the most effective tools and techniques to utilize in such 
        environments.

        <bullet>  Human Dimensions
           Research is needed on how to incorporate impacted 
        communities into the preparedness and response processes to 
        help to address the human dimensions of spills, including 
        social issues, community effects, risk communication methods, 
        and valuation of natural resources. Transparency and 
        communications can be improved to share information with 
        impacted communities on how and why decisions are made, and the 
        breadth of response and NRDA activities that have been and will 
        be undertaken for the Deepwater Horizon oil spill.

CONCLUSION

    As this Committee is well aware, research takes time. A major 
research cruise can take a year to plan. A model can take years to 
develop and validate. A report can take months to get right. The 
Deepwater Horizon oil spill is causing harm that will impact coastal 
environments for years to come. Applying the latest science and 
continued research and development efforts in the public and private 
sectors can improve our response decisions, thereby reducing injury to 
our Nation's economy and environment.
    I would like to assure you that we will not relent in our efforts 
to protect the livelihoods of affected Gulf Coast residents and 
mitigate the environmental impacts of this spill. In the wake of such 
an event, we are reminded of the fragility of our coastal ecosystems 
and the dependence of coastal economies on the health and prosperity of 
our seas. Thank you for allowing me to testify on NOAA's response and 
damage assessment efforts and areas for future research. I am happy to 
answer any questions you may have.

                      Biography for Douglas Helton

    Douglas (Doug) Helton is the Incident Operations Coordinator for 
the National Oceanic and Atmospheric Administration's (NOAA) Emergency 
Response Division. The Division provides scientific and technical 
support to the Coast Guard during oil and chemical spill responses. The 
Division is based in Seattle, WA, but manages NOAA response efforts 
nationally. Mr. Helton has worked on oil spills, shipwrecks, abandoned 
vessels, and emergency response efforts in almost all coastal states, 
ranging from Maine to American Samoa. Mr. Helton recently completed an 
18 month leadership program in NOAA that included 3 months as the 
Acting Director of NOAA's Marine Debris Program, and 4 months with the 
Port of Seattle. Mr. Helton also spent 6 months with the U.S. Senate 
Commerce Committee. In that capacity he worked on several bills 
including Ballast Water Management, Coral Reef Conservation, Oil 
Pollution, Coast Guard reauthorization, and other ocean-related 
legislation. Mr Helton is also the U.S. representative to the 
International Maritime Organization 's working group on oil and 
chemical pollution. Prior to his current position, Mr. Helton headed 
NOAA 's Damage Assessment Center (DAC) which allows NOAA to place 
regional scientists and contractors on-scene quickly after an oil or 
chemical spill to collect perishable biological and economic data and 
to initiate damage assessment studies to support legal claims for 
restoration. Mr. Helton received a BA from Reed College in 1985 and an 
MS from the U.W. School of Fisheries in 1991. Mr. Helton was a John 
Knauss Sea Grant Fellow in 1991-1992.

    Chairman Baird. Thank you, Mr. Helton.
    Captain Lloyd.

STATEMENTS OF CAPTAIN ANTHONY LLOYD, CHIEF, OFFICE OF INCIDENT 
     MANAGEMENT AND PREPAREDNESS, UNITED STATES COAST GUARD

    Captain Lloyd. Good morning, Mr. Chairman and distinguished 
Members of the Committee. I am grateful for the opportunity to 
appear before you to discuss Federal and Coast Guard oil spill 
response research objectives and accomplishments.
    The Coast Guard has been the lead Federal agency for oil 
and hazardous materials pollution incidents in the coastal zone 
since 1968. I have been personally involved in oil and hazmat 
prevention and incident response for the majority of my career. 
As a marine safety professional and first responder, I carry 
that perspective into my roles as Chairman of the national 
response team for the Deepwater Horizon incident and Chairman 
of the Interagency Coordinating Committee on Oil Pollution 
Research, otherwise known as the Interagency Committee, to lead 
ongoing efforts to, among other things, address research and 
development issues, coordination and planning.
    The passage of OPA 90 represented a significant paradigm 
shift for the Coast Guard. This historic legislation provided 
the Nation with the means to immediately access and distribute 
funding for oil spill response efforts. It imposed specific 
requirements on the responsible party and provided a process to 
restore the marine environment to its pre-incident condition. 
With this legislation came annual funding for the Coast Guard 
and other agencies to enhance, among other things, oil spill 
prevention response and research and development.
    Based on the lessons learned from Exxon Valdez, the Coast 
Guard's oil pollution R&D efforts have focused on four primary 
research areas: prevention, salvage and onboard 
countermeasures, spill planning and response management, spill 
detection and surveillance, oil containment and recovery and 
alternative countermeasures. Notable Coast Guard R&D 
accomplishments resulting from these focused efforts over the 
past two decades to also include: the development of a vessel 
of opportunity skimming system which is being employed in 
response pervasively as we speak, procedures for commercial 
vessels, and shipboard oil recovery system for Coast Guard buoy 
tenders. Also, there have been informed requirements, prototype 
and tested capabilities for fast water response, temporary 
storage devices, oil and water separation systems, in situ 
burning techniques and fire boom evaluations, among other 
things such as decision support tools for incident management.
    With regard to marine pollution prevention and response 
overall, spill number volume continues to drop. A recently 
revised Congressional Research Service report on oil spills 
affirms that spill volumes have dropped by 50 percent since 
1995. This figure is much higher going back to the early 1970s, 
and this drop has been attributed to the increase in 
liabilities for oil shipment, increased Federal authorities and 
the advent of double hulls. Double hulls bear a particular 
mention due to the upcoming OPA 90 phase-in of additional 
requirements to ensure all oil-carrying vessels are double 
hulled by 2015.
    In addition to implementing the Coast Guard's own oil 
pollution R&D program, the service chairs the 13-member 
Interagency Coordinating Committee on Oil Pollution Research, 
the Interagency Committee. Section 7000 of OPA 90 established 
the Interagency Committee for two reasons: to prepare a 
comprehensive coordinated Federal oil pollution research and 
development plan, and to promote cooperation with industry, 
universities, research institutions, state governments, and 
other nations. We have submitted our latest report in December 
of 2009 which embodied the OPA 90 approach of the whole of 
government, a team-based approach to spill response and 
preparedness. This is key to the improvement, whether we can 
improve our ability to respond to oil spills nationwide. This 
collaboration ensures progress is made in advancing oil 
pollution research and technology across a wide range of 
issues, and this cross-pollination of ideas between industry 
and government ensures the latest policy issues and technology 
breakthroughs are realized as well.
    We have a wide range of opportunities to conduct this 
interaction. We have done this through a variety of conferences 
and meetings throughout the last year in preparation for a 
revision to the 1997 plan. It is clear that the interaction 
will drive the incident and further clarity emerging from where 
we need to go in spill prevention and response and restoration. 
This interaction is also driven through a variety of meetings 
and interaction with private industry, spill control 
association and other individuals.
    The future focus for the Coast Guard will continue to be on 
submerged oil, the Arctic and deepwater environments. These 
meetings will be taking place over the next year as we try to 
revise our plan, and I thank you for the opportunity to testify 
this morning.
    [The prepared statement of Captain Lloyd follows:]

                 Prepared Statement of Anthony S. Lloyd

    Good morning Chairman Baird and distinguished Members of the 
Committee. Thank you for the opportunity to testify before you on the 
BP/Deepwater Horizon oil spill.
    On the evening of April 20, 2010, the Transocean-owned, BP-
chartered, Marshall Islands-flagged Mobile Offshore Drilling Unit 
(MODU) Deepwater Horizon, located approximately 72 miles Southeast of 
Venice, Louisiana, reported an explosion and fire onboard. This began 
as a Search and Rescue (SAR) mission--within the first few hours, 115 
of the 126 crewmembers were safely recovered; SAR activities continued 
through April 23, but the remaining 11 crewmembers were never found.
    Concurrent with the SAR effort, the response to extinguish the fire 
and mitigate the impacts of the approximately 700,000 gallons of diesel 
fuel onboard began almost immediately. After two days of fighting the 
fire, the MODU sank in approximately 5,000 feet of water on April 22. 
On April 23, remotely operated vehicles (ROVs) located the MODU on the 
seafloor, and. on April 24, BP found the first two leaks in the riser 
pipe and alerted the Federal Government. Within the first 24 hours, the 
Coast Guard's Federal on Scene Coordinator (FOSC) confirmed with 
representatives from the Oil Spill Liability Trust Fund (OSLTF) that 
funds were available to speed the Federal response to the threat of an 
oil spill. ROVs continue to monitor the flow of oil.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As the event unfolded, a robust Incident Command System (ICS) 
response organization was stood up on April 23 in accordance with the 
National Response Framework (NRF) and the National Oil and Hazardous 
Substances Pollution Contingency Plan (NCP). ICS provides a common 
method to develop and implement tactical plans to effectively manage a 
multi-agency response to an emergency, such as an oil spill. The ICS 
organization for this response includes Incident Command Posts and 
Unified Commands at the local level, and a Unified Area Command at the 
regional level. It is comprised of representatives from the Coast Guard 
(FOSC), other Federal, state, and local agencies, as well as BP as a 
responsible party.
    The Federal Government has addressed the BP/Deepwater Horizon Oil 
Spill with an all-hands-on deck approach from the moment the explosion 
occurred. On the date of the explosion, a command center was set up on 
the Gulf Coast to address the potential environmental impact of the 
event and to coordinate with all state and local governments. After the 
MODU sank on April 22, the National Response Team (NRT)--led by the 
Secretary of Homeland Security and comprised of 16 Federal agencies 
including the Coast Guard, other DHS offices, Department of Interior 
(DOI), the Environmental Protection Agency (EPA), National Oceanic and 
Atmospheric Administration (NOAA),--as well as Regional Response Teams 
(RRT), were activated.
    On April 29, Secretary Napolitano declared the event a Spill of 
National Significance (SONS), which enhanced operational and policy 
coordination at the national level and concurrently allowed the 
appointment of Admiral Thad Allen as the National Incident Commander 
(NIC) for the Administration's continued, coordinated response. The 
NIC's role is to coordinate strategic communications, national policy, 
and resource support, and to facilitate collaboration with key parts of 
the Federal, state and local government.
    The NIC staff is comprised of subject matter experts from across 
the Federal Government, allowing for immediate interagency 
collaboration, approval and coordination. While the FOSC maintains 
authorities for response operations as directed in the National 
Contingency Plan, the NIC's primary focus is providing national-level 
support to the operational response. This means providing the Unified 
Command with everything that they need--from resources to policy 
decisions--to sustain their efforts to secure the source and mitigate 
the impact. This will be a sustained effort that will continue until 
the discharges are permanently stopped and the effects of the spill are 
mitigated to the greatest extent possible. Beyond securing the source 
of the spill, the Unified Command is committed to minimizing the 
economic and social impacts to the affected communities and the nation.

UNIFIED RECOVERY EFFORTS

    The Unified Command continues to attack the spill offshore. As of 
June 2, 2010, over 14.2 million gallons of oily water have been 
successfully recovered using mechanical surface cleaning methods. 
Further, approximately 738,000 of surface dispersants have been applied 
to break up the slick, and over 120 controlled burns have been 
conducted when weather conditions allowed. In addition to the ongoing 
offshore oil recovery operations, significant containment and exclusion 
booms have been deployed and staged strategically throughout the Gulf 
region. These booms are used to protect sensitive areas including: 
environmental and cultural resources, and critical infrastructure, as 
identified in the applicable Area Contingency Plans (ACPs). To date, 
almost two million feet of boom have been positioned to protect 
environmentally sensitive areas. Fourteen staging areas have been 
established across the Gulf Coast states and three regional command 
centers. The Secretary of Defense approved the requests of the 
Governors of Alabama (up to 3,000), Florida (up to 2,500), Louisiana 
(up to 6,000), and Mississippi (up to 6,000) to use their National 
Guard forces in Title 32, U.S. Code, status to help in the response to 
the oil spill.

VOLUNTEERISM AND COMMUNICATION WITH LOCAL COMMUNITIES

    A critical aspect of response operations is active engagement and 
communication with the local communities. Several initiatives are 
underway to ensure regular communications with the local communities.

        1.  Active participation and engagement in town hall meetings 
        across the region with industry and government involvement.

        2.  Daily phone calls with affected trade associations.

        3.  Coordination of public involvement through a volunteer 
        registration hotline (1-866-4485816), alternative technology, 
        products and services e-mail (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="61090e13081b0e0f121411110e131521000e0d4f020e0c">[email&#160;protected]</a>), and 
        response and safety training scheduled and conducted in 
        numerous locations.

        4.  More than 21,596 inquiries received online via the response 
        website (www.deepwaterhorizonresponse.com) with more than 
        19,000 inquiries completed. (As of June 2, 2010.)

        5.  Over 60 million page hits on response website.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

        6.  Almost 1,000 documents created/posted to response website 
        for public consumption.

        7.  News, photo/video releases, advisories to more than 5,000 
        media/governmental/private contacts.

        8.  Full utilization of social media including Facebook, 
        YouTube, Twitter and Flickr.

        9.  Establishment of Local Government hotlines in Houma, LA 
        (985-493-7835), Mobile, AL (251-445-8968), Robert, LA (985-902-
        5253).

MODU REGULATORY COMPLIANCE REQUIREMENTS

    43 U.S.C. Sec.  1331, et seq. mandates that MODUs documented under 
the laws of a foreign nation, such as the Deepwater Horizon, be 
examined by the Coast Guard. These MODUs are required to obtain a U.S. 
Coast Guard Certificate of Compliance (COC) prior to operating on the 
U.S. Outer Continental Shelf (OCS).
    In order for the Coast Guard to issue a COC, one of three 
conditions must be met:

        1.  The MODU must be constructed to meet the design and 
        equipment standards of 46 CFR part 108.

        2.  The MODU must be constructed to meet the design and 
        equipment standards of the documenting nation (flag state) if 
        the standards provide a level of safety generally equivalent to 
        or greater than that provided under 46 CFR part 108.

        3.  The MODU must be constructed to meet the design and 
        equipment standards for MODUs contained in the International 
        Maritime Organization Code for the Construction and Equipment 
        of MODUs.

    The Deepwater Horizon had a valid COC at the time of the incident, 
which was renewed July 29, 2009 with no deficiencies noted. The COC was 
issued based on compliance with number three, stated above. COCs are 
valid for a period of two years.

COAST GUARD/MMS JOINT INVESTIGATION RESPONSIBILITIES

    On April 27th, Secretary Napolitano and Secretary of the Interior 
Ken Salazar signed the order that outlined the joint Coast Guard-MMS 
investigation into the Deepwater Horizon incident.
    Information gathering began immediately after the explosion--
investigators from both agencies launched a preliminary investigation 
that included evidence collection, interviews, witness statements from 
surviving crew members, and completion of chemical tests of the crew. 
The aim of this investigation is to gain an understanding of the causal 
factors involved in the explosion, fire, sinking and tragic loss of 11 
crewmembers.
    The joint investigation will include public hearings, which have 
already begun in Kenner, LA. The formal joint investigation team 
consists of equal representation of Coast Guard and MMS members. The 
Coast Guard has also provided subject matter experts and support staff 
to assist in the investigation.

LESSONS LEARNED FROM PAST RESPONSES

    The Coast Guard has been combating oil and hazardous materials 
spills for many years; in particular, the 1989 major oil spill from the 
EXXON VALDEZ yielded comprehensive spill preparedness and response 
responsibilities.
    In the 20 years since the EXXON VALDEZ, the Coast Guard has 
conducted SONS exercises every three years. In 2002, the SONS Exercise 
was held in New Orleans to deal with the implications of a wellhead 
loss in the Gulf of Mexico. In that exercise, the SONS team created a 
vertically integrated organization to link local response requirements 
to a RRT. The requirements of the RRT are then passed to the NRT in 
Washington, DC, thereby integrating the spill management and decision 
processes across the Federal Government. The response protocols used in 
the current response are a direct result of past lessons learned from 
real world events and exercises including SONS.
    Although the EXXON VALDEZ spill shaped many of the preparedness and 
response requirements and legislation followed to this day, other 
significant events since 1989 have generated additional lessons learned 
that shape our response strategies. The Coast Guard and EPA FOSCs have 
accessed the OSLTF to respond to over 11,000 oil spills or significant 
threats of an oil spill in the 19 years since the establishment of the 
Fund. The liability and compensation regime contained in Title Ito the 
Oil Pollution Act of 1990 is well rehearsed and integrated into the 
FOSC's daily operations. Use of the Fund, oversight of the responsible 
party's obligation to advertise for and receive claims from those 
damaged by oil pollution, and cost recovery from the responsible party 
of all Federal funds expended are all part of the pollution response 
exercise cycle.
    These functions were most recently exercised during the Spill of 
National Significance (SONS) 2010 exercise that took place in Maine in 
March 2010.
    Nearly 600 people from over 37 agencies participated in the 
exercise. This exercise scenario was based on a catastrophic oil spill 
resulting from a collision between a loaded oil tanker and a car 
carrier off the coast of Portland, Maine. The exercise involved 
response preparedness activities in Portland, ME; Boston, MA; 
Portsmouth, NH; Portsmouth, VA; and Washington, DC. The response to the 
SONS scenario involved the implementation of oil spill response plans, 
and response organizational elements including two Unified Commands, a 
Unified Area Command, and the NIC in accordance with the National 
Contingency Plan and national Response Framework. The exercise focused 
on three national-level strategic objectives:

        1.  Implement response organizations in applicable oil spill 
        response plans

        2.  Test the organization's ability to address multi-regional 
        coordination issues using planned response organizations

        3.  Communicate with the public and stakeholders outside the 
        response organization using applicable organizational 
        components

    The SONS 2010 exercise was considered a success, highlighting a 
maturity of the inter-agency and private oil spill response 
capabilities and the importance of national-level interactions to 
ensure optimal information flow and situational awareness. The timely 
planning and execution of this national-level exercise have paid huge 
dividends in the response to this potentially catastrophic oil spill in 
the Gulf of Mexico.

ROLE OF THE OIL SPILL LIABILITY TRUST FUND

    The Oil Spill Liability Trust Fund (OSLTF), established in the U.S. 
Treasury, is available to pay the expenses of Federal response to oil 
pollution under the Federal Water Pollution Control Act (FWPCA)(33 
U.S.C. Sec.  1321(c)) and to compensate claims for oil removal costs 
and certain damages caused by oil pollution as authorized by the Oil 
Pollution Act of 1990 (OPA) (33 U.S.C. Sec.  2701 et seq.). These OSLTF 
expenditures will be recovered from responsible parties liable under 
OPA when there is a discharge of oil to navigable waters, adjoining 
shorelines, or the Exclusive Economic Zone (EEZ).
    The United States established an exclusive economic zone, the outer 
limit of which is a line drawn in such a manner that each point on it 
is 200 nautical miles from the baseline from which the breadth of the 
territorial sea is measured. The U.S. EEZ is the largest in the world, 
containing 3.4 million square miles of ocean and 90,000 miles of 
coastline.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The OSLTF is established under section 9509 of the Internal Revenue 
Code (26 USC Sec.  9509), which also describes the authorized revenue 
streams and certain broad limits on its use. The principal revenue 
stream is an 8 cent per barrel tax on oil produced or entered into the 
United States (see the tax provision at 26 U.S.C. Sec.  4611). The per 
barrel tax increases to 9 cents for one year beginning on January 1, 
2017, and the per barrel tax expires at the end of 2017. Other revenue 
streams include oil pollution-related penalties under 33 U.S.C. Sec.  
1319 and Sec.  1321, interest earned through Treasury investments, and 
recoveries from liable responsible parties under OPA. The current OSLTF 
balance is approximately $1.5 billion. There is no cap on the fund 
balance but there are limits on its use per oil pollution incident. The 
maximum amount that may be paid from the OSLTF for any one incident is 
$1 billion. Of that amount, no more than $500 million may be paid for 
natural resource damages (26 U.S.C. Sec.  9509(c)(2)).
    OPA further provides that the OSLTF is available to the President 
for certain purposes (33 U.S.C. Sec.  2712(a)) including Federal 
removal costs, claims for uncompensated removal costs and damages, and 
payment of select Federal administrative, operating and personnel costs 
addressed by the OPA.

NATIONAL POLLUTION FUNDS CENTER FUNDING AND COST RECOVERY

    The National Pollution Funds Center (NPFC) is a Coast Guard unit 
that manages use of the OSLTF, making available the emergency fund for 
Federal removal as well as trustee costs to initiate natural resource 
damage assessment. The NPFC also pays qualifying claims against the 
OSLTF that are not compensated by the responsible party. Damages 
include real and personal property damages, natural resource damages, 
loss of subsistence use of natural resources, lost profits and earnings 
of businesses and individuals, lost government revenues, and net costs 
of increased or additional public services that may be recovered by a 
state or political subdivision of a state.
    In a typical scenario, the FOSC, Coast Guard, or EPA accesses the 
emergency fund to carry out 33 U.S.C. Sec.  1321(c), that is, to remove 
an oil discharge or prevent or mitigate a substantial threat of 
discharge of oil to navigable waters, the adjoining shoreline or the 
EEZ. Costs are documented and provided to NPFC for reconciliation and 
eventual cost recovery against liable responsible parties. Federal 
trustees may request funds to initiate an assessment of natural 
resource damages and the NPFC will provide those funds from the 
emergency fund as well.
    OPA provides that all claims for removal costs or damages shall be 
presented first to the responsible party. Any person or government may 
be a claimant. If the responsible party denies liability for the claim, 
or the claim is not settled within 90 days of being presented, a 
claimant may elect to commence an action in court against the 
responsible party or to present the claim to the NPFC for payment from 
the OSLTF. OPA provides an express exception to this order of 
presentment for state removal cost claims. Such claims are not required 
to be presented first to the responsible party and may be presented 
directly to the NPFC for payment from the OSLTF. These and other 
general claims provisions are delineated in 33 U.S.C. Sec.  2713 and 
the implementing regulations for claims against the OSLTF in 33 CFR 
Part 136. NPFC maintains information to assist claimants on its website 
at www.uscg.mil/npfc.
    NPFC pursues cost recovery for all OSLTF expenses for removal costs 
and damages against liable responsible parties pursuant to Federal 
claims collection law including the Debt Collection Act, implementing 
regulations at 31 CFR parts 901-904 and DHS regulations in 6 CFR part 
11.
    Aggressive collection efforts are consistent with the ``polluter 
pays'' public policy underlying the OPA. However, the OSLTF is intended 
to pay even when a responsible party does not pay.

THE EMERGENCY FUND AND DEEPWATER HORIZON

    The OSLTF consists of two major components, the main fund, or 
Principal Fund, and an Emergency Fund.
    The Emergency Fund is available for Federal On-Scene Coordinators 
(FOSCs) to respond to oil discharges and for Federal natural resource 
trustees to initiate natural resource damage assessments, pending 
reimbursement by the Responsible Party. The Emergency Fund is 
authorized to receive an annual $50 million infusion of funds through 
an apportionment from the OSLTF Principal Fund. In addition, the 
Emergency Fund may receive an advance of $100 million from the 
Principal Fund to supplement Emergency Fund shortfalls. (See 33 U.S.C. 
Sec.  2752(b)).
    In FY 2010, the Emergency Fund has already received its annual $50 
million apportionment. On May 3, 2010, since the initiation of the BP/
Deepwater Horizon response, it received the statutorily authorized $100 
million advance. These funds have been used to support the ongoing 
response efforts of 27 Federal entities as well as response funding 
provided directly to the affected states.
    While all funds expended will be billed to BP and, ultimately, 
recovered, these funds are deposited into the principal fund, not the 
emergency fund. As of June 1, 2010, obligations against the Emergency 
Fund for Federal response efforts totaled $93 million. At the current 
pace of BP/Deepwater Horizon response operations, funding available in 
the Emergency Fund will be insufficient to sustain Federal response 
operations within two weeks. Should this occur, the FOSC will not be 
able to commit additional funds for the agencies involved to provide 
critical response services, including for logistical, scientific and 
public health support.
    On May 12, the Administration proposed a legislative package that 
will: enable the Deepwater Horizon Oil Spill response to continue 
expeditiously; speed assistance to people affected by this spill; and 
strengthen and update the oil spill liability system to better address 
catastrophic events. The bill would permit the Coast Guard to obtain 
one or more advances--up to $100 million each--from the Principal Fund 
within the OSLTF to underwrite Federal response activities taken in 
connection with the discharge of oil associated with the BP Deepwater 
Horizon spill. This provision would ensure that the Emergency Fund has 
sufficient resources to support the Federal response. To enhance the 
ability to address generally the harms created by oil spills as well as 
to strengthen and update these laws, the bill would, for any single 
incident, raise the statutory expenditure limitations for the OSLTF 
from $1 billion to $1.5 billion and for natural resource damage 
assessments and claims from $500 million to $750 million.

LIABILITY LIMITS AND FINANCIAL RESPONSIBILITY

    The Administration's May 12 legislative package also includes 
significant increases to OPA liability limits for vessel and facility 
source oil discharges, particularly relating to liability for oil 
removal costs.
    Current law provides that a vessel's liability limit for oil 
removal costs and damages is a single fixed amount based on the vessel 
gross tonnage and vessel type. There are also certain fixed minimum 
amounts that may apply. Beginning in January 2007, the Coast Guard has 
annually reported on the adequacy--or rather, the inadequacy--of vessel 
liability limits. In the most recent 2009 Report on Oil Pollution Act 
Liability Limits, the Coast Guard's NPFC concluded as follows:
    The NPFC continues to anticipate the OSLTF will be able to cover 
its projected non-catastrophic liabilities, including claims, without 
further increases to liability limits. However, increases to liability 
limits for certain vessel types would result in a more equitable 
division of risk between the Fund and responsible parties, have a 
positive impact on the balance of the Fund, and reduce the Fund's 
overall risk position [emphasis added].
    The limited data available indicates, as in previous reports, that 
increasing liability limits per incident for single hull tank ships, 
tank barges and non-tank vessels greater than 300 gross tons in 
particular would result in a more balanced cost share between 
responsible parties and the Fund while positively impacting the Fund's 
balance.\1\
---------------------------------------------------------------------------
    \1\ The full Limit of Liability report is available on the NPFC web 
site at: http://www.uscg.mil/npfc/docs/PDFs/Reports/
Liability<INF>-</INF>Limits<INF>-</INF>Report<INF>-</INF>2009.pdf
---------------------------------------------------------------------------
    Companies participating in offshore drilling, shipping, and other 
activities currently covered by Oil Pollution Act liability caps must 
demonstrate that they have the financial capacity to address 
anticipated clean-up costs and damages from their operations. Oil and 
other companies participating in offshore drilling activities should be 
strictly liable (jointly and severally) and responsible for all of the 
damages their activities could impose on persons, businesses, and the 
environment, thereby not only ensuring full compensation in the event 
of a spill, but also greatly aiding the prevention of future spills in 
the first place. Similarly, oil spill liability caps established by the 
Oil Pollution Act of 1990 for activities other than offshore drilling 
activities, such as shipping, should be reviewed and increased as 
appropriate to more fully reflect the spill risk associated with those 
activities. We look forward to working with Congress to change 
liability rules going forward and implement those changes within a 
reasonable transition period.

OPA CLAIMS PROCESS AND DEEPWATER HORIZON

    BP and Transocean acknowledged in writing on May 10 their 
responsibility to advertise to the public the process by which claims 
may be presented; the NPFC has directed the responsible parties to use 
one phone number and one process so as not to confuse claimants, and 
all claims are being processed centrally through BP. As of May 31, 
30,619 claims have been opened with BP, and more than $39 million has 
been disbursed; no claim has been denied, though many have yet to be 
processed.
    So far, the majority of claims have been for lost income and lost 
profits for individuals and small businesses; as more oil comes ashore, 
property damage claims will likely increase. The interagency community 
continues to oversee BP's claims process. BP has set up 30 claims 
processing centers throughout the affected region, with over 480 
managers and claims adjusters in the field. BP has also established a 
1-800 number that is available 24/7, as well as web-based claims 
submission capabilities. While OPA 90 requires the responsible party to 
advertise and accept claims, NPFC has asked BP to be responsive to 
additional requests for information or action to ensure the claims 
process is meeting the needs of the citizens of the Gulf. The NPFC is 
in daily communication with BP regarding its claims administration and 
is raising concerns as they emerge. For example, in response to an NPFC 
request, BP is now providing translation services in Vietnamese and 
Spanish in certain communities, as well as on the 1-800 phone line. BP 
has also established a mediation capability for claimants who desire.
    That said, we do not yet have complete, ongoing transparency into 
BP's claims process including detailed information on how claims are 
being evaluated, how payment amounts are being calculated, and how 
quickly claims are being processed. We are working with BP's senior 
executives to make sure we have the information we and appropriate 
representatives of State governments need to meet our responsibilities 
to the public.
    BP's current claims capacity can take in 6,000 claims per day, 
while the current rate is well under 2,000. BP reports that it can 
surge to a capacity of taking in 15,000 claims per day, with over 2,500 
adjusters and managers in the field in a matter of days. However, BP 
has not responded to all of NPFC's requests for data. BP currently 
provides daily summary data on claims that does not provide enough 
visibility into the claims process to fully view claims amounts and 
processing times.
    Claims can be paid for the following damages (33 U.S.C. Sec.  
2702(b)):
         Unreimbursed Removal Costs
         Real or Personal Property Damage
         Loss of Profits or Earning Capacity
         Loss of Government Revenue
         Cost of Increased Public Services
         Natural Resource Damages
         Loss of Subsistence Use of Natural Resource Damages (NRD)

    Claims can be submitted within the following statute of limitation:
         For Removal Costs: six years after date of completion of all 
        removal actions.
         For Damages: three years after the date on which the injury 
        and its connection with the discharge are reasonably discovered 
        with due care.
         For NRD: three years from the date of completion of the NRD 
        assessment.

    As stated earlier, claimants who are denied by a responsible party 
can bring their claims directly to the NPFC for adjudication. If the 
NPFC finds the damage to be OPA-compensable and pays it, the cost of 
that claim will be billed to BP and recovered. In enacting these 
provisions, Congress made it clear that the Fund was available to pay 
so that claimants would not be required to go through costly litigation 
to be compensated. Fund payments are aggressively recovered from 
responsible parties to the fullest extent of the law consistent with 
the ``polluter pays'' policy underlying OPA, but the Fund remains 
available as the ultimate insurer for compensation of removal costs and 
damages under the OPA.
    There are a number of advantages to claimants of having a 
responsible party pay the claims. BP can pay for more than just OPA 
compensable damages if it chooses, and BP may be liable for other 
damages, such as personal injury, covered by other laws. BP may also 
choose to pay a claim with less documentation than the government would 
be required to obtain. Further, BP can negotiate claim settlement, and 
is offering mediation services.

CONCLUSION

    Through the National Incident Command, we are ensuring all 
capabilities and resources--government, private, and commercial--are 
being leveraged to protect the environment and facilitate a rapid, 
robust cleanup effort. Every effort is being made to secure the source 
of the oil, remove the oil offshore, protect the coastline, include and 
inform the local communities in support of response operations, and 
mitigate any impacts of the discharge.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

                     Biography for Anthony S. Lloyd

    Captain Anthony Lloyd assumed his current position as Chief, Office 
of Incident Management and Preparedness in July of 2007. He formerly 
served as the Commanding Officer of the Pacific Strike Team in Novato, 
CA from June of 2004 until June of 2007. Captain Lloyd is the program 
manager for incident planning and preparedness policy for the Coast 
Guard. This includes overseeing the Coast Guard's implementation of all 
risk and all hazards incident management guidance as well as focusing 
on response operations for oil and chemical pollution incidents. In 
developing Coast Guard guidance in these areas, Captain Lloyd works 
with other Federal and industry partners to ensure alignment. In 
addition, he supervises a 60-person staff that includes oversight of 
the National Response Center (NRC), provides programmatic guidance for 
the National Strike Force, and serves as the Vice Chair to the National 
Response Team (NRT). Captain Lloyd also serves as the Vice Chair to the 
International Oil Spill Conference Committee; Chair of the Interagency 
Coordinating Committee on Oil Pollution Research; is a Board Member of 
the Spill Control Assoc. of America (SCAA) and is a member of the API 
Spills Advisory Group.
    Captain Lloyd began his Coast Guard career as a deck watch officer 
on the U.S. Coast Guard Cutter Salvia (WLB 400) home ported in Mobile, 
AL. As a Deck Watch Officer and later as Operations Officer, Captain 
Lloyd was involved in numerous responses including Hurricane Gilbert in 
Puerto Rico and the tank vessel Mega Borg casualty in the Gulf of 
Mexico. From 1990 to 1996, he served in both New Orleans and Baton 
Rouge Louisiana where he obtained Marine Safety qualifications in 
inspections while conducting numerous operations and exercises. Upon 
transfer from Southeast Louisiana, Captain Lloyd served four years at 
the National Strike Force Coordination Center in Elizabeth City, NC, 
where he served as Operations Division Chief from 1998 to 2000. His 
responsibilities included ensuring operational support for the Coast 
Guard's National Strike Force response teams as well as providing 
leadership and direction for the Coast Guard's Public Information 
Assist Team (PIAT). Under Captain Lloyd's watch, the PIAT published 
their Joint Information Center (JIC) guidelines that are now a national 
standard for coordinating public affairs during incidents. Later, 
Captain Lloyd served as the Executive Officer at Marine Safety Office 
Memphis from July 2001 to May 2004. While at Memphis Captain Lloyd, 
acting as the alternate Captain of the Port and Federal On Scene 
Coordinator, led the Coast Guard response to the tragic collapse of the 
1-40 Bridge at Webbers Falls, OK. He assumed command of the Pacific 
Strike Team in June 2004. Under his leadership, the Team responded to 
numerous pollution cases. These include the groundings of the cargo 
vessel AJMAN II in Guam, the cargo vessel Selendang Ayu near Unalaska 
Island, AK and a 21-day response to Utapoa, Thailand after the December 
26th 2004 Tsunami.
    Captain Lloyd graduated from the Coast Guard Academy in New London, 
CT and has a Master's Degree (MA) in National Security and Strategic 
Studies from the U.S. Naval War College. His personal military 
decorations include the Meritorious Service Medal, three Coast Guard 
Commendation Medals, and three Coast Guard Achievement Medals.

    Chairman Baird. Thank you.
    Ms. Buffington.

    STATEMENTS OF SHARON BUFFINGTON, CHIEF, ENGINEERING AND 
   RESEARCH BRANCH, OFFSHORE ENERGY AND MINERALS MANAGEMENT, 
                  MINERALS MANAGEMENT SERVICE

    Ms. Buffington. Thank you, Chairman Baird and Members of 
the Subcommittee, for the opportunity to discuss oil spill 
research at the Department of the Interior related to oil and 
gas exploration on the Outer Continental Shelf. I have been 
asked to provide the Subcommittee with an overview of the role 
the Minerals Management Service has in oil spill research, 
including that of OHMSETT, the National Oil Spill Response and 
Renewable Energy Test Facility, and the activities and programs 
MMS has pursued since the passage of the Oil Pollution Act of 
1990 to improve oil spill response technologies.
    For more than 25 years, MMS has conducted oil spill 
response research to improve the technology. The activities of 
the MMS oil spill response research program comply with Title 
VII of the Oil Pollution Act of 1990. The research program 
brings together funding and expertise from government agencies, 
industry and the international community to collaborate 
research. The program operates through contracts with 
universities, government agencies, laboratories and private 
industry to assess technologies. Funding is appropriated from 
the Oil Spill Liability Trust Fund.
    Current response research projects cover a wide spectrum of 
issues that include laboratory, mesoscale and full-scale 
experiments in 129 multiphase projects. Topic areas include 
physical and chemical properties of crude oil, remote sensing 
and detection of spilled oil, mechanical containment and 
recovery, chemical treating agents and dispersants, and in situ 
burning.
    My written testimony highlights some examples of the 
technological advances of the MMS oil spill response research 
program that are currently being used to respond to the 
Deepwater Horizon oil spill. These include the following: the 
creation of a physical and chemical properties of crude oil 
database with Environment Canada; a Project Deep Spill 
experiment that was conducted in the Norwegian Sea to gather 
data to verify a deep sea release model; an oil spill thickness 
sensor to map out the extent of this oil slick and the oil 
thickness distribution and then to send this information to the 
response personnel; the development and testing of a grooved 
drum skimmer which improved recovery by over 200 percent; the 
development of a standard test protocol for skimmers to measure 
the effective daily recovery capacity; and in situ burn 
research technology to determine the emissions to air and 
water, to evaluate equipment, conduct smoke plume modeling, and 
to extend the window of opportunity for in situ burns by using 
chemical herders and emulsion breakers. These also include the 
use of chemical dispersants, including applying them and their 
effectiveness, and OHMSETT, the National Oil Spill Response and 
Renewable Energy Test Facility.
    OHMSETT is a unique oil spill response research facility 
located at the U.S. Naval Weapons Station Earle, in Leonardo, 
New Jersey. It is government owned, contract operated and 
available for use by government, industry and academia. The 
facility is critical to oil spill response technology 
development in the United States. It is the only facility in 
the world that allows for full-scale oil spill response 
testing, training and research conducted with a variety of oils 
in a marine environment and under controlled conditions.
    The oil spill response activities for the Deepwater Horizon 
incident indicate that additional oil spill response research 
is necessary. The Department of the Interior and MMS look 
forward to working with Congress and the Interagency 
Coordination Committee on Oil Pollution Research to focus our 
efforts on needs that have come to light from the Deepwater 
Horizon incident.
    The preliminary review of oil spill response activities for 
the Deepwater Horizon incident indicate that three main 
additional oil response needs are necessary to focus on. One is 
mechanical equipment. Booms and skimmers need to be developed 
to work in the high currents and rough seas. Also, faster 
skimmers are needed. Deepwater subsea containment devices need 
to be tested and perfected, worst-case discharge calculations 
and assumptions need to be reviewed and industry needs to 
substantiate their volumes.
    Thank you for the opportunity to present an overview of the 
MMS oil response research program and the OHMSETT facility. I 
will be happy to respond to any questions.
    [The prepared statement of Ms. Buffington follows:]

                Prepared Statement of Sharon Buffington

    Thank you, Chairman Baird, Ranking Member Inglis, and Members of 
the Subcommittee, for the opportunity to discuss oil spill research at 
the Department of the Interior related to oil and gas exploration on 
the Outer Continental Shelf (OCS). I have been asked to provide the 
Subcommittee with an overview of the role the Minerals Management 
Service (MMS) has in oil spill research, including that of Ohmsett--The 
National Oil Spill Response and Renewable Energy Test Facility, and the 
activities and programs MMS has pursued since the passage of the Oil 
Pollution Act of 1990 to improve oil spill response technologies.
    The MMS is the bureau within the Department of the Interior 
responsible for the management of the Nation's renewable energy, oil, 
natural gas, and other mineral resources on the OCS as well as the 
energy and mineral revenues from the Federal OCS and Federal onshore 
and American Indian lands. The tragedy and the massive spill associated 
with the Deepwater Horizon have underscored the importance of Secretary 
Salazar's reform agenda. The MMS has three distinct missions that are 
to be separated for the benefit of effective energy development, 
enforcement and revenue collection. The Secretarial Order that was 
signed on May 19, 2010 will establish the Bureau of Ocean Energy 
Management, the Bureau of Safety and Environmental Enforcement, and the 
Office of Natural Resources Revenue.
    Currently, it is the MMS that has jurisdiction over approximately 
1.7 billion acres of the OCS, on which there are about 7,400 active oil 
and gas leases. Key missions for both our conventional and renewable 
energy programs include safety, protection of the environment, 
coordination with affected state and local governments and Federal 
agencies, and a fair return for the use of OCS lands. MMS works with 
other Federal agencies, state and local governments, industry, and 
academia to achieve a common objective to maintain high standards for 
safety and environmental protection and to meet national economic, 
security and energy policy goals. In Calendar Year 2009, the OCS was a 
significant source of oil and natural gas for the Nation's energy 
supply, providing about 570 million barrels of oil and 2.4 trillion 
cubic feet of natural gas, accounting for about 31 percent of the 
Nation's oil production and 11 percent of domestic natural gas.
    Whenever oil is being handled--whether in tankers, pipelines, or 
production facilities, onshore or offshore, in the U.S. or abroad--
spills are a possibility. For that reason it is imperative that U.S. 
and international agencies work together to prepare for oil spills in a 
comprehensive manner. This preparation includes continued improvement 
in response technology and procedures.

Overview

    For more than 25 years, MMS has conducted oil spill response 
research (OSRR) to improve capabilities for detecting and responding to 
an oil spill. The major focus of the program is to improve the 
knowledge, technologies and methodologies used for the detection, 
containment, and cleanup of oil spills that may occur on the OCS. The 
OSRR program is a cooperative effort bringing together funding and 
expertise from research partners in Federal Government, industry, 
academia and the international community to collaborate on research 
projects. The OSRR program operates through contracts with 
universities, government agencies and laboratories and private industry 
to assess technologies and to perform necessary applied research. The 
findings resulting from the research are disseminated through a variety 
of public forums such as workshops, conferences, peer-reviewed 
publications and the internet. The intent is to make this information 
widely available to oil spill response personnel and organizations 
world-wide.
    The MMS coordinates oil spill research closely with the National 
Oceanic and Atmospheric Administration (NOAA), the U.S. Coast Guard 
(USCG), and the Environmental Protection Agency (EPA) through 
participation on the National Response Team and on the Interagency 
Coordination Committee for Oil Pollution Research. This allows the MMS 
to foster collaborative research at the national and international 
level, optimize current and future research initiatives, minimize 
research duplication, and ensure that the needs of the OCS program are 
addressed. Partnering has reinforced MMS's oil spill response research 
and has encouraged oil spill technology development efforts by academia 
and industry. The MMS has participated in the exchange of technological 
information with Canada, France, Germany, Japan, Norway and the United 
Kingdom through cooperative research projects, workshops and technical 
meetings.
    The activities undertaken by the MMS OSRR program comply with the 
research and development provisions of Title VII (33 USC Sec. 2761-
2762) of the Oil Pollution Act of 1990 (OPA-90). The OPA-90 authorized 
up to $28 million annually for oil spill research across the Federal 
agencies, subject to appropriations. The MMS funding for oil spill 
research activities is appropriated from the National Oil Spill 
Liability Trust Fund and for the past ten Fiscal Years has been between 
$6 and $7 million. To date, MMS has funded over 120 projects directly 
related to oil spill research. These projects cover topics ranging from 
oil behavior in water, chemical treating agents, remote sensing, spill 
response in arctic environments, mechanical containment options and in-
situ burning.
    The Ohmsett facility, which is discussed later in more detail, is a 
600-foot long test tank managed by MMS, has been integral to many of 
these projects, and remains an important tool for MMS, academia and the 
oil spill response industry.
    MMS plans and implements OSRR projects that have multiple phases in 
a stepwise approach over several years, enabling MMS to secure 
cooperative funding from private industry as well as countries that 
have offshore regulatory programs. The MMS OSRR program monitors and 
works with other agencies and industry whenever possible through active 
partnering. More than 40 percent of the OSRR projects are jointly 
funded projects, where MMS partners with other stakeholders to maximize 
research dollars.
    Information derived from the OSRR program is directly integrated 
into MMS's offshore operations and is used to make regulatory decisions 
pertaining to permitting and approving plans, safety and pollution 
inspections, enforcement actions, and training requirements. The MMS as 
well as U.S. and foreign government agencies and organizations 
worldwide use the results from the OSRR program and Ohmsett in making 
planning, regulatory, and emergency response decisions.

MMS Oil Spill Response Research

    Many technical advances in oil spill response can be attributed to 
relevant multi-phase research projects that involve scientists 
worldwide. Applied research and the development of response strategies 
traditionally involve a combination of laboratory small-scale tests, 
meso-scale tank and basin experiments, and full-scale field trials. The 
MMS has used this approach to develop, initiate, and conduct more than 
200 meaningful oil spill response research projects. In light of the 
ongoing spill in the Gulf, however, it is obvious that much work 
remains to be done.
    Once the MMS has identified a research need or data gap in spill 
response, we initiate and conduct a scoping project to define the 
current state-of-the-art for this technology or methodology. The 
results from these scoping projects are used to develop a systematic 
approach required to successfully address the data need. Communicating 
the results from these projects to government agencies and private 
industry is the next step to build consensus on the future research 
direction. A carefully focused work plan or agenda encompassing a 
priority list of projects is developed. It is generally beyond the 
capabilities of any one organization to fund these projects in their 
entirety. International cooperation, including governmental and 
industry participants, is needed to make substantial progress in the 
most important research and development areas. Given the specialized 
nature and limited number of researchers actively working on oil spill 
response, it is essential to involve different centers of expertise on 
a global scale. The MMS has initiated many successful jointly funded 
projects (national or international) to leverage our program funds and 
expand the scope of the project to develop innovative or new 
technological advancements to detect, contain, and clean up oil spills 
in the marine environment.

Ohmsett--The National Oil Spill Response and Renewable Energy Test 
                    Facility

    Ohmsett is a unique oil spill response research test facility 
located at the U.S. Naval Weapons Station Earle, Leonardo, New Jersey. 
The term Ohmsett is an acronym for Oil and Hazardous Materials 
Simulated Environmental Test Tank. It is the only facility in the world 
that allows for full-scale oil spill response testing, training and 
research conducted with a variety of oils in a marine environment under 
controlled conditions.
    Ohmsett was originally constructed and operated by the EPA from 
1973 until it was closed in 1988. The U.S. Navy acquired Ohmsett in 
March of 1989 just a few months before the Exxon Valdez oil spill in 
Prince William Sound, Alaska. That event prompted renewed interest in 
responding to oil spills, and within a year OPA-90 was signed into law. 
That same year, Ohmsett was formally mandated for use as a testing 
facility under the control of MMS. With additional financial support 
from the USCG and Environment Canada, MMS began a two-year restoration 
project for Ohmsett, and dedicated the facility in July of 1992.
    The facility is critical to oil spill response technology 
development in the U.S. and is a vital component of the MMS nationwide 
oil spill research program. Ohmsett plays an essential role in 
developing the most effective response technologies, as well as 
preparing responders with the most realistic training available before 
an actual spill. Ohmsett is a government owned, contractor operated 
facility; and is available for use by state, Federal, and foreign 
government agencies, industry and academia.
    The Ohmsett facility represents a necessary intermediate step 
between small scale ``laboratory testing'' and open water testing of 
equipment. Ohmsett is used to test and evaluate mechanical response 
equipment such as oil spill containment booms and skimmers and 
temporary storage devices. We can test and evaluate fire resistant 
containment booms using an air-injected propane burner system that 
realistically simulates in situ burning at sea. The Ohmsett facility 
allows for testing and evaluation of remote sensing instruments under a 
wide range of conditions. Sensors can be mounted on the Ohmsett Bridge 
or on the tower above the tank. The tank is also large enough that 
aircraft and helicopters can fly over a test oil slick to evaluate 
sensor performance.
    The Ohmsett facility also conducts realistic dispersant 
effectiveness testing through the design and development of a 
calibrated, referenced and realistic test protocol and subsequent 
testing under cold and temperate conditions using fresh and weathered 
crude and fuel oils. The National Research Council strongly supported 
the use of wave tank testing in their recent review of chemical 
dispersants. Ohmsett is the world's largest wave-tank complex presently 
conducting such research and is the logical venue for bridging the gap 
between laboratory and field testing. MMS has added the capability to 
conduct effectiveness testing on a variety of chemical treating agents, 
dispersants and emulsion breakers and sorbent products. All equipment 
tests are conducted in accordance with the American Society of Testing 
and Materials (ASTM) standards and guidelines.
    Ohmsett is also the premier training site for spill response 
personnel from state and Federal Government agencies, private industry 
and foreign countries. While receiving state of the art training, 
students use full-size equipment with real oil in varying oceanographic 
conditions to increase their recovery proficiency. Publication of the 
Ohmsett Gazette, the facility's semi-annual newsletter, keeps the oil 
spill community abreast of recently conducted facility activities. 
Ohmsett's website, found at http://www.ohmsett.com, describes the 
testing that the facility conducts and gives objective results of the 
research conducted.

MMS Oil Spill Response Research

    The following are some examples of the information and 
technological advances of the MMS OSRR Program that are currently being 
used to respond to the Deepwater Horizon oil spill.

        1.  Physical and chemical properties of crude oil
           Crude oils differ greatly in physical and chemical 
        properties, and these properties tend to change significantly 
        during a spill with physical weathering, biodegradation and 
        emulsification. Such properties have a direct bearing on oil 
        recovery operations, influencing the selection of response 
        methods and technologies applicable for cleanup, including 
        their effectiveness and capacity. Knowledge of the ultimate 
        fate and behavior of oil should drive countermeasure decisions.

         Since the early 1990s, the MMS and Environment Canada (EC) 
        have jointly funded research to analyze different types of 
        crude oil and oil products and include this information in a 
        searchable database. The database currently has information on 
        more than 475 different oil types. It is available at http://
        www.etc-cte.ec.gc.ca/datahases/OilProperties/
        oil<INF>-</INF>prop<INF>-</INF>e.html.

         The physical and chemical properties from several Gulf of 
        Mexico crude oils contained in the catalog closely resemble the 
        oil being released at the Deepwater Horizon site. This 
        information is currently being utilized by various government 
        and industry spill modeling groups to determine the fate, 
        behavior and transport of the oil.

        2.  Project ``Deep Spill''
         In June 2000, the Deep Spill experiment (a jointly funded 
        project initiated by the MMS that included 23 different oil 
        companies) was conducted in the Norwegian Sea and included four 
        controlled discharges of oil and gas from a water depth of 844 
        meters. Empirical data was obtained for verification and 
        testing of numerical models for simulating accidental releases 
        in deep waters. The experiments were also used to test 
        equipment and methodologies for monitoring and surveillance, 
        and evaluation of the safety aspects of accidental releases of 
        gas and oil in deep waters. Spill models currently being used 
        by the Unified Command for the Deep Water Horizon oil spill 
        were developed with data and algorithms gathered from project 
        Deep Spill.

        3.  Oil Spill Thickness Sensor
         One of the most important initial steps in response to an oil 
        spill at sea is the assessment of the extent of the oil slick 
        and the quantity (i.e. thickness) distribution of oil within 
        it. A critical gap in spill response was the lack of capability 
        to measure and map accurately the thickness of oil on water and 
        to rapidly send this information to response personnel in the 
        command post.

         Over a three-year period (2005-2008), the MMS and the 
        California Department of Fish and Game, Oil Spill Prevention 
        and Response (DFG/OSPR) jointly funded a research program to 
        remotely measure and map the thickness of an oil slick using a 
        portable multispectral and thermal camera the information 
        gathered is electronically transmitted to a secure server that 
        can be accessed by first responders. This new remote oil spill 
        mapping and detection technology has been used in California 
        three times in the past year to assist in response operations. 
        It is currently being used for the Deepwater Horizon oil spill. 
        The system acquires, processes and disseminates digital 
        Geographic Information System compatible oil slick thickness 
        maps in near real time and transmits this information directly 
        to response personnel in the command post to assist with 
        operational response decisions and deployment of manpower and 
        response countermeasures.

        4.  Mechanical Containment and Recovery
         In most countries, mechanical recovery of spilled oil is the 
        first and preferred response option. A containment boom is 
        normally used in combination with an oil recovery skimmer. MMS 
        research has focused on methods to improve the effectiveness of 
        equipment and techniques for the mechanical recovery of oil 
        spills. Research on the processes of oil adhesion to the 
        surface of oil skimmers improved recovery efficiency by 20 
        percent, however further research demonstrated that changing 
        the surface pattern of the drum improved recovery efficiency by 
        over 200 percent. Results from this research project were 
        patented and there are at least six types of grooved skimmers 
        being commercially sold around the world. Several of the 
        grooved skimmers are being used by the Unified Command in the 
        Deepwater Horizon oil spill.

        5.  Development of Standard Test Protocols
         The USCG and the MMS have collaborated in an effort to develop 
        a standard protocol for testing oil skimmers. The American 
        Society of Testing and Materials (ASTM) subcommittee on 
        skimmers recently adopted the standard methodology (ASTM F631-
        99 (2008)) for measuring the effective daily recovery capacity 
        (EDRC) for a given skimmer system. The USCG uses EDRC as a key 
        component in rating and regulating the oil spill response 
        capability of responsible parties and oil spill removal 
        organizations. Skimming systems being used for the Deep Water 
        Horizon response have been tested at Ohmsett using this new 
        ASTM protocol.

        6.  In Situ Burn Research
         MMS was designated as the lead agency for in situ burn 
        research (ISB) in the Oil Pollution Research and Technology 
        Plan prepared under the authority of Title VII (33 USC Sec. 
        2761-2762) of the OPA-90. Between 1995 and 2003, the MMS 
        partnered with the National Institute of Standards and 
        Technology to conduct more than ten different ISB research 
        projects involving hundreds of laboratory, small and full-scale 
        and at sea burn experiments. Emphasis was on the emissions to 
        air and water, equipment evaluations including fire resistant 
        booms, smoke plume modeling, and research to extend the 
        ``Window of Opportunity'' through the use of chemical herders 
        and emulsion breakers.

         The technology to effectively predict downwind smoke plume 
        trajectories and monitor particulate concentrations has evolved 
        with the MMS ISB research program. Smoke plume models and 
        monitoring protocols have been developed and are available. A 
        Large Outdoor Fire Plume Trajectory model (ALOFT) was developed 
        to predict and analyze the downwind distribution of smoke 
        particulates and combustion products from large burns. Two 
        versions are available: one for flat terrain and the other for 
        mountainous terrain. Monitoring capability can be readily 
        deployed to support in situ burn operations.

         To disseminate results of eight years of intensive ISB 
        research, the MMS assembled a comprehensive compendium of 
        scientific literature on the role of in situ burning as a 
        response option for the control, removal and mitigation of 
        marine oil spills. All operational aspects of burning are 
        covered in detail. The MMS has distributed more than 5,000 ISB-
        CD sets worldwide. Results from the MMS ISB research program 
        are currently being used to make operational decisions on use 
        of burning as a countermeasure for the Deep Water Horizon oil 
        spill.

         Results from the MMS ISB research program are currently being 
        used to make operational decisions on use of burning as a 
        countermeasure for the Deep Water Horizon oil spill.

        7.  Chemical Dispersants
         The use of chemical dispersants is another important option in 
        oil spill response. In the past seven years, fifteen major 
        dispersant research projects were conducted at Ohmsett 
        addressing five critical operational areas including: 
        quantifying the major factors limiting dispersant performance, 
        improving monitoring of dispersant effectiveness, addressing 
        specific operational questions related to the physical and 
        chemical properties of dispersants and the interaction of 
        treated hydrocarbons with physical removal devices such as 
        skimmers, scaling-up from bench tests to full-scale field 
        testing, and addressing site-specific performance questions 
        (i.e. Arctic versus temperate Gulf of Mexico). More 
        information, including publications of Ohmsett research, can be 
        found on the Ohmsett web page, available at: http://
        www.mms.gov/tarprojectcategories/ohmsett.htm

Future Oil Spill Response Research

    The oil spill response activities for the Deepwater Horizon oil 
spill indicate that additional oil spill response research is 
necessary. The Department of the Interior and MMS look forward to 
working with Congress and the Interagency Coordination Committee on Oil 
Pollution Research to focus our efforts on needs that have come to 
light from the Deepwater Horizon oil spill.

Conclusion

    Mr. Chairman, this concludes my prepared statement. Thank you for 
the opportunity to present an overview of the MMS's oil spill response 
research program and the Ohmsett facility. I would be happy to respond 
to questions you or Members of the Subcommittee have.

                    Biography for Sharon Buffington

    Ms. Sharon Buffington has been the Chief, Engineering Research 
Branch for more than seven years. In that capacity, Ms. Buffington 
supervises a multi-disciplinary staff of scientists and engineers who 
manage oil spill response research, safety of operations research, and 
renewable energy research. Ms. Buffington received a degree in 
Petroleum and Natural Gas Engineering from the Pennsylvania State 
University prior to working for MMS.

    Chairman Baird. Thank you, Ms. Buffington.
    Dr. Venosa.

  STATEMENTS OF ALBERT VENOSA, DIRECTOR, LAND REMEDIATION AND 
 POLLUTION CONTROL DIVISION, NATIONAL RISK MANAGEMENT RESEARCH 
 LABORATORY, OFFICE OF RESEARCH AND DEVELOPMENT, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Dr. Venosa. Thank you, Mr. Chairman and Members of the 
Science and Technology Committee. I am Dr. Albert Venosa, 
Director of the Land Remediation and Pollution Control Division 
of EPA's Office of Research and Development. It is a pleasure 
to be here today to discuss EPA's oil spill research program, 
its accomplishments and future research plans.
    I have been with the Agency for 41 years, and for the last 
21 I have led EPA's oil spill research and development program. 
Its objective is to provide environmental managers with the 
tools, models and methods needed to mitigate the effects of oil 
spills in all ecosystems with emphasis on the inland 
environment and to conduct human and ecotoxicity research to 
understand the impacts that oil spills pose to environmental 
receptors. The research includes development of practical 
solutions to mitigate oil spill impacts on freshwater and 
marine environments, development and publication of remedial 
guidance for cleanup and restoration of oil-impacted 
environments, determination of the latent effects of oil 
contamination in the environment through effective modeling of 
oil transport in a variety of settings, and developing 
definitive understanding of the toxicity impacts to ecosystems 
and humans exposed to hydrocarbons from spills.
    So why does oil spill research need to be continued? The 
answer to this question has been made clear by the recent 
devastating and continuing oil spill in the Gulf of Mexico. 
Numerous questions have been raised on the effectiveness of 
dispersants, their inherent toxicity, the toxicity of dispersed 
oil and how to deal with the shoreline and wetlands that are 
now being impacted as the spill moves to shore. Consequently, 
continued research is vital to find more effective ways to 
respond to both traditional petroleum spills and spills of non-
traditional alternative fuels and fuel blends.
    With regard to our past and current research, EPA's 
research has resulted in new protocols for testing the 
effectiveness of commercial oil spill treating agents, guidance 
documents for implementing bioremediation in different 
environments, a clearer understanding of the impact and 
persistence of non-petroleum oil spills in the environment, and 
development of new spill treatment approaches, especially for 
wetlands and marshes.
    The Deepwater Horizon spill is raising questions about the 
inherent problems associated with current spill mitigation 
technologies. EPA's approach to addressing these questions is 
to encourage such innovative approaches as green chemistry and 
the development of new, less toxic dispersants and other 
physical, chemical, biological and combination techniques for 
treating oil spills.
    In terms of our future research, because of the Deepwater 
Horizon spill, future research will necessarily involve some 
major refocusing of effort. Some key issues resulting from this 
incident have raised new concerns about the effectiveness and 
toxicity of dispersant use, especially in the deep sea. The 
following examples involving dispersants highlight the needs in 
this area. The needs are not listed in any priority order.
    The first is that we need to understand mechanistically the 
differences among the various types of oil in terms of their 
dispersible properties. Second, we need to better define the 
important conditions controlling or affecting the 
dispersibility of oil including temperature, mixing energy, 
salinity and deep sea hydrostatic pressure. Third, we need to 
determine if a dispersant can be developed that will disperse 
oil trapped in oil and water emulsions. This includes how to 
demulsify them to make them more amenable to mitigation 
technologies. Fourth, a better understanding is needed to 
determine the minimum droplet size required to prevent 
recoalescence, so that the dispersed oil remains suspended in 
the water column. This includes development of models and 
monitoring techniques to track the movement of dispersed oil 
plumes in the deep sea. Fifth, deep sea injection is a new 
treatment approach to mitigate the spill impacts from deep sea 
blowouts. We need a better understanding of the effectiveness 
and ecotoxicological effects of underwater dispersion 
injection. And sixth, we need to define the underwater fate and 
effects of deep sea injection, including transport and impacts 
of spilled oil, dispersed oil and dispersants per se on human 
health and the environment.
    So in conclusion, EPA's oil spill research program is an 
applied practical program that is designed to address real and 
important emergency spill response and environmental protection 
challenges based on high-quality sound science. EPA's research 
informs regulatory decision making and policy development for 
oil spill prevention, preparedness and response programs. EPA's 
oil spill research work is important to the protection of the 
environment from the harm associated with oil spills. Research 
accomplishments have been timely as the Agency has developed a 
better understanding of how dispersants work, how to protect 
wetlands and marshes with innovative sorbent technology and how 
best to implement bioremediation in a variety of environments. 
Aspects of this research have contributed to discussions of the 
current Gulf spill in terms of providing answers to questions 
posed by the media, the government management and regional 
response teams. The research program has been productive, 
successful and pertinent both nationally and internationally.
    Thank you for the opportunity to address the Committee. I 
am happy to answer your questions.
    [The prepared statement of Dr. Venosa follows:]

                 Prepared Statement of Albert D. Venosa

    Good morning. I am Dr. Albert D. Venosa, Director of the 
Environmental Protection Agency's (EPA) Land Remediation and Pollution 
Control Division in EPA's National Risk Management Research Laboratory, 
Cincinnati, Ohio. It is a pleasure to be here today to discuss EPA's 
oil spill research program.
    For the past 21 years, I have led EPA's oil spill research and 
development program. The objective of this program is to conduct basic 
and applied research in both the laboratory and the field in the area 
of spill response technology development.
    Section 7001 of the Oil Pollution Act of 1990 (33 USC 2761) 
established an Interagency Coordinating Committee on Oil Pollution 
Research (ICCOPR), chaired by the USCG, to coordinate a comprehensive 
program of oil pollution research and development among 13 Federal 
agencies in cooperation and coordination with industry, academia, 
research institutions, state governments, and other nations. The ICCOPR 
was mandated to coordinate research and development in innovative oil 
pollution technology, oil pollution technology evaluation, oil 
pollution effects research, demonstration projects, simulated 
environmental testing, and a regional research program. This was 
accomplished effectively both in-house in each agency as well as 
through coordinated research grants to non-Federal institutions 
mentioned above. The program has been successful, but much more still 
needs to be done to improve our response capabilities to national 
disasters such as the current Deepwater Horizon tragedy that has 
impacted the rich ecosystem of the Gulf of Mexico.

Why does oil spill research need to be continued?

    The answer to this question has been made clear by the recent, 
devastating, and continuing oil spill in the Gulf of Mexico. Numerous 
questions have been raised on the effectiveness of dispersants, their 
inherent toxicity, the toxicity of dispersed oil, and how to deal with 
the shoreline and wetlands that are now being impacted as the spill 
moves to shore.
    A 2006 study presented at the Freshwater Spills Symposium reported 
that, from 1980 to 2003, more than 280 million gallons of oil of all 
types (about 12 million gallons/year) were discharged to the inland 
waters of the U.S. or its adjoining shorelines in about 52,000 spill 
incidents. Little is known about the effect of spills of biodiesel, 
emerging biofuels, or by-products from their manufacture on watersheds. 
Waterborne transportation of oil in the U.S. continues to increase, and 
the volume of oil spilled from tank barges has remained constant at 
approximately 200,000 gallons spilled each year. EPA is also concerned 
about spills from pipelines and above ground storage tanks that could 
contaminate surface waters. These are the major sources of inland oil 
spills nationwide.
    An oil discharge to the waters of the U.S. could affect drinking 
water supplies; sicken and/or kill fish, animals, and birds; foul 
beaches and recreational areas; and persist in the environment, harming 
sensitive ecosystems. Consequently, research is necessary not only to 
continue to find effective ways to mitigate and respond to petroleum 
spills but also to understand the potential adverse human health and 
ecological consequences of spills of alternative fuels and non-
petroleum oils and to develop effective clean-up tools to mitigate 
these adverse consequences. Recent research on vegetable oils and 
biodiesel blends suggests that the biodegradability and environmental 
persistence of these oils is very complex <SUP>2</SUP>. Developing an 
understanding of the potential environmental impacts associated with 
spills of these oils requires fundamental research. Such fundamental 
research is critical in providing sound science to inform decision-
making and field applications.

EPA's Role in Spill Response

    The National Oil and Hazardous Substance Pollution Contingency Plan 
(NCP), which has been in effect for 41 years, established a successful 
oil spill response framework defining the roles of Federal agencies. 
Under the NCP, the EPA or USCG provide Federal On-Scene Coordinators 
(FOSCs) for the inland and coastal zones, respectively, to direct or 
oversee responses to oil spills. Other Federal agencies with related 
authorities and expertise may be called upon to support the FOSC. At 
the national level, these Federal agencies coordinate their activities 
through the National Response Team (NRT). The NRT is comprised of 15 
Federal departments and agencies and is chaired by EPA and vice-chaired 
by the USCG. The NRT coordinates emergency preparedness and response 
activities for oil and hazardous substance pollution incidents and 
provides Federal resources, technical assistance, and policy guidance 
as defined in the NCP. The Science and Technology Committee, which is 
the NRT's science arm and of which I am a participating member, 
provides a forum for the NRT to fulfill its delegated responsibilities 
in research and development. Users of and sometimes collaborators in 
our research include multi-agency regional response teams, EPA's 
environmental response team, EPA and USCG FOSCs, and other government 
agencies such as NOAA, Fish and Wildlife Service, and states. Not only 
do these U.S. organizations rely significantly on EPA's research 
results, the international community does as well.

Past and Current Research

    EPA's research includes development of practical solutions to 
mitigate spill impacts on freshwater and marine environments; 
development of remedial guidelines that address the environment, type 
of oil (petroleum and non-petroleum oils), and agents for remediation; 
and modeling fate and effects in the environment. Spill mitigation 
research includes bioremediation, chemical and physical 
countermeasures, and human and ecotoxicity effects. Fate and effects 
research focuses on modeling the transport of oil in a variety of 
settings with application to field situations.
    The work described above has resulted in new protocols for testing 
the effectiveness of commercial oil spill treating agents; guidance 
documents3 for implementing bioremediation in different environments 
such as wetlands, salt marshes, and sandy shorelines; a clearer 
understanding of the impact and persistence of non-petroleum oil spills 
in the environment (i.e., vegetable oils, animal fats, and biofuel 
blends); and development of new treatment approaches. Important on-
going research is helping to understand oil persistence long after the 
initial spill incident, such as the Exxon Valdez oil that still lingers 
in certain areas of Prince William Sound, Alaska. We need to understand 
if the lingering oil still poses an environmental threat to the habitat 
and the resources at risk. If it does, we must learn why it still 
lingers and develop means to remove this lingering oil to safeguard the 
ecosystem.
    Ten years ago, EPA began conducting research on non-petroleum oil 
such as vegetable oils and animal fats. This anticipatory research 
investment will be invaluable as the national emphasis on biofuels 
development takes hold because vegetable oils are the primary 
feedstocks for biodiesel production. Contrary to some claims, we have 
found that these oils are not readily biodegradable in the environment 
because of the complexity of chemical interactions among saturated and 
unsaturated fatty acids.
    The Deepwater Horizon spill is raising questions about the inherent 
problems associated with current spill mitigation technologies. One 
approach to addressing these questions is to encourage such innovative 
approaches as green chemistry in the development of new, less toxic 
dispersants and other physical-chemical techniques for treating oil 
spills.

Future Research

    Future research will necessarily involve some major refocusing of 
effort and coordination with other agencies that have leading roles in 
some of the following areas of research. Some key issues as a result of 
the Deepwater Horizon incident have raised new concerns about the 
effectiveness and toxicity of dispersant use, especially in the deep 
sea, so the following examples involving dispersants highlight needs in 
this area. The needs are not listed in any priority order.

        <bullet>  Defining factors of spilled oil that control 
        dispersibility. Oil type is a key factor that needs to be 
        studied in greater depth. We know less about the dispersibility 
        of heavy refined products such as the IFO 180 and 380 fuel 
        oils, bunker C, No. 6 fuel oil, and even No. 2 fuel oil 
        compared to crude oils. We need to understand mechanistically 
        the differences among the various types of oil in terms of 
        their dispersible properties. We also need to understand how 
        water-soluble dispersants differ from oil-soluble ones. We know 
        very little about the biodegradability of dispersants and their 
        constituents in saltwater, which is supposed to be their 
        ultimate fate in the environment. We must increase our 
        understanding of oil properties as they affect dispersibility 
        (weight; viscosity; pour point; percentage of asphaltenes, 
        polar compounds, and toxic components such as aromatics (PAHs), 
        etc.).

        <bullet>  Understanding the natural conditions under which 
        spilled oil is dispersible. These factors include temperature 
        (dispersion may be less effective at low temperatures), mixing 
        energy (wave energy on the water surface is needed for 
        effective dispersion of oil into the water column, but little 
        is known about deep sea injection into rapidly moving oil from 
        a blowout); salinity; sub-sea conditions (dissolved oxygen; 
        hydrostatic pressure; water solubility and composition of 
        dispersants and their constituents; and toxicity to water 
        column species both at the surface, within the water column 
        above and below the pycnocline, and at extreme depths).

        <bullet>  Effectiveness of dispersants on weathered emulsions. 
        If a water-in-oil emulsion (``mousse'') occurs as a result of 
        high-energy mixing, the resulting mousse has properties that 
        prevent dispersion into the water column. We need to understand 
        those properties and develop methods to mitigate them to make 
        the mousse more dispersible. Very little research has been 
        conducted in this area. Research is needed to determine if it 
        is possible for a dispersant to be developed that will disperse 
        oil trapped in water-in-oil emulsions.

        <bullet>  Coalescence and resurfacing of dispersed oil 
        droplets. We know that the smaller the dispersed oil droplets, 
        the less inclined they will be to re-coalesce. However, we 
        still do not know exactly how large they must be for re-
        coalescence to take place. This would be an important property 
        to know and understand as it might affect our ability to 
        improve dispersant treatment. Study of this property would be 
        best done in a wave tank that produces reproducible conditions 
        between experiments. Alternating high energy and quiescent 
        conditions to allow re-coalescence to occur would provide 
        invaluable evidence on conditions for re-coalescence.

        <bullet>  Quantification of horizontal and vertical diffusion 
        of treated oil. We know that vertical diffusion transports 
        droplets deeper into the water column, while buoyancy makes 
        them return to the surface. Wave energy decreases with depth of 
        the water. Diffusion also decreases under the influence of 
        vertical density stratification. Our knowledge of vertical and 
        horizontal diffusion of dispersed oil in water is still very 
        limited. We need better understanding of dispersed oil 
        diffusion in seawater below and above the pycnocline to enable 
        better model development of dispersed oil plumes in deep sea.

        <bullet>  Research on the ecotoxicological effects of 
        underwater injection of dispersants. This is a new area that 
        developed directly as a result of the Deepwater Horizon spill 
        in the Gulf. Additional research is needed to determine the 
        ecotoxicological effects of dispersants and dispersed oil in 
        the deep sea.

        <bullet>  Environmental fate, effects, and transport of 
        released crude oil, dispersed oil, and dispersants on human 
        health and the environment. Spills, explosions, fires, and 
        blowouts can have multiple environmental and public health 
        impacts. Operational discharges of produced water, drill 
        cuttings, and mud have chronic effects on benthic (bottom-
        dwelling) marine communities, mammals, birds, and humans. 
        Humans can be affected by occupational exposure to oil and 
        other chemicals while participating in response and cleanup 
        operations, or by environmental exposure such as ingesting oil-
        contaminated seafood. Marine mammals are affected by the oiling 
        of their fur and skin, and through consumption of oil-
        contaminated foods (e.g., mussels), or via inhalation of fumes 
        that have liver, kidney, and central nervous system toxicity. 
        The marine mammals most commonly affected include seals, sea 
        otters, walruses, sea lions and whales, manatees and dugongs 
        (in tropical waters), and polar bears in the Arctic. Sea otters 
        are particularly vulnerable as they feed near the surface, have 
        little blubber, and depend upon an intact fur coat to maintain 
        their body temperature. Research is needed to better understand 
        these impacts and how to mitigate the effects of an oil spill 
        before it has affected the species at risk, including humans. 
        Ecotoxicity research is needed in areas beyond human health 
        effects, including research about effects on animals and other 
        aspects of the environment.

        <bullet>  Short and long term benefits and impacts of various 
        spill management strategies, practices, and technologies. The 
        various spill management strategies in use today include 
        mechanical removal techniques (use of sorbents, booming and 
        skimming operations), in-situ burning, dispersants, and 
        bioremediation. Mechanical removal techniques are the first 
        line of defense used in response. However, such methods are 
        highly variable in terms of effectiveness, and they depend on 
        where the spill occurred. In-situ burning can be more 
        effective, especially in wetlands where the oil can be 
        concentrated and more easily burned. Dispersants can be 
        effective on open water and used over large areas because of 
        the way they are applied conventionally (overflights by fixed 
        wing aircraft). One major requirement is the need for good 
        mixing (wave energy). Dispersants are much less effective under 
        quiescent conditions. Bioremediation can be very effective on 
        sandy marine shorelines, wetlands, and salt marshes, but it is 
        much slower (weeks to months or more), and bioremediation is 
        not usually considered a first response. All these techniques 
        could be improved with better research and more scientific 
        understanding.

    Finally, EPA's Environmental Response Team (ERT) plays a key role 
in testing and validating monitoring equipment in collaboration with 
the MMS at the Oil and Hazardous Materials Simulated Environmental Test 
Tank (OHMSETT) Facility in New Jersey to understand oil monitoring 
systems under the Special Monitoring and Response Technologies (SMART) 
protocol. This interaction allows ERT and the Coast Guard to be trained 
on oil spill monitoring equipment for detecting oil in the water 
column.

Summary and Conclusions

    In conclusion, I want to emphasize that EPA's oil spill research 
program is an applied, practical program that is designed to address 
real and important emergency spill response and environmental 
protection challenges based on high quality, sound science. Our 
research informs EPA's regulatory decision-making and policy 
development for oil spill prevention, preparedness, and response 
programs and the National Response Team. EPA's oil spill research is 
important to the protection of the environment from oil spills. The 
research has been timely as we have developed a better understanding of 
how dispersants work (quantification of mixing energy needed for 
optimum dispersion and biodegradability of dispersed oil at several 
temperatures) <SUP>4-12</SUP>, how to protect wetlands and marshes with 
innovative sorbent technology, and how best to implement bioremediation 
technology in a variety of environments. All of this research is useful 
for the current Gulf spill in terms of providing answers to many 
questions raised by EPA decision-makers, the Regional Response Teams 
(RRTs), the public, and the news media. It is imperative that EPA's 
Research and Development program continue to support oil spill response 
and prevention through its expertise and the knowledge gained through 
its research. It is critically important that EPA's research program in 
this area continues and evolves to address the needs identified to 
protect our natural resources and cleanup the environment following 
such disasters.
    Thank you for the opportunity to testify today. I am happy to 
answer your questions.

References

1. Etkin, D.S. 2006. Risk assessment of oil spills to US inland 
        waterways. Proc. 2006 Freshwater Spills Symposium (Download 
        PDF).

2. Campo-Moreno, P, Y. Zhao, M.T. Suidan, and A.D. Venosa. 2007. 
        ``Biodegradation kinetics and toxicity of vegetable oil 
        triacylglycerols under aerobic conditions,'' Chemosphere, 
        68(11): 2054-2062.

3. http://www.epa.gov/emergencies/publications.htm#bio

4. Boufadel, M.C., H.L. Li, M.T. Suidan, and A.D. Venosa. 2007. 
        ``Tracer studies in a laboratory beach subjected to waves,'' 
        Journal of Environmental Engineering-ASCE, 133(7): 722-732.

5. Li, Z., P. Kepkay, K. Lee, T. King, M.C. Boufadel, and A.D. Venosa. 
        2007. ``Effects of chemical dispersants and mineral fines on 
        crude oil dispersion in a wave tank under breaking waves.'' 
        Marine Poll. Bulletin, 54: 983-993.

6. Li, Z., K. Lee, T. King, M.C. Boufadel, and A.D. Venosa. 2008. 
        ``Assessment of chemical dispersant effectiveness in a wave 
        tank under regular non-breaking and breaking wave conditions,'' 
        Marine Poll. Bulletin, 56: 903-912.

7. Li, Z., K. Lee, T. King, M.C. Boufadel, and A.D. Venosa. 2009. 
        ``Evaluating crude oil chemical dispersion efficacy in a flow-
        through wave tank under regular non-breaking wave and breaking 
        wave conditions.'' Mar. Pollut. Bull. (2009), 58(5): 735-744.

8. Wrenn, B.A., Virkus, A., Mukherjee, and A.D. Venosa. 2009. 
        ``Dispersibility of crude oil in fresh water.'' Environmental 
        Pollut., 157: 1807-1814.

9. Li, Z., K. Lee, T. King, P. Kepkay, M.C. Boufadel, and A.D. Venosa. 
        2009. ``Evaluating oil spill chemical dispersion efficacy in an 
        experimental wave tank: 1. Dispersant effectiveness as a 
        function of energy dissipation rate.'' Environmental Eng. Sci., 
        26:1139-1148.

10. Li, Z., K. Lee, T. King, M.C. Boufadel, and A.D. Venosa. 2009. 
        ``Evaluating oil spill chemical dispersion efficacy in an 
        experimental wave tank: 2. Significant factors determining in-
        situ oil droplet size distributions.'' Environmental Eng. Sci., 
        26:1407-1418.

11. Li, Z., K. Lee, T. King, M.C. Boufadel, and A.D. Venosa. 2009. 
        ``Evaluating crude oil chemical dispersion efficacy in a flow-
        through wave tank under regular non-breaking and breaking wave 
        conditions.'' Marine Pollution Bulletin, 58:735-744.

12. Venosa, A.D. and E.L. Holder. 2007. ``Biodegradability of dispersed 
        crude oil at two different temperatures.'' Marine Poll. 
        Bulletin 54: 545-553.

                     Biography for Albert D. Venosa

    Dr. Venosa is the Director, Land Remediation and Pollution Control 
Division, National Risk Management Research Laboratory in EPA's Office 
of Research and Development. He leads the Agency's science and research 
programs of the Division and conducts research in his area of 
expertise, which is oil spill remediation and mitigation. From 1990 to 
2010, Dr. Venosa served as Senior Research Scientist and Program 
Manager, Oil Spill Research Program. Dr. Venosa's 21 years of work in 
this area include being a team leader of a science team in the Alaska 
Oil Spill Bioremediation Project involved with assessing effectiveness 
of nutrient formulations in the field. In 1990 he led an independent 
analysis of commercial inocula in multiple field plots on one of the 
Prince William Sound islands. Prior to his work on oil spill 
remediation, he served as EPA's National Program Manager for the 
Pathogen Equivalency Program and prior to that as National Program 
Manager for Municipal Wastewater Disinfection Program.
    Dr. Venosa holds a Doctor of Philosophy degree in Environmental 
Science, a Master of Science degree in Environmental Engineering, and a 
Bachelor of Science degree in Microbiology from the University of 
Cincinnati. His research interests and expertise include development of 
protocols for testing the effectiveness of commercial bioremediation, 
dispersant, surface washing agent, and solidifier products for treating 
spills of crude oil or refined products in seawater, freshwater, beach 
sediments, wetlands, and soils. He has also been involved in developing 
methods for microbiological and chemical analysis of oil and improved 
scientific and practical understanding of the mechanisms of 
biodegradation of petroleum hydrocarbons, especially polycyclic 
aromatic hydrocarbons. Dr. Venosa led three important field studies on 
oil spill bioremediation, one on the shoreline of Delaware in 1994, one 
on a freshwater wetland on the shoreline of the St. Lawrence River in 
Quebec in 1999, and a third on a salt marsh in Nova Scotia in 2001. 
These projects led to the development of two guidance documents for 
bioremediation of sandy marine shorelines, freshwater wetlands, and 
salt marshes. He also led research on the use of bagasse as a sorbent 
for wicking oil from the subsurface of a wetland to the surface where 
aerobic biodegradation can take place. The latter research is timely as 
it is being considered for use in the current Gulf oil spill. Dr. 
Venosa has received many awards for his work, including one gold medal 
and two bronze medals, several STAA awards for publications, and he has 
been lead author on numerous peer-reviewed scientific publications.

                               Discussion

    Chairman Baird. Dr. Venosa, thank you. I want to thank our 
witnesses for staying well within the time and I encourage my 
colleagues to follow this example. I will recognize myself for 
a few minutes and then proceed with Mr. Hall.
    First of all, I want to thank you all for being here today. 
You must be keeping very long hours, and I also thank you for 
all the work leading up to today. And that goes not only for 
those of you who are here but all of your colleagues in the 
field, and please pass our appreciation on to them because I 
know how hard you folks are working and I know how important 
the mission is.
    I just want to make one observation. You know, these 
signature events like Exxon Valdez, now like this blowout in 
the Gulf, tend to focus our attention in the short run as a 
society and then we sort of move on. Ultimately, this well will 
be capped, but the damages will be there for decades, and I 
think it is important to recognize we are all contributing to 
this. Our dependence on fossil fuels adds to this, and it is 
satisfying, I suppose, to point fingers at BP, but all of us in 
this room consume these products, and until we make a 
commitment to reduce that, we are going to continue to face 
these risks.
    My other comment is, I have seen the advertising from BP, 
which quite understandably has a slogan that says something 
like ``We will make this right.'' The facts are, they can't 
make it right. They just can't. Our next panel will talk about 
the lasting damages and we need to be clear about this. This is 
not something that throwing a lot of money or technology at is 
going to make right. Once this happens, the damages are long 
lasting: eleven lives lost, millions of acres of valuable 
wetlands, marshes and coastal zones are destroyed. And so we 
need to be clear: we are trying to minimize and reduce damage, 
but we are not going to make this right. We are going to try to 
make it less bad but it is going to be very, very bad.

          A Possible Lack of Information on Deepwater Drilling

    I want to ask this question. Dr. Venosa, you talked on the 
one hand about project research that has made progress in our 
understanding, but also on the other hand about areas where we 
still need knowledge. Before we approve a drug in medical 
research, we look at side effects, we do a whole lot of risk 
analysis. There are stages, as you know, in drug trials. My 
question as I heard your list of what we still need to know, is 
did we approve this drug of deepwater drilling before we fully 
understood the effects on the patient?
    Dr. Venosa. Well, we do have a procedure that we have to--
that vendors have to follow in terms of getting their products 
listed and they have to get listed on the NCP [National 
Contingency Plan] product schedule, and dispersants were 
probably the number one technology that we thought would be 
best used to mitigate the impact of this huge spill because----
    Chairman Baird. Let me approach it a little differently. I 
mean, I understand you have done research on the dispersants 
but, you know, as I listened to Ms. Buffington's analysis, we 
have analysis, some study in Norway, I guess, of behavior of 
oil at deepwater. Do we really know how well--did we know well 
enough what kind of lasting impacts this would have before we 
approved this deepwater drilling? In other words, were there so 
many unknowns about how oil behaves at depth, how underwater 
deep sea plumes perform, did we just say look, we want the oil 
that is down there, we may not know enough about the 
consequences but let us go ahead and approve the drilling? That 
is open to everybody.
    Dr. Venosa. This is a brand-new approach. We have never had 
to deal with a deep sea blowout like this before, especially at 
5,000 feet below the surface. So no, we don't know what the 
long-term effects are going to be or we didn't know it 51 days 
ago either, but there is a risk and there is a benefit to 
everything you do. No matter what you do, there is going to be 
something that is going to be damaged, so we have to try to 
weigh the risks of the decisions we make versus the benefits 
that we hope we will make.
    Chairman Baird. My concern as I listen to the testimony, as 
I have it and studied it, is I don't know that we knew the 
risks very well. I think we were focused on the benefits and we 
didn't look at the risks.
    Anybody else want to address that issue? Captain Lloyd.
    Captain Lloyd. Yes, sir. One thing I would say is, OPA 90 
remains a solid foundation to work from. I think we have a 
system of preparedness, a planning regime that is in that set 
of laws that is sort of a foundational approach and so when you 
look at something new and unique like deepwater operations, it 
certainly lends itself to the potential for a need for a 
reevaluation of the issues that may result, which is essential 
to what is going to happen in this case. So we do recognize 
that the foundation that was laid in OPA 90 is very solid and 
provides an opportunity for us to form up rapidly.
    Chairman Baird. Thank you. One thing that would be helpful, 
I won't ask for it now, but if anybody has got access to a 
concise document showing how the research conducted since OPA 
90 has informed better practices in this cleanup, that would be 
very helpful so we can see what have we learned that we are 
applying in this case that we didn't know before.
    I recognize Mr. Hall for five minutes.

                 Causes of the Deepwater Horizon Spill

    Mr. Hall. Mr. Chairman, thank you, and I want to thank Mr. 
Venosa for getting right to the point here. You are dealing 
with something that has probably never happened before. We 
don't know why it happened and we apparently don't know what to 
do about it.
    At his speech in Pittsburgh last week, President Obama 
suggested that the core cause of the oil spill was a lack of 
government regulation. That is something we have all been 
trying to run from, too much government regulation, but 
specifically he attacked Republicans for an approach that he 
said, ``gutted regulations and put industry insiders in charge 
of industry oversight.'' And he also said that under the Bush 
Administration, if you are an oil company, you probably get to 
play by your own rules regardless of consequences to everyone 
else. Now, I don't recollect President Bush trying to put 9/11, 
the cause of it on Clinton, and I think these are the words 
of--and there is a reckless accusation made by President Obama, 
who turns out to be a real and certified non-expert on this 
matter. The President is clearly eager to put blame on others. 
However, we still don't understand precisely what went wrong. 
Question: How much do we actually understand about what went 
wrong? Question: Do we know what happened from a technical 
standpoint? If so, do we understand how much of the failure was 
due to inadequate or faulty technology, poor implementation of 
safety protocols or inadequate or ineffective regulatory 
system? And with respect to the regulatory system, do we know 
what to what extent the lack of regulations might have 
contributed to the disaster as opposed to ineffective 
regulations or effective regulations that simply were not 
followed? I am not going to ask you to answer that. I only have 
five minutes. But I will be submitting that to you in writing 
and give you a reasonable time to give me those answers.
    In the small time that I have left, I might just ask a 
question. Why is there a current influx of ideas and solutions 
for cleanup technologies, some of which are considered to have 
real potential, according to the representatives of the Unified 
Command, which are not considered or developed by government 
agencies prior to the current spill? And what technologies have 
been developed from the millions of dollars the Federal agency 
investment in research and development in the last 20 years 
since Exxon Valdez spill and Oil Pollution Act of 1990? Any of 
the four of you that want to tackle that, I would appreciate 
it.
    Captain Lloyd. On the first one with regard to technology 
coordination, there have been many offers of ideas and 
technology proposals and so for that reason, in addition to 
what BP has at their website, the Coast Guard in coordination 
with the other agencies of the Interagency Committee have set 
up a broad agency announcement to receive those ideas so that 
they can be looked at and determined on the merits of the 
proposal. We have received over 100 of those right now and 
there have been other ad hoc proposals that have been received. 
They get a reply back and they are now being looked at by the 
Coast Guard's research and development center.
    Mr. Hall. I thank you. I only have about a minute and 40 
seconds. Would one of the others of you like to address that?
    Mr. Helton. I will take one. Representative Hall, one of 
the issues that Chairman Baird also brought up was, what have 
we learned since the Exxon Valdez, and obviously much of the 
research we have done in the last 20 years was driven by 
lessons learned from that incident. One of the things that we 
have done is, we have done a lot of work on sensors to detect 
oil at sea. We have also done work on improving cleanup 
technologies on the shorelines. One of the things we know from 
Exxon Valdez and other spills is that the cleanup can sometimes 
cause more harm than the spill itself, so trying to design 
effective cleanups that protect the shoreline but don't cause 
additional damages has been a big lesson learned in the last 20 
years.
    Mr. Hall. Well, I thank you for that, and, you know, from 
maybe an ignorant view of it, it seems to me that either the 
Federal Government ought to oversee the cleanup or BP, and of 
those two, BP is much more reliable financially because the 
Federal Government is broke. So they caused it, so I think they 
should have told BP to correct it, and when they correct it, we 
are going to send you the charge for everything else you have 
caused to date. That simplifies it, and I even yield back the 
last 20 seconds of my time. Thank you, Mr. Chairman.
    Chairman Baird. Thank you, Mr. Chairman.
    Mr. Gordon is recognized.

              International and Best Practice Coordination

    Chairman Gordon. Thank you, Chairman Baird.
    As I mentioned earlier, this BP spill is a historic 
tragedy. However, there are spills of different natures 
happening--I won't say daily, but frequently every year. It is 
my understanding that there has been an international spill 
control organization that was incorporated in London in 1984 as 
a nonprofit dedicated to improving worldwide preparedness for 
response to oil and chemical spills. I would like to better 
understand what that organization does, what our U.S. interface 
is with that organization, and what technologies we are, you 
know, learning from other countries and how we are using those. 
Go right ahead.
    Mr. Helton. Thank you, Mr. Chairman. One of the things that 
NOAA does do is participate in international forums with a 
number of countries. I am a delegate to the International 
Maritime Organization. We meet twice a year to discuss 
hazardous and noxious substances and also oil pollution 
response, and that is a mechanism for exchanging information on 
incidents like this. No one country has, thankfully, the 
experience to deal with these kinds of incidents, but I note 
that last year in Australia, there was a large oil blowout, and 
the past meeting of the IMO committee that I am on did focus on 
some of the lessons learned from that incident and was very 
beneficial in the initial stages of this incident in 
understanding what kinds of fates and effects we might expect 
to see. So there is a lot of exchange on incidents and lessons 
learned, and the oil spill community is a fairly small 
community, even internationally. So we see our colleagues, even 
here at this incident, and we have individuals from multiple 
other countries helping to solve and assess this incident.
    Chairman Gordon. Is there any kind of international best 
practices protocol for something like this?
    Mr. Helton. The IMO does prepare manuals and standards. The 
United States has a different format for how we deal with oil 
pollution response that drives some of the--because we have a 
much more of a focus on the ``polluter pays'' model than some 
of the international standards. But in terms of the base 
technologies of how----
    Chairman Gordon. So if they don't do ``polluter pays,'' 
what are they doing?
    Mr. Helton. There is an international liability regime \1\ 
that a number of other countries belong to that is a different 
structure, and in those places often it is the country that 
does the response and seeks reimbursement from this 
international liability regime.
---------------------------------------------------------------------------
    \1\ The International Oil Pollution Compensation (IOPC) funds are 
only applicable to tanker spills. See Appendix 2.
---------------------------------------------------------------------------
    Chairman Gordon. And we are not a part of that?
    Mr. Helton. No, sir.
    Chairman Gordon. And do you have an opinion as to whether 
we should be?
    Mr. Helton. I don't have an opinion. I know that our system 
is considered to be very strong and many other countries look 
at our models for how we do work here, in part because of the 
liability caps that the international regime has.
    Chairman Gordon. Does anyone else want to address that?
    Captain Lloyd. Yes, sir. With regard to best practice 
coordination, another aspect of that interaction is conferences 
where papers are submitted and they are reviewed and they may 
or may not have technical merit and it is private industry, 
government, state, local and international. This goes back also 
to the regime set forth in OPA 90 which is based on the 
``polluter pays'' principle. We can give you the details. We 
are a signatory to the OPRC, which is the international treaty, 
but we use the OPA 90 regime, and we can provide those details 
for the record.
    [The information follows:]

               U.S. Coast Guard Insert Regarding the OPRC

    In July 1989, a conference of leading industrial nations in Paris 
called upon the IMO to develop further measures to prevent pollution 
from ships. This call was endorsed by the IMO Assembly in November of 
the same year and work began on a draft convention aimed at providing a 
global framework for international co-operation in combating major 
incidents or threats of marine pollution.
    Parties to the Oil Pollution Preparedness, Response and Co-
operation (OPRC) convention are required to establish measures for 
dealing with pollution incidents, either nationally or in cooperation 
with other countries. To date there have been 11 meetings of the 
Response Planning Cooperation-Work Group. This group has devised and 
promulgated an international treaty (USA ratified and internationally 
in effect) which defines minimum strategies and responsibility for 
Administrations in dealing with pollution clean-up. The USCG has been 
an active participant to this treaty and the guidelines and resources 
associated with it. For example, the U.S. delegation recently submitted 
papers titled: A Field Guide for Oil Spill Response in Ice and Snow; 
Shoreline Assessment Manual and Dispersant Use Guidelines.
    The Coast Guard also provides a leading role in the following 
annual meetings of responders and response technology vendors: The 
Clean Gulf Conference, The Clean Atlantic Conference, the Clean Pacific 
Conference and the International Oil Spill Conference. Papers are 
submitted, peer reviewed and presented at these conference. The 
following are a few of the topics presented at these events: Incident 
Action Plans; Marine Firefighting and Salvage case studies and 
Transitioning vessel casualty events to marine pollution response 
operations.
    These events, along with annual mandatory oil spill response 
exercises (tabletop and on water mobilization) as well as regularly 
scheduled meetings and Regional Response Team meetings (semi-annually) 
offer excellent opportunities for local, state and, Federal agency 
personnel to meet and work together on oil and hazardous chemicals 
response topics as well as policy and coordination issues.
    Coast Guard and Federal Maritime Commission regulations require 
outer continental shelf facilities with capacity >1,000 barrels and 
every vessel carrying oil as cargo or vessels greater than 300 tons 
that carry oil as fuel to have a Certificate of Financial 
Responsibility (COFR) as a demonstration of financial ability to pay 
for an oil spill resulting from the oil they carry. The COFR is in 
essence a bond signifying that an insurer has been arranged to provide 
the funding likely to arise from a pollution incident from the vessel 
or facility covered. COFR's have specific dollar amount coverage's 
stipulated in regulation which are fixed at $75 million for facilities 
but vary for ships based on tonnage. Courts can eliminate the caps for 
polluters found guilty of negligence or willful misconduct.

    Our approach of having private companies bear the burden 
for marine accidents that they may cause is seen as a best 
practice. In a lot of other countries, the Nation tries to bear 
that response and in many instances they struggle with that.
    Chairman Gordon. Do smaller companies have to put up some 
kind of bond? I mean, it is fine to say that the polluter pays, 
but if you have someone who is broke, then what do we do?
    Captain Lloyd. Well, and that is what the purpose of the 
Oil Spill Liability Trust Fund is. There are planning 
requirements and applicability requirements in OPA 90 for those 
that ship or store oil, and that would drive their planning and 
their contracting for those means.
    Chairman Gordon. Does anyone else want to make a brief 
comment on that? If not, I yield back the balance of my time.
    Chairman Baird. Thank you, Mr. Gordon.
    I recognize Mr. Ehlers.

                         MMS Spill Preparedness

    Mr. Ehlers. Thank you, Mr. Chairman, and Ms. Buffington, 
you have escaped unscathed so far, so I will see what we can do 
for you.
    One thing that strikes me about the whole issue, one thing 
I have learned in my research as a physicist is that anything 
that can go wrong will, and it seems to me that was not--that 
was a new concept to a lot of the people working on this.
    The other saying that I learned from my mother, an ounce of 
prevention is worth a pound of cure. In a case like this, it is 
probably an ounce of prevention is worth $100 million of cure. 
I am just astounded that people seem surprised that this oil 
spill could happen. I just assumed it would happen at some 
point. There is no evidence that it wouldn't.
    And secondly, the surprise that there is this plume of oil 
forming, and I remember as a child hearing about the gushers in 
Texas. If you tap into a source of oil that is under pressure, 
which many of them are, particularly at great depths, this is 
going to happen, and I am just surprised there hasn't been 
greater expectation of this and better preparation for dealing 
with it. It is great now to use this as an experiment on how to 
clean up, how to stop it and so forth, but all of that should 
have been done before, and I am just amazed that there isn't a 
greater regulatory mechanism that says you will do this.
    Having said that, I know that MMS has been active in 
deepwater oil spill response research. I am wondering why you 
haven't specifically addressed the research recommendations 
from Project Deep Spill and why you were not better prepared to 
deal with something of this magnitude, and I am not taking the 
burden off BP by asking you this. The entire industry should 
have been asking that question. I would appreciate your 
comments on that.
    Ms. Buffington. Representative Ehlers, it is true, we had 
Project Deep Spill in the Norwegian Sea, and it provided data 
to look at the spill models, and it was in 800 meters of water. 
The information from that is being applied in the Deepwater 
Horizon incident. I think what is surprising is the amount of 
time this is going on.
    Mr. Ehlers. In what way? What would you have expected?
    Ms. Buffington. I would have expected the spill to be not 
as long as this.
    Mr. Ehlers. And for what reason?
    Ms. Buffington. That it would have been capped by now.
    Mr. Ehlers. And how would you have proposed capping it?
    Ms. Buffington. I don't have that information in front of 
me, and, you know, we can get back with some more information 
to you, but----
    Mr. Ehlers. BP had no plans about capping?
    Ms. Buffington. They have the oil spill response plan, and 
I guess they have been trying different techniques but they 
haven't been successful obviously.
    Mr. Ehlers. I am just surprised they are continuing to 
drill if they haven't solved that basic problem. Frankly, the 
entire corporation is at risk because of a lag to do so.
    Ms. Buffington. There is much more research gaps that we 
need to look at for deepwater for oil spill response in 
deepwater, and the lessons learned from this incident will be 
applied back into the research program.
    Mr. Ehlers. Yes, a bit late, however. I am just terribly 
bothered about the lack of foresight, both of our government 
and of BP, and of course, BP will pay a price for that, perhaps 
even the failure of the corporation at the rate it is going. 
But it is very distressing to me that something like this was 
not foreseen and expected and plans in place to deal with it. I 
just don't see much evidence of that.
    I am also surprised that people are surprised that the oil 
would go to the top and spread as rapidly as it did. Again, 
that is to be expected just from the simply chemistry and 
physics of that situation. So I think there is a lot of people 
at fault here.
    One last comment. On 60 Minutes, they had one of the 
workers who quoted someone, quoted a BP person who said, ``we 
are going to go ahead and do it, we know it will be safe'', et 
cetera. Is there a record of that and will that person be 
punished?
    Chairman Baird. Mr. Ehlers, I am going to--your five 
minutes is up, but I am going to be very strict on this today. 
I am sorry, my friend.
    Mr. Ehlers. That is really too bad. This is the best 
question yet.
    Chairman Baird. I know. You will just have to time it 
better next time. You can of course submit questions for the 
record. I think it is an excellent question, but in the 
interest of allowing my colleagues all to ask questions, Ms. 
Woolsey is recognized for five minutes.

      The Federal Oil Spill Research Act and Agency Responsibility

    Ms. Woolsey. Thank you, Mr. Chairman.
    Thank you all for being here today--not an easy task but 
you can all be glad you are not Admiral Allen. Imagine, he 
hasn't stopped talking for weeks now. So difficult.
    Oil spill prevention and mitigation is more than important 
to me and the people I work for because we have to protect our 
environment, we have to protect our coastal economies. But in 
my district, we were severely affected by a minor spill in 
November of 2007. The container ship Cosco Busan collided with 
the San Francisco Bay Bridge and released 58,000 gallons of oil 
into the San Francisco Bay and this was considered a minor 
spill, and, compared to the Gulf of Mexico, it certainly was a 
minor spill. But this spill spread rapidly. It affected large 
areas of the north coast, the Golden Gate Bridge National 
Recreation Area, Point Reyes Seashore, Gulf of the Fairlawns, 
Monterey Bay national marine sanctuaries. The beaches of Marin 
County were soiled. The Federal parklands were sullied, and 
restoration projects were threatened. So this experience showed 
me, and this was 2007, that we had some real questions when we 
were through with this, and my major question was well, who is 
in charge here, and that is why I introduced H.R. 2693, the 
Federal Oil Spill Research Act, and of course here in this 
Committee, we are responsible for science and research and 
development, but my question was really bigger than that. I 
mean, who is in charge? Because we have to coordinate Federal 
research and development. We have to coordinate the cleanup and 
the prevention. There is so much that I think was left 
unanswered at that point and is more than unanswered for me 
today.
    So I need to ask you--well, I have a little side thing I 
want to say. No matter who is in charge, if the operators do 
not play by the rules, it really doesn't matter. If they are 
going to shortcut the system, if they are going to ignore signs 
that there could be a problem, if they are not going to care 
particularly about the safety of their workers, it doesn't 
matter how good our system is.
    But my question for you, and I would like to start with Mr. 
Helton and go down, if we do need a better coordinated Federal 
research and development effort for oil spill technology, which 
agency should lead the effort for research and development? And 
we need an umbrella agency. I mean, we have got, what, 15, 17 
agencies, you know, that are responsible here. Which particular 
agency should be responsible, Mr. Helton?
    Mr. Helton. Thank you. NOAA is a science agency and we 
understand the oceans and the atmosphere and we can contribute 
a great amount to the research for oil pollution, but oil 
pollution response is more than just understanding what is 
happening in the ocean. It is also how to design ships to be 
safer, how to design engineering controls such as the blowout 
preventers to be safer. So I think it is important the way that 
we have it structured now with the Coast Guard as the lead of 
this interagency group with contributions from the other 
agencies as they can contribute. My agency can certainly 
contribute with effects on fish and wildlife and water columns, 
but we don't have the skills to design double-hulled tankers 
and to design better safety systems. So I think what is most 
important is that, whatever system we have, that it is funded, 
and that we have the assets and the enthusiasm between spills 
to carry on the research that is needed.
    Ms. Woolsey. Captain Lloyd, do we need 15, 17 agencies to 
deal with this?
    Captain Lloyd. Thank you, ma'am. The reality is, it is a 
complex issue. Each agency has authority and jurisdiction. The 
Coast Guard is the lead Federal agency for coordinating a 
response, for example, or for preparedness efforts. For the R&D 
effort, I think it was envisioned as they created OPA 90 that 
practitioners would be looking for things that work, so we 
recognize the need to update the technology plan that was 
brought up prior to the last hearing. So we are making an 
effort to do that, to lead that and use the team-based approach 
because we rely on NOAA, for example, for our science support 
and on EPA for their broad technical capabilities for toxicity 
and things like that. So it does require all of the whole of 
government approach, which is what we used for preparedness, 
which is what we used for response, and in past discussions we 
have tried to describe R&D as a subset of preparedness, so it 
flows well to use a team-based approach, but also to have a lot 
of initiative moving forward.
    Ms. Woolsey. Well, every team needs a captain, and----
    Chairman Baird. Ms. Woolsey.
    Ms. Woolsey. --that is a problem.
    Chairman Baird. Thank you very much.
    Ms. Woolsey. Oh, am I over?
    Chairman Baird. Yes, indeed. I am sorry.
    Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. Before I begin my 
question, I was just thinking about this. Have you considered 
doing a Codel for this committee to go down there?
    Chairman Baird. We have, actually, been discussing that 
possibility. We are trying to decide how we would be 
constructive rather than just one more group of Members of 
Congress in the region. So we are----
    Mrs. Biggert. That is always very important, but I think 
this Committee is very important.
    Chairman Baird. I think it is a good suggestion. We are in 
discussions on that very subject.

               Ecological Impacts of Oil and Dispersants

    Mrs. Biggert. Thank you.
    Listening to all of you, and you all, you know, seem to 
have a lot of input into this, and maybe--and talking about a 
team, but it seems like we have such a problem here of whether 
this, you know, well is going to be able to be capped, and it 
seems like, have we brought in the best and the brightest of 
all the minds that could deal with this as far as, you know, 
getting together from the industry and from the government? I 
know I have been contacted by several people that have ideas, 
but trying to get those ideas to you--you say well, it is very 
easy, it is coordinated, but it is not. You know, I have gone 
to Governor Jindal, gone to BP, and it makes it so--I think we 
need more of a coordination there too to get the ideas and get 
them going. Here are people that might have, you know, the 
absorption capability and they can't get through to anybody or 
the dispersal. I don't know how that works.
    So Mr. Helton, does NOAA have any analysis indicating what 
the oil impact in the Gulf regions would have been without the 
use of dispersants?
    Mr. Helton. Well, I think it is important to recognize that 
this oil is being released from the sea floor. It has a mile to 
travel before it reaches the surface. It is a light crude oil 
and a large fraction will disperse naturally, even without the 
contribution of the dispersants at the sea surface and the sea 
floor. We are obviously looking at the tradeoffs of dispersant 
use, and we don't have all the answers about and all the 
information we need to make those tradeoffs. But everyone has 
seen the pictures in the last week of oiled pelicans and oiled 
marshes; no one wants to see that, either. So we are in a very 
tough situation. We don't have all the answers but we are 
trying to make the best decisions we can.
    Mrs. Biggert. But it seemed like there was a question of 
whether the states could put up sandbags to try and protect 
their wetlands and try and keep it off the shores and yet the 
government said no, you know, you can't do that, and I think 
this is a real problem of disconnect between the groups.
    Mr. Helton. I think that every response alternative has 
tradeoffs and has collateral impacts, and even something like 
putting a boom on a shoreline can cause harm. We want to make 
sure we use those appropriately. I think it is unfortunate that 
we are in the situation where we are essentially building a 
fire truck while we are in the middle of the fire, and there is 
obviously lots of technology out there, lots of very smart 
people who are contributing, and we need to adapt the 
information we are getting from all the vendors and the public 
who have good ideas. At the same time, we need to continue that 
thinking and that effort between spills. It is not a very 
effective process to try to design things in the middle of the 
spill.
    Mrs. Biggert. It is not, but we don't know how long this is 
going to last either.
    Mr. Helton. Right.
    Mrs. Biggert. And maybe then I will turn to Dr. Venosa. 
What kind of R&D effort exists in terms of the next-generation 
dispersant? Are you--is there research going on right now 
trying to find what we can use that would be better?
    Dr. Venosa. Thank you. Not at the moment, but as I 
mentioned in my oral testimony this morning, we are going to be 
giving serious consideration to the use of green chemistry to 
develop less toxic or nontoxic dispersants in the future and so 
we will be--our administrator has asked Congress for additional 
research funds, and I am sure that that will be part of it to 
ask our colleagues from academic institutions to come up with 
some ideas.
    Mrs. Biggert. Does anything exist right now for the subsea 
application?
    Dr. Venosa. Well, the dispersants that are being used right 
now. It doesn't make that much difference whether they are used 
in the subsea or whether they are used on the surface. What you 
need is energy to mix the dispersant with the oil, and that is 
happening at the deep sea, and from all the data that I have 
seen so far, it appears to be working. The plumes that you hear 
about are mostly dispersed oil because the particle sizes are 
very small and that is why they are staying in the deep sea. 
They are not rising to the surface. And so Mr. Ehlers was 
right. If there were no dispersant added to this deep sea, then 
all this oil would be surfacing most likely.
    Mrs. Biggert. Thank you. I yield back.
    Chairman Baird. I thank you.
    Mr. Garamendi.

     Research Activities in California and Coast Guard Preparedness

    Mr. Garamendi. Thank you very much, Mr. Chairman. Thank you 
for the hearing and for the witnesses.
    First, there was some discussion from our Ranking Member 
about what happened. I would draw the Committee's attention to 
some studies that are underway from the Center for Catastrophic 
Risk Management. Several universities are involved in this, one 
based at the University of California-Berkeley. I will pass 
that information on. It is exceedingly important that we gain 
knowledge about how the incident occurred, what the failures 
were and what can be done to prevent or to reduce the risk, 
keeping in mind that stuff will happen.
    My question goes directly to Captain Lloyd. Captain, are 
you familiar with the California oil response program?
    Captain Lloyd. Somewhat, yes, sir. I have had interaction 
with them in the past.
    Mr. Garamendi. For the Committee's edification, California 
has had for almost two decades now a specific in-place program 
ready to deal momentarily with any incident of oil spill in 
harbors or along the coast. It is reasonably effective, 
prepositioned equipment, prepositioned personnel, and 
communications, although in the incident in San Francisco Bay, 
there was about a two-hour, three-hour hiatus, which was 
unfortunate. Nonetheless, my question to you, Captain, did such 
a response mechanism exist in the Gulf?
    Captain Lloyd. Yes, sir. The preparedness framework 
envisioned by OPA 90 is similar, if I recall, to the California 
approach. There is planning standards. The equipment is 
required to be contracted. There are plans. The area 
contingency plans are a manifestation of the area committee's 
work to identify environmentally sensitive areas and then 
vessel and facility response plans are required to align with 
those plans for the vessels or facilities that are required to 
have plans. So there is a regime.
    Mr. Garamendi. Did it work?
    Captain Lloyd. I think OPA 90 remains a very solid approach 
to oil spill response and preparedness.
    Mr. Garamendi. There is considerable doubt as to whether 
there was an immediate response or even within several weeks, a 
couple of weeks of the effort to contain the oil at the site.
    Captain Lloyd. If you recall, I know you recall, sir, it 
started off as a serious, a very serious marine accident and 
fire and subsequent casualty and loss of life and so as the--in 
all these instances, sir, the challenge is to build, you know, 
essentially a multimillion-dollar organization in a very rapid 
fashion, and this is done with a fairly regular period approach 
for an oil spill. That is the challenge, to integrate the 
private capabilities that are required by law or reg, to 
integrate the local municipality and then the Federal----
    Mr. Garamendi. Excuse me. I have but just another minute. 
My question now is, from this incident, is there a review of 
the successes and failures of the immediate response to contain 
the oil, and what is the time frame for that review?
    Captain Lloyd. We conduct preparedness reviews. We did one 
for Cosco Busan. We conducted an incident-specific preparedness 
review and it is actually available. Our intent is to do 
something similar and we are working on that.
    Mr. Garamendi. Are you gathering the necessary information? 
It is now, what, almost two months.
    Captain Lloyd. We are still in the crisis phase for the 
response obviously. There is still an ongoing release, and the 
national commander's focus remains in mitigating the effects 
and working to, you know, control the source, so that is the 
primary focus right now, sir.
    Mr. Garamendi. It seems to me that we should assume, in 
fact count on new spills occurring, and therefore we ought to 
be working not only to deal with the current issue but to plan 
for the next one, the gathering of information, what we right, 
what went wrong, what could have been done better, et cetera. 
Thank you very much for that.
    Finally, MMS is in serious jeopardy, and the research 
programs at MMS have been questioned, and my question to you, 
Ms. Buffington, is, what resources do you have available in 
your research effort? And you have 10 seconds.
    Chairman Baird. I am going to ask you to be very brief in 
that and submit written comments. You have 30 seconds at most 
for that.
    Ms. Buffington. The oil spill response research that we get 
at MMS is between $6 million and $7 million a year rounded to 
the nearest million for the last ten years, and we have been 
able to do quite a bit with those funds. If we because of this 
incident received additional funds, then we would look at other 
efforts that needed to be done and supplement our strategic 
plan that we work on for the five-year period.
    Chairman Baird. Thank you.
    I am told by minority side that Mr. Diaz-Balart will be 
next because of his position on the Subcommittee.

          Contingency Plans and the Effects of Oil Dispersants

    Mr. Diaz-Balart. Thank you very much, Mr. Chairman, and 
thank you all for being here. This is a huge disaster. A lot of 
people reference it to Katrina. Obviously with the exception of 
the loss of life, it may even long term be worse. This really 
is kind of like Katrina Oil.
    I have two questions, Mr. Chairman, on Katrina Oil. First, 
a little while ago I heard that it is kind of like building a 
fire truck during a fire. Now, knowing that we have been 
drilling, that there has been drilling in deepwater, it is not 
the first well in deepwater, how it is possible that the so-
called fire truck was not built before we had the fire? In 
other words, how it is possible that the equipment, the 
technology, contingency plans were not already available, 
tested, explored and have a contingency plan before you have a 
problem or was there the attitude that there is never going to 
be a problem, there is never going to be a fire? I mean, how is 
that possible, is one question, if I could get an answer.
    The other one is the following about the dispersant, and we 
obviously know the impact of the oil on the surface to the 
fisheries, to wildlife, et cetera. But what is the long-term 
effect on these clouds of so-called dispersed oil that are in 
the water columns? What are the long-term effects? Do we know 
what the long-term effects are on the fisheries, on the 
wildlife, on the coral reefs, et cetera? Could that be worse 
than the effects that we already know about, what are 
horrendous, of the floating oil and what do we know about that? 
So those are the two questions, Mr. Chairman.
    Captain Lloyd. For your first question, sir, I think it 
kind of goes back to, you know, the regime of preparedness that 
is laid out in OPA 90 is solid, but there is a recognition that 
building on that and closing gaps, the gaps, for example, 
between Coast Guard and planning are issues to look at. We 
recognize that. But the preparedness responsibilities that the 
Federal on-scene coordinator has at the local level are taken 
very seriously. We have a systematic approach to exercises, 
interagency exercises, and those occur on a regular and 
frequent basis and then there is also requirements for plan 
holders to exercise their plans, so I think the issue is as we 
move forward, how do you build out that based on, you know, the 
clarity that has been provided by the Deepwater Horizon 
incident.
    Dr. Venosa. In regards to the second question, I am not a 
toxicologist. I can only tell you that, as I said before, 
whenever we plan a response, there are going to be risks and 
there are going to be benefits. The risks are that we don't 
know what the long-term effects of the deep sea dispersion 
injection are going to be, because most of the research that we 
have done in ecotoxicology has been acute toxicity, 96-hour 
bioassays and things like that. So we don't know what the long-
term effects of exposure of these critters--both phytoplankton 
as well as the fish that eat them and the fish that eat those--
are going to be over the long term. However, had we not done 
the dispersant treatment, then we would have 15,000 barrels of 
crude oil coming to the surface and oiling a lot more birds and 
affecting the wetlands even more.
    Mr. Diaz-Balart. Mr. Chairman, if I may follow up on that, 
you know, that is a little worrisome because you are 
basically--so we know what the effects are of the crude oil 
coming to the surface and oiling the animals but we do not 
know, right, what the long-term effects are of this thing 
floating around in the water column. Could it be worse than if 
it would have been allowed to just float potentially?
    Dr. Venosa. I can only speculate. I don't really know. I 
can't answer that question.
    Mr. Diaz-Balart. Right. So just so I understand, so here we 
are releasing hundreds of thousands of gallons, whatever the 
number is, you know, gallons of this chemical into the ocean 
not knowing what the effect is going to be long term, if it is 
worse or not. You know, that to me is inconceivable. I mean, it 
is inconceivable. This is not like, you know, water that you 
are throwing in there. These are chemicals.
    Dr. Venosa. But the idea behind dispersion is that it 
creates the small particles, okay, and then that allows 
microorganisms to degrade those particles over time and that 
could be relatively rapid.
    Mr. Diaz-Balart. But you are saying we don't know if that 
is worse or better.
    Dr. Venosa. Well, no. If the microorganisms degrade the 
oil, it is gone, so over time it will be better.
    Mr. Diaz-Balart. And you are certain of that?
    Chairman Baird. Mr. Diaz-Balart, I am going to--I am being 
pretty strict. I will mention that I think one of our witnesses 
on the second panel may be able to address that precisely. This 
is a very important line of questioning.
    Mrs. Dahlkemper.

                           Hurricane Impacts

    Mrs. Dahlkemper. Thank you, Mr. Chairman, and thank you for 
allowing me to join you as a Member of the Full Committee.
    I certainly want to thank the panel here for all the work 
that you have been doing and I know many have been working very 
hard. Just on a personal note, my daughter is in the Coast 
Guard and stationed in the Pacific and is actually heading over 
to the Gulf Coast and I think will be there for many, many 
months.
    As we are looking forward, obviously we know there were 
many regulatory system failures, there was modeling that should 
have been done, many pieces of research that were not done that 
should have been. But, as we are going into the hurricane 
season--and I am from Pennsylvania, so hurricanes aren't 
usually an issue for us, but it is a huge issue in this Gulf--
and so as we look at the cleanup efforts as the hurricane 
season approaches, what sort of delays can we expect from the 
cleaning and capping operations if a hurricane comes into the 
Gulf? Have there been any forecast models for a hurricane 
hitting ground zero and the effects that that will have on the 
Gulf and/or the East Coast? And could that hurricane 
potentially throw that oil inland, you know, beyond the 
barriers where it currently would flow?
    Mr. Helton. Thank you. My agency obviously has a lot of 
interest in hurricanes. We are the Nation's weather forecaster, 
and we have been looking at the potential, what would happen if 
a hurricane came through. I am going to leave the operational 
aspects to Captain Lloyd about how a hurricane might affect the 
operations but from the physics of a hurricane, the potential 
for oil and hurricane interaction very much depends upon the 
path of the hurricane and whether it comes through where the 
primary slick is. There is a concern about if the hurricane 
comes through and there is oil near the shore, that the storm 
surge could carry oil into the shoreline, but that is typically 
what happens in a major hurricane regardless. If you recall 
during Hurricane Katrina, there were over eight million gallons 
of oil that were spilled from various tank farms and facilities 
and there were--so any major hurricane is going to cause damage 
to oil and coastal infrastructure and topple cars and boats. So 
there already is going to be a concern about contaminated 
debris in those storm surge waters. We don't have any reason to 
believe that a hurricane is going to pick up oil and carry it 
in the atmosphere. It is just going to be the storm surge 
waters that would have that concern right in the local area.
    Mrs. Dahlkemper. Captain Lloyd?
    Captain Lloyd. Yes, ma'am. Thank you. The technology 
package that is being applied would definitely be affected by a 
hurricane. There are efforts within the National Incident 
Commander staff to look at that, develop plans. It goes back to 
the challenges of developing an organization that can provide 
plans and subsequent different types of plans for something 
like a hurricane. They are looking at that. They are aware of 
that. Obviously, we remain very focused on hurricane planning 
in the Gulf Coast. So they recognize it will impact operations 
on the surface due to the need to demobilize. You see the 
offshore industry go through those steps whenever tropical 
storms come into the Gulf, so they have a series of thoughts to 
consider as they plan for that eventuality. So it would likely 
impact it and then the requirement would then be to remuster 
very quickly.

                     BP Research Funding Priorities

    Mrs. Dahlkemper. I have one more question. BP has pledged 
$500 million to establish a fund to pay for research and 
development from independent scientists to ensure that this 
never happens again. What sort of oil cleanup technology and 
improved deepwater solutions would you recommend this money go 
towards? Who would like to answer that? Anyone?
    Captain Lloyd. As the Chairman of the Interagency 
Committee, I think that the way you address a question like 
that is, you have to basically do an analysis and find out what 
it is important. I think obviously we want to focus on 
operations far from the shore. Deep sea, Arctic issues 
predominate, so there are some focus areas that have been 
coming to, you know, coming to the front as we have tried to 
reinvigorate the 1997 technology plan. So those are some areas 
that are starting to reveal themselves. There are probably 
others.
    Mrs. Dahlkemper. Ms. Buffington, is $500 million enough to 
be able to do the kind of research we need to do to prevent 
this from happening again?
    Ms. Buffington. It would be a good start to look at the 
mechanical equipment and the deepwater subsea containment 
devices and also at the worst-case discharge calculations and 
assumptions. I would have to give it more thought and analyze 
whether it is sufficient, but it would be a good start to look 
at that, particularly the containment equipment.
    Mrs. Dahlkemper. Thank you. My time is expired.

                    Federal Research Funding Levels

    Chairman Baird. Mr. Rohrabacher is recognized for five 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and let 
me just note from the questions already asked and especially by 
Mr. Diaz-Balart, it is clear that--and Mr. Ehlers as well, I 
might add, it is clear that we were not prepared for this 
crisis and we do not even know, for example, whether or not for 
sure making sure the oil goes deeper than going to the surface 
is the best strategy for dealing with this type of problem. I 
would suggest, Mr. Chairman, that what this indicates is that 
the research that was necessary, the technology development 
necessary to make sure that we were prepared didn't happen, and 
let us note that this Committee is the committee that sets the 
priorities for this type of spending. So let us note why we 
aren't prepared. My staff indicates to me that we have spent 
$28 million annually through interagency coordination on oil 
pollution research, $28 million. Now, at the same time, we have 
been spending $2.5 billion on global warming research. Now, let 
us just note that. That is one percent of what we spend on 
global warming we have spent on research knowing that a problem 
like this someday would develop because we are at this moment 
dependent on oil and gas for our Nation's prosperity. We 
haven't done our job. Our priorities were wrong, and we need to 
correct that. That can be done here. That can be done in this 
Committee.
    Let me just note also that while we have not been spending 
the money on the research necessary to deal with a crisis like 
this and spent it elsewhere, we have also forced the oil 
industry to develop offshore oil in deepwater. Now, why are we 
developing oil in deepwater when there are other offshore and 
onshore, I might mention, but mainly let us talk about offshore 
developments in shallow water. It becomes dramatically more 
dangerous at 5,000 feet to drill a well than it does at 50 
feet. However, the oil industry has been forced into deepwater 
because people have been concerned about their view, their 
view, posing as environmental concerns. They have been 
concerned about their view and forced us to depend on oil and 
gas that is being given to us in the most dangerous way. We 
have got to quit talking nonsense to each other in this 
Committee and make sure we get down to the realities of what 
happens when we prioritize spending and prioritize policies in 
this way.
    So I would just ask our panel again if we indeed--have we 
been spending enough research to develop the technologies and 
the approaches to possible challenges like the one we face now? 
Could we have spent, for example--could this question of 
whether or not the oil sinking it down to a deeper level, 
whether or not we absolutely are sure that that is the best way 
to approach a challenge like this for the long-run concern for 
our environment? I would suggest--I am going to ask the 
question but I would suggest that we could have spent that 
money and answered some of these questions and been better 
prepared, but I will leave that to the--you have one minute to 
express your opinions on the opinions I just expressed. Thank 
you very much.
    Chairman Baird. However, you are not obliged to. It is just 
an option.
    Mr. Helton. I would just add to your discussion of risk 
that the depth of drilling is not the only factor that we look 
at when we are considering risk, and certainly we are drilling 
in more and more remote locations, or talking about that, 
anyways. In some ways in the Gulf Coast, the proximity to the 
oil and gas industry there, we are 50 miles away from Port 
Fourchon that has all the assets to put out marine fires and 
bring in submersibles, and there are places in this country 
that are much less accessible to that kind of technology. So 
depth is just one consideration.
    Chairman Baird. I thank the gentleman. I thank Mr. 
Rohrabacher.
    What we are going to do, we had intended to try to recess 
this panel at 11:30, but we have two Members on each side who 
have been diligent and been here from nearly the beginning. 
With the witnesses' indulgence, we will go to about 11:45. That 
allows two more Members on our side and two more on the 
Republican side. That should make sure everybody gets covered.
    With that, Mr. Tonko is recognized for five minutes.

                       Forecasting Spill Impacts

    Mr. Tonko. Thank you, Mr. Chair, and thank you to the 
panel.
    The first question I have is for Mr. Helton. You made 
comments about forecasts that NOAA incorporates into its work 
activities. Are those forecasts that you would make at a time 
such as this when a spill has occurred? Do you forecast the 
amount of oil release into the waters?
    Mr. Helton. The forecasting I was referring to was 
forecasting the trajectory and the fate of the oil. It is not 
typically NOAA's mandate to evaluate how much has been spilled, 
but once oil has been spilled, one of the first questions is, 
``where is it going to go?'' ``How long will it take to get 
there?'' and then ``what is it going to harm when it gets 
there?''
    Mr. Tonko. Does anyone quantify the amount of oil released 
other than BP?
    Mr. Helton. There is interagency, or it is not even 
interagency, it is a technical working group that is composed 
of agencies and academics that is working on the issue of flow 
rate. Typically the issue is not as complicated as this. When 
there is a tanker or barge accident, you have a known quantity 
and there are gauges and tanks that can be surveyed. So this is 
a very challenging----
    Mr. Tonko. So it is challenging, but is there--this 
exercise being done, is there quantification----
    Mr. Helton. Yes.
    Mr. Tonko. --from the agency's perspective----
    Mr. Helton. The effort----
    Mr. Tonko. --in a comprehensive strategy? Is there a 
government response as to how much has been spilled?
    Mr. Helton. The effort is being led by the National 
Incident Command, which has directed the Director of the U.S. 
Geological Survey to take on this responsibility.
    Mr. Tonko. And can they share with this Committee what 
those numbers look like?
    Mr. Helton. I believe that those numbers have already been 
shared publicly with the initial flow rate range was----
    Mr. Tonko. But any updates that they have made?
    Mr. Helton. They are continuing to revise those. I am not 
sure what the status is of what those calculations are.
    Mr. Tonko. The other is the Interagency Coordinating 
Committee on Oil Pollution Research--that is 13 different 
agencies, I believe you indicated? All government agencies, or 
are there academic or private sector groups that are involved?
    Captain Lloyd. They are all government, sir, all Federal 
Government.
    Mr. Tonko. And in terms of that committee, was it in 1997, 
I believe, that they issued a report calling for more 
technology?
    Captain Lloyd. The 1997 plan set forth priorities in a 
tiered fashion level sort of three different kinds of levels, 
so they agreed to a plan to move forward, and that was----
    Mr. Tonko. And how much have we seen as an increase in 
technology developed by the industry or by some institutions to 
respond to the issues of drilling here?
    Captain Lloyd. Well, I think in general, technology has 
changed dramatically when you look at the use of satellites, 
computing power, sea keeping capabilities. Some technology has 
changed dramatically. Some has not.
    Mr. Tonko. How much would the committee suggest that that 
1997 challenge, how much has that been responded to? Has there 
been an exponential investment curve upward in investment in 
research or technology?
    Captain Lloyd. We would probably have to submit that for 
the record, sir.
    [The information follows:]
         U.S. Coast Guard Insert Regarding Research Investments
    The 1997 Oil Pollution Research and Technology Plan is a strategic 
planning document for the Interagency Committee to address possible 
research areas in preparedness, response, and recovery. When the plan 
was drafted, the Interagency Committee developed 21 research subject 
areas that the members felt would be important for the next 5 to ten 
years. Each subject area was assigned to one of three priority levels. 
To date, a variety of research projects have been completed for all 21 
research areas by either the Interagency Committee member organizations 
and/or by industry and academia. Subject areas extensively researched 
specifically by the Interagency Committee member organizations since 
the release of the 1997 plan include: dispersants; in-situ burning; 
restoration methods and technologies; spill impacts and ecosystem 
recovery; training readiness and evaluation; on-water containment and 
recovery; and decision support systems for contingency planning and 
response.
    The Coast Guard does not have visibility on specific budget totals 
for the research and development programs of the other member 
organizations of the Interagency Committee, however, generally there 
has not been an exponential investment curve upward in oil spill 
research.

    Mr. Tonko. If you could, please, and is it mostly in 
drilling and drilling deeper or are issues of public safety and 
the environmental protection also included in that? And if you 
could, proration how much was invested in all of those 
categories and break it down for us.
    Captain Lloyd. Yes, I think the plan lays out a variety of 
categories, you know, that were looked at.
    Mr. Tonko. And finally, we only have a minute left here, 
but there has been much criticism about the close relationship 
of some of these agencies to the industry where there really 
isn't a watchdog relationship. MMS has been cited in such a 
capacity where it is really not, you know, a stern taskmaster 
standing over the subject in review but rather kind of a cozier 
relationship. Can you respond to that?
    Captain Lloyd. The liability, you know, OPA 90 was clear. 
The spillers are responsible to take care of accidents that 
they cause.
    Mr. Tonko. Oh, I understand that, but the watchdog, how 
aggressive would you categorize the watchdog is in this 
equation?
    Captain Lloyd. I would say we keep a tight focus on plans. 
All of the vessel response plans are approved by the Coast 
Guard, you know, local plans are approved by the Coast Guard.
    Mr. Tonko. I ask this: while I note that the dispersants 
were recommended, there were certain dispersants recommended 
not to be used, and that was defied and still used. So I think 
it tells the public that there really isn't this stewardship 
over the industry.
    Chairman Baird. Mr. Tonko, your time is expired. If you 
want to ask a particular question in writing to the panelists, 
I am sure they will have the opportunity.
    Mr. Bilbray is recognized for five minutes.

                          More on Dispersants

    Mr. Bilbray. Thank you, Mr. Chairman. And Mr. Chairman, let 
me just say thank you for your approach on this. I think that 
your leadership, the leadership of the Full Committee on this 
has been great bipartisan effort on this. I think that this 
situation, though, serves to remind us that there truly is a 
place for government and the private sector. I think, Captain, 
you guys have been getting beat up about why didn't the 
government just come in, take over and why can't the government 
do it better, and I think that the answer is, because there are 
limits to the ability of government, there is limited abilities 
of the private sector. There is expertise that we don't have 
in-house that we need to draw on the private sector. Is that 
fair to say?
    Captain Lloyd. Yes, sir. I mean, BP, you know, owns, to 
quote Admiral Allen, ``the means of production,'' for example.
    Mr. Bilbray. I am not just saying that. I am just saying 
the fact that how many people do we have on staff that have the 
experience of working with these wellheads to the level that we 
can draw on, even if it not BP, even if it was coming from 
somewhere else, de facto we would contract this out because of 
the expertise, right?
    Captain Lloyd. That would be one approach.
    Mr. Bilbray. And I just want to point out the fact that we 
really ought to look at how do we make the team work together. 
I know from my air pollution background that when you had 
government-operated systems in the Soviet Union, they had more 
emissions coming off of those than all the private sectors 
around the world, but again, where did we fail in our 
oversight. The dispersants issue is what I would like to look 
at right now. Do we have a list of approved dispersants for the 
private sector to use? Is there a government list that says 
these are items that we approve for this use?
    Dr. Venosa. Yes, sir, there is. It is on the national 
contingency plan product schedule.
    Mr. Bilbray. Okay. Is the private sector today, or let us 
just say BP, are they using a dispersant that is not on one of 
the lists that we had as the government-approved procedures?
    Dr. Venosa. No.
    Mr. Bilbray. They are using what we have approved previous 
to this incident?
    Dr. Venosa. Correct.
    Mr. Bilbray. Then why I am continuing to hear all of the 
issues about that what they are using is not appropriate, not 
safe, may be environmentally damaging?
    Dr. Venosa. No matter what chemical you use, there is going 
to be something in it that is going to have some negative 
impact on the environment because it is a chemical, and there 
is no two ways, there is no getting around that.
    Mr. Bilbray. So even if we look at it, we have our 
government scientists look at it, we do--those of us in 
government have done this, there is still a limit to how much 
we can do in government to basically have a perfect answer. 
There is no, we are not going to find it even if we are the 
guys making the calls all the time.
    Dr. Venosa. That is correct. There is no perfect answer.
    Mr. Bilbray. So we are dictating the standard and we admit 
that in the world of reality, even our standards may have 
faults?
    Dr. Venosa. Yes, sir. That is correct.
    Mr. Bilbray. Okay. My question to you, when we developed 
this--I mean, the greatest environmental disaster from oil is 
probably not even on our shores. Everybody agrees to that. 
Offshore, the Niger Delta is probably--where they are saying 50 
times more pollution has been dumped over there over the years 
than were in the Exxon Valdez. Have we looked at testing our 
dispersants in real-world applications like a test platform 
like the most polluted area of the world from oil as far as I 
know, the East Coast of Africa? Have we had any scientific 
government review of how this stuff works on different types of 
products and how long do we check this and what is the 
procedure? We have done the testing, we think it is good and we 
say these are approved, right? But have we tried to double-
check our data, our files so we can go back to the constituency 
and say we have continued to review this dispersants list and 
we are comfortable with it?
    Dr. Venosa. Most of the work that has been done has been in 
the laboratory or at the pilot scale at the OHMSETT facility. 
We have a wave tank with our partners in Canada. Attempts have 
been made with some of the seeps that occur in Santa Barbara.
    Mr. Bilbray. We have a lot of them in Santa Barbara.
    Dr. Venosa. I know. But that oil is highly weathered and 
not amenable to being dispersed. So that is--I mean, that is 
about it.
    Mr. Bilbray. I appreciate that, and just for the record, 
the seepage problem in the Santa Barbara channel is not 
something new. The Tumash Indians for a thousand years have 
been using that to caulk their canoes. So as a surfer in that 
area, I know exactly--I think Dana Rohrabacher and I will show 
you the black on our feet sometimes, okay?
    The real issue now is how do we move forward on this? And 
all I got to say is, I hope, Mr. Chairman, that we don't 
approach this as reacting to every disaster and not being 
proactive, and I appreciate, I just have to say sincerely, I 
really am sorry to see you are not going to be around in the 
future because I think you are a leader along with the 
Committee chairman at looking at being proactive, not being 
reactive to this, and overreacting on that line because I think 
that when we import oil, we are not only 10 times more likely 
to defile our own beaches but we are continuing the defiling of 
estuaries around the world because we basically out of sight, 
out of mind. I think that the failure here, a small part of the 
failure----
    Chairman Baird. Mr. Bilbray.
    Mr. Bilbray. --is that we cannot assure the American people 
that our list was the best and that BP is using the best, and I 
think we need to look at that.
    I yield back, Mr. Chairman.
    Chairman Baird. Thanks, Mr. Bilbray. I want to commend Ms. 
Woolsey, who had the prescience to introduce the legislation 
mentioned before.
    We will do Mr. Matheson and then we will finish with Mr. 
Olson.

                    Drilling Safety Standards Abroad

    Mr. Matheson. Thank you, Mr. Chairman.
    Ms. Buffington, this may not be directly related to Science 
Committee but I think it is in the longer term, and that is, 
can you explain to me if there are any other countries in the 
world who have standards in terms of technology for deepwater 
drilling that are more rigorous than the standards employed by 
the United States?
    Ms. Buffington. Representative Matheson, we have been 
working with other countries, particularly the U.K., Norway, 
Canada, Australia on an interagency basis both for research and 
for regulations to make sure we are coordinating with 
regulations, to make sure we are all using the best available 
and the safest technology.
    Mr. Matheson. Do other countries have more rigorous 
regulations than the United States?
    Ms. Buffington. No, not to my knowledge.
    Mr. Matheson. MMS provided testimony to this Subcommittee 
in June of 1999. It was during a hearing called ``The New 
Direction for Federal Oil Spill Research and Development,'' and 
in the testimony MMS stated, ``The OHMSETT facility directly 
supports MMS's mission of ensuring safe and environmentally 
sound oil and gas development on the Outer Continental Shelf.'' 
How did MMS's past research on the OHMSETT facility help to 
ensure the safe and environmentally sound oil and gas 
development on the Outer Continental Shelf in light of where we 
are today?
    Ms. Buffington. It was--the facility has tested--95 percent 
of the equipment that has been used has been tested there and 
the data that has been gathered has been tested at OHMSETT so 
it provided a means to train the responders, and I know the 
Coast Guard and other organizations get training at the OHMSETT 
facility.
    Mr. Matheson. I would hope it would be safe to say that we 
are no longer saying that this facility has ensured safe and 
environmentally sound oil and gas development, though, based on 
the current situation. Is that a fair statement?
    Ms. Buffington. Has helped to ensure?
    Mr. Matheson. That is what MMS said to this Committee last 
year. ``This facility has helped us create a much safer 
situation for Outer Continental Shelf development.'' We are now 
facing this huge disaster. I would suggest that MMS would at 
least be willing to say, well, maybe there is a little more to 
learn from this facility.
    Ms. Buffington. There are definitely lessons to be learned 
from every incident, and this incident certainly will show from 
all the investigations the lessons learned and those will be 
put back into the research program.
    Mr. Matheson. I would say that is an understatement. There 
are a lot of lessons to be learned from here.
    Let me ask a question of the panel here. We seem to see all 
these random comments about how much oil has been flowing. Does 
anyone here know what the number is these days, about how much 
oil has flowed out of this end of the Gulf from this problem? 
Anyone, NOAA, Coast Guard? Where are we now on how much oil has 
gone into the Gulf?
    Mr. Helton. I would say that the number is still being 
calculated. The response is enormous, and I would say that 
after every large spill, determining the amount spilled takes 
months to determine. In the case of the Ixtoc spill in 1979, I 
don't think it was determined until about a year after the 
spill ended, and even then there was a range. So we are never 
going to know precisely how much was spilled. We are going to 
have a good range but that is the best----
    Mr. Matheson. Do we have some sense of a range now of how 
much water is--how much oil is flowing into the Gulf today? We 
have no idea?
    Mr. Helton. There are concessions being made. The flow team 
has put out initial estimates. Those have changed because of 
the recovery, the methods that are going on now to recover the 
oil from the sea floor. The risers change because of that, so 
there is a lot of things that have changed since the 
calculation was made, the preliminary calculation was made last 
week, I believe.
    Mr. Matheson. Mr. Chairman, I will yield back.
    Chairman Baird. Thank you, Mr. Matheson.
    I will recognize Mr. Olson in one second. I want to first 
recognize for just a comment to introduce material into the 
record. Mr. Lujan has been here, and the Chair appreciates his 
willingness to forego his time for questioning, and I recognize 
Mr. Lujan for a comment.
    Mr. Lujan. Thank you very much, Mr. Chairman, and there are 
some questions that I will be submitting for Mr. Helton and for 
Ms. Buffington specifically with NOAA along the lines of the 
questioning of Mr. Matheson, the trajectory predictions for 
spilled oil. This is going to be critically important as we try 
to get to the bottom of what reports that have been recently 
released by BP through the acquisition I believe by Mr. 
Markey's office, and we need to make sure that we are able to 
count on NOAA to be able to understand exactly how much oil is 
coming out of there. Mr. Chairman, I certainly hope we can get 
this question that I will be submitting for the record 
answered. Under the Oil Pollution Act of 1990, OPA has the 
authorization to recover damages on behalf of trust lands, and 
the question I will be submitting, Mr. Chairman, is to truly 
inquire under current law if we have the ability to recover 
every penny in addition to the other portions that we have.
    To Ms. Buffington, a question. With all of the engagement 
to technology as well that we should have for deep oil, the 
only test that appears that has been done was at 844 meters, 
not 5,000 feet. Going back to 2002, we saw that there were some 
of these wells that were in the Gulf that didn't have to have 
these contingency plans placed, and I certainly hope that MMS 
is going to conduct an audit to see which of these entities 
have not had a contingency plan placed, and I will be asking if 
we have any ability or if the technology that has been 
submitted or the plans that have been submitted have been 
tested. Because it is evident that BP submitted a plan for over 
200,000 barrels a day and we still can't do anything. This has 
to be changed and we need to make sure we get to the bottom of 
that as well.
    Thank you very much, Mr. Chairman.
    Chairman Baird. Thank you, Mr. Lujan, for your brevity, and 
appropriately, the gentleman from Texas, Mr. Olson, is 
recognized for final----

               Approval for Local Spill Response Efforts

    Mr. Olson. Thank you very much, Mr. Chairman, and thanks to 
our witnesses for coming today. We greatly appreciate your 
expertise and your insights, giving me those so I could be a 
better Member of Congress. I want to also let you know that I 
know you are in uncharted territory. Nobody ever--
unfortunately, it looks like we failed as a government to plan 
for this type of disaster in the deep wells and the depth at 
which that occurred. I just submit to you that governments can 
do this. I represent the Johnson Space Center, the home of 
human spaceflight, and Apollo 13 in many ways was like this, 
but they came together. Every person within the agency 
coordinated and brought those three astronauts home. And that 
is what I think has been lacking here, coordination. We weren't 
ready for this disaster, certainly on the Federal Government 
level, but I am also concerned with some of the things that 
happened between the Federal Government and the local 
governments, the state and the locals, particularly--I mean, 
one of the delays that has occurred over the last two months 
that stood out to me is the extended delays in approving 
Governor Jindal's request to build 40 miles of sand berms to 
protect his state's shoreline. It took weeks before he was 
finally able to receive the approval from the White House to 
construct those berms, and of course, during that time that 
well was still gushing. Could any of you comment on the reasons 
for this? Was it due to scientific concerns, environmental 
concerns, bureaucracy, the lack of planning? I mean, if so, 
what are those concerns so we can address them and make sure 
that the interagency process is ready to respond to state and 
local governments when crises like these happen.
    Captain Lloyd. The national incident commander staff worked 
extensively on that question, sir, so we can submit to the 
record sort of the overarching challenges in making a decision 
like that. Obviously it does hit all of those issues, 
ecological and structural, and so we can submit that for you to 
give you the details of how the challenges surrounding a 
decision like that, sir, multiagency, Federal, state and local.
    [The information follows:]
              U.S. Coast Guard Insert Regarding Permitting

    The following timeline addresses the matter of permit timeline, 
issues resolved to approve the permit; and deliberations involved to 
get it issued. The number of agencies engaged totaled at least 16, 
included: Department of Interior (DOI), U.S. Fish and Wildlife Service 
(USFWS) (Breton NWR and Local Office), Minerals Management Service 
(MMS), LA Dept of Natural Resources, LA Dept of Wildlife and Fisheries, 
LA Office of Coastal Protection and Restoration, National Oceanic and 
Atmospheric Administration (NOAA), National Marine Fisheries Service 
(NMFS), Chitimacha Indians, State Historic Preservation Office, 
Environmental Protection Agency (EPA), Natural Resources Conservation 
Service, Mississippi Dept of Marine Resources, Council of Environmental 
Quality, the National Incident Command, U.S. Army Corps of Engineers 
(USACE) Mobile District, and the U.S. Coast Guard.

Permit Evaluation Timeline

Sand Barrier Permit the New Orleans District (MVN) 2010-1066-ETT
    10 May 2010--New Orleans District (MVN) hosts presentation of 
conceptual barrier plan by Plaquemines Parish President Billy 
Nungesser. MVN later attends presentation of conceptual plan by Mr. 
Nungesser to BP at the UCC in Schriever, LA.
    11 May 2010--MVN hosts teleconference with USFWS, NOAAINMFS, EPA, 
LA DWF, LA DNR, to discuss the conceptual barrier plan and 
consideration under Emergency permit NOD-20. MVN receives formal 
emergency request (a cover letter with basic plans) from LA Coastal 
Protection and Restoration Authority (CPRA) at 11:06 pm.
    12 May 2010--MVN hosts meeting with USFWS, NOAA/NMFS, EPA, LA DNR-
CMD, LA CPRA, PPPMD, dredging contractor, and consultants. Primary 
issues are contaminant management, project feasibility, effect on 
existing island stability (especially Chandeleur Islands because of 
nearshore borrow), impacts to fish & wildlife habitats, impacts to 
Breton NWR, ESA. MVN requests formal comment from agencies by COB 13 
May 2010.
    12 May 2010--MVN hosts teleconference with CEQ, NIC, DOI and EPA to 
discuss permit application NEPA compliance.
    13 May 2010--MVN received formal comment on barrier plan from NOAA/
NMFS, EPA & LDWF.
    14 May 2010--MVN received formal comment from USFWS and NGO; all 
comments forwarded to CPRA. CPRA submits revised plans and responses to 
agencies' comments; clarifies proposal is an emergency action, not 
restoration project. Plans increase berm length from 90 to 128 miles 
and removes nearshore borrow. MVN launches internal technical project 
review with MVD and ERDC.
    15 May 2010--MVN sends CPRA's revised plans/responses to state/
Federal agencies for their review. MVN updates NIC on permit status.
    17 May 2010--MVN hosts interagency meeting/teleconference on 
revised plans/responses from CPRA. MVN requests formal agency comment 
on revised plan by COB.
    18 May 2010--MVN initiates preparation of draft EA, emergency 
permit, and special conditions.
    20 May 2010--MVN completes preliminary draft permit/EA.
    21 May 2010--MVN forwards findings from internal technical review 
to CPRA and hosts teleconference with CPRA to discuss. CPRA provides 
written responses to MVN findings. MVN forwards CPRA responses to 
interagency review team for comment.
    23 May 2010--DOI responds to MVN on 5/21/10 transmittal. MVN 
updates draft EA/permit, including findings by technical review.
    24-26 May 2010--MVN channels technical findings, legal review, 
resource agency input, public communication, etc. into preparation of 
the final permit decision.
    27 May 2010--MVN completes EA and issues emergency permit to CPRA.
    1 June 2010--CPRA signs permit acceptance.
    3 June 2010--CPRA forwards signed acceptance document to MVN.

Primary Issues:

        1.  Technical project feasibility in achieving proposed design 
        considering available sediments/berm location.

        2.  Initial nearshore borrow location would disrupt littoral 
        transport, destabilize Chandeleur islands.

        3.  Disruption/alteration of circulation patterns could 
        unintentionally increase oil penetration into threatened areas, 
        and redirect its movement to locations otherwise having minimal 
        threat.

        4.  Project construction timeline and longevity for containing 
        oil threat.

        5.  ESA--turtles, piping plover, Gulf sturgeon, manatee.

        6.  Pipelines throughout the project area.

        7.  Cultural resources--Chitimacha Indians and historical.

        8.  Location at Breton NWR, consistency with USFWS management.

        9.  The project is of potential EIS significance.

        10.  Essential Fish Habitat (EFH) impacts.

        11.  Consequences to Federal navigation projects--local and 
        national.

        12.  Depletion of sand resources critical for future coastal 
        restoration projects.

        13.  Disturbance to nesting seabird colonies.

        14.  Clearance from MMS for offshore sites.

        15.  Use of potentially contaminated sediments.

    Mr. Olson. I appreciate that, Captain, but again, you know, 
we got the oil coming off and we have got to stop or prevent 
the damage that can be done, and it doesn't sound to me like 
putting sand on a beach is a big challenge, and we have got to 
do better than giving a couple of weeks when the government 
needs it now, now, now. And we have got to--you know, we have 
got to take chances here because again we are in uncharted 
territory.
    Anybody else care to comment? There we go.
    Mr. Helton. I would just add that it is a complex issue, 
that every response technology has tradeoffs and piling up sand 
to block channels is going to be a concern for the path for 
fisheries into those inlets. There are concerns about the 
turtles that nest on those shorelines. There are concerns about 
the marshes, and then there are concerns about the efficacy: 
will they stay around long enough to be effective? So there are 
a lot of questions. That is why there was a lot of discussion 
among the agencies. Ultimately, I believe it was the Army Corps 
of Engineers that was coordinating that whole process.
    Mr. Olson. Thank you for that answer, and again, in a time 
of crisis, we have got to get moving. We don't have the time to 
do some of the due diligence that we would like to do. I mean, 
the oil is washing up on the beach and we have to do everything 
we can to stop that because that is the major problem we are 
faced with right then, which is a transition.

                          More on Dispersants

    I know we talked a lot about dispersants. One thing that I 
have a concern about is the daily usage for the dispersants was 
just going, jumping radically all over the place. I mean, some 
days none of it was getting used and some days tens of 
thousands of gallons were being used, so my question is, is 
that a procedural process within the government that is 
preventing it or are there different things going on there, 
conditions of the blowout, inadequate supply, reserves for 
disaster, but why we are having such sort of big fluctuations 
in the use of dispersants?
    Captain Lloyd. Yes, sir, that is a good question, and it is 
primarily operational considerations when you look at the 
weather and how things such as sea states can impact the 
methodology for delivering dispersants, whether you use them 
subsea, surface or aerial, so there is a significant 
operational challenge with regard to any type of oil spill 
technology that is applied, whether it is in situ burning or 
booming or skimming. And sea states and weather play a fairly 
significant role in that, and that is a big challenge, 
especially with regard to dispersants.
    Mr. Olson. Dr. Venosa, dispersant expert.
    Dr. Venosa. Well, that is an operational issue. I am a 
researcher. But I can tell you that my agency--when it came to 
the deep sea injections early on in the spill, there was one 
asset out there, the Brooks McCall ship, so when it was out 
there sampling and conducting its research, monitoring, it 
would be out there for three days and then come ashore. During 
the time when it was coming ashore, the EPA said that there 
will be no more injection until we get that asset back out a 
day later. So that was the reason why it was jumping up and 
down, because we wanted to have someone there at the site while 
the injection was going on.
    Mr. Olson. Thanks for that answer. Again, more prior 
planning and we would have avoided a lot of these problems. I 
know I am over my time, Mr. Chairman. Thank you very much.
    Chairman Baird. Thank you, Mr. Olson.
    With that, I want to again reiterate my thanks to the panel 
not only for their work today and excellent testimony but for 
your work over a long period of time. We wish you much success, 
and with that, this panel is dismissed.
    Chairman Gordon. Mr. Chairman, if I could just real 
quickly----
    Chairman Baird. Yes, Mr. Gordon.
    Chairman Gordon. I would like to ask, as we move forward 
with legislation, if this panel has recommendations that they 
would like to send us, please do that, either formally or 
informally. We want to really bring forth the best legislation 
we can, and your expertise will help us do that. Thank you.
    Chairman Baird. Excellent point, Mr. Chairman, and please 
also, you have been offered questions by Mr. Lujan and many 
others. As part of this, we would welcome your written response 
at your earliest convenience, and with that, the panel stands 
dismissed.
    We will reconvene in five minutes with our second panel. 
Thank you very much.
    [Recess.]

                                Panel I:

    Chairman Baird. I will take time to reconvene. I want to 
thank our guests and our witnesses here, and I appreciate my 
colleagues' adherence to the time frame earlier that allowed us 
to move onto our second panel.
    In our first panel we heard from government agency leaders. 
Now we will hear from scientific researchers and people 
involved in innovative efforts to try to clean up oil spills, 
and it is our pleasure to introduce our second panel. Dr. 
Jeffrey Short is the Pacific Science Director for Oceana, Dr. 
Samantha Joye, Professor of Marine Sciences at the University 
of Georgia, Dr. Richard Haut, Senior Research Scientist at the 
Houston Advanced Research Center, Dr. Nancy Kinner, University 
of New Hampshire, C-Director, Coastal Response Research Center, 
CRRC, and Mr. Kevin Costner, a Partner at Ocean Therapy 
Solutions.
    As I did with the prior panel, I want to thank all of you, 
not only for your presence here today but for the many years of 
research and expertise you have put into this important issue, 
and I also acknowledge that many of you have been very, very 
busy over the last weeks and months, not only testifying before 
our committees of Congress but actually trying to actually do 
some research and work out in the field.
    So thank you for your presence today. As our witnesses 
should know, we will try to keep the testimony as close to five 
minutes as we can. There is often a little bit of run over, and 
now that we have cleared our first panel, we may have a little 
bit more time for that. If you have additional comments, please 
offer those into the record.
    Ms. Biggert has taken the place of Mr. Hall as Ranking 
Member. Did you want to offer any additional remarks, or shall 
we proceed?
    Mrs. Biggert. Proceed.
    Chairman Baird. With that, thank you, Ms. Biggert, we will 
proceed. Dr. Short, please begin.

 STATEMENTS OF JEFFREY SHORT, PACIFIC SCIENCE DIRECTOR, OCEANA

    Dr. Short. Chairman Baird, distinguished Members of the 
Committee, Ranking Member Biggert, good afternoon now, and 
thank you for the opportunity to appear before you today. My 
name is Jeffrey Short. I am Pacific Science Director for 
Oceana, a global conservation organization headquartered here 
in Washington, DC. Oceana's mission is to protect and restore 
our world's oceans for the sake of fish, wildlife, and the 
people who depend on them.
    Having previously worked for the National Oceanic and 
Atmospheric Administration for 31 years as an oil pollution 
researcher, 20 of which were on the Exxon Valdez, I have a keen 
appreciation for our limited ability to deal with major oil 
spills.
    Since the Exxon Valdez, we have had about one major oil 
spill every two years on average. Now we face a potentially 
catastrophic spill in the Gulf of Mexico, one that has 
painfully reminded us of how little we can do with them. Major 
spills always encourage people to think about better ways to 
clean them up. These ideas usually focus on better skimmers and 
oil collection devices at sea, better dispersants, and better 
biological treatments to degrade oil on beaches and in marshes. 
These ideas are welcome and should be encouraged through a more 
focused and sustained Federal research enterprise.
    But as noted in our consensus statement, oil pollution 
researchers gathered at Baton Rogue a couple of weeks ago to 
evaluate dispersant use of the Deepwater Horizon blowout, once 
a spill exceeds a certain threshold, and we are far beyond that 
threshold today, it is simply not possible to fully contain it, 
no matter what you do.
    The reason is not so much because we lack effective 
technologies for skimming, for dispersing, or degrading oil. It 
is because we lack effective means to apply them at the scale 
that is required. As noted by Coast Guard Admiral Thad Allen, 
most of the oil flowing in the Gulf is in tens of thousands of 
small patches of mousse spread out over thousands of square 
miles of ocean.
    To keep it from hitting the shore someone has to find and 
keep track of them, send the right--and send the right 
equipment to deal with them, and this has to start from scratch 
each and every day as the patches wander around at sea unseen 
during the night.
    We already have the technology for dealing with the oil 
once we find it. What we don't have is the satisfactory ways to 
keep track of it when we are faced with really large spills. 
The agency that is responsible for keeping track of it is 
NOAA's Office of Response and Restoration. They have been doing 
a heroic job, especially given that their staff has eroded by 
some 30 percent over the last decade largely due to budget 
cuts.
    NOAA is also the agency with the most experience with 
restoration after oil spills, yet their access to funding for 
operations and research under the Oil Pollution Act of 1990, is 
restricted compared with other agencies. NOAA needs to have 
full and equal access to funds in the Oil Spill Liability Trust 
Fund without being penalized through scoring. And the tax that 
supports the fund should be increased.
    More generally, I commend Representative Woolsey and 
Chairman Baird for introducing H.R. 2693, the Federal Oil Spill 
Research Program Act, to amend the research provisions of the 
Oil Pollution Act of 1990. As noted in their act, NOAA is in 
the best position to lead research on oil spill response, 
litigation, and restoration. Given the weak link in keeping 
track of oil once spilled, it would make sense for NOAA to work 
even more closely with NASA and perhaps with the Air Force to 
develop better high-resolution sensors to detect oil at sea 
from high altitudes.
    In addition, other resource agencies such as the Fish and 
Wildlife Service, the U.S. Geological Survey, as well as the 
Environmental Protection Agency need more support to allow them 
to do a better job of identifying habitats and species that are 
in harm's way when oil spills and other environmental 
catastrophes happen.
    In closing, the United States Government has a 
responsibility to manage our Nation's resources wisely. 
Continued budget cuts for the agencies charged with carrying 
out these responsibilities has the effect of turning it over to 
the industries that benefit most from resource exploitation. 
This results in the regulatory situation that led to the 
Deepwater Horizon blowout, where the industry pretends that 
such accidents simply can't happen, and the government pretends 
that industry is the most reliable source of information for 
making regulatory decisions.
    In the end, this socializes all the risks and privatizes 
all the profits. This is not the most responsible management of 
our nation's natural resources.
    Again, I sincerely appreciate the opportunity to address 
you today, and I would be happy to answer any questions from 
the committee.
    [The prepared statement of Dr. Short follows:]

                  Prepared Statement of Jeffrey Short

    Good morning. I am the Pacific Science Director for Oceana, an 
international marine conservation organization dedicated to using 
science, law, and policy to protect the world's oceans. Oceana's 
headquarters are in Washington, DC, we have offices in five states as 
well as Belize, Belgium, Spain, and Chile. Oceana has 300,000 members 
and supporters from all 50 states and from countries around the globe.
    Prior to joining Oceana, I worked at the National Oceanic and 
Atmospheric Administration (NOAA) as an oil pollution research chemist 
for 31 years, including nearly 20 years studying the fate and effects 
of oil from the 1989 Exxon Valdez spill. Having experienced this major 
spill as a scientist, as a citizen and as a 41-year resident of Alaska, 
I have a keen appreciation for the devastation such events can cause. I 
want to express my deep appreciation to Chairman Baird and the members 
of the Committee for your invitation to share my perspectives on the 
long-term consequences of major oil discharges on the environment and 
on the communities and livelihoods that are invariably scarred by them. 
In particular, I speak here today to honor the memory of the eleven men 
whose lives were lost at the onset of the Deepwater Horizon tragedy, in 
the hope that my words may play some part, however small, in preventing 
additional loss of life in our quest for energy.
    My invitation to comment here requested that I provide an 
historical perspective on oil spills and oil spill cleanup capacity, 
the short- and long-term ecological and social effects of spills and 
spill cleanup techniques, and the scientific research and monitoring 
that is needed to move forward effectively. I will address these three 
general issues in turn, and conclude with comments on gaps in the 
Federal oil spill response capacity and what is needed to support a 
coordinated Federal response going forward.

I. Historical Perspectives on Oil Spills and Oil Spill Cleanup Capacity

Recent Large Oil Spills in Waters of the United States
    Although unusual, large marine oil spills cannot be considered as 
rare occurrences in waters of the United States. We are well aware of 
the 1969 Santa Barbara blowout, and since the 1989 Exxon Valdez spill 
which discharged at least 258,000 barrels of oil into Prince William 
Sound, Alaska, there have been another ten large (>5,500 barrels) oil 
spills in the U.S., about once every two years on average. Of these, 
four exceeded 45,000 barrels, and the Deepwater Horizon is on track to 
become one of the top ten largest accidental marine discharges in 
history. The Deepwater Horizon has already released more than 500,000 
barrels of oil, and if not stopped may reach 1,200,000 barrels or more 
by August when relief wells will hopefully plug the leak. In 
comparison, the 1979 Ixtoc I blowout, the largest accidental marine oil 
discharge in history, released an estimated 3,200,000 barrels into 
Mexican waters also in the Gulf of Mexico.
    In every case, large oil spills are the result of unique and 
unforeseen causes. The Exxon Valdez spill was famously the result of 
criminal negligence by the tanker captain. The 1990 Mega Borg spill 
(115,000 barrels) resulted from an explosion in the vessel's pump room 
during lightering. A combination of heavy rains and lax maintenance led 
to the 2006 Citgo Refinery spill (67,000 barrels). The 2008 New Orleans 
spill (60,000 barrels) followed the collision of a tanker with a barge 
on the Mississippi River. Most of these and other large spills in the 
U.S. are the result of a combination of human error and unfortunate 
circumstances.

Oil Spill Cleanup Capacity
    Once a marine spill occurs, there are three basic initial response 
options: skimming, in situ burning and chemical dispersants (most of 
this section is a summary of Fingas 2000). While frequently very 
effective when applied to small spills, each of these approaches has 
substantial limitations. Their efficacy varies greatly not only with 
the type of oil involved, but also with the properties of the oil as it 
changes following release. Once released, the composition of oil 
changes (i.e. ``weathers'') as a result of evaporation, dissolution of 
the more water-soluble components, microbial degradation, photo-
oxidation, and the absorption of water. Water absorption may be 
especially troublesome, because it can increase the oil viscosity 
dramatically, which may have profound effects on the effectiveness of 
response methods.
    There are a number of designs for mechanical oil skimming devices, 
which vary considerably in capacity and efficiency. Once oil is herded 
off the surface by focusing booms usually towed by one or more vessels 
toward a mechanical skimming device, the skimming device then may 
accomplish oil removal by any of a variety of mechanical means, 
including adherence to adsorptive materials or conveyance to oil-water 
separators by drums, belts, brushes, oleophilic rope, suction or a 
combination of these. Oil-water separation may be accomplished by means 
of separation weirs, holding tanks or centrifugation. Depending on the 
type and weathering state of the oil involved and environmental 
conditions such as sea state and temperature, these methods range in 
effectiveness from nearly nil to 95%.
    In situ burning may oxidize as much as 90% of the oil ignited. 
However, burning requires corralling the slick to thicknesses of at 
least 2 mm and preferably more, and the boom must be fireproof and is 
not available for corralling while burning is underway. Also, the oil 
must not have lost much of its complement of volatile components, or it 
will not ignite, so the window of opportunity for in situ burning is 
usually limited to the first couple of days after oil reaches the 
surface. In general, burning is simply not capable of removing more 
than a small proportion of the oil released from large-scale 
discharges, except in cases where oil is ignited at the onset by the 
accident producing the spill, in which case the benefits of relatively 
efficient oil removal may come at a cost of human injury and death, as 
occurred during the 1990 Mega Borg spill. During the 1989 Exxon Valdez 
spill, crew safety was a major concern that precluded intentional 
ignition of the slick while the oil was near the vessel.
    Skimming and in situ burning require corralling oil within booms, 
and hence only work in mild weather conditions. For the Deepwater 
Horizon, the leakage estimates imply a rate of slick creation on the 
order of about 2 football fields per minute, appearing erratically 
within a circle nearly two miles across. The largest skimmers in the 
Gulf of Mexico can sweep about 10% of the area within this circle per 
hour, and most skimmers are considerably smaller. The slick created by 
the Exxon Valdez expanded at a rate of about a half a football field 
per second, for two and a half days. These expansion rates exceed the 
available skimming capacity considerably, especially when the need for 
boom maintenance between deployments is considered. Consequently 
skimming retrieved an estimated 8% of the oil spilled from the Exxon 
Valdez (Wolfe et al. 1994), and is intercepting only a small fraction 
of the Deepwater Horizon oil that reaches the sea surface.
    Dispersants act by lowering the surface tension between the oil-
water interface, decreasing the mixing energy needed to disperse the 
oil into tiny microdroplets. To work effectively, the dispersant must 
be applied under conditions of moderate mixing energy, and the oil must 
not have weathered much. When effective, the microdroplets become 
entrained into the water column where they are much more susceptible to 
microbial degradation.
    Dispersants are typically ineffective when applied to mousse or in 
calm conditions, and if the sea state is greater than a few feet it can 
be difficult to hit the slick when released from aircraft. Another 
limitation of dispersants is that when they do work, the large surface 
area of the microdroplets promotes back-extraction of the dispersant 
out of the oil, which may lead to re-aggregation of the oil and re-
surfacing of a slick far from the point of dispersion.
    Other methods that have been proposed to deal with oil released at 
sea include application of agents to sink the oil or to cause it to 
aggregate into a more easily collectible mass. By transporting oil from 
the surface to the seafloor, sinking agents merely change the site of 
toxic effects and are therefore not generally used. Gelling agents have 
also been proposed, but they have the disadvantage of requiring 
application of large amounts of the agent, and the resulting gelled 
mass may interfere with other response options such as skimming or in 
situ burning. The mass requirement alone precludes their large-scale 
application to big oil releases. Similarly, oil absorbent materials 
such as hair, hay, or polypropylene pads or strips may work well for 
small-scale applications, but become increasingly impractical to deploy 
and retrieve in larger-scale situations.
    Even when used in combination effectively, response options at sea 
usually cannot be applied to more than a small fraction of the oil 
discharged during a large-scale release. The reason has more to do with 
the difficulty of bringing the necessary resources for applying these 
mitigation methods at the scale required than with limitations inherent 
to the methods themselves. All three at-sea response options require 
mild weather conditions and daylight, which all but guarantees they 
will not be able to be applied to much of the oil. New response 
technologies that are brought forward generally face the same 
challenges of delivering them on the scale, duration and at the rate 
needed to make a material difference during a large-scale release, and 
are therefore less effective than it might seem. Hence. most of the oil 
from large scale releases either drifts out to the open ocean where it 
slowly weathers to form tarballs that eventually sink to the deep ocean 
seafloor, or else impacts shorelines, where additional measures may be 
brought to bear to mitigate impacts.
    The cleanup technologies most effective for shoreline remediation 
depend on the state of the oil when it contacts the shoreline and the 
nature of the shoreline contacted. Oil that forms tarballs that wash 
onto sand beaches may be simply picked up and disposed of, as was the 
case during the 2007 Hebei Spirit oil spill in the Republic of Korea. 
Despite very heavy fouling of beaches within a national park, nearly 
one million Koreans volunteered to help pick up the heavy oil residues 
from the impacted shorelines, and succeeding in removing nearly all the 
oil that came ashore. However, if the oil is not dealt with 
immediately, there is the risk that it will be mixed beneath sandy 
beaches by wave action where it can re-surface months or years later, 
or be transported to the immediately adjacent subtidal where it may 
persist for years and perhaps decades, both of which occurred following 
the 2002 Prestige heavy fuel oil spill that fouled the beaches and 
shorelines of northwest Spain.
    Oiled shorelines may also be treated by wiping with oil absorbent 
materials, sometimes augmented by application of surface-washing agents 
and pressure washing equipment, or by application of bioremediation 
agents consisting of oil-consuming microbes mixed with the nutrients 
they need to grow. Beach scrubbing is labor intensive and usually fails 
to remove more than a small proportion of the oil present, even when 
augmented by surface-washing agents (Mearns 1996). Also, these agents, 
along with more aggressive washing methods such as high-pressure, hot- 
or cold-water washing may do more damage to the biological communities 
inhabiting the beach than the oil would (Mearns 1996). Less intrusive 
methods such as bioremediation can be very effective, but only provided 
the needed nutrients can be efficiently supplied for the time required 
for the oil to be completely consumed.
    While a number of other approaches have been tried for removing oil 
from shorelines, all are costly, and none work very well. Only about 
10% of the oil that impacted shorelines following the 1989 Exxon Valdez 
oil spill was removed, despite the efforts of over 10,000 cleanup 
workers laboring over two successive years and trying a wide array of 
approaches (Wolfe et al. 1994).

II. Ecological and Social Effects of Spills and Spill Cleanup 
                    Techniques

Ecological Effects of Spills and Cleanup Techniques

A. Impacts of Spills

    Some of the most damaging effects of oil spills occur through the 
contact hazard they pose to wildlife transiting the sea-air interface 
or while foraging on oiled shorelines (Spies et al. 1996), especially 
oiled marshes. Even small amounts of oil adhering to the skin, hair or 
feathers of sea turtles, marine mammals and seabirds can seriously 
inhibit motion and reduce their ability to thermoregulate, both of 
which often kill the animals. Inhalation of volatile hydrocarbons near 
oil slicks can cause lung damage and induce narcosis leading to 
drowning.
    Natural and chemically-enhanced dispersion of oil presents an 
ingestion hazard to wildlife, fish and other marine organisms that 
mistake oil for food (e.g. Carls et al. 1996). Large aggregations of 
surface oil such as mousse patties or tarballs may be ingested by sea 
turtles, marine mammals, and seabird and may kill animals directly or 
cause illness that increases vulnerability to predation. Oil 
microdroplets are efficiently accumulated by suspension feeders such as 
clams, barnacles, some kinds of zooplankton, and deepwater corals. 
Zooplankton may ingest oil droplets which become mixed with inorganic 
material from other prey and ejected as oily fecal pellets that sink to 
the seafloor (Conover 1971), where they may be scavenged by deepwater 
corals and other animals inhabiting the seafloor.
    Most oils contain monocyclic and polycyclic aromatic compounds (MAC 
and PAC, respectively), which along with closely related compounds may 
be toxic to marine life in several ways. The MACs are among the most 
water soluble components of oils, and at sufficiently high 
concentrations (typically around 1 part per million, or ppm) can induce 
narcosis-like effects in fish leading to death (French-McKay 2002). 
PACs, which include polycyclic aromatic hydrocarbons and closely 
related compounds in which one or more of the aromatic carbon atoms is 
replaced by nitrogen, oxygen or sulfur, can be much more toxic and 
operate through different toxicity mechanisms.
    In addition to being notoriously carcinogenic, PACs can cause 
developmental abnormalities in fish embryos and larvae at 
concentrations below one part per billion (ppb; Carls et al. 1999, 
Heintz et al. 1999). Some PACs can also cause toxicity through a 
phenomenon called photoenhanced toxicity (reviewed by Diamond 2003). 
This occurs when certain PACs are absorbed by skin cells or are 
accumulated into tissues of translucent organisms in the presence of 
ultraviolet radiation from sunlight, where they may catalyze the 
conversion of oxygen molecules inside cells into a much more reactive 
state that causes oxidative damage. Because the oxidative damage 
usually does not affect the PACs catalyzing the conversion, a single 
PAC molecule may convert tens of thousands of oxygen molecules, which 
may either kill affected cells outright or make them cancerous.\1\ As 
with induction of developmental abnormalities, photoenhanced toxicity 
may be lethal to translucent organisms at PAC exposure concentrations 
of one ppb or less (Duesterloh et al. 2002).
---------------------------------------------------------------------------
    \1\ For this reason cleanup workers and others should therefore 
scrupulously avoid skin contact with crude oil, especially while in 
strong sunlight.
---------------------------------------------------------------------------
    Embryotoxic and photoenhanced toxicity effects are most likely in 
habitats where oil accumulates adjacent to limited volumes of seawater, 
restricted water circulation and high biological productivity, such as 
coastal salt-marshes. A relatively high ratio of oil to water along 
with restricted circulation increases the likelihood of toxic effects, 
and high biological productivity in those areas attracts animals.
    Not all of the toxic components of oil have been identified. 
Evidence for toxicity to shellfish associated with unidentified 
components has been clearly demonstrated (Rowland et al. 2001), but 
because oil is such a complex mixture of compounds, identifying the 
components responsible poses a challenging research task. In addition, 
it is becoming increasingly clear that both identified and un-
identified toxic agents in oils act through multiple toxicity 
mechanisms, many and perhaps most of which are poorly understood.
    Being lipophilic (or ``fat-loving''), hydrocarbons tend to 
bioaccumulate in lipid stores of organisms. This process can lead to 
concentrations in lipids that are one-thousand to one-million times 
greater than respective concentrations in ambient water (DiToro et al. 
2000), increasing with the molecular mass of the hydrocarbon involved. 
Fortunately, vertebrates possess elaborate biochemical pathways for 
eliminating the aromatic compounds they absorb (Livingstone 1998), so 
these compounds do not tend to biomagnify up the food chain. Another 
result of this ability is that hydrocarbons tend to be difficult to 
detect in vertebrates, even following substantial exposure to them. 
Hence, monitoring fish for hydrocarbons is often uninformative, because 
most of the hydrocarbons accumulated have been transformed into 
metabolic products that are not detected by ordinary hydrocarbon 
analysis. Analysis should be directed toward the metabolites themselves 
in these cases.

B. Impacts of Cleanup Techniques

    Of all the cleanup techniques available, application of dispersants 
poses the most serious threats to marine life. In themselves, 
dispersants are mildly toxic to sea life (see www.epa.gov/med/
Prods<INF>-</INF>Pubs/ecotox.htm), comparable to the toxicities of 
household detergents. Their ingredients are readily biodegradable, 
which reduces their environmental lifetime considerably. The 
ingredients of some dispersants may pose inhalation, contact and other 
hazards to cleanup workers exposed to them during application, as well 
as to marine mammals that may be coated during aerial application. As 
with in situ burning, worker safety is the paramount concern with 
application of dispersants.
    When used successfully, dispersants dramatically accelerate 
dissolution of the more toxic components of the oil they disperse 
(Fingas 2000), which may expose sea life to higher risk of toxic 
effects. Accumulation of oil microdroplets by suspension feeders is 
especially worrisome when dispersants are applied near the coast. 
Biological productivity in general increases dramatically as the coast 
is approached, and many suspension feeders, such as oysters, are 
important commercially. Risks to wildlife must be weighed against 
impacts that arise from no response, and are especially acute when 
sensitive and vulnerable habitats such as coastal marshes are 
threatened. Oil cannot be removed from these habitats without serious 
collateral damage, and if left in place it may continue to kill fish 
and wildlife for years and possibly decades. From this perspective, 
dispersants have a distinct advantage because they provide a measure of 
control over where and toxicity occurs.
    A further concern regarding dispersant application has arisen in 
the context of the Deepwater Horizon blowout. Application at the leak 
source appears to have accelerated creation of deep-water oil plumes. 
While this reduces the amount of oil reaching the surface, microbial 
degradation of the oil carries a poorly understood risk of depleting 
the oxygen content of the water within such plumes. It is conceivable 
that this process may deplete oxygen to levels that are dangerous for 
sea life, and might lead to a submerged ``dead zone''. While this risk 
is presently thought to be unlikely, such oil dispersion plumes should 
be monitored carefully to evaluate such risks.
    If oil reaches shorelines in a less-weathered, more fluid state, it 
can penetrate into substrates more deeply which can make it more 
problematic to remove. In some cases, natural degradation of oil may be 
enhanced by mechanical disturbance of shoreline substrates to increase 
the availability of oxygen (Mearns 1996). Oil percolated into the 
coarse sediments of some beaches in Prince William Sound following the 
1989 Exxon Valdez oil spill, where some of it became trapped in an 
anoxic layer and persisted for decades (Short et al. 2007). Mechanical 
disturbance was impractical there and would likely have caused as much 
or more damage to the resident biota as the oil. Both fresh and 
weathered oil that gets into coastal vegetation, especially into salt 
marshes can be nearly impossible to remove without resorting to extreme 
measures, such as cutting the vegetation to just above the root mass to 
expose and collect oil on the seabed and disposing of the oiled 
vegetation. This reduces the contact hazard posed by the oil to 
wildlife, but at the cost of eliminating nesting and rearing habitat 
for at least a season and perhaps permanently if the vegetation fails 
to grow back.
    The benefits of shoreline cleanup and remediation techniques must 
be carefully weighed against their risks. Aggressive methods such as 
high-pressure, hot- or cold-water washing may sterilize biologically 
productive shorelines and remove fine particulate material that is an 
essential habitat characteristic for some organisms (Mearns 1996), 
leading to habitat alteration that may take decades to recover from. 
Such methods may also endanger cleanup workers if oil is converted into 
an aerosol that might be inhaled. Use of beach cleaning agents may be 
helpful in some circumstances, although these chemicals may be mildly 
toxic to biota. Application of bioremediation methods, usually 
consisting of oil-degrading microbes combined with nutrients to support 
their growth can be very effective at removing oil from shorelines 
provided adequate oxygen is available and nutrients can be efficiently 
re-supplied (Mearns 1996). Bioremediation materials are usually sprayed 
onto beaches, and exposure to the solvents used may be a concern for 
cleanup workers.

C. Ecosystem Effects

    The animals and plants killed by the direct effects of oil spills, 
or by response, mitigation and remediation efforts may lead to changes 
in the structure and functioning of marine ecosystems (Peterson et al. 
2003). Such changes are often difficult to detect, especially when 
species and habitats at risk are inadequately characterized during the 
planning phases of offshore oil and gas exploration and development. 
Nonetheless, irreversible changes to marine ecosystems are among the 
most long lasting impacts that accidental oil discharges can have. 
Species extinctions are one kind of irreversible ecosystem change, but 
others are possible as well.
    Predators near or at the top of marine food webs often exert strong 
structuring effects by controlling the populations of their prey. These 
structuring effects may form a ``trophic cascade'', wherein populations 
of prey species that support relatively large populations of top 
predators are themselves limited, and their low numbers allow their own 
prey species to flourish, and so forth down the food chain. If an oil 
spill and consequent cleanup activities reduce large numbers of top 
predators such as marine mammals or seabirds, these relationships may 
shift, causing sometimes dramatic changes in the abundances of various 
species, perhaps including commercially important species. Such shifts 
may require decades for recovery, and in extreme cases an ecosystem may 
shift to a new metastable equilibrium state irreversibly.

Social Effects of Spills and Cleanup Techniques
    Large scale oil spills can have devastating economic and other 
social impacts. Fishery closures far in excess of what is needed to 
keep oil-tainted seafood out of the marketplace may be ordered because 
of the need to be cautious in the face of uncertainty regarding the 
extent and duration of oil pollution, with commensurate economic losses 
for the industry. In extreme cases, such closures may lead to permanent 
loss of market share, if products are displaced by competitors that 
gain better market acceptance, such as happened the once-lucrative pink 
salmon fishery in Prince William Sound, Alaska following the 1989 Exxon 
Valdez spill.
    Exaggerated fears of oil-contaminated shorelines and seas may cause 
profound economic losses to tourism industries. Most of the public will 
avoid exposure to any perceived risk posed by an uncertain or poorly-
understood threat such as is typically associated with oil pollution, 
and these reactions are exacerbated by the typical selection bias 
imposed by news media covering such events. The most extreme examples 
of contamination get the most coverage, creating the impression of much 
more extensive contamination than is actually the case.
    Fisheries and aquaculture involving suspension feeding organisms 
such as oysters and clams are especially vulnerable to oil 
contamination, particularly if dispersants are used nearby. These 
organisms may easily become tainted by oil because they are so 
efficient at accumulating oil microdroplets.
    Oil spill cleanup efforts may provide a temporary boon to local 
economies by providing a source of additional income, which may be 
especially welcome by those livelihoods are jeopardized by fishery 
closures, product contamination or oil-related declines in tourism. 
However, these benefits are typically short-lived, and may create 
additional adverse social impacts. Selective participation in cleanup 
efforts may create winners and losers within the same communities, 
engendering resentments that can seriously damage the character and 
social fabric of these communities. Protracted lawsuits typically add 
to individual and community stress. In extreme cases, where some 
members of a community are financially ruined while others are 
enriched, the result may be considerably increased incidences of 
domestic violence, substance abuse, violent crime and suicide, as was 
documented in communities affected by the 1989 Exxon Valdez spill 
(Russell et al. 1996).

III. Scientific Research and Monitoring Needs

    Scientific research and monitoring needs fall into four categories: 
elucidation of toxic agents and mechanisms; monitoring the short- and 
long-term effects of spills; identification of vulnerable habitats, 
species and life-stages; and development of better cleanup and response 
technologies.
    The funding made available to the oil pollution research community 
in the aftermath of the 1989 Exxon Valdez oil spill led to fundamental 
advances in our understanding of the toxic components and mechanisms of 
oil pollution. As a result of this work, it is now more realistically 
appreciated that oil pollution can affect fish and wildlife 
populations, and probably humans as well, in subtle but serious ways, 
and that much more remains to be discovered. Because this line of 
research has little potential for direct commercial benefit but is 
likely to bolster the case for greater regulation of petroleum products 
and the petroleum industry, there are almost no sources of funding 
available apart from governments. Yet even relatively modest 
investments in such research may yield substantial dividends. By 
elucidating what biological resources are at risk, policy makers will 
be able to avoid impacts that are presently unsuspected to biological 
resources, while also avoiding overly strict regulation and resource 
closures that invariably lead to economic losses.
    Better monitoring of short- and long-term oil spill effects 
interacts synergistically with research on toxic agents and mechanisms 
by providing opportunities to verify the relevance of the toxicity 
research, and by providing evidence for impacts that have not been 
considered heretofore. Again, the 1989 Exxon Valdez spill provides an 
example of this positive dynamic linking these efforts. The 
embryotoxicity research conducted in the aftermath of this spill (and 
supported by the funding made available by it) was inspired by field 
observations of relatively poorer survivals of pink salmon embryos 
rearing in streams on oiled beaches compared with those on un-oiled 
beaches. As a result of the embryotoxicity research, we now have a 
better idea of where, when, how and what to look for to determine 
whether a particular spill causes more subtle damage to exposed 
populations. We now realize, for example, that oil need not kill 
exposed biota directly; merely weakening biota even slightly very often 
results in their eventual premature mortality from increased 
vulnerability to predation or disease.
    Once a spill begins, there is an immediate need to quickly 
determine the biological resources most at risk. In addition to 
identifying the most vulnerable species and lifestages, the most 
vulnerable, productive and otherwise important habitats should be 
afforded priority for allocation of spill response resources to 
mitigate impacts. Currently such habitats are identified using an 
environmental sensitivity index that is based on shoreline 
geomorphology. This index does not account for variation in biological 
productivity, reproductive habitat, ecosystem complexity, biodiversity, 
or habitat that supports rare, threatened or endangered species. 
Coastal zone maps that identify such important ecological areas in 
advance would be an invaluable asset to spill response officials to 
reduce the impacts of spills on the affected ecosystems.
    Finally, research on better methods for collecting and remediating 
the effects of spilled oil are urgently needed. Recent research, again 
funded in the aftermath of the 1989 Exxon Valdez spill, has led to 
promising methods for delivering nutrients to oil buried within 
beaches, and it is likely that better designs for the oil collection 
devices used with surface skimmers would lead to significant increases 
in their effectiveness. Improved dispersant formulations that are less 
toxic to humans and to wildlife, along with better methods for 
delivering would be welcome additions to the limited array of tools 
available for mitigating spills. Along these lines, the Environmental 
Protection Agency (EPA) could helpfully waive prohibitions against oil 
discharges at sea and on shorelines to allow for experimental spills 
wherein new dispersant and other oil mitigation measures could be 
realistically tested. However, a requirement for such waivers should be 
adherence to rigorous standards of scientific practice. All too often 
field tests that fail to meet basic criteria for scientific 
experiments, such as positive and negative control treatments, 
replication, quantitative evaluation of test results, etc. are promoted 
as ``scientific'' when in fact they barely meet reasonable criteria for 
pre-experiment feasibility studies. At minimum, the EPA, NOAA, the 
Minerals Management Services and the U.S. Coast Guard should insist 
that rigorous scientific standards be met before relying on results 
claimed for new approaches to oil spill response and mitigation.

IV. Concluding Remarks

    The science of oil spills is an especially complex branch of 
environmental science. As is hopefully clear from the above sections, 
oil affects species and ecosystems in ways that are often subtle and in 
any case are far from well understood. Once spilled, oil affects the 
environment in myriad ways, including many that are currently unknown, 
and response and cleanup actions add to the complexity. Every spill of 
any size presents unique impacts and response challenges.
    When a spill is very large, factors related to scale seriously 
constrain our ability to contain them. For every spill situation there 
is some size threshold beyond which the efficacy of response, 
mitigation and restoration are primarily limited not by the available 
techniques or stockpiles of materiel, but by the ability to apply them 
effectively to where the oil is. By definition, very large spills 
expand quickly to impact large areas, and as slicks fragment and 
respond to the vagaries of winds and currents, keeping track of the oil 
becomes nearly impossible, especially with loss of visual contact at 
night (which may be prolonged in the Arctic), or when storms preclude 
surveillance flights while moving the oil rapidly. The fundamental 
problem becomes one of keeping track of all the oil parcels moving ever 
farther away from each other in a big ocean, and having the resources 
to identify and deliver the right combination of response options in a 
timely manner before loosing track of the oil again. At some point this 
challenge becomes hopeless beyond some size threshold. It is for these 
and related reasons that a scientific panel recently convened to review 
dispersant use for the Deepwater Horizon blowout concluded that ``No 
combination of response actions can fully contain oil or mitigate 
impacts from a spill the size and complexity of the DWH incident'' 
(Coastal Response Research Center 2010).
    Fixing our ability to track and apply appropriate response measures 
to spills the size of the Exxon Valdez or the Deepwater Horizon blowout 
would require orders of magnitude greater investments in obtaining and 
maintaining the delivery infrastructure required. In the case of the 
Deepwater Horizon blowout, concerns regarding whether the current 
Administration acted quickly enough or made the right decisions, or 
whether they should have ``taken over'' the spill are largely beside 
the point. Neither the United States government nor the oil industry 
have the resources to fully contain a discharge the size of the 
Deepwater Horizon, and only the oil industry has the resources to be 
able to eventually stop the flow.
    Recognizing the truth of the panel's conclusion has important 
implications for oil spill response policy and for how we go forward 
with regulating offshore oil and gas development. Regulatory policy has 
heretofore subscribed to the fiction that adequate spill response plans 
are a reasonable requirement for offshore oil and gas exploration and 
development. Spill scenarios that could not be contained by the 
resources and approaches described in these plans were conveniently 
dismissed as too improbable to warrant consideration, despite their 
recurrences over the last two decades. Given that continued oil 
production from U.S. territorial waters will increasingly require 
drilling in ever more challenging environments such as deeper ocean 
waters or in the Arctic, where we have little engineering experience in 
either, we must face a stark choice: Either we must accept that risks 
of uncontrollable releases will continue to escalate, leading to more 
frequent accidents akin to the Deepwater Horizon, or we must tighten 
our regulation of offshore oil and gas exploration and production 
considerably.
    More generally, the United States government has a responsibility 
to manage the nation's natural resources wisely. The desire for smaller 
government implies a commensurately constrained ability to meet this 
responsibility. The effect of this is to cede these responsibilities to 
the industries that profit most from natural resource exploitation, and 
operate under a fiduciary responsibility that requires them to place 
their narrow economic interests above the wider interests of the 
public. To the extent that this effort succeeds, we should expect more 
and even bigger environmental disasters like the Deepwater Horizon 
blowout. Simply put, the Congress is faced with the question, ``does 
America hold the long term health and biodiversity of our ocean 
resources in commensurate value as the short term demand for oil?'' And 
if so, is the Congress willing to pay for their protection?
    The United States is fortunate to have a substantial number of 
talented, dedicated environmental scientists in the employ of our 
resource agencies, whose primary motivation is to ensure that 
development of natural resources is done in a manner that does not 
inflict unacceptable damage on the capacity of our natural environment 
to sustain us. Recent years have seen increasing marginalization of 
their contributions, yet their understanding of and appreciation for 
the complexity of environmental interactions is unparalleled. Their 
advice should not be casually dismissed in favor of short-term economic 
arguments, and the steady erosion of their base budgets that has 
occurred over the last two decades should be reversed.
    To cite one especially relevant example here, NOAA's Office of 
Response and Restoration, which is responsible for providing scientific 
advice to guide oil spill response efforts and to evaluate the 
environmental damages caused by oil spills, has lost about 30% of its 
staff over the last eight years, seriously straining their capacity to 
do their job when faced with a event on the scale of the Deepwater 
Horizon blowout. Other natural resource agencies in the Federal 
Government have faced similar budget reductions. Just as it costs money 
to maintain a fire department, it costs money if the Federal Government 
is going to recover its ability to independently assess the 
environmental risks of oil and other economic development, and to 
respond effectively to accidents when they occur.
    As oil exploration pushes into these more challenging environments, 
the oil industry is positioned to reap most of the benefits while the 
public is saddled with nearly all of the risk. As I noted initially, 
this risk extends to loss of livelihoods and of life itself. It is for 
these reasons that my organization, Oceana, recommends a ban on new 
offshore drilling and a reinstatement of the moratoria previously in 
effect before 2008.
    With these sober facts in mind, I recommend the Congress take the 
following actions:

        1.  I commend Chairman Baird and Representative Woolsey for 
        introducing HR 2693 to amend the research provisions of the Oil 
        Pollution Act of 1990, and I urge the Congress to pass it.

        2.  Immediately, include the expertise of scientists (including 
        people with local and traditional knowledge) in a comprehensive 
        review of the health and biodiversity of the ecosystems within 
        the range of offshore drilling. (I would be privileged to 
        participate in further discussion of the framework of such a 
        review).

        3.  Stop offshore drilling until the President's Commission on 
        the Deepwater Horizon blowout has completed their report and 
        you can determine from the comprehensive science review in 
        point number 2 above if we should go forward, how, when and 
        where. It is Oceana's belief that the only appropriate 
        conclusion for the panel is that new offshore drilling is not 
        worth the risks and should not be allowed.

        4.  Conduct a thorough review of the Outer Continental Shelf 
        Lands Act and other related Federal laws to ensure inclusion of 
        the necessary oversight and protections of America's living 
        marine resources.

        5.  Provide NOAA, EPA and the United States Coast Guard with 
        the authority and the resources necessary for understanding, 
        regulating and protecting America's oceans.

        6.  Initiate a process that will lead to a National energy plan 
        that includes adequate protection for our oceans.

V. References

Carls, M.G., Holland, L., Larsen, M., Lum, J.L., Mortensen, D.G., Wang, 
        S.Y., Wertheimer, A.C. 1996. Growth, feeding and survival of 
        pink salmon fry exposed to food contaminated by crude oil. 
        American Fisheries Society Symposium 18:608-618.

Carls, M.G., Rice, S.D., Hose, J.E. 1999. Sensitivity of fish embryos 
        to weathered crude oil: Part I. Low-level exposure during 
        incubation causes malformations, genetic damage, and mortality 
        in larval Pacific herring (Clupea pallasi). Environmental 
        Toxicology and Chemistry 18:481-493.

Coastal Response Research Center. 2010. Deepwater Horizon dispersant 
        use meeting report, May 26-27, 2010. University of New 
        Hampshire, Durham, NH, 21 pp and appendices.

Conover, R.J. 1971. Some relations between zooplankton and Bunker C oil 
        in Chedabucto Bay following the wreck of the tanker Arrow. J. 
        Fish. Res. Bd. Can. 28:1327-1330.

Duesterloh, S., Short, J.W., Barron, M.G. 2002. Photoenhanced toxicity 
        of Alaska North Slope crude oil to the calanoid copepods 
        Calanus marshallae and Metridia okhotensis. Environmental 
        Science and Technology 36:3953-3959.

Diamond, S.A. 2003. Photoactivated toxicity in aquatic environments. 
        Ch. 7 in UV Effects in Aquatic Organisms and Ecosystems, E.W. 
        Helbling and H. Zagarese, eds. The Royal Society of Chemistry, 
        Thomas Graham House, Science Park, Milton Road. Cambridge 
        CB40WF, UK.

DiToro, D.M., McGrath. J.A., Hansen, D.J. 2000. Technical basis for 
        narcotic chemicals and polycyclic aromatic hydrocarbon 
        criteria. I. Water and tissue. Environmental Toxicology and 
        Chemistry 19:1951-1970.

Fingas, M. 2000. The basics of oil spill cleanup. J. Charles, ed. (2nd 
        edition). Lewis Publishers, CRC Press LLC, 2000 Corporate 
        Blvd., Boca Raton, Florida 33431.

French-McKay, D.P. 2002. Development and application of an oil toxicity 
        and exposure model, OilToxEx. Environmental Toxicology and 
        Chemistry 21:2080-2094.

Heintz, R.A., Short, J.W.. Rice, S.D. 1999. Sensitivity of fish embryos 
        to weathered crude oil: Part II. Incubating downstream from 
        weathered Exxon Valdez crude oil caused increased mortality of 
        pink salmon (Oncorhynchus gorbuscha) embryos. Environmental 
        Toxicology and Chemistry 18:494-503.

Livingstone, D.R. 1998. The fate of organic xenobiotics in aquatic 
        ecosystems: Quantitative and qualitative differences in 
        biotransformation by invertebrates and fish. Comparative 
        Biochemistry and Physiology A 120:43-49.

Mearns, A.J. 1996. Exxon Valdez shoreline treatment and operations: 
        implications for response, assessment, monitoring, and 
        research. American Fisheries Society Symposium 18:309-328.

Petersen, C. H., Rice, S. D., Short, J. W., Esler, D., Bodkin, J. L., 
        Ballachey, B. E., Irons, D. B. 2003. Emergence of ecosystem 
        based toxicology: Long term consequences of the Exxon Valdez 
        oil spill. Science, 302:2082-2086.

Rowland, S., Donkin, P. Smith, E., Wraige, E. 2001. Aromatic 
        hydrocarbon ``humps'' in the marine environment: unrecognized 
        toxins? Environmental Science and Technology 35:2640-2644

Russel, J.C., Downs, M.A., Petterson, J.S., Palinkas, L.A. 1996. 
        Psychological and social impacts of the Exxon Valdez oil spill 
        and cleanup. American Fisheries Society Symposium 18:867-878.

Spies, R.B., Rice, S.D., Wolfe, D.A., Wright, B.A. 1996. The effects of 
        the Exxon Valdez oil spill on the Alaskan coastal environment. 
        American Fisheries Society Symposium 18:1-16.

Short, J.W., Irvine, G.V., Mann, D.H., Maselko, J.M., Pella, J.J., 
        Lindeberg, M.R., Payne, J.R., Driskell, W.B., Rice, S.D. 2007. 
        Slightly weathered Exxon Valdez oil persists in Gulf of Alaska 
        beach sediments after 16 years. Environmental Science and 
        Technology 41(4):1245-1250.

Wolfe, D.A.. M.J. Hameedi, J.A. Galt. G. Watabayashi. J. Short. C. 
        O'Clair, S. Rice, J. Michel, J.R. Payne, J. Braddock, S. Hanna. 
        and D. Sale. 1994. The fate of the oil spilled from the Exxon 
        Valdez. Environmental Science and Technology 28 (13): 561A-568A

                      Biography for Jeffrey Short

    Jeffrey Short recently retired from a 31-year career as a research 
chemist at NOAA, where he worked primarily on oil pollution and other 
contaminant issues. He was the leading chemist for the governments of 
Alaska and the United States for the Exxon Valdez oil spill, and guided 
numerous studies on the distribution, persistence and effects of the 
oil on the ecosystem. During his last two years at NOAA, Dr. Short 
launched a research effort aimed at determining the effects of ocean 
acidification on commercially important shellfish in Alaska. Dr. Short 
is the author of more than 60 scientific publications and has 
contributed to 3 books on oil pollution. Dr. Short is now Pacific 
Science Director with Oceana, an international marine conservation 
organization.

    Chairman Baird. Thank you, Dr. Short.
    Dr. Joye.

  STATEMENTS OF SAMANTHA JOYE, PROFESSOR OF MARINE SCIENCES, 
                     UNIVERSITY OF GEORGIA

    Dr. Joye. Thank you, Mr. Chairman and Members of the 
Committee for inviting me to testify. I am an oceanographer, 
and I have studied natural oil and gas seepage in the Gulf of 
Mexico for over 15 years. I am here today to discuss with you 
the environmental assault on the Gulf of Mexico that has 
resulted from the Deepwater Horizon oil spill.
    At day 51 of this disaster there is still far too many 
unknowns regarding the ocean graphic impacts of this spill. I 
want to highlight some of those unknowns here for you.
    First and foremost, we do not yet have robust independent 
estimates of the rate of leakage from this well, nor do we know 
the fraction of oil versus gas coming out of the riser pipe. 
Independent estimates of these numbers are needed immediately 
and continuously until the pipe has been sealed.
    The second thing that we really have a lack of information 
and knowledge of is how the oceanic system is being altered and 
how the biological components of the system are reacting to 
this alteration. I recently returned from a two-week research 
cruise to the Gulf of Mexico. We found sub-sea plumes enriched 
in oil and gas that are derived from the Deepwater Horizon 
leaking well. These are some of the highest concentrations of 
methane gas that I have ever measured in the waters of the Gulf 
of Mexico, and I have no doubt that they are rising from this 
well.
    We also found up to 10 miles away from the well at 1,100 
meters detectable amounts of oil and PHs in the water. There 
are substantial increases in biological activity and 
consumption of oil and gas throughout the water column, not 
limited to these deepwater plumes. The entire water column is 
being impacted by the oil and gases being introduced to the 
system from this well.
    We only made snapshot assessments of what is happening out 
on the water in the Gulf of Mexico. Continuous monitoring and 
assessments are thus urgently needed.
    We simply do not know at this point how the oceanic system 
is being impacted by this bottom-to-top infusion of oil and 
gas, and when you add to that the unknown effects of 
dispersants onto the oceanic ecosystem, we really can't even 
begin to understand the impacts of this disaster.
    For example, what are the physiological affects of 
dispersants on phytoplankton, on microorganisms, on larvae of 
important fishery species? We simply don't know the answers to 
these questions. Now, these are not questions that we need to 
be answering at this point. We should have known the answers to 
these questions before these dispersants were ever used.
    What will be the long-term oceanic impacts of this spill? 
Are we going to see oxygen depletion in the water columns of 
the Gulf of Mexico? What will be the food web impacts of the 
spill? What will be the impacts long term of the dispersants 
and the toxic impacts of oil itself?
    In terms of what is needed to respond to this disaster in 
terms of the oceanography and the ecology of the Gulf of Mexico 
ecosystem, I supplied information in my written testimony 
regarding the instrumentation and infrastructure that the 
oceanographic research community needs. I want to say here, 
though, that oceanographers are not used to sampling oil-laden 
water. None of our instrumentation, very little of our 
instrumentation and none of our collection devices are really 
made for this kind of sampling. This is an immediate need that 
needs to be addressed because if we are going to properly 
evaluate and assess the impact of this spill, we need to 
properly obtain samples.
    Finally, I feel it is critical to coordinate the assessment 
and impact of this--of the oceanographic community of this 
disaster. This could easily be done by organizing a National 
Academy of Sciences workshop with oceanographers familiar with 
the Gulf of Mexico and others who are interested in working on 
the deepwater impacts of the spill.
    Thank you.
    [The prepared statement of Dr. Joye follows:]

                  Prepared Statement of Samantha Joye

Background

    I am an Oceanographer in the Department of Marine Sciences at the 
University of Georgia (Athens, GA). My research aims to understand how 
microbially mediated processes influence elemental cycling in the 
environment. Over my career, a good deal of my research effort has 
focused on naturally occurring gas and oil seeps, commonly referred to 
as 'cold seeps', in the Gulf of Mexico. I am an internationally 
recognized expert on cold seeps and have published a number of high-
profile papers describing the microbiology and biogeochemistry of these 
ecosystems. My testimony will describe the role of hydrocarbons in the 
Gulf of Mexico ecosystem, both in the natural context and with respect 
to the potential impacts of focused large inputs such as those 
resulting from the current Deepwater Horizon spill (hereafter referred 
to as the BP blowout). I will discuss the ecology of the Gulf of Mexico 
system, the ecological importance of oil recovery, the nature and 
potential ecological role of the observed subsurface plume features and 
highlight needs, current gaps, key features and required support for a 
successful coordinated Federal research program in response to the oil 
spill.

Ecological role of oil and gas seepage in the Gulf of Mexico

    Broader Context: In most pelagic oceanic systems, ecosystem energy 
flow begins with phytoplankton, who through photosynthesis oxygenate 
surface waters and provide organic matter to fuel heterotrophic 
processes and secondary production at higher trophic levels. 
Heterotrophic organisms consume phytoplankton (e.g. zooplankton) and 
recycle released dissolved organic matter (e.g. heterotrophic 
bacteria). Zooplankton are consumed by larger zooplankton and fish and, 
in the Gulf, this trophic energy cascade is topped by consumers such as 
sperm whales and predatory fish such as blackfin tuna (who both eat 
squid and fish). In the Gulf of Mexico, primary production and 
microbial dynamics have been studies extensively in coastal waters such 
as those around the mouth of the Mississippi River, but blue water 
(i.e. open ocean) data on these processes are limited. Studies of 
benthic processes and benthic communities in deep water are also 
limited relative to the Gulf's coastal waters but benthic data are more 
abundant than water column data.
    A unique characteristic of the Gulf of Mexico is that its 
subseafloor sediments contain vast reserves of hydrocarbons. Some of 
this oil and gas (methane and higher alkanes) fluxes naturally from 
deep reservoirs through complex fault-networks to reach surficial 
sediments. In sediments, these reduced substrates fuel extremely high 
rates of microbial metabolism. Some oil and gas escapes from the 
sediments and reaches the water column, where it is subject to 
additional oxidation. A fraction of this water column gas flux 
ultimately reaches the atmosphere, but these fluxes are not well 
constrained (1). Natural oil seepage from the seafloor creates slicks 
that can be quantified and mapped using satellite imagery (2).
    Naturally occurring oil and gas seepage plays a key role in shaping 
the ecology, microbiology, and biogeochemistry of the Gulf of Mexico 
system, particularly its deep sediments and waters. Under most 
circumstances, natural seeps are the most important source of petroleum 
to the marine environment (3). In the Gulf of Mexico, about 95% of 
offshore oil inputs are from natural seeps under normal conditions. 
Systems like the Gulf of Mexico are thus accustomed to slow, somewhat 
diffuse inputs of oil and gas, and the biological communities have 
adapted to endure and in some cases metabolize these materials such 
that negative impacts of such inputs are localized as opposed to 
widespread (3).
    Sediment processes: Seepage of oil and gas at the seafloor supports 
the establishment and proliferation of diverse chemosynthetic 
ecosystems that includes seep endemic sessile fauna (e.g. tubeworms and 
mussels), mobile fauna that tend to stay around seeps (e.g. clams, 
urchins, eels, fish, shrimps) as well as foraging species, such as 
demersal fish that likely migrate between seeps (e.g. six gill sharks) 
(5). Some endemic seep fauna harbor chemosynthetic symbionts (e.g. 
tubeworms, mussels, clams) while others are heterotrophic (5).
    While the macro-ecology of cold seeps in the Gulf of Mexico has 
been well described (5), the microbiology of these habitats is not (6-
9), even though the microbial processes serve as the geobiological 
engine of cold seeps. Free-living microorganisms degrade oil and gas; 
under the anoxic conditions typical of seep sediments, oil and gas 
degradation are largely performed by sulfate reducing bacteria and the 
product of their metabolism (hydrogen sulfide) provides an inorganic 
energy source (hydrogen sulfide) to the chemosynthetic macrofauna. The 
microbial degradation of oil and gas also generates carbonate ions, 
which subsequently drives precipitation of authigenic carbonates. These 
carbonate hardgrounds are colonized by deepwater corals (e.g. 
Lophelia), generating another unique seafloor ecosystem that is 
ultimately driven by natural seepage.
    Water column processes: The impact(s) of natural oil and gas 
seepage on water column microbial communities has received little 
attention even though it is well known that both oil and gas are 
introduced into the water column at cold seeps in the Gulf of Mexico 
and elsewhere. Microbial oxidation of oil is carried out by 
microorganisms like the gammaproteobacterium Alcanivorax. Microbial 
oxidation of methane is carried out by a diverse assemblage of methane-
eating, or methanotrophic, microorganisms (10). Other low molecular 
weight alkane gases are similarly oxidized. Because the Gulf of Mexico 
experiences natural seepage, the natural microbial community here is 
poised to consume oil and gas. At least 1000 naturally occurring seeps 
along the Gulf of Mexico shelf and slope deliver from 1000-2000 barrels 
of oil per day into the Gulf's waters (4). The fact that this naturally 
derived oil does not accumulate on beaches underscores the ability of 
natural microbial and physical processes to consume it relatively 
quickly. However, as will become clear later in my testimony, the 
magnitude of this spill may saturate the microbial community's ability 
to consume the introduced oil and gas.

The need document the rate of leakage

    In contrast to the naturally occurring hydrocarbon seepage, the BP 
blowout is injecting from 19,000 barrels (low-end estimate) to 70,000 
barrels (high-end estimate) of oil per day into the water column via a 
focused, intense jet at a water depth of 5,000m. The amount of gas 
being injected into the system has not been constrained though BP has 
noted that the total flow could be as much as 40% gas. While natural 
seepage varies extensively in space and time, the BP blowout is an 
intense, localized input of labile organic matter to the deep ocean 
environment. Thus, the BP blowout is an unprecedented perturbation to 
the Gulf of Mexico system that has no natural equivalent.
    It is virtually impossible to understand or quantify the ecological 
consequences of the BP blowout on the Gulf of Mexico ecosystem without 
knowing how much oil and gas has leaked from the wellhead. These 
numbers need to be estimated and corroborated independently based on 
available observational data. Unfortunately, the leak rate was not 
quantified robustly during the first month of the spill (at least that 
information has not been made publicly available). Unless we know how 
much oil is leaking from the wellhead, we cannot gauge the full extent 
of the ecological consequences in deepwater or surface water 
environments. For example, how much deepwater water column oxygen 
consumption will be fueled by this influx of oil and gas? Which water 
column microbial communities will be stimulated by oil and gas? What is 
the time scale of this response? How will surface water microbial 
communities respond to surface oil and gas inputs? Potential fishery, 
marine mammal, and wildlife consequences of the BP blowout cannot be 
properly predicted until we know the magnitude of the disaster. To put 
it bluntly, the scientific community is hamstrung until we know 
precisely how much oil and gas has leaked and is leaking from the 
wellhead.
    It is even more important to quantify the inputs from the wellhead 
since dispersants are being added to the fluid stream at the seafloor. 
The aim of deepwater dispersant addition is to break up the oil and 
reduce formation of surface slicks. The application of dispersants at 
the riser makes it impossible to estimate the size of the leak solely 
from surface observations (e.g. using satellite imagery). Given the 
importance of the estimating the magnitude of the spill, the challenge 
of monitoring hydrocarbons not only on the surface but also within mid- 
and deep waters, and of quantifying the hydrocarbon's impact on 
ecosystem services in benthic, pelagic and littoral zones, it is 
critical that leak rates are quantified at least every other day by 
independent scientists until the well is capped and the leakage 
stopped. There are many scientists who can make these measurements and 
I know they are willing and eager to help.

Ecological Importance of Oil Recovery

    The Gulf of Mexico ecosystem provides a number of ecosystem 
services to the public, including, fisheries production, recreation and 
tourism, carbon sequestration and water purification in coastal marshes 
and mangroves, to name a few. The potential coastal impacts of the BP 
blowout have received the most attention because this is where the 
direct human impacts are perceived to be the greatest. Certainly 
tourism, fisheries yield and production, and wetland and submerged 
aquatic vegetation (e.g. seagrass) habitats will be impacted. But, the 
food web of coastal and offshore habitats is likely to be impacted 
significantly. Everything from the base of the food web--
microorganisms--to the higher order consumers--invertebrates, 
zooplankton, jellyfish, fish, birds, sea turtles, marine mammals--will 
suffer direct consequences of the BP blowout as long as there is oil in 
the system due the inherent toxicity of crude oil components. This is 
why it is essential to recover as much of the spilled oil as possible 
and to remove it from the environment. While removing oil can be 
accomplished via skimming or burn offs on the surface ocean or clean up 
and removal from beaches and marshes, removing methane and other alkane 
gases is not possible; other than evasion to the atmosphere, the fate 
of methane dissolved in water lies in the hands of microorganisms that 
can utilize methane as an energy source.
    A secondary effect of the input of oil and gas on the oceanic 
system arises from the perturbation of the carbon and oxygen budgets in 
the system. Before the spill, oxygen concentrations in the water column 
reflected a ``steady state'' balance between sources (photosynthesis) 
and sinks (respiration). [Note that while atmospheric exchange can also 
be important in some cases, for the present discussion, this term will 
be neglected.]
    The direct injection of large quantities of oil and gas into the 
system has upset the delicate balance of oxygen in the offshore system. 
Basically, the oxidation of the oil and gas has stimulated respiration 
such that oxygen is being consumed more rapidly than it is being 
supplied. We do not know what the end result of this infusion of oil 
and gas will be on the Gulf's oxygen budget. But, we can use well-
studied coastal ecosystems to inform us of the possible consequences of 
extremely high organic matter loading. In coastal ecosystems, excessive 
inputs of inorganic nutrients and hyper-production of labile organic 
carbon has driven increased respiration and heterotrophic oxygen 
consumption leading to the formation of coastal ``dead zones''. Low 
oxygen (hypoxic) or zero oxygen (anoxic) waters have been documented in 
coastal systems across the globe in recent years. These dead zones are 
a direct result of perturbation of the carbon and oxygen budgets of 
these systems. Scientists have previously defined an oxygen 
concentration of 2 mg/L as the threshold for ``hypoxia''; this 
concentration is where many oxygen-requiring organisms begin to display 
symptoms of oxygen stress. Under anoxic conditions (0 mg/L oxygen), 
oxygen-requiring organisms are excluded from the system.
    It is well known that methane and oil consumption proceed most 
effectively under aerobic conditions. This imbalance between oxygen 
inputs and outputs, if sustained over an ample period of time, could 
lead to hypoxia or anoxia in the water column, which would have 
substantial and potentially widespread negative impacts on any oxygen-
requiring animal populations and on the food web of the system.
    Dispersants. Initial concerns regarding the BP blowout focused on 
coastal impacts and the need to keep oil from damaging critical coastal 
ecosystems and the coastal economy, which depends heavily on tourism 
and fisheries (in addition to the oil industry). Certainly such 
concerns are valid and widespread efforts to protect the coastal zone 
from the oil are essential. It appears that the widespread use of 
dispersants in response to the BP blowout is due largely to the desire 
to keep the beaches clean and minimize the impact of the spill on 
coastal environments.
    However, oil on the surface of the ocean and even on beaches can be 
cleaned up. Dispersed oil cannot be cleaned up, rather it moves with 
the water and the oil and dispersants are likely to influence oceanic 
ecosystems for years to come. Because dispersed oil cannot be 
effectively recovered, its fate is largely tied to the activity of 
microorganisms that degrade it, assuming the dispersants have no 
negative impact on their metabolism. The implication of this is that 
dispersed oil may stimulate the oxygen demand of the system and 
potentially promote subsurface hypoxia.

Oil and gas suspended in the mid-waters and deepwaters of the Gulf of 
                    Mexico

    Little attention has been given to the offshore oceanic impacts of 
the BP blowout and initial reports of subsurface oil were received with 
skepticism. The BP blowout is introducing both oil and methane gas into 
the deepwater. The oil and gas mixture emitted from the pipe is derived 
from a very deep subsurface reservoir and the pressure/temperature 
field of the fluid is dramatically altered as it exists the riser pipe 
and enters the deep water. Previous studies of deepwater blowout events 
predicted (3) and illustrated (11) that a substantial fraction of the 
released oil and gas would become suspended in diffuse pelagic plumes 
(figure 1, taken from reference 3). Suspension of oil in the deepwater 
is predicted (and was documented, see ref. 11) to occur even in the 
absence of added dispersant agents. Mid-water oil may derive from 
coagulation and settling of oil from surface waters or from slowly 
rising deepwater plumes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mid- and deep- water oil and gas will flow along the path of the 
prevailing ocean currents and along bathymetric anomalies. Satellite 
sea surface imaging has clearly illustrated how difficult it is to 
understand the movement of oil is in a two-dimensional setting. Mapping 
and modeling movement of deep and mid-water plumes will be even more 
challenging.
    The fate of oil in the deepwater is likely to be very different 
from that of surface oil because some processes that occur on the 
surface do not occur at depth. Most importantly, photooxidation and 
evaporative loss are important terms of oil breakdown (former) and 
removal (latter) in surface slicks. Photooxidative processes transform 
crude oil into compounds that may, or may not, be susceptible to 
subsequent microbial oxidation.
    Neither of these processes is important in deepwater, leaving 
microbially mediated oxidation and perhaps sedimentation along the 
seabed as the primary fates of the oil. For deepwater methane, the 
primary fate is likely microbial oxidation whereas both microbial 
oxidation and evasion to the atmosphere occur close to the surface.
    In the water column, oil and methane oxidation are often coupled to 
aerobic (oxygen) respiration, meaning that microbially mediated 
consumption of oil and methane may generate oxygen depletion. Oxygen 
depletion in deepwater is a significant concern because deepwater 
oxygen is not replenished in situ by photosynthesis (as is the case for 
surface waters) rather it is replenished by physical processes (12). 
While surface water hypoxia/anoxia might be short-lived, deepwater 
hypoxia/anoxia could persist for years if (likely decades). Hypoxia or 
anoxia would have multiple impacts on the deepwater system, including 
changes in microbial community composition and the associated processes 
they mediate, exclusion of oxygen-requiring fauna (e.g. zooplankton, 
gelatinous zooplankton, fish, squid, whales, etc.) and altered nutrient 
cycles. For example, if the deepwater becomes anoxic, microbial 
respiration could switch to sulfate reduction, raising the possibility 
for generation of substantial volumes of anoxic, sulfidic water deep in 
the Gulf of Mexico. Furthermore, if such anoxic waters were to 
intersect with sediments or be pushed into the coastal zone, the 
impacts could be severe and widespread.
    Coupled to the deepwater pelagic system is the benthic ecosystem. 
The seafloor in the vicinity of natural oil and gas seeps is home to 
diverse chemosynthetic ecosystems and colonies of cold water corals. 
Although these organisms can tolerate reduced oxygen concentrations and 
hydrocarbons, the impacts of the BP blowout will challenge the 
tolerance of sessile communities beyond any previous insult (12).

Research needs

    To properly assess and monitor the oceanic impacts of the BP 
blowout requires a long term, coordinated research program. It is 
essential to quantify the mass of oil and gas entering the system, to 
determine their breakdown rates and fate in the environment, and to 
constrain their incorporation into the marine food web. Such monitoring 
must be done immediately and then we must track coupled biogeochemical 
dynamics of the system closely in the coming weeks, months, and years.
    Little monitoring data for offshore sediments or pelagic waters is 
available in the immediate vicinity of BP blowout (lease block MC252), 
thus we have no robust baseline against which to compare post-spill 
conditions and responses. Through NOAA and DOE funding, a long-term 
research program was established at MC118, a site about 9 miles upslope 
from MC252, but that program is young and a long term monitoring data 
set of the benthic and pelagic system is not yet available. The BP 
blowout thus underscores the need for baseline monitoring in the 
offshore systems where deepwater drilling is occurring now and where it 
is planned for the future.
    Current deepwater monitoring efforts have focused to a large extent 
on the area within about 20-30 miles of the leaking wellhead. Basin-
wide measurements are needed as soon as possible because the dispersed 
oil, and the dispersants that generated it, may travel great distances 
from the site of the spill. It is therefore imperative to obtain 
background information from sites that may be potentially impacted as 
soon as possible.
    Multiple types of data are needed and these data should be 
collected throughout the water column at as many places as possible. 
Detailed hydrographic and physical oceanographic characterization of 
the water column is essential. Such studies in surface waters (upper 
200m), mid-waters (200-800m) and deep waters (800m to the bottom) 
should address at least the following specific objectives:

        1.  Quantifying the concentration of oil and the composition of 
        the crude oil (PAH, BTEX, etc.) and fingerprinting the oil to 
        trace it to its origin;

        2.  Quantifying rates of primary production and evaluating the 
        potential impacts of dispersants on phytoplankton populations 
        and activity (surface waters only);

        3.  Quantifying concentrations of dissolved oxygen, dissolved 
        inorganic carbon, methane, dispersants, and nutrients and key 
        trace elements (like iron);

        4.  Quantifying rates of heterotrophic respiration and methane 
        oxidation;

        5.  Evaluating whether, and if so how, microbial activity is 
        impacted by dispersants;

        6.  Conduct toxicity studies to evaluate the impact of 
        dispersants on larvae, phytoplankton, zooplankton, and 
        microorganisms;

        7.  Determine how the microbial community composition is 
        altered by both dispersants and the presence of oil and gas;

        8.  Determine how microbial degradation alters the composition 
        of the complex oil mixture present in the waters;

        9.  Quantify incorporation of oil and methane into higher 
        trophic levels in the Gulf's food web;

        10.  Quantify bioaccumulation of oil-derived toxins (e.g. PAHs) 
        into fishery species;

        11.  Develop oxygen and carbon budgets for different regions of 
        the Gulf of Mexico that are a function of oil and methane 
        inputs;

        12.  Quantify the dynamics and movement of oil aggregates from 
        the surface to mid water to deepwater and from deepwater to 
        seafloor sediments;

        13.  Evaluate benthic impacts of the BP blowout--both in terms 
        of toxicity of the oil, fate of the oil, and potential impacts 
        of water column hypoxia or anoxia--on sensitive benthic 
        communities (chemosynthetic habitats and corals).

Gaps in Federal research and technology for oil spill response

    I recently spent about two weeks (May 25th through June 6th, 2010) 
on a research vessel working in the area of the BP blowout. Most of the 
instruments oceanographers use to sample water and sediments are not 
designed for working in oily water. Traditional Niskin water sampling 
bottles are made of plastic and they adsorb oil; they are difficult to 
clean and because they are open going down, could be contaminated 
during descent. The oceanographic community needs multiple sets of 
Teflon-lined ``Go-Flo'' bottles for sampling oil-impacted waters. 
Research ships need to be equipped with state-of-the-art optical 
sensors for measuring oil, colored dissolved organic matter (CDOM), and 
transmissometry remotely. Such sensors can be mounted onto standard CTD 
rosettes. Such sensors could also be mounted onto gliders or ROVs to 
survey wider areas. Acoustic systems, e.g. 12 kHz chirp sonar systems, 
could aid in visualizing mid- and deep- water plume features easily and 
rapidly. For sampling sediments, targeted sampling systems such as 
video-guided multiple corers are essential. At present, such a deep 
video-guided, remote sediment sampling system is not available through 
the UNOLS (University-National Oceanographic Laboratory System) fleet 
instrumentation pool. Without a remotely targeted sediment sampling 
system (e.g. a multiple-corer as noted above), use of remotely operated 
vehicles (ROVs like the JASON) and/or manned-submersibles (like the 
ALVIN) become essential components of the program.
    Any long term monitoring would benefit from a dedicated fleet of 
ships and a core group of scientists to assure continuity in site 
access, analytical methods, and approach. Organizing a National Academy 
of Sciences sponsored workshop or symposium to organize oil spill 
related monitoring and assessment activities could help the 
Oceanographic research community mobilize, focus, and plan such efforts 
quickly.

References cited:

(1) MacDonald, I.R., I. Leifer, R. Sassen, P. Stine, R. Mitchell, and 
        N. Guinasso, 2002. Transfer of hydrocarbons from natural seeps 
        to the water column and atmosphere. Geofluids 2:95-107.

(2) Garcia-Pineda, O, B. Zimmer, M. Howard, W. Pichel, X. Li and I.R. 
        MacDonald, 2009. Using SAR images to delineate ocean oil slicks 
        with a texture classifying neural network algorithm (TCNNA): 
        Canadian Journal of Remote Sensing 35(5):1-11.

(3) National Research Council, Committee on Oil in the Sea. Oil in the 
        Sea III: Inputs, fates and effects. ISBN: 0-309-50551-98, 280 
        pages (2003).

(4) Personal Communication, Professor Ian R. MacDonald, Florida State 
        University.

(5) Cordes, E.E., DC. Bergquist, and C.R. Fisher, 2009. Macro-Ecology 
        of Gulf of Mexico Cold Seeps. Annual Review of Marine Science, 
        1: 143-168.

(6) Lloyd, K.G., D. Albert, J.F. Biddle, L. Chanton, O. Pizarro, and A. 
        Teske. 2010. Spatial structure and activity of sedimentary 
        microbial communities underlying a Beggiatoa spp. mat in a Gulf 
        of Mexico hydrocarbon seep. PLoS ONE 5(1): e8738. doi:10.1371/
        journal.pone.0008738.

(7) Lloyd, K.G., L. Lapham, and A. Teske. 2006. An anaerobic methane-
        oxidizing community of ANME-1 archaea in hypersaline Gulf of 
        Mexico sediments. Applied and Environmental Microbiology 
        72:7218-7230.

(8) Joye, S.B., V.A. Samarkin, B.N. Orcutt, I.R. MacDonald, K.-U. 
        Hinrichs, M. Elvert, A.P. Teske, K.G. Lloyd, M.A. Lever, J.P. 
        Montoya, and C.D. Meile, 2009. Surprising metabolic variability 
        in seafloor brines revealed by carbon and sulfur cycling. 
        Nature Geoscience, 2: 349-354.

(9) Orcutt, B.N., S.B. Joye, S. Kleindienst, K. Knittel, A. Ramette, A. 
        Reitz, V.A. Samarkin, T. Treude, and A. Boetius, 2010. Impact 
        of natural oil and higher hydrocarbons on microbial diversity, 
        distribution and activity in Gulf of Mexico cold seep 
        sediments. Deep Sea Research, in press.

(10) Tavormina, P.L., W. Ussler, S.B. Joye, S. Giovannoni, and V.J. 
        Orphan, 2010. Intergenic spacer length of particulate methane 
        monooxygenases reveals distributions of microbial methane 
        oxidizers in the mesopelagic ocean. The ISME Journal, 
        doi:10.1038/ismej.2009.155.

(11) Johansen, O, H. Rye, A.G. Melbye, H.V. Jensen, B. Serigstad and T. 
        Knutsen (2001). Deep Spill JIP: Experimental discharges of gas 
        and oil at Helland Hansen--Juen 2000, Technical Report. SINTEL 
        Applied Chemistry, report to the U.S. Minerals Management 
        Service, 159 pages.

(12) Joye, S.B., and I.R. Macdonald, 2010. Offshore oceanic impacts 
        from the BP oil spill. Nature Geoscience, in press.

                      Biography for Samantha Joye

    Dr. Samantha Joye is a professor in the department of marine 
sciences in the University of Georgia's Franklin College of Arts and 
Sciences. She is an expert in the biogeochemical cycling of nutrients, 
metals, and organic materials in the environment; in the microbiology 
and biogeochemistry of methane hydrate and chemosynthetic habitats; and 
in microbial ecology, metabolism and physiology.
    Dr. Joye has been studying the microbiology and geochemistry of 
Gulf of Mexico deep seafloor and deep pelagic habitats for over 15 
years. Her work in the Gulf has included expeditions using a variety of 
deep submergence vessels, including manned submersibles (e.g. the ALVIN 
and JOHNSON SEA LINK) and remotely operated vehicles (e.g. the JASON-
MEDEA).
    Dr. Joye's research has been widely published in leading scientific 
journals, and she is regularly called upon by national and 
international scientific and policy agencies for expert commentary and 
panel service. Her work has been funded by substantial, multi-year 
grants from the National Science Foundation, the Environmental 
Protection Agency, and the National Oceanic and Atmospheric 
Administration, among other funders.
    Dr. Joye's previous work in the Gulf of Mexico has examined how 
natural fluxes of oil and gas influence benthic and water column 
microbial communities. Her current research in the Gulf oil spill zone 
is documenting the distribution of deepwater plumes of oil, measuring 
the activities of microbes breaking down the oil, and assessing other 
variables such as dissolved oxygen concentration and other 
environmental impacts of the spill.
    Dr. Joye earned her Ph.D. in Marine Sciences at the University of 
North Carolina-Chapel Hill in 1993 and joined the faculty of the 
University of Georgia in 1997, having serving briefly as a research 
associate at San Francisco State University and an assistant professor 
of oceanography at Texas A&M. She was awarded a sabbatical fellowship 
at the Hanse Institute for Advanced Study in Delmenhorst, Germany, 
where she served as a visiting professor at the Max Planck Institute 
for Marine Microbiology in Bremen, in 2002-03. In 1997 and again in 
1999, she served as a research fellow in the Marine Biological 
Laboratory in Woods Hole, MA.

    Chairman Baird. Thank you, Dr. Joye.
    Dr. Haut.

STATEMENTS OF RICHARD HAUT, SENIOR RESEARCH SCIENTIST, HOUSTON 
                    ADVANCED RESEARCH CENTER

    Dr. Haut. Thank you, Chairman and Members of the 
Subcommittee. I work at the Houston Advanced Research Center 
known as HARC. We provide unbiased science for policies and 
push technologies to commercialization in the areas of clean 
energy, air quality, and a complex balance between natural and 
human systems.
    I am also on the board for the Research Partnership to 
Secure Energy for America or RPSEA, where I chair the 
Environmental Advisory Group. RPSEA has over 160 members, 
including 26 research universities, as well as various 
companies and organizations. It manages the $37.5 million per 
year of research funding created by Section 999 of the Energy 
Policy Act of 2005. RPSEA's program is complementary to the 
research sponsored by the MMS, NOAA, Coast Guard, and others.
    The Deepwater Horizon incident has identified specific 
areas requiring research, research that is in the public 
interest related to national security, the economy, and the 
environment. RPSEA in collaboration with HARC, has the 
experience, the expertise, and the systems in place to manage 
comprehensive programs aimed at preventing future well control 
incidents, responding rapidly if an incident occurs, and 
determining the value of the ecosystems at risk.
    Various needs are stated in the Department of Interior's 
30-day report, as well as in a white paper developed by RPSEA. 
One of over 90 programs that RPSEA supports is a collaboration 
of universities, national laboratories, industry, and 
environmental organizations to progress technologies for 
development of onshore resources.
    An example element of our program is an environmental 
scorecard that is based on the U.S. Green Building Council's 
methodology. The first objective of a comprehensive research 
program should focus on preventing incidents. Our program 
started a European chapter, and in September we will meet to 
discuss technologies, best practices, standards, and regulatory 
frameworks. Our program could be expanded to engage all 
stakeholders to research offshore technologies and regulations.
    Norway, for example, has moved from a prescriptive-base to 
a performance-base framework. In a prescriptive system 
regulations state the requirements, and companies are monitored 
to ensure that they comply. Performance-based regulations 
specify the safety standards. Authorities check that industry 
has the necessary management systems and companies must select 
the solutions that fulfill the requirements. The new research 
program could compare the effectiveness of these frameworks.
    The second objective of a public interest program would 
address the research needed to minimize response time to 
environmental impact. Our program is investigating the handling 
of produced water and could be expanded to research systems 
that handle oily water associated with offshore skimming. The 
program may also include early-warning sensors that may 
identify potential hazards to the environment, as well as to 
monitor marine life and wildlife at risk.
    Gulf Coast universities, several of which are RPSEA 
members, have the offshore and coastal expertise. Louisiana 
State University, for example, is evaluating the effects of 
dispersants at and below the ocean surface, and RPSEA provides 
the structure to exchange ideas, transfer technologies, and 
develop the unbiased signs for sound policy. A research program 
may be established to understand the impact of prescribed 
burns.
    The third objective of a comprehensive program would be to 
determine the value of ecosystems. Our research team has been 
working on this for various systems, and we could evaluate 
deepwater coastal regions and Gulf Coast wetlands. RPSEA 
manages over $37.5 million of new programs every year, and HARC 
is engaging all stakeholders in reducing environmental 
tradeoffs, and this collaboration provides that structure for 
managing any new public interest programs.
    In conclusion, as we remember the 11 workers that perished 
and the thousands of current offshore workers, I thank you for 
this opportunity to discuss the specific research needs to 
produce an economically-sound and in an environmentally-
sensitive manner the offshore resources that provide national 
security, Federal revenue, and thousands of jobs.
    [The prepared statement of Dr. Haut follows:]

                   Prepared Statement of Richard Haut

    Good morning Chairman Baird, Ranking Member Hall and Members of the 
Subcommittee.
    My name is Rich Haut. I am currently employed at the Houston 
Advanced Research Center, a 501(c)3, non-profit organization. 
(www.harc.edu) At the Center, we use the tools of science, policy and 
technology to provide new knowledge about the complex balance between 
environmental, social and economic issues. We are funded on a project-
to-project basis by local, state and Federal agencies, as well as 
industry and foundations. The Houston Advanced Research Center is a 
boundary organization, working with universities, industries, 
environmental organizations and government entities to take an 
unbiased, scientific approach to provide scientific based reasoning for 
policies and to push environmental based technologies to 
commercialization. Businessman George P. Mitchell, supported by four 
Texas universities, created the Center in 1982. Today the Center is 
focused on three areas: 1) clean energy, including the acceleration of 
alternative energy, 2) air quality research that includes emissions 
technologies and transportation policies and 3) the interaction between 
natural and human systems.
    I am also on the board for the Research Partnership to Secure 
Energy for America (RPSEA: www.rpsea.org) where I chair the 
Environmental Advisory Group. The Research Partnership has over 160 
universities, companies and organizations nationwide and is the 
research management organization coordinating 37.5 million dollars of 
research funding per year that was created by section 999 of the Energy 
Policy Act. This funding is related to deepwater oil and gas 
development, unconventional natural gas development and technology 
requirements for small producers. The Environmental Advisory Group 
consists of members from universities and industry as well as 
representatives from prominent environmental organizations.
    The recent incident involving the Deepwater Horizon at Mississippi 
Canyon Block 252 (MC252) is a tragedy. As the investigation continues 
with the objective to identify the root cause of the accident, the 
failure of the system and the resulting impact has already identified 
specific areas requiring research.
    The offshore drilling industry had an extraordinary safety record. 
No one expected the incident to happen. The incident has appropriately 
caused everyone to reflect, refocus and rethink about the importance of 
offshore production and the research needed to ensure the safe, 
environmentally sound production of these reserves.

The Need for Energy

    The Energy Information Administration's Annual Outlook 2010 \1\ 
projects that total U.S. consumption of liquid fuels, including both 
fossil liquids and biofuels, grows from 19.5 million barrels per day in 
2008 to 22.1 million barrels per day in 2035. U.S. dependence on 
imported liquids is expected to decline from the 60 percent share 
attained in 2005-06 to 45 percent in 2035. Domestic crude oil 
production increases from 5 million barrels per day in 2008 to 6.3 
million barrels per day in 2027 and remains at just over 6 million 
barrels per day through 2035.
---------------------------------------------------------------------------
    \1\ EIA, 2010, Annual Energy Outlook 2010, DOE/EIA-0383(2010): 
http://www.eia.doe.gov/oiaf/aeo/overview.html
---------------------------------------------------------------------------
    Production increases are relied on from the deepwater areas of the 
Gulf of Mexico and from onshore enhanced oil recovery (EOR) projects. 
Efforts to increase the share of domestically produced oil in the 
Nation's liquid fuel supply are generally seen to be serving a 
beneficial purpose from both economic and energy security perspectives, 
provided they are done in an environmentally safe manner. The future of 
the U.S. energy supply is dependent upon the reserves located in the 
deepwater areas of the Gulf of Mexico.
    The recent incident involving the Deepwater Horizon underscores the 
need for research to address critical aspects of deepwater 
developments. An objective, science based program may be undertaken 
with three main objectives:

        <bullet>  Enhance Technologies to Minimize Incidents

        <bullet>  Identify, Develop and Improve Proactive and Reactive 
        Response Procedures and Processes

        <bullet>  Develop Understanding of the Value of Ecosystem 
        Services and Identify Locations of High Value in a Seasonally 
        Dynamic Ecosystem

Enhance Technologies to Minimize Incidents

    The first objective of a comprehensive research program is aimed at 
preventing incidents from occurring. A review of the state-of-the art 
of technologies that may be used to improve safety, wellbore integrity 
and environmental protection of deepwater operations could identify 
priorities, technology gaps and further research needs. The review may 
consist of an evaluation of existing safeguards and international 
offshore procedures, standards and practices as well as identifying 
promising technologies that can address safety and environmental 
concerns associated with deepwater, harsh environments.
    One of the programs that I direct is the Environmentally Friendly 
Drilling Systems Program (www.efdsystems.org). Our research team 
consists of several universities and national laboratories as well as 
industry. Our advisory committee has members from all stakeholder 
groups, including prominent environmental organizations, industry and 
concerned citizens. We focus on identifying and developing new 
technologies for environmentally sensitive development of 
unconventional onshore energy resources. The objective is to identify, 
develop and transfer critical, cost effective, new technologies so that 
onshore reserves may be developed in a safe and environmentally 
friendly manner. One of the elements of the program is an environmental 
tradeoffs scorecard that is based on the U.S. Green Building Council's 
methodology and has been supported by all of our program stakeholders. 
Another element is the handling of produced water.
    The Environmentally Friendly Drilling Systems Program can serve as 
a model for an analogous offshore program that enables all stakeholders 
to identify needed research, to provide direction and to follow 
progress. Our Program recently started up a European chapter, 
partnering with a university in Austria. In September we will be having 
our first exchange, discussing new technologies, best practices, 
standards and regulatory frameworks related to onshore unconventional 
natural gas operations.
    An offshore program could be developed using the same 
organizational structure as the Environmentally Friendly Drilling 
Systems Program. This new research program may, in addition to 
identifying and developing new technologies, explore the various 
approaches for regulating safe activity in the offshore sector.
    Norway, for example, has moved over time from a prescriptive-based 
framework to a performance based framework. A prescriptive system is 
based on laws and regulations that set specific demands for structures, 
technical equipment and operations in order to minimize accidents and 
hazards. In a prescriptive system, regulations state the necessary 
requirements of safety and companies are monitored to ensure that they 
comply.
    By contrast, performance-based regulation involves specifying the 
performance or function that is to be attained or maintained by the 
industry. The regulations define the safety standards that industry 
must meet. Authorities check that industry has the management systems 
that permit such compliance. Companies must select the solutions that 
fulfill the official requirements.
    A trend has existed among safety regulators worldwide over the past 
20-30 years to move towards a greater degree of performance-based 
regulation. This is because the prescriptive approach has often turned 
out to encourage a passive attitude among the companies. They wait for 
the regulator to inspect, identify errors or deficiencies and explain 
how these are to be corrected. As a result, the authorities become in 
some sense a guarantor that safety in the industry is adequate and take 
on a responsibility that should rest with the companies.
    The research program may also address recommendations contained in 
the Secretary of Interior's May 27, 2010 report: ``Increased Safety 
Measures for Energy Development on the Outer Continental Shelf,'' in 
particular, recommendations concerning well control systems and safety 
equipment. Other research needs related to wellbore integrity includes 
cement evaluation technologies, how to maintain communication and power 
between the surface and subsea safety systems and increasing the 
intervention capability of remotely operated vehicles.

Identify, Develop and Improve Proactive and Reactive Response 
                    Procedures and Processes

    The second main objective of a comprehensive research program would 
address the research needed to minimize the time to respond to an 
incident as well as to minimize the environmental impact. In open-water 
marine spills, there are four primary response objectives:

        1.  Prevent the spill from moving onto shore

        2.  Reduce the environmental impact

        3.  Speed the degradation of any unrecovered oil while 
        minimizing the harm on the ecosystems

        4.  Mobilize rapid well intervention/containment standby 
        equipment

    The industry has various vessels and equipment on standby used to 
contain spills, to skim, and to deploy dispersants. A research program 
may be established to identify the state-of-the-art technologies and 
methodologies and identify what else could be necessary in order to 
respond to an emergency situation. The Secretary of Interior's report, 
previously mentioned, also recommends a comprehensive study of methods 
for more rapid and effective response to deepwater blowouts.
    This program may also include early warning sensors that may 
identify potential hazards to the environment as well as to understand 
the movement of marine life and wildlife that may be affected by an 
incident.
    In addition, I previously mentioned that through our 
Environmentally Friendly Drilling Systems program we are evaluating 
equipment for produced water handling. Equipment and systems that 
handle onshore produced water could be possibly modified for handling 
oily water that is associated with offshore skimming technology. The 
research program may include the research and development required to 
progress technologies that can optimize offshore skimmers.
    We know that BP has been requested to employ less toxic dispersants 
than the two chemicals that were being used. Louisiana State 
University, a member of the Research Partnership to Secure Energy for 
America, will be evaluating the effects of using hundreds of thousands 
of gallons of toxic dispersants on oil at and below the surface of the 
ocean. They will investigate where the dispersants are going, whether 
there is a good mix of water, oil and dispersant, and the effects of 
the dispersants on oil and then they will follow the dispersant through 
the recovery phase. The robust research program will investigate the 
impacts of dispersed oil and the dispersants.
    The expertise to study the effects on the coastal wetlands may be 
found at Louisiana State University, along with other Gulf Coast 
universities. The Research Partnership to Secure Energy for America 
provides the structure for these researchers to exchange ideas, 
transfer technologies to industry and provide the unbiased science to 
develop sound policy.
    The Houston Advanced Research Center has managed an innovative and 
unique air quality research program for the state of Texas. This 
research program is a collaboration of civic, industry, environmental, 
and local and State government entities. Over the last six years the 
program has administered over $10 million of research funds aimed at 
improving emissions inventories, air quality modeling and monitoring, 
and air regulations and policy. Among other accomplishments, this 
program has enhanced meteorological and air quality model performance.
    Controlled burns have been used to augment skimming activities 
associated with the Deepwater Horizon incident. When sea conditions 
allow (when seas are below 3 feet) fire booms towed behind two boats 
are used to pull oil away from the main spill for safe burning. A 
research program may be established to understand the environmental 
impact of controlled burns. For example, satellite data can now be used 
along with so-called ``inverse'' atmospheric models to keep track of 
emissions from controlled burns. The Houston Advanced Research Center 
has also developed new combination remote sensing and fast point 
sampling technology that can measure air emissions from controlled 
burns from ship platforms or from onshore. An important new area that 
can be develop is full multi-media modeling, that is modeling of air/
water/soil compartments, of the local and distant impacts of controlled 
burns and other off-shore operations.

Develop Understanding of the Value of Ecosystem Services and Identify 
                    Locations of High Value in a Seasonally Dynamic 
                    Ecosystem

    The third main objective of a comprehensive research program would 
develop an understanding of the value that various ecosystems supply. 
The marine and coastal areas of the Gulf of Mexico are home to highly 
productive and valuable ecosystems. These ecosystems provide a wide 
range of benefits known as ecosystem services including fishing, 
primary production, nutrient cycling, tourism, storm surge mitigation, 
climate regulation, wildlife habitat, water quality and aesthetic and 
cultural benefits. Ecosystem service benefits arise from the 
functioning of a healthy ecosystem and provide significant value to 
people--monetarily, environmentally, socially and culturally. A 
research program may be established to investigate how these benefits 
vary with spatial or temporal changes in the ecosystem, developing a 
clear understanding for the Gulf's many stakeholders. Areas that supply 
high-valued ecosystem services may then be identified in order to 
prioritize where to place appropriate monitoring and early warning 
devices.
    With over 95,000 miles of coastline and the largest exclusive 
economic zone in the world, the U.S. benefits significantly from goods 
and services derived from the ocean and coasts--food, minerals, energy 
and other natural resources and ecological benefits. Economic activity 
in U.S. coastal regions and waters account for a large portion of the 
national economy, totaling trillions of dollars each year. Nearly half 
of the U.S. population is located in coastal counties. The oceans also 
play a primary role in the Earth's environment and natural operations, 
shaping and sustaining life.
    Currently, marine ecosystem health and the benefits humans receive 
from these ecosystem services are threatened by a range of challenges. 
The challenges include increased levels of exposure to toxins and 
pollutants from harmful algal blooms, industrial emissions and 
accidents, agricultural runoff, and other sources. Overfishing and 
certain fishing techniques remain a serious concern with significant 
consequences for the health of marine ecosystems. These challenges are 
increasing stressors and impacts on the marine environment, people and 
communities, and are presenting management issues that need to be 
confronted. Energy development, shipping, aquaculture and emerging 
security requirements are examples of uses that place increasing 
demands on the oceans' ecosystems.
    A research program may be designed to develop ecosystem management 
tools and metrics applicable to coastal and offshore regions. The 
program can identify, assess, and recommend remote sensing technologies 
and ecosystem services models and methodologies appropriate for marine 
ecosystems. The basic components of the program's conceptual framework 
would be remote sensing technologies that can gather data on ecosystem 
attributes, ecosystem function models that can approximate the response 
of the ecosystem attribute to stimuli (such as presence of an oil 
spill, change in water temperature, shifts in population, or 
installation of new infrastructure), and the ecosystem services models 
that can evaluate the changes in benefits received by humans from the 
working environment. The program would improve the understanding of how 
changes in the physical, biological, ecological and chemical marine 
processes are connected with social and economic consequences of 
management decisions on the long-term health and well-being of the 
oceans.
    Remote Sensing--Measuring the complexity of species and their 
natural environments may be time consuming and expensive. However, 
remote sensing techniques used for mapping and monitoring of 
terrestrial and ocean conditions via the reflective or absorptive 
properties at particular energy spectra may effectively monitor 
specific resources across large scales. It is, for example, possible to 
estimate the species richness of terrestrial ecosystems across regional 
scales using Normalized Difference Vegetation Indices (NDVIs) derived 
from National Oceanic and Atmospheric Administration (NOAA) satellite 
imagery. Indicators of ecosystem health and productivity, such as 
chlorophyll concentration and biomass production, can also be assessed 
using satellite imagery. For marine ecosystems, several datasets useful 
for assessing ecosystem attributes are routinely collected including 
Chlorophyll-a measurements, sea surface temperature, and surface 
reflectance. Advanced Very High Resolution Radiometer (AVHRR) and 
Moderate Resolution Imaging Spectroradiometer (MODIS) satellite data 
are routinely used to monitor the density of phytoplankton in the 
surface waters of the oceans.
    In addition to satellite imagery, aerial sensors can be used across 
smaller scales to provide finer resolution imagery, which is often used 
as a ground-truth when studying satellite imagery. Light Detection and 
Ranging (LiDAR) data is also obtained via aerial platforms and can be 
used to measure ecosystem complexity or suitability as habitat for a 
particular species.
    A research program could explore the use of satellite and aerial 
measurement technologies for measuring and monitoring marine and 
coastal ecosystems, and the subsequent linking of these data into 
spatially-cognizant ecosystem function and service models.
    Ecosystem Function and Service Modeling--The valuation of ecosystem 
services is done to 1) to estimate a value of ecosystems services both 
as they exist now and relative to other economic activities and 2) to 
conduct scenario analysis to better understand changes in the value of 
ecosystem services due to impacts on the quality or quantity of these 
service flows and stocks. Typically, these studies have been one-off, 
location-specific studies with the set of economic tools remaining 
fairly constant, but with advances over time in the methodology for 
implementing these tools.
    Methodologies to value ecosystem services have and continue to be 
developed to improve inclusion of environmental services and resources 
in policy making regarding resource and development management. The 
value that these services have for society, businesses and individuals 
remains largely unknown in any measureable sense and often in a 
conceptual sense. Without measurable values, it is difficult to 
evaluate tradeoffs resulting from different management or development 
options or changes from other impacts. Ecosystem service values give a 
clearer idea of human benefit that is consistent with improving 
welfare.
    Identification or development of an ecosystem response function is 
necessary for modeling marginal changes in ecosystem services. An 
ecosystem response function will allow both 1) a quantitative link 
between ecosystem attributes and ecosystem services and 2) an ability 
to model scenarios or marginal changes in the ecosystem. The program 
will also identify or develop a computer based evaluation process that 
will aid replication of analysis.
    Studies in ecosystem services valuations must carefully consider 
the trade-offs between costs and accuracy. Original research provides 
more reliable and credible results, but it is more expensive and time 
consuming. Alternatively, the lower cost Benefit Transfer approach is 
only as reliable as the original studies and errors in the existing 
reports are likely to be passed through and possibly amplified. 
Decision makers need results which indicate how marginal or incremental 
changes in ecosystem attributes or functions will impact ecosystem 
service valuations. Finally, the most frequent knowledge gap in the 
analysis of ecosystem services pertains to the ecosystem response 
function, which is often ignored due to the inherent complexities 
involved with ecosystem functioning.
    Through the Environmentally Friendly Drilling Systems Program, the 
research team has been developing a comprehensive framework with a 
proven valuation model. The comprehensive framework is provided by the 
Economic Valuation of Ecosystem Services (EVES) framework. Valuation is 
provided by the Multi-scale Integrated Models of Ecosystem Services 
(MIMES) model. Explicit in this approach is the consideration of the 
linkages between ecosystem attributes and the delivery of ecosystem 
services. This is achieved by making use of remote sensing technologies 
and data sets and inclusion of ecological experts in the research 
process. This technology possesses a demonstrated capability to combine 
social, economic and environmental perspectives (i.e. a triple bottom 
line approach) in order to assess the status and to indentify optimal 
and balanced outcomes from different management options for ecosystem 
services.
    A research program may be designed to conduct an evaluation of key 
ecosystem services of Gulf of Mexico deepwater, coastal regions and 
Gulf Coast wetlands that dynamically links ecosystem attributes with 
ecosystem service valuations. The objective would be to identify the 
areas of high value in order to ensure that appropriate and adequate 
monitoring and early warning devices may be placed. Valuation of 
ecosystem services can be used to prioritize spending on ecosystem 
protection.
    In conclusion, our quality of life has an unquenchable thirst for 
energy. Offshore drilling and production helps to satisfy this thirst. 
Offshore resources provide national security, Federal revenue and jobs 
for thousands of workers. As we remember the 11 workers that perished 
and the thousands of current offshore workers, I thank you for this 
opportunity to discuss the specific research needs to exploit offshore 
resources in an economically sound, safe and environmentally sensitive 
manner.

                       Biography for Richard Haut

    Dr. Richard Haut is currently a Senior Research Scientist at the 
Houston Advanced Research Center (HARC). He serves as the Principal 
Investigator (P.I.) for various projects associated with securing 
energy for the future. A major effort is serving as P.I. for the 
Environmentally Friendly Drilling (EFD) program in partnership with 
Texas A&M University, other universities, industries and environmental 
organizations with the objective of integrating advanced technologies 
into systems that significantly reduce the environmental tradeoffs of 
petroleum drilling and production. He also serves as the P.I. for 
various projects concerning the built environment, working with the 
City of Houston. Dr. Haut also serves as the P.I. for the Marine 
Retrofit Program sponsored by the U.S. Environmental Protection Agency.
    Dr. Haut's technical background includes a Masters degree and a 
Ph.D. in Engineering. He has over 25 years of industry technical and 
management experience prior to joining HARC in June 2002, having been 
responsible for analyzing offerings for key technologies or niche 
capabilities and developing synergistic, strategic relationships in the 
energy industry. He also was instrumental in establishing joint 
ventures and other joint industry programs, including the start-up of 
Enventure Global Technology where he was the Chief Operating Officer. 
Over a two year time period, Dr. Haut was involved in the successful 
development of Enventure, taking it from conception to profitability 
during this time period. In 1999 he received Hart Publication's 
Meritorious Award for Engineering Innovation and in 2002 received the 
Natural Gas Innovator of the Year Award from the Department of Energy. 
In 2009, the EFD Program, under Dr. Haut's direction, was honored by 
the Interstate Oil and Gas Compact Commission with their Chairman's 
Stewardship Award for Environmental Partnership.
    Dr. Haut has been invited to speak at various conferences, has 
authored numerous papers, has been awarded various patents and has 
several patents pending. He was featured in the Wall Street Journal, 
February 11, 2008 as well as the Summer 2008 edition of Echoes, the 
alumni magazine of Rose-Hulman Institute of Technology and has been 
interviewed on multiple occasions by the media. He has frequently been 
asked to speak about sustainable development, the built environment and 
the offshore/energy industry. He is a board member of the Research 
Partnership to Secure Energy for America (RPSEA) where he also chairs 
the Environmental Advisory Group. Dr. Haut chaired the Society of 
Petroleum Engineers' Health, Safety and Environment subcommittee for 
the 2009 Annual Technical Conference and continues to serve on the 
subcommittee throughout 2010.
    Dr. Haut has made over 25 invited presentations, has over 20 
publications and more than 80 patents/published patent applications 
along with numerous media interviews directly related to the 
environmental stewardship of the energy industry.

    Chairman Baird. Thank you, Dr. Haut.
    Dr. Kinner.

  STATEMENTS OF NANCY KINNER, UNIVERSITY OF NEW HAMPSHIRE, CO-
           DIRECTOR, COASTAL RESPONSE RESEARCH CENTER

    Dr. Kinner. Chairman Baird, Ranking Member Biggert, and 
distinguished Members of the Subcommittee on Energy and 
Environment, thank you for inviting me to appear before you 
today to give you my perspective on what is needed to support a 
coordinated Federal program on oil spill R&D. My name is Nancy 
Kinner, and I am a Professor of Civil and Environmental 
Engineering at the University of New Hampshire, and the Co-
Director of the Coastal Response Research Center.
    The Center, started in 2002, is a partnership between 
NOAA's Office of Response and Restoration and the University of 
New Hampshire. It acts as an independent, honest broker to 
oversee research on response and restoration, and serves as a 
hub for the oil spill response community. The Center has run a 
competitive grants program, funding 30 R&D projects on the 
fate, behavior, and effects of oil spills on natural resources 
and their associated human activities.
    Several of the products created by Center-funded research 
are being used at the Deepwater Horizon spill, including the 
Environmental Response Management Application or ERMA, which 
manages and displays information about the spill to responders 
and now to the public.
    Since the Deepwater Horizon blowout occurred, I am 
frequently asked why, with all of our nation's technology and 
research capabilities, we have seemed unable to cope with this 
major spill, 21 years after the Exxon Valdez disaster. Appendix 
B in my written testimony contains information on the amount of 
Federal, state, and industry-supported oil spill R&D since the 
landmark OPA 90. It can be summarized by saying that the road 
to funding oil spill R&D has been paved with good intentions, 
but relatively few dollars.
    For example, of the $30 million authorized in OPA 90 for 
competitive grants, only one-sixth of that amount was actually 
appropriated to fund projects.
    But other fundamental problems also hinder advancement. 
Notably, the lack of robust peer review requirements for oil 
spill research, the lack of coordination between stakeholders 
in the oil spill response community, and the lack of emphasis 
on translating the results into practice. The list of issues 
requiring R&D is too long to review today. For example, since 
2003, our Center has hosted 20 workshops with stakeholders from 
the oil spill response community to identify gaps in knowledge 
and technology and the research needed to address them.
    The topics have ranged from dispersed and submerged oil to 
integrated spill modeling and the human dimensions of spills, 
including the workshop that Dr. Short referred to just a few 
minutes ago that we held a couple of weeks ago on dispersants. 
Many of the issues are part of the Deepwater Horizon response, 
and indeed, the spill in the Gulf has brought to light new R&D 
questions regarding the fate and behavior of oil released at 
great depth, as well as the need for specialized containment, 
detection, recovery, and restoration strategies, and better 
programs to test and validate new response technologies.
    The question I believe is how to coordinate a Federal 
research program on oil spill response and restoration. Federal 
oversight of spill R&D is essential. I recommend the following 
model going forward: an interagency committee co-chaired by 
Coast Guard and NOAA whose members are those of the Federal 
agencies directly involved in spill response and restoration, 
as well as the states directly involved in oil spill response 
and restoration, and independent, federally-funded programs 
that are doing spill R&D.
    In addition, I believe that researchers from industry and 
international spill R&D programs should be included in the 
discussions. The committee would benefit by having an executive 
agent respected by all entities to serve as de facto staff to 
foster coordination among members and to oversee the external 
research program that addresses priority national needs defined 
by the committee.
    Finally, I suggest a new paradigm for conducting some 
controversial R&D projects, such as ones involving toxicity. 
Scientists representing all stakeholders should be brought to 
the table to design the research protocols for the project that 
would then be funded through competitive grants. With this 
approach all parties agree in advance to accept the results 
derived from a robust experimental design.
    In recent years, many people have been disheartened that 
oil spill R&D programs have been under-funded despite the 
magnitude and complexity of questions that remain to be 
answered. It seemed, they said, that we did not learn the 
lessons of the Exxon Valdez, and as we all know too well, those 
who do not learn from history are doomed to repeat it.
    Thank you for giving me this opportunity to speak before 
you today. I would be happy to answer any questions.
    [The prepared statement of Dr. Kinner follows:]

                 Prepared Statement of Nancy Kinner \2\
---------------------------------------------------------------------------
    \2\ Appendix A contains information on Dr. Kinner's research on 
bioremediation of contaminated subsurface environments.
---------------------------------------------------------------------------
    Chairman Baird, Ranking Member Inglis, and distinguished members of 
the Committee on Science and Technology's Subcommittee on Energy and 
Environment, thank you for the opportunity to appear before you today 
on behalf of the University of New Hampshire and the Coastal Response 
Research Center. My perspective on the question of oil spill research 
and technology needs is highly influenced by my work with the Coastal 
Response Research Center (CRRC) since its inception in 2002. In order 
to make that perspective clear, I will give you an overview of the 
Center's history, mission and activities and its approach to oil spill 
research & development (R&D).

I. Overview of Coastal Response Research Center

    NOAA's Office of Response and Restoration (ORR) became increasingly 
aware of the lack of oil spill R&D in its areas of primary 
responsibility: fate and behavior of spills and their impacts on 
natural resources and human activities. ORR recognized the role that a 
research university could play in addressing the R&D needs as well as 
the approach it would use to do so. Hence, in 2002 ORR started working 
within the University of New Hampshire to address this problem. The 
CRRC (http://www.crrc.unh.edu), a partnership between NOAA ORR and the 
University of New Hampshire, was created to address the need for 
improved spill response and restoration. The Center oversees and 
conducts independent research, hosts workshops, and leads working 
groups that address gaps in oil spill research in order to improve 
response, speed environmental recovery, and reduce the societal 
consequences of spills. In 2004, the partnership was codified by a 
memorandum of agreement between the University of New Hampshire and 
NOAA. CRRC acts as an independent, non-partisan entity to bring 
together members of the oil spill community, as well as those in 
relevant fields outside the spill community, including local 
stakeholders, and state, Federal and international agencies to address 
the many technical, economic, social, and environmental issues 
associated with oil spills in marine environments. Funding for the 
Center has been largely by Congressional appropriation (Table 1) with 
some allocations from ORR's base budget.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Center is served by a multi-agency Advisory Board, comprised of 
members from U.S. EPA, NOAA, USCG, state-based R&D programs and 
industry that provide guidance on program direction. The board, in 
conjunction with the UNH and NOAA co-directors, developed five 
objectives for CRRC: (1) funding and oversight of relevant, peer-
reviewed research that is able to be developed into practical 
improvements in oil spill response; (2) hosting topical workshops and 
working groups that include representatives of all spill community 
stakeholders to focus research efforts, and ensure that crucial real-
world experience from oil spill practitioners is considered; (3) 
educating the next generation of spill responders through outreach and 
support of undergraduate and graduate student projects; (4) involving 
members of the international oil spill community to tap into expertise 
from around the world; and (5) developing response tools to aid 
responders.
    Funding of relevant, peer-reviewed research is accomplished through 
a periodic request for proposal (RFP) process. Proposals are reviewed 
by three to four experts in the area of the proposed research. They are 
ranked by their scientific validity and how well they address key 
research needs related to the fate, behavior and effects of oil in the 
environment, and are likely to lead to practical improvements in oil 
spill response and restoration. A panel of leading scientists and 
practitioners then review the peer-reviewed and ranked proposals and 
recommend which should be funded. Each funded research project is 
assigned a NOAA liaison to ensure the research can be transformed into 
practice, and in addition, the CRRC's Science Advisory Panel meets 
annually to review progress of the research and provide feedback to 
improve the quality and efficacy of the research.

II. Oil Spill Response R&D Prior to the Deepwater Horizon Incident

    The 1989 Exxon Valdez spill in Alaska directly resulted in the 
landmark Oil Pollution Act of 1990 (OPA 90), part of which addressed 
the need for R&D to improve prevention, preparedness, response and 
restoration. Specifically, an Interagency Coordination Committee on Oil 
Pollution Research (ICCOPR) was formed, headed by the U.S. Coast Guard 
(USCG), and included the Mineral Management Service (MMS), 
Environmental Protection Agency (EPA), National Oceanic and Atmospheric 
Administration (NOAA), National Institute of Standards, Department of 
Energy, Department of Defense, NASA, FEMA, U.S. Fire Administration, 
and U.S. Fish & Wildlife Service. ICCOPR's role, as set forth in OPA 
90, is to: (1) to prepare a comprehensive, coordinated Federal oil 
pollution research and development (R&D) plan; and (2) to promote 
cooperation with industry, universities, research institutions, State 
governments, and other nations through information sharing, coordinated 
planning, and joint funding of projects. Funding for R&D for states and 
universities was authorized, but after an initial infusion of money in 
the immediate aftermath of the Exxon Valdez, was never appropriated. In 
fact, the Federal and private sector money spent on oil spill R&D has 
decreased significantly since 1990 (Appendix B). OPA 90 also authorized 
some R&D funding for USCG, MMS and EPA for oil spill response. NOAA was 
not given any R&D funding as part of OPA 90. [N.B., I do not know why 
this happened, but find it ironic as NOAA is one of the Federal 
agencies most closely aligned with research, particularly in the marine 
environment.] The decrease in funding was related to the belief that 
through a focus on prevention and preparedness, we would not face a 
major spill event again of the scope and magnitude of the Exxon Valdez. 
Unfortunately, the Deepwater Horizon Gulf oil spill has proved that 
assumption to be horribly wrong. It is important to note that the 
amount of oil spilled from maritime shipping accidents, particularly 
from tankers, has fallen dramatically with the advent of better 
navigational aids, inspections and, in the case of tankers, the double 
hulled requirements. Likewise, there has been a specific response 
structure established with USCG in charge of a well defined incident 
command system (ICS), a network of Regional Response Teams (RRTs), and 
Area Committees. This command and control hierarchy is tested 
frequently in mandated drills and exercises at the local, regional, 
national and international level (e.g., Canada).

III. Problems with the Current R&D Model

    The question is: how do we improve oil spill R&D going forward, 
based on what we have learned from the past, including the Deepwater 
Horizon incident?
    One problem facing oil spill R&D was the lack of robust peer review 
requirements for any research performed. This resulted in skepticism 
regarding findings from industry or NGO financed projects and even some 
projects funded by Federal agencies. Many of the reports generated from 
these R&D projects were never published in scientific or engineering 
peer-reviewed journals. This does not mean the results are invalid, but 
it does mean that they are often questioned by key stakeholders in the 
``opposing camp''. There are also cases where the experimental design/
methods underlying the research were flawed and the data could not be 
used. For example, the CRRC, in conjunction with NOAA ORR and U.S. EPA, 
reviewed over 700 data points on acute toxicity of individual 
polycyclic aromatic hydrocarbons (PAHs) to aquatic organisms for an oil 
spill response field guide. The Center used a set of criteria (Table 2) 
to review each data point, including whether the PAH concentration to 
which the organism was exposed was actually measured, or just inferred 
from the initial mass added to the test chamber. After this standard 
quality assurance and quality control (QA/QC) process was completed, 
over 200 data points had to be eliminated because they did not meet QA/
QC criteria.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A second problem is the lack of coordination between Federal, 
state, and international governmental agencies; and other stakeholders 
(e.g., NGOs and industry) regarding oil spill R&D. ICCOPR only consists 
of Federal agencies and was therefore, not able to be a hub for the 
entire oil spill R&D community. Any proposal to move forward with oil 
spill R&D must include all stakeholders because the results must be 
``accepted'' by all parties to minimize duplication and avoid overlap 
of the limited amount of funding that will ever be allotted to this 
topic due to the realities of budget constraints.
    Since its inception in 2004, CRRC has hosted over 20 workshops on a 
wide variety of topics across the spectrum of oil spill R&D needs, and 
leads working groups on: oil dispersants; modeling of oil in the 
environment; submerged oil; toxicity of oil; and ephemeral data needs. 
The workshops (Table 3) have identified deficiencies in response and 
restoration, while the working groups (Table 4) help coordinate which 
agency funds specific R&D projects to avoid duplication of effort.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A third problem is the need of translation of the results of oil 
spill R&D into practice. While some of the needed oil spill R&D 
involves fundamental work, much of it must be very focused on how the 
knowledge gained can actually be used in the field by responders and 
those charged with compensatory restoration of natural resources and 
their associated human activities. Hence, models for R&D, such as the 
National Science Foundation (NSF) prototype, are not completely 
satisfactory because of the lack of emphasis on transferring research 
into practice.
    In keeping with its mission to ensure that research is transformed 
into practice, CRRC has created several spill response tools that are 
currently being used in the response to the Deepwater Horizon incident 
in the Gulf of Mexico, including the Environmental Response Management 
Application (ERMA), the Oil Spill Toxicity Field Guide, and the link 
between the Clarkson Deepwater Oil and Gas Blowout Model (CDOG) and 
NOAA's GNOME surface slick model. These response tools were created to 
address deficiencies identified at CRRC workshops.
    Another issue that is beginning to plague the oil spill community 
is the wave of retirements of experienced practitioners and 
researchers. One of the Centers missions is to educate the next 
generation of scientists and engineers who will pursue careers in oil 
spill response and restoration. CRRC has provided funding for four 
masters students and two Ph.D. students who have conducted research 
topics as diverse as movement of submerged oil, human dimensions of oil 
spills, and biodegradation potential of oil in Arctic environments. 
CRRC has also helped to educate numerous undergraduate students who 
participated in workshops as recorders and assisted with graduate 
student research projects.
    Since its inception, CRRC has funded 27 research projects through 
its peer review process for a total of $4.3M. The research foci, as 
mandated by the Center's Advisory Board, are oil-in-ice, dispersed oil 
and submerged oil. Within these foci, the topics funded center around: 
injury and recovery of natural resources, socio-economic issues, and 
transport and weathering of oil. All of these are areas that 
specifically address NOAA ORR's role as a natural resource trustee and 
as the principal scientific advisor to the Federal On-Scene Coordinator 
during an oil spill. The research projects have resulted in 51 
publications in peer reviewed journals.
    Relevant to the Deepwater Horizon spill, the Center leads a 
Dispersants Working Group (DWG) consisting of 26 stakeholders, agencies 
and organizations that fund dispersant-related research. The goal of 
the DWG is to pursue an integrated approach to dispersants research by 
participating in a coordinated research plan where requests for 
proposals (RFPs) or the equivalent are shared among the members and 
duplication of effort is avoided. Each member funds research in its own 
area of responsibility. For example, USCG, MMS and NOAA fund research 
on: the SMART dispersant monitoring protocols, the efficacy and effects 
of dispersants respectively. The CRRC coordinates the group's 
activities by including: (1) holding annual DWG meetings (typically at 
oil spill conferences such as Clean Gulf every November); (2) postings 
of reports, RFPs and other elements of interest on its website; (3) 
hosting public forums where the latest research is discussed; and (4) 
updating/revising the dispersants use R&D needs as DWG member funded 
projects are completed and when/if new R&D questions are identified. 
Appendix C contains a list of all the $8.2.M of dispersants research 
that DWG members have funded since 2005 as well as the topics remaining 
to be funded. CRRC has funded $2.4M of the dispersants research. Other 
funders include: MMS, USEPA, USCG, Non-US government agencies/
organizations (e.g., CEDRE, SINTEF, JIP, Environment Canada, Canada's 
Fisheries and Ocean and industry. The total R&D needs in the area of 
dispersants research was estimated at <$30M without any questions 
associated with the Deepwater Horizon Incident. Unfortunately, the 
reason that more of the R&D needs, identified by the NRC 2005 
dispersants report and the needs identified by the CRRC hosted 
dispersant/dispersed oil meeting sessions (2005, 2007, 2009) have not 
been funded is simply a lack of funding by Federal agencies, states and 
the lack of commitment to R&D by the oil industry. State R&D programs 
in Louisiana and California have undergone major budget cuts recently. 
Texas continues to have a strong financial commitment to R&D. API and 
the major oil companies have reduced R&D spending markedly and 
decreased the personnel they have committed to oil spill response 
research.
    In all of these cases, the common element is the widely held belief 
prior to April 20, 2010 that we no longer have major oil spills, as 
witnessed by the 20+ years that have elapsed since the Exxon Valdez 
incident. Deepwater Horizon has reminded us that this belief is 
inaccurate; that as we have continued to drill for oil and gas in more 
extreme coastal and offshore environments, we have assumed greater 
risks (e.g., drilling in very deep water; in potentially harsh 
environments as in the Arctic) without preparing for the consequences 
should a spill occur.

IV. Future Oil Spill R&D

    If the Deepwater Horizon incident results in more funding 
appropriated for oil spill R&D, the question becomes how to best design 
the vehicles to: (1) determine the research needed, (2) coordinate 
financial support among the possible funding entities, (3) solicit 
proposals, (4) select the ones to fund, (5) insure the results are 
useful to the oil spill response and restoration community, (6) 
transformed into practices, and (7) determine when the R&D is 
sufficient or if new funded projects are needed to resolve the problem.

A. Determining the R&D Needs
    In 2003 and again in 2009, the CRRC convened workshops of -30-50 
representatives of the oil spill community, to develop a host of 
research priorities for oil spill response and restoration. The topics 
for which R&D needs were developed included: spill response during 
disasters; spill response technologies; acquisition, synthesis and 
management of information for spills; human dimensions of spills; 
ecological monitoring and recovery following spills; biofuels; 
ecological effects of spills; and environmental forensics. [N.B., The 
organizing committee for the 2009 workshop decided not to include 
breakout groups on dispersed and submerged oil, liquid asphalt, spill 
modeling, or oil-in-ice because recent workshops hosted by CRRC which 
delineated those R&D needs.]
    The goal of the 2009 workshop, and all CRRC workshops, is to bring 
stakeholders from Federal and state spill-related agencies, industry, 
NGOs and researchers from academia and other research organization 
together to discuss knowledge gaps and their associated R&D needs and 
potential RFP (request for proposal) topics. For each proposed project 
the workshop participants provide objectives, guidelines, potential 
issue/problems that could be encountered, and an explanation of the 
application to the decision-making process. These become the basis for 
RFPs that each member writes in its area of responsibility or focus. 
Hence, when they create their agency's/group's oil spill RFPs, they 
will likely use some part of the R&D workshop needs. [N.B., the 
agencies/groups may also have RFPs on other topics, related to their 
specific mission.] Though the working groups coordinate who covers 
which R&D needs, they do not dictate the RFP topics funded by each 
member. This has been a reality since the concept of working groups in 
2005. It is also a reality that any future coordinating effort would 
face (e.g., ICCOPR) because members want to maintain autonomy to 
control who and what proposals get funded. Even if this could be 
overcome by forcing U.S. Federal agencies to fund projects by a common 
mechanism, it would be difficult to get cooperation from states, NGOs, 
other countries, and industry. Therefore, the working group model may 
be the best option to insure R&D is coordinated among the stakeholders. 
Further, it is key to have participation in the R&D needs workshops by 
representatives of all stakeholders (e.g., Federal and state agencies, 
industry, NGOs, national and international) and a mix of researchers 
(e.g., academics) and practitioners (e.g., responders). Researchers can 
offer an infusion of ideas based on fundamental principles and cutting-
edge science and engineering, while practitioners can insure that the 
realities of response are injected into the discussion.

B. Solicitation and Selection of Proposals
    Almost all funding entities have some form of public solicitation, 
though the extent is limited in some cases. The biggest differences are 
in selection of the proposals/researchers to fund. As noted earlier, 
RFP processes that require proposals to undergo rigorous peer review 
(i.e., similar to that used by the U.S. National Science Foundation) 
are usually viewed as having the most credibility. However, the type 
and extent of peer review varies widely among oil spill funding 
entities. Some RFPs are funded primarily on a research team's 
qualifications with little review on the experimental design proposed 
to address the R&D need. This oftentimes results in research whose 
results may not be accepted by all (e.g., industry funded research 
selected by this process may not be accepted by NGOs or governmental 
agencies).
    Even when peer review is used to review the entire proposal, the 
extent of review can be varied. Some agencies conduct primarily an 
internal review using their own scientists/engineers, whereas others 
use a combination of external scientists /engineers and practitioners. 
This is a fundamental difference in the use of peer review to produce 
research that addresses a funding entity's needs.

C. Utility of Results in Response and Restoration
    When the research is conducted to produce a detection or response 
device, it is usually not a problem to generate practical results. 
These are typically engineering types of projects, often conducted by 
consultants. For example, one problem faced when oil sinks (i.e., 
becomes submerged) to the bottom and collects on a muddy sediment in 
nearshore coastal waters, is that it becomes very difficult to detect. 
This R&D needs was identified in a CRRC and USCG hosted workshop in 
December 2006. Subsequently, the USCG R&D Center (New London, CT) 
issued a Broad Agency Announcement (BAA) to solicit proposals on this 
topic. In the first funding allocation, USCG funded several groups with 
promising technologies to perform preliminary demonstrations of their 
capabilities. Subsequent funding was focused on the technologies able 
to detect the submerged oil at the large-scale MMS-operated OHMSETT 
test tank in New Jersey. Results are pending, but should establish 
which technology to pursue for further funding to meet the overall goal 
of submerged oil detection.
    This type of research contrasts with the more fundamental R&D that 
must be conducted to answer questions of the fate, behavior and effects 
of oil. These are often the questions that must be addressed by NOAA 
and USEPA. For these questions, a broader scientific community must be 
involved (e.g., academicians). When that happens, there is often the 
possibility that the results may be less directly used by the 
responders. There are two primary reasons for this. (1) The researchers 
often have little experience with oil spills or the constraints imposed 
by working in field where there is often only a short window in which 
to respond. (2) Researchers who study fate, behavior and effects issues 
are not usually as focused on producing a product as those who are 
working on technology development. CRRC has developed two solutions to 
address this problem. Each RFP topic is assigned a NOAA practitioner to 
serve as a Point of Contact (POC) during the proposal development 
stage. Researchers interested in submitting a proposal on the RFP topic 
are strongly encouraged to talk with the POC not only about the topic, 
but also about the operational, logistical, and field conditions that 
constrain application of the project results. [N.B., The POC has no 
role in the peer review process.] Since CRRC instituted this approach 
the majority of the proposals received have been much more focused on 
addressing the R&D specific needs, indicating the researchers have a 
much better grasp of the constraints of a spill response.
    Once a project is funded, a NOAA liaison is assigned to the team. 
The liaison is a NOAA employee who will use the research to address R&D 
issues s/he will face during a spill response (e.g., a NOAA spill 
modeler was the NOAA liaison on a research project aimed at applying a 
probability model to predict where submerged oil might move in shallow 
nearshore waters). Again, since using this approach, CRRC has found 
that the research results are more easily transferred to practitioners.

D. Updating R&D Needs
    The working group members meet annually, if at all possible (though 
sometimes participation is limited by budget constraints of some of the 
partners) to review progress towards meeting the R&D needs identified 
during the workshops. Public forums are held when the members determine 
sufficient progress has been made towards addressing needs. In 
addition, they allow for discussion of whether an R&D need has been 
fully addressed so it can be removed from the ``list''. They also 
foster discussion of new R&D needs in the interim between workshops.

E. Oil Spill Research and Technology Needs
    The topics of workshops hosted by the CRRC with representatives of 
the members of oil spill community have focused on the areas of 
greatest need in the field: dispersed oil, submerged oil, integrated 3D 
spill modeling, Arctic oil spill needs, including Natural Resources 
Damage Assessment, toxicity, fate and behavior of liquid asphalt, along 
with topics identified on the 2009 Research & Development Priorities: 
Oil Spill Workshop.
    The Deepwater Horizon response has faced several of these issues 
(e.g., dispersed oil fate and behavior, acute and chronic toxicity, 
submerged oil detection, 3D modeling), but has also brought to light 
some new issues associated with understanding the fate and behavior of 
oil released from wells at great depth (e.g., fate and behavior, 
propensity for natural dispersion in the water column, emulsification, 
containment).
    There has also been an issue with the use of new technologies for 
response (e.g., products designed to absorb floating oil without uptake 
of water, a variety of dispersants) and for stopping the uncontrolled 
flow of the oil from the riser. There must be a method to test these 
new technologies before they are applied in an actual event. The risks 
of doing that are very high and not likely to be taken by the Unified 
Command or the Federal On-Scene Coordinator. Perhaps a model for this 
kind of testing can be adopted from the water treatment industry. USEPA 
funds the National Sanitation Foundation to run a technology testing 
program where manufacturers pay to have independent research 
laboratories evaluate their devices by using pre-established protocols 
and standard analytical methods. This subjects all technologies 
designed to treat a certain contaminant to the same standards and 
testing. It is important to note that the cost of the evaluation is 
borne by the manufacturer, but that USEPA provides base funding to the 
National Sanitation Foundation to administer the program and 
establishes the protocols and standards.

V. A Model for a Coordinated Federal Research Program

    The question of how to coordinate a Federal research program on oil 
spill response and restoration is one that is complex and must be 
carefully considered. The ICCOPR model of OPA 90 is not satisfactory, 
in part because much of the funding authorized was not appropriated. At 
least three other factors contribute: (1) the expectation that all of 
the Federal agencies on ICCOPR would actively participate when they 
were only tangentially associated with oil spill response, (2) the 
expectation that the Federal agencies would have the capacity to 
oversee a multi-faceted R&D program when little of their normal agency 
focus was on R&D, and (3) the assumption that Federal oversight would 
bring about the integration, coordination, and acceptance of the 
results of the R&D. The concept of Federal oversight is not 
fundamentally flawed, because the government should insure that the 
needed R&D is conducted, especially on the issues associated with 
drilling operations and transport in extreme and unexplored 
environments (e.g., deep ocean drilling, Arctic environment).
    I recommend that Congress consider the following model going 
forward: an interagency committee co-chaired by NOAA and USCG that is 
comprised of those agencies actually funding oil spill response and 
restoration R&D (e.g., MMS, USEPA, USFWS) as well as the various states 
that have active oil spill R&D programs (e.g., TX, CA, and LA) and well 
established oil spill R&D programs (e.g., OSRI, CRRC, PWSRCAC, CIRCAC). 
However, such a Federal and state focused committee, even with the 
inclusion of federally funded programs that have R&D, is missing two 
major players in oil spill R&D: industry R&D programs and international 
oil spill R&D entities (e.g., those of Canada, France, Norway). 
Researchers from these two groups need to be included in the 
discussions.
    The committee needs an outside Executive Agent--respected by all 
the Federal agencies and states--to serve as de-facto staff, to foster 
coordination among members, and to manage an external research program 
addressing priority national needs as defined by the committee, but not 
being addressed by specific existing Federal or state efforts.
    Selection of the Executive Agent, via a competitive process, should 
be merit based, with continuation based on periodic performance 
reviews. The Executive Agent should have well-recognized and respected 
capabilities that warrant its selection for such a role including the 
demonstrated ability to:

        <bullet>  Work with the spill community to prioritize important 
        issues needing attention,

        <bullet>  Administer a nationally competitive research,

        <bullet>  Facilitate coordination of Federal, State, private 
        sector, and as possible, international spill response research,

        <bullet>  Produce independent, third-party peer reviews of its 
        work, and

        <bullet>  Serve as a neutral party in fostering cooperation 
        among national and international members of the oil spill 
        community.

    Finally, I suggest we also consider a new paradigm for conducting 
some controversial R&D projects (e.g., ones to establish toxicity 
thresholds of key species). Scientists representing all stakeholders 
should be brought to the table by the Executive Agent to identify the 
R&D need (e.g., objectives, guidelines, potential issues, application 
to decision-making) and then to develop the experimental design and 
materials and methods as well as the data analysis techniques to be 
used. By agreeing to these essential components of the project in 
advance, the results obtained will be much more likely to be accepted, 
so that progress towards better spill response and restoration can be 
made more rapidly.

VI. Conclusions

        <bullet>  The CRRC, a partnership between NOAA ORR and the 
        University of New Hampshire, was created to address the need 
        for improved spill response and restoration. The Center 
        oversees and conducts independent research, hosts workshops, 
        and leads working groups that address gaps in oil spill 
        research in order to improve response, speed environmental 
        recovery, and reduce the societal consequences of spills. CRRC 
        acts as an independent, non-partisan entity to bring together 
        members of the oil spill community, as well as those in 
        relevant fields outside the spill community, including local 
        stakeholders, and state, Federal and international agencies to 
        address the many technical, economic, social, and environmental 
        issues associated with oil spills in marine environments. 
        Funding for the Center has been largely by Congressional 
        appropriation with some allocations from ORR's base budget.

        <bullet>  There are four major impediments to oil spill R&D:

                  the inadequate funding available for R&D on a 
                sustained basis (See Appendix B).

                  the lack of robust peer review requirements for 
                research performed has resulted in skepticism regarding 
                findings.

                  the lack of coordination between Federal, state and 
                international government agencies; and other 
                stakeholders (e.g., NGOs and industry) regarding oil 
                spill R&D. ICCOPR only consists of Federal agencies and 
                is therefore, not able to serve as a hub for the entire 
                oil spill R&D community.

                  the need to translate results of oil spill R&D into 
                practice. While some of the needed oil spill R&D 
                involves fundamental work, much of it must be very 
                focused on how the knowledge gained can actually be 
                used in the field by responders and those charged with 
                compensatory restoration of natural resources and their 
                associated human activities.

        <bullet>  Future R&D needs should be identified using a working 
        group model to insure R&D is coordinated among all 
        stakeholders. Further, it is key that participation in the 
        workshops that focus on identifying R&D needs include 
        representatives of all stakeholders (e.g., Federal and state 
        agencies, industry, NGOs, national and international) and a mix 
        of researchers (e.g., academics) and practitioners (e.g., 
        responders).

        <bullet>  Solicitation and selection of R&D proposals should be 
        based on a rigorous external peer review process including 
        scientists, engineers and practitioners.

        <bullet>  Efforts, such as assigning responders as points of 
        contact during the RFP process and practitioners to serve as 
        liaisons for funded R&D projects, are essential to producing 
        research results that are readily transferred to use during 
        response and restoration.

        <bullet>  It is important to update oil spill R&D needs 
        regularly (e.g., at least every five years or after a major 
        incident) as questions are resolved and new problems arise that 
        need to be addressed.

        <bullet>  Oil spill response and restoration areas that have 
        significant R&D needs include: dispersants and dispersed oil; 
        submerged oil; integrated 3D spill modeling; Arctic oil spill 
        needs, including Natural Resources Damage Assessment; toxicity, 
        fate and behavior of liquid asphalt; spill response during 
        disasters; spill response technologies; acquisition, synthesis 
        and management of information for spills; human dimensions of 
        spills; ecological monitoring and recovery following spills; 
        biofuels; ecological effects of spills; and environmental 
        forensics; as well as issues brought to light by the Deepwater 
        Horizon incident: the fate and behavior of oil released from 
        wells at great depth (e.g., propensity for natural dispersion 
        in the water column, emulsification, containment).

        <bullet>  The ICCOPR model of OPA 90 is not satisfactory, not 
        only because much of the funding authorized was not 
        appropriated, but because of: (l) the expectation that all of 
        the Federal agencies on ICCOPR would actively participate when 
        they were only tangentially associated with oil spill response; 
        (2) the expectation that the Federal agencies would have the 
        capacity to oversee a multi-faceted R&D program when little of 
        their normal agency focus was on R&D; and (3) the assumption 
        that Federal oversight would bring about the integration, 
        coordination, and acceptance of R&D needed for oil spill 
        response. The concept of Federal oversight is not fundamentally 
        flawed, because the government has responsibility to insure 
        that the needed R&D is done, especially on the issues 
        associated with drilling operations and transport in extreme 
        and unexplored environments (e.g., deep ocean drilling, Arctic 
        environment).

        <bullet>  Congress should consider the following model going 
        forward: an interagency committee co-chaired by NOAA and USCG 
        that is comprised of these agencies actually funding oil spill 
        response and restoration R&D (e.g., MMS, USEPA, USFWS) as well 
        as the various states that have active oil spill R&D programs 
        (e.g., TX, CA, and LA) and well established oil spill R&D 
        programs (e.g., OSRI, CRRC, PWSRCAC, CIRCAC). Oil spill 
        researchers from industry and international R&D programs should 
        be included in the discussions. The committee needs an outside 
        Executive Agent--respected by, all the Federal agencies and 
        states on the committee--to serve as de-facto staff, to foster 
        coordination among members, and to manage an external research 
        program addressing priority national needs as defined by the 
        committee, but not being addressed by specific existing Federal 
        or state efforts.

Appendix A

Information on Dr. Kinner's research of bioremediation and contaminated 
        subsurface environments
    Prior to the formation of the CRRC, Dr. Kinner worked in the field 
of bioremediation. In the late 1980s, she lead an examination of the 
potential for in situ enhanced biodegradation of gasoline in New 
Hampshire groundwater through the introduction of nutrients and 
electron donors and found that complete in situ bioremediation is 
possible under optimal conditions. In the early 1990s, it became 
apparent that ecological interactions within the groundwater microbial 
community may be playing a role in bioremediation, she had NSF funding 
for research at the Massachusetts Military Reservation (MMR) in 
Sandwich, MA with partners at the United States Geological Survey 
(USGS) to investigate the role protistan predation on bioremediation of 
a subsurface wastewater plume. This research formed a cornerstone for 
future predation-linked bioremediation studies, and determined that 
groundwater protists can have a potentially rapid and major impact on 
bacteria associated with groundwater bioremediation. In the late 1990s, 
a spill of #2 fuel oil in a salt marsh in Portland, ME spurred CICEET-
funded research on enhanced biodegradation of petroleum in salt marshes 
through the addition of nutrients and terminal electron acceptors such 
as oxygen and nitrate. This research found that bioremediation of 
petroleum contaminated salt marshes is possible through the addition of 
nutrients, oxygen and nitrate, with significantly less disturbance than 
typical mechanical remediation methods. Shortly thereafter, the Bedrock 
Bioremediation Center was formed with a grant from USEPA and examined 
bioremediation of chlorinated solvents in a fractured bedrock aquifer, 
a poorly understood environment with respect to bioremediation. The 
work focused on bioremediation of trichloroethene (TCE), one of the 
most common groundwater contaminants, and led to a better understanding 
of the important role nanoflagellates have in biodegradation of TCE, 
and confirmed the presence of nanoflagellates in anaerobic fractured-
bedrock aquifers, something previously thought impossible. More 
recently, CRRC has partnered with SINTEF, the University of Rhode 
Island, and the University of Alaska in a Joint Industry Project (JIP) 
to examine the role of predation on biodegradation of crude oil in 
Arctic sea ice. This research is ongoing.

Appendix B

Oil Pollution Research and Development Funding

Prepared for NOAA ORR by CRRC

R&D Needs

    Title VII of the Oil Pollution Act of 1990 (OPA-90) addresses 
research. It mandated that an interagency committee, chaired by U.S. 
Coast Guard, develop a multi-disciplinary plan to identify 
``significant oil pollution research gaps'' and ``establish research 
priorities and goals for technology development related to prevention, 
response, mitigation and environmental effects''. The first plan was 
released in 1993 and reviewed by the National Academy of Sciences. That 
plan was last revised in 1997, after which the Interagency Committee 
was less active. The broadly representative Advisory Committee to the 
Coastal Response Research Center (a partnership between NOAA and the 
University of New Hampshire managing a national peer-reviewed 
competitive program) urged the Center to focus on this as one of its 
early activities. In 2003 and 2009, the Center hosted workshops which 
included participants from a broad spectrum of the oil spill community 
that resulted in reports on research needs for five year horizons. Each 
plan built upon the preceding ones and incorporated knowledge gained 
from research conducted over the intervening years.

R&D Funding

    At the Federal level, OPA-90 authorized $30M from 1991-1995 to fund 
a regional research competitive grants program to universities and 
research institutions. This program only funded 20 R&D projects 
totaling $5.2M in 1994-1995. EPA ($0.9M/yr), MMS ($0.9M/yr) and USCG 
($0.7-$2M/yr) have used a fairly constant portion of the monies they 
receive from the Oil Spill Liability Trust Fund (OSLTF) to support 
specific R&D projects. A Congressional earmark, from 2002 to 2007, 
provided $0.5 to $3M/yr to NOAA to support its R&D partnership with the 
Coastal Response Research Center.
    At the State level, there has been modest, but consistent funding 
for oil pollution R&D: Texas ($1.2M/yr since 1991), California ($0.3M-
$0.6M/yr since 1993), and Louisiana ($0.5M to $0.8M/yr since 1993). 
Each State's program funds research projects primarily through 
competitive intrastate grants. OPA-90 provided $0.8 M/yr for the 
Prince William Sound Oil Spill Recovery Institute (OSRI) in Alaska 
(generated from interest from a $22M trust within the OSLTF). While 
focused on regional research needs, these programs have provided 
important information to improve overall oil spill response.
    Industry support for R&D, primarily through the American Petroleum 
Institute (API), the Marine Spill Response Corporation (MSRC) and a few 
joint industry/government programs, peaked from the mid 1970s to mid 
1990s ($50M expended by API over the years 1975-1996; MSRC conducted a 
$30M research effort that was terminated in the mid-1990s). Since then, 
the private sector has drastically decreased its oil pollution R&D 
funding (API spent $40K/yr for research since the year 2000).

Appendix C

Dispersant Research

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       Biography for Nancy Kinner

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Nancy Kinner is a professor of civil and environmental engineering 
at UNH. She has been co-director of the Coastal Response Research 
Center, a partnership between UNH and the National Oceanic and 
Atmospheric Administration (NOAA), since 2004. The center 
(www.crrc.unh.edu) brings together the resources of a research-oriented 
university and the field expertise of NOAA's Office of Response and 
Restoration to conduct and oversee basic and applied research, conduct 
outreach, and encourage strategic partnerships in spill response, 
assessment and restoration.
    Kinner's research explores the role of bacteria and protists in the 
biodegradation of petroleum compounds and chlorinated solvents. She 
teaches courses on environmental microbiology, marine pollution and 
control, the fundamentals of environmental engineering, and 
environmental sampling and analysis.
    Kinner received an A.B. from Cornell University in biology (ecology 
and systematics) in 1976 and an M.S. and Ph.D. in civil engineering 
from the University of New Hampshire, where she joined the faculty in 
1983. She has conducted funded research projects for agencies and 
research organizations including USEPA, NSF, AWWARF, CICEET and the NH 
Department of Environmental Services.

    Chairman Baird. Thank you, Dr. Kinner.
    Mr. Costner.

STATEMENTS OF KEVIN COSTNER, PARTNER, OCEAN THERAPY SOLUTIONS, 
                       WESTPAC RESOURCES

    Mr. Costner. Thank you, Mr. Chairman and Members of the 
Committee for inviting me. I am the only one up here that 
doesn't have a doctor in front of its name. That is pretty 
common for me.
    I know there must be a question as to why I am here. I 
would like to share with everyone in the room that it is not 
because I heard a voice in a cornfield. I am here because the 
images that haunt us all today are the same as they were 20 
years ago: the Exxon Valdez. Who could forget the birds and 
animals covered in oil, men and women standing in rubber boots 
on the beach, armed with pitchforks and hay waiting for the oil 
to wash ashore? It was both sad and heroic.
    The international community, again, is watching in awe as 
the most powerful country in the world is fumbling its way 
through the biggest environmental disaster in history. The 
Exxon Valdez became one of the moments in time that we mark as 
Americans, a moment where we as a nation collectively stopped 
and lived the same nightmare; 9/11, Katrina. It was hard for me 
to fathom how we could engineer nuclear power and put a man on 
the moon but somehow not muster the technology to clean up an 
oil disaster of our own making.
    For the past 15 years I have been an entrepreneur in the 
environmental technologies world. In 1993, I bought a patent 
from the Department of Energy for a centrifuge oil/water 
separator technology, a technology that I believe had the 
potential to fight catastrophic oil spills. I founded Costner 
Industries and brought together a group of scientists and 
engineers to develop a robust and portable device that would 
replace these reoccurring images and serve as the first line of 
defense in the oil spill cleanup and recovery.
    In two years the dream moved from research and development 
to a commercially-viable product ready to be deployed anywhere 
in the world. This was done without help from outside investors 
or government grants. The price tag would be over $20 million, 
and I paid it.
    Those with a science background will find our machines easy 
to understand. They are designed to separate oil and water at 
high speeds up to 200 gallons per minute, resulting in a 99 
percent purity of water and oil. Five different sizes were 
designed, with the largest machine having a 5 by 5 footprint. 
They would have the ability to be deployed on all manner of 
boats. The biggest plus would be that it would be easy to 
operate. That was always good news to me considering I might 
have to be the one to operate it some day.
    Let me paint a picture for you. Assuming 20 V-20s were 
deployed to the Exxon Valdez in the first hours of this spill, 
90 percent of that oil could have been recovered in less than 
one week. The cost of recovering a spill on the ocean is a 
fraction of the cost of cleaning it on the shore.
    So what happened? Not to the $20 million but what happened? 
My enthusiasm for what the machine could do was met with 
apathy, a refusal to move off the status quo. The list of 
government agencies, oil companies, and foreign companies we 
contacted reads like a ``Who's Who'' of those who needed it, 
those who should have been looking for it, and probably more to 
the point those who should have been developing it themselves.
    I was told that it was too expensive, that there was no 
need, that the spills were becoming less frequent, at least the 
ones we could see. Many times we offered to send our machines 
around the world to aid in the cleanup where spills were 
happening. In 1997, we went so far as to donate our largest 
machine to Japan during a spill. While this move may not be 
viewed in the business community as a smart one, I hope it 
reads in the light of day as to the level of commitment my 
company had and the people working there had for this 
reoccurring problem.
    The same offer was repeated and refused many times on our 
own shores, an ugly catch-22 that you can read more about in my 
written testimony. As the Gulf Coast is under siege, I would 
ask the Committee to now consider the valuable role that this 
machine built over 12 years ago can now play. Men and women in 
the oil industry are out of work through no fault of their own. 
Our fishermen have been sidelined because of this catastrophic 
disaster. Their families are now in that awful, uncertain place 
of not knowing the quality of life that awaits them.
    Our President finds himself in the middle of balancing an 
industry that hasn't considered the what if scenarios of 
working on the high seas. He is faced with this weak response 
of an oil industry that is sadly not ahead of the curve. I know 
the President, and I know this body want the American people to 
go back to work, but I also know that you want them to be safe.
    So how do we do this in good conscience? I believe this 
machine made over 12 years ago with all the care and science 
and money that I could throw at it is one major solve in this 
giant puzzle that will get people back to work. The American 
people deserve the comfort of knowing that there is a proactive 
solution to this everyday occurrence on our oceans, rivers, and 
lakes. It may seem an unlikely scenario that I am the one 
delivering this technology at this moment in time, but from 
where I am sitting it is equally inconceivable that these 
machines are not already in place.
    I realize protection is not a profit center, and safety is 
never thought to be sexy. Who wants to wear the ugly orange 
life preserver? I want you all to picture something now. I am a 
storyteller so bear with me.
    You have got a boat. It is a big, fancy yacht. Who doesn't 
want one? With all the fancy gadgets and security devices to 
make it run right. It has got a 38-foot fishing boat along with 
it. It has got a helicopter pad, everything you could want, 
everything to make your trip go right, but there is an 
explosion and now your boat is sinking. It is going down. 
Fishing boat, sunk. Helicopter, sunk. Jet skis, gone. And now 
the lifeboats are gone, too. Everything around you is sinking 
beneath the ocean, and the one thing you have left, the one 
thing keeping your wife alive, your kids, is this ugly little 
orange life preserver that was hidden away, that was stowed out 
of sight.
    We have legislated life preservers. We have legislated fire 
extinguishers. We have legislated lifeboats and first aid kits. 
It seems logical that as long as the oil industry profits from 
the sea they have the legal obligation to protect it, except 
when they would find themselves fighting for life and limb.
    A single machine can separate 210,000 gallons per day. What 
that means is the American people now have a rapid response, 
that they have insurance, a tool in the box, if you will, 
against another catastrophic spill. The American people can 
begin to put away their rubber boots.
    Florida Congressman Diaz-Balart asked us, where are the 
fire trucks? I left a meeting yesterday with Edison Chouest, 
the largest oil servicer in the Gulf. With our machine in mind 
they proposed designing a vessel that would fundamentally 
change the world's approach to oil recovery. Together we 
envision a world-class first responder vessel that could be 
strategically deployed around the world. Initial orders have 
also been placed by BP for individual machines.
    Right now we are in a fight to protect our jobs, our way of 
life, and an ecosystem that cannot protect itself. Our machine 
is the right machine to take on this challenge at this moment. 
It doesn't require dispersants or chemicals to operate it. In 
short, we do not have to further pollute the ocean. The time is 
right for technology to take center stage in our country's 
prevention and defense against catastrophic spills. We can put 
Americans back to work and bring an entire industry into the 
21st century of oil spill response.
    Thank you.
    [The prepared statement of Mr. Costner follows:]

                  Prepared Statement of Kevin Costner

Link to video demonstration of CINC technology: http://
rcpt.yousendit.com/886302095/156538534818ed0c3b1d910c32ec33d2

    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to speak here today and for raising this important 
discussion. I come before you as a discouraged U.S. citizen, and an 
entrepreneur with a partial solution to the tragedy unfolding in the 
Gulf. Seventeen years ago I purchased a licensed patent for a 
centrifugal force oil-water separator from the Department of Energy's 
Idaho National Laboratory. Today that technology, CINC, is the most 
effective and efficient tool for cleaning up oil spills that you've 
probably never heard of. Despite CINC's proven demonstrations in front 
of oil industry and government leaders, the technology sat passively on 
shelves for more than ten years, powerless to make right the oil spills 
that continued and will continue to occur. It is incumbent on us to do 
everything possible to clean up the massive spill in the Gulf. CINC has 
an important role to play in that legacy, as I will explain.

Introduction

    The Exxon Valdez oil spill was a devastating and humbling moment 
for our country. The entire world community watched in awe as the U.S., 
the most powerful country in the world, thrashed and capitulated, 
helpless to save itself from the worst environmental disaster in 
history. We engineered nuclear power and put a man on the moon, but 
could not save ourselves from oil, the most basic resource involved in 
almost every aspect of our daily lives. U.S. citizens stood heroically 
on the beach, prepared to clean up a mess that they had no part in 
creating. Such epic failure was hard for me to fathom, and yet the 
images of rubber boots, straw and soup ladles against an endless black 
tide confirmed this utterly demoralizing display of incompetence that 
would continue to repeat itself.
    While it's not wrong to focus so much attention on large spills, we 
cannot diminish the smaller spills that happen around the world every 
day. Estimates are between 5,000 and 13,000 gallons in a typical year. 
For every 1 million gallons pumped from wells, it is estimated that 20 
gallons will end up in the oceans. At our current rate of oil 
production that means the equivalent of the Exxon Valdez spill every 7 
months.
    Partly in response to the Exxon Valdez, I resolved to commit 
personal resources to engineer a product that would be effective in 
cleaning up oil spills. Like fire extinguishers, oil-water separators 
could be stationed on every boat, harbor and port where oil was 
present. I envisioned the machine as a safety device, compact and 
portable enough that it could be a deployed on a small craft, and 
rugged enough to operate reliably in rough seas. The CINC oil-water 
separator can do all this.

I. Early development and patent history

    Taxpayers paid for the early development of a liquid-liquid 
separator technology, licensed and patented from the Department of 
Energy (DOE) and Idaho National Laboratories (INL), a government owned, 
private contractor operated facility, in 1993. Originally developed to 
assist in nuclear fuel reprocessing, the machine was then made 
available to the private sector to improve upon the licensed patent. 
Today the technology represents one of the laboratory's highly 
successful transfers of technology, which makes the patent unique and 
of particular interest for the government and U.S. citizens.
    In operation since 1949, Idaho National Laboratories (INL) is a 
science-based, applied engineering laboratory dedicated to supporting 
the U.S. Department of Energy's missions in nuclear and energy 
research, science and national defense. Like all other Federal 
laboratories, INL has a statutory, technology transfer mission to make 
its capabilities and technologies available to all Federal agencies, to 
state and local governments, and to universities and industry. To 
fulfill this mission, INL encourages its scientific, engineering and 
technical staff to disclose new inventions and creations to ensure the 
resulting intellectual property is captured protected and made 
available to others who might benefit from it. As part of the mission, 
intellectual property is licensed to industrial partners for 
commercialization, creating jobs and delivering the benefits of 
federally funded technology to consumers. In other cases, unique 
capabilities are made available to other Federal agencies or to 
regional small businesses to solve specific technical challenges. INL 
uses a variety of flexible partnership mechanisms to advance technology 
development and to establish industrial partnerships that in turn 
benefit INL, DOE and the partner. Some of these benefits include: 
Increased technical breadth and depth of laboratory staff available to 
national missions; Leveraged Federal research, development and 
demonstration; Reduced costs to taxpayers by using funding from other 
sources; and enhanced competitiveness for U.S. companies.\1\
---------------------------------------------------------------------------
    \1\ INL website: https://inlportal.inl.gov/portal/
server.pt?open=512&objID=255&mode=2
---------------------------------------------------------------------------
    The foundation of our CINC technology was created over 30 years ago 
and has been used by the Department of Energy (DOE) to recover valuable 
metal resources through a process of solvent extraction. In 1993 I was 
awarded a Technology Transfer from the U.S. Department of Energy (DOE) 
for a liquid-liquid solvent extraction technology, which we believed 
had the potential to be scaled up and commercialized in the fight 
against oil spills.
    Dave Meikrantz, a scientist working for DOE, and the original 
inventor of the technology, came on board as the Director of Technology 
at Costner Industries (CINC), my newly formed private company.

Private acquisition and investment

    Since 1989 and the Exxon Valdez, I had been thinking about 
investing in environmental solutions that could prevent the severity of 
similar disasters which were sure to follow. In Newbury Park, CA I was 
already funding research and development on flywheel technology that 
used magnets, but it was not until I took possession of the DOE 
technology that Costner Industries was officially formed. My brother, 
Dan Costner, would go on to run the company.
    We moved quickly to bring on a team of scientists and engineers for 
rapid research and development. The first two years were spent scaling 
up a prototype machine that processed only milliliters per minute. 
After that initial period of research and development we moved into 
production and manufacturing in Carson City, Nevada. Over time we 
created five commercial units with processing speeds that range from 1/
2 gallon to 200 gallons per minute.
    The fact that the machine was capable of separating numerous liquid 
elements meant that it could be applied in diverse industries including 
pharmaceuticals, chemicals, metals mining and recovery, food and 
nutrition, biodiesel, biotech and environmental clean up. As useful as 
it was in so many ways, and as profitable as it could have become 
through diversification, I zeroed in on one singular process with 
immense potential.
    Over the next 17 years I would devote more than $20 million dollars 
of my own toward developing a rugged, compact, portable machine that 
could separate oil from water. At the height of our business CINC 
employed roughly 20 people in manufacturing and 15 sales 
representatives around the world.
    As a citizen I recognized I recognized the need for this kind of 
technology. As an entrepreneur I seized an opportunity to fill a gaping 
hole where these solutions are concerned. CINC's potential lay in the 
ability to become the first line defense in oil spill cleanup with the 
added benefit of valuable oil recovery.

II. How it works

    Our separator was designed for use in oil and chemical spill clean 
up, oil production, remediation, nuclear waste and environmental clean 
up, or any application that requires the separation of two liquids with 
a variety of viscosities. Our technique is not hard to understand. The 
design is compact, portable and simple enough be operated with minimal 
expertise. CINC does not use chemical or biologic agents in its clean 
up process. And separation is excellent: both oil and water outputs are 
greater than 99% pure, as opposed to skimming, which at best is 20% 
oil, 80% water and has additional storage and onshore treatment 
concerns.
    CINC comes in five unit sizes. The largest, a V-20, has a footprint 
of five square feet and weighs around 4,500 lbs. The unit fits easily 
onto a fishing boat, dock or other vessel where it can process oil and 
water, separating 200 gallons per minute.
    If response is quick, the lighter components of crude oil have not 
evaporated and the oil still retains its product quality. Crude oil, 
when left to weather, will become thicker and thicker, eventually 
becoming the tar that washes up on beaches. For this reason, CINC units 
can be most efficient as a first line of defense in oil spill and 
recovery if they are stationed at key harbors, bays, ports, oil 
transport and shipping boats, and on oil rigs--in other terms, anywhere 
where oil can come into contact with water.
    Assuming 20 V-20s had been deployed to the Exxon Valdez in the 
first few hours of the spill on local fishing boats, 90% of the spill 
could have been recovered in less than 1 week. CINC is at its best 
working as a first line of defense, gathering oil before it has a 
chance to stray far from the initial spill point. The cost of 
recovering a spill on the ocean is a fraction of the cost of cleaning 
up tar once it's made its way to the shore (roughly $5 million for 20 
V-20s versus $4 billion for the Exxon Valdez spill).
    Approximately 0.1% of the water discharged back into a spill area 
contains oil.

Technological obstacles

    CINC centrifuges have been installed worldwide for applications in 
the petroleum, chemical, mining, pharmaceutical, food, fragrances, 
printing, and environmental industries. The centrifuge performs a wide 
range of separation, extraction, washing and reaction operations. 
Unfortunately, CINC was never fully utilized in the way I intended 
because of a technical obstacle, but also, and perhaps more importantly 
because of a lack of support from industry and the Federal Government.
    Fifteen parts per million became the elusive bar for CINC. To 
prevent pollution in oceans and freshwater, EPA rules became a factor. 
However, we would learn, some rules do not apply in emergency 
situations where clean up is occurring. Obviously you cannot compare 
the 0.1% oil being discharged from a CINC machine to any other amount 
of pollution being dumped off a boat. It's a common sense calculation. 
And yet, this technology was not embraced by industry.
    There are also examples where CINC confronted obstacles and was 
both flexible enough and proactive enough to overcome them. Following a 
demonstration in Japan we were advised that their main concerns with 
the centrifuge were: its reliance on a dual power source, which was an 
inconvenience in certain situations; and the specific brand of skimmer 
used. Over the course of the next year, CINC attacked these problems. 
The Japanese response was positive, and yet frustratingly, immovable.
    With all the modifications over the past year, such as the 
conversion to a single power source, and combining it with the more 
efficient Desmy skimmer, the Oil Spill Recovery System seems as if it 
would currently satisfy all the concerns that held it back from its 
prior approval.--Tadabumi Takasu, President of United HiTech in 1998.
    Despite our ability in this instance to meet the client where they 
stood, these efforts were not enough to promote further action by the 
Japanese. It was suggested that CINC continue with testing.
    CINC continued to raise the bar with advancements in its design. A 
polyurethane casing was designed specifically for oil spill response 
models. This outer housing reduced the machine's overall weight by 
1,000 lbs making it even more mobile and efficient for deployment in an 
emergency situation.

III. Advocacy and outreach

    Beginning in 1993 CINC's sales staff, management and ownership 
began aggressive marketing and sales efforts targeting private sector 
industry as well as government entities to demonstrate our capabilities 
and to solicit support for the use of our technology. The results of 
such efforts were less than successful in the oil spill response and 
recovery markets.
    Within the community of private sector oil spill responders 
responses to our equipment tended to be favorable. Indeed CINC 
impressed audiences across the board. Notwithstanding these positive 
reactions and experiences, oil spill response teams were bound by 
various regulatory policies and rules of testing that effectively 
stonewalled even the possibility of new technologies entering the 
market. For the purposes of their own protection, these co-ops and 
companies were not interested in any technology or method of cleanup 
that had not received the Federal stamp of approval. In order to 
receive approval, technologies must be tested on actual spills, but the 
agencies charged with approval will not deploy untested equipment in a 
spill scenario. We were dealing with a classic and very unfortunate 
example of a Catch 22.
    In over 45 documented cases, CINC made efforts to obtain the 
required certifications and grow awareness in the public and private 
sectors. When we were denied access to testing, CINC took on, at its 
own expense to demonstrate the effectiveness of our product and gain 
this critical access. We proved our capabilities in front of the very 
agencies charged with protecting and identifying new methods and 
solutions. The U.S. Coast Guard, Marine Spill Response Corporation 
(MSRC), Minerals Management Service (MMS), U.S. Navy, and the EPA were 
all made aware of the this powerful technology that deserved a place 
within our arsenal of defense against oil spills.

Federal outreach and response

    In 1994 CINC made first contact with Ken Bitting, Civil Engineer 
for the U.S. Coast Guard (USCG). We informed USCG that we were 
deploying technology and wanted to get the correct certifications and 
requirements to do so. Dave Meikrantz, CINC's Director of Technology, 
then visited the Marine Spill Response Corporation (MSRC) to understand 
what kind of equipment they were currently working with. Over the 
course of the next two years, CINC and MSRC stayed in contact through 
various meetings, calls, and hosted demonstrations. We requested to 
participate in their tests and were repeatedly told that there were not 
enough available funds.
    Buccaneer Marine was an organization with crews that would run 
stand-by oil recovery duty when drilling was permitted off the 
California Coast. Although the co-ops were formally contracted for oil 
spill clean up, they would call on Buccaneer in the event of a large 
spill. In 1995 we ran sea trials of the V-20 under ``rock and roll'' 
conditions and discussed potential joint maneuvers for future oil 
spills. Jim Johnston, the skipper for Buccaneer Marine, had all the 
ancillary equipment to support oil recovery operations and a trained 
crew, but was not allowed to recover oil independently without an 
invitation from the co-ops and USCG permission.
    The range of outreach conducted following our failed involvement 
with MSRC reads like an `alphabet soup' of government agencies. Between 
1995 and 1997 CINC contacted:

        1.  The California Department of Fish and Game to obtain their 
        guidelines for Oil Spill Prevention and Response (OSPR).

        2.  Lloyd Nilsen at U.S. Navy Systems Command, Arlington, VA. 
        No response.

        3.  Kyle Mokelien at the Minerals Management Service. No 
        response.

        4.  The Naval Facilities Engineering Service Center (NCEL) and 
        provided a demonstration at Port Hueneme, CA.

        5.  Yuone Addasi at California Fish and Game. No response.

        6.  Joseph Vadus, Senior Advisor at NOAA. No response.

        7.  Clean Seas Official List (position sites for spills around 
        the world). No response.

        8.  George Wilson and John Johnston, Senior VP of National 
        Response Corp. (NRC), offering to make available V-20s at no 
        cost in the event of a spill. No response.

        9.  All 75 solicitors entering into Basic Ordering Agreements 
        with the U.S. Coast Guard for containment, oil spill and 
        hazardous clean up. No response.

        10.  J. Foster, General Counsel for the Federal Office Science 
        & Technology Policy. Then Senate Minority Leader, Senator Tom 
        Daschle sent the letter outlining CINC's capabilities, and 
        requested that it be tested and considered as a powerful 
        addition to our clean up arsenal. No response.

    In March of 2001 I made a personal effort to communicate with the 
heads of EPA and the Department of Transportation. I sent letters to 
then agency heads, Christine Todd Whitman and Norman Mineta, 
respectively, explaining the extent of our centrifuge's capabilities 
and requesting their review and / or assistance. I emphasized that: 
``Unfortunately in the United States, we remain poised to respond to 
the next great manmade environmental disaster from the same crisis mode 
as we did twelve years ago,'' adding that, ``I am excited to show you 
[with the CINC machine] that we need not repeat history. The answer 
exists and it is readily available.'' EPA's response was noncommittal.

Hosted demonstrations for the benefit of government and industry

    In addition to the phone calls, letters and general outreach that 
went unanswered CINC hosted numerous demonstrations for representatives 
of government, industry to emphasize and reinforce CINC's power and 
efficiency. We also presented and participated at various conferences 
and trade shows to elevate the profile of our product.
    CINC hosted and/or presented at the following events:

        1.  Clean Gulf Conference, FL.

        2.  U.S. Coast Guard Oil Pollution Act--90, Kings Point, NY.

        3.  International Oil Spill Show, Long Beach, CA. CINC hosted a 
        private demonstration at our facilities, providing private bus 
        transportation and dinner for guests. In attendance were USCG's 
        Director of Research and Development, Ken Bitting, 
        representatives from MSRC and UNOCAL.

        4.  International Ocean Conference of the Marine Technical 
        Society.

        5.  Monterey Harbor demonstration for California Fish and Game 
        and the U.S. Coast Guard.

        6.  At OHMSETT, a U.S. Navy and U.S. Coast Guard facility in 
        New Jersey, CINC is tested under real life oil spill 
        conditions. Following a successful demonstration CINC hosts a 
        dinner event in New York City.

        7.  U.S. Representative Lois Capps convened a conference in 
        Santa Barbara to discuss oil spill technology. CINC 
        demonstrates before a variety of stakeholders in the oil 
        industry, research institutions, and other Federal agencies. 
        ``As TV cameras rolled Friday morning, the Costners and their 
        team successfully demonstrated how the separators work. A 
        temporary water tank was installed in the harbor's parking lot 
        and the water was fouled with diesel fuel, which the machines 
        then cleaned up.'' Santa Barbara News-Press, April 21, 2001. 
        Government representatives in attendance were: Lt. Graves, 
        USCG; J. Lisle Reid, Regional Director, Mineral Management 
        Service; and Heather Parker-Hall, NOAA representative.

        8.  Terminal Island, CA, test performed for U.S. Coast Guard 
        Task Force for Contingency Planning. EPA, MMS, FEMA, Fish and 
        Game, and the California Coastal Commission were all in 
        attendance.

    In not one single instance did we receive a follow up response to 
these successful demonstrations. It was frustrating to know how to move 
forward. We were told the machine had to be proven and tested. When we 
were denied the opportunity to participate in those tests, we did 
demonstrations of our own, in an effort to claim the attention we felt 
we rightly deserved. We earned the respect and of our audiences 
wherever we went, and yet still were denied any real support. It was 
extremely difficult for us to know how to move forward doing business 
in the US.

International use and response

    For ten years CINC went about targeting international governments 
and private entities involved in oil or hazardous spill clean up, in 
much the same way as we did in the U.S. In many instances we offered 
use of our machines at no cost wherever oil spills were happening 
around the world. Despite these efforts we were mostly denied a 
response from the following entities:

        1.  Canadian Marine Response Management Corp. responsible for 
        oil spill services and equipment and Larry Wilson of the 
        Canadian Government. No response.

        2.  Oil spill offices in: United Kingdom, Netherlands, Sweden, 
        Italy, France, Germany, India, Australia, Denmark, USSR, Japan.

        3.  Autralian Emergency Services (AES) and Hartec Systems 
        Anchorage were contacted and offered our equipment and 
        assistance in cleaning up the Komi spill. No response.

        4.  Offered clean up assistance to Marius Mes of Phillips 
        Petroleum of Norway. No response.

        5.  Offered equipment for a spill in Wales, to the Oil Spill 
        Response Lim. And Joint Response Center. No response.

        6.  Peter Oosterling, General Manager of Shell International, 
        The Hague. No response.

        7.  Test performed in Kuala Lampur, Malaysia for the Deputy 
        Prime Minister. CINC transported a V-10 unit and had a 
        successful demonstration. No response.

    In 1997 we airlifted a V-20 CINC unit to Japan to aid the oil spill 
clean up caused by a cracked Russian tanker. Although severe weather 
kept us off the sea, the effort did demonstrate our unit's mobility. 
The $700,000 price tag for transporting our machine further confirmed 
our commitment to providing real world solutions to protect our 
environment and resources.

Business repositioning

    We jumped through every hoop that we encountered, but without key 
institutional support or regulatory action, we didn't have any buyers, 
and thus, the market was nonexistent. I had to suspend my intentions 
for the oil-water separator and the company went on to diversify into 
other markets, including pharmaceutical and chemical centrifuges.
    My passion and desire to succeed with CINC never waned. Roughly 
nine months ago I formed WestPac Resources LLC with my partner Pat 
Smith, with the intention of attacking the 15 ppm problem that had been 
a sticking point for government and industry alike. We took a step back 
and reevaluated the process with a Federal lab focusing on systems 
engineering. We found an engineer at UCLA, Dr. Eric Hoek, who believed 
that he could create a backend nanotechnology filter membrane to reduce 
oil-water output to below 15 ppm--the key to CINC's commercial 
viability in certain sectors. Again with private resources and no 
institutional support, I found myself pushing this technology uphill 
because I believed in its potential.
    Ocean Therapy Solutions was born to provide global solutions for 
oil recovery. OTS utilizes the CINC centrifuge and will incorporate 
nanotechnology developed by UCLA to produce oil-water output of less 
than 15 ppm. OTS is currently working in concert with the Parishes of 
Louisiana and BP to deploy the CINC machines into the Gulf.

IV. Present capabilities and future needs

    The fundamentals of the CINC centrifuge are strong. This system 
model for liquid separation by centrifugal force has proved time and 
time again to work with diverse elements and under stressed 
circumstances. For these reasons, scientists and engineers at the 
Aerospace Corporation are exploring options with us to optimize CINC 
centrifuges for possible work in the Gulf. If CINC is deployed in the 
Gulf it will surely encounter new mixtures, emulsifications and 
viscosities, which will require engineering attention and ``fine 
tuning.'' These challenges can and will be met. Aerospace is also 
evaluating satellite and airborne sensor data and Ground Truth Data to 
help improve situational awareness to aid in the most efficient 
placement of CINC machines in the Gulf.
    Ten V-20s are ready to be deployed in the Gulf at this moment. At 
our Nevada facility we could begin scaled up manufacturing immediately. 
This facility, as well as our other strategic manufacturing partners, 
could provide hundreds of CINC machines in a matter of months.
    In addition to separating oil and water, CINC centrifuges have been 
used extensively in oil production. CCS and ET&T are two mid-stream 
contractors working for U.S. oil manufacturers that have experience 
with CINC machines. In fact, ET&T bought the first V-16. We also know 
that a Dutch oil processing company has been using CINC's for this 
purpose.

Legislative needs

    The government agencies and entities mentioned here should not be 
singled out for their indifference. Between 1994 and 2004 we contacted 
every major oil company in the U.S. in an attempt to gain their 
awareness and support for a technology that could both protect them and 
the environment in the event of a spill. The most apt word to 
characterize these interactions was apathy. Simply put, the need for 
such technology was not recognized at the time we brought this product 
to market. Now the whole country and the world will recognize the need 
for preventative spill clean up technology. I am saddened by the 
disaster that has brought this conversation to bear and also happy to 
see our technology finally have the chance to take center stage in 
providing high quality environmental solutions.
    Our President has made clear that he does not want to put Americans 
out of work, but the moratorium on oil drilling is now moving supply 
rigs overseas to foreign territories. Our President's main concern, as 
I understand it, is to keep Americans out of harm's way, by not 
allowing them to work in unsafe environments. CINC machines stand ready 
to be deployed for immediate clean up, but they also provide the 
unintended benefit of putting people back to work.
    If legislated as a safety standard, CINC machines would be like 
fire extinguishers for the oil industry, to be kept close at hand 
wherever oil and water have the opportunity to come into contact. Like 
any other emergency device, the hope is that you never have to use it, 
and yet it is reliably there when you need it. CINC machines provide a 
safety assurance such as the oil industry has never seen. Their 
effectiveness remains unmatched by any comparable technologies in the 
past thirty years. In putting CINC to work, we have a situation where 
regulation can be very good for business--putting rig safety operators 
back to work, in a safer environment, with American made machines.
    In our experience with the ``clean up'' industry and government 
regulatory agencies responsible for protecting our environment and the 
public, we have learned that interest in any sort of solution is event 
driven, piecemeal, and reactionary. Following each major disaster there 
is a frantic search for tools and answers, but it's always too late. 
This is a great failure of our system because we do not have solutions 
available when we need them the most. Fortunately, we have a solution 
that is readily available to set things right in the Gulf beginning 
tomorrow if we make that decision.

Conclusion

    We are all at fault here. It's just too easy to blame BP. It took 
oil for me to fly here and it will take more oil to solve our problem. 
What we need to do now is come together. What I can provide it a 
technology that is available immediately, a technology that will allow 
rigs to resume operation and to put people back to work. Every day we 
wait to deploy we lose more wildlife, coral reefs and our way of life.
    US Coast Guard has used terms such as ``under assault'' to describe 
conditions in the Gulf. He has it right that this is a war to be waged 
with all the tools, methods, and techniques we have at our disposal. 
Since the last great debacle (Exxon Valdez spill) there has been too 
little institutional effort devoted toward defining, identifying and 
qualifying the best ``tool chest.''
    I heard it stated that throughout the 19th and 20th Centuries, each 
time America has been compelled into war, we begin fighting it with the 
methods, tactics, equipment and technologies used in the last war. I 
believe that statement to be not only poignant but also accurate to 
events unfolding in the Gulf.
    We have the opportunity to provide the American public a solution 
to the Gulf oil spill and to tell the story that demonstrates the power 
of combining government resources with private ingenuity. Thank you for 
this opportunity to speak today. As an entrepreneur, a pragmatist, and 
a U.S. citizen I am committed to ensuring a positive environmental 
legacy for the Gulf and all waters around the world.

                      Biography for Kevin Costner

    Although best known for his work as an actor, director and producer 
in the film industry, Kevin Costner has been an entrepreneur in the 
environmental tech space for more than fifteen years. In 1993 Costner 
procured a technology transfer from the Department of Energy's Idaho 
National Laboratory for a centrifugal oil-water separator. He founded 
Costner Industries (CINC) and committed the next fifteen years, and 
over $20 million toward research and development, advocacy and outreach 
on behalf of a rugged, compact portable device that would serve as a 
first line of defense in oil spill clean up and recovery. Costner's 
vision and success with CINC technology is its unparalleled efficiency 
in oil spill clean up.

                               Discussion

    Chairman Baird. I thank all of our witnesses.
    I will recognize myself for five minutes and then as per 
the practice we will alternate on both sides.
    I am struck by Dr. Short's opening comments and Mr. 
Costner's concluding comments, and I want to focus on two major 
areas. One, I want to talk about this issue of adequacy of 
funding, and then I want to shift to the research on the 
impacts.

              Industry Funding for Spill Impacts Research

    It was not that long ago that our major oil companies were 
recording some of the highest, I think the highest quarterly 
profits of any corporation in the history of the economy, and 
yet, as eloquently described by Mr. Costner, the issue of 
cleaning up if there is damage has been dramatically under-
funded, except possibly through private entrepreneurs here. Dr. 
Short was describing the shortfall in funding, and then Dr. 
Kinner talked about the relative authorization level versus 
actual appropriations.
    I am not asking anybody to put--to come up with this off 
the top of their heads, but if somebody is capable, does anyone 
know the contrast between the amount of quarterly profits or 
annual profits of the major oil and gas industries in this 
country, especially those derived from offshore oil or 
exploration, versus the amount invested in research and 
containment and recovery? Anybody even hazard a guess on that? 
It is multiple orders of magnitude I am sure. I don't want to 
put you on the spot. I am just struck by that.
    Anybody want to take a shot at that?
    Dr. Short. If I recall right, BP's annual profits are in 
the order of tens of billions of dollars, and the sum total of 
research that goes into oil pollution studies is in the order 
of less than, certainly less than $30 million.
    Chairman Baird. Anybody--that is multiple orders of 
magnitude.
    Dr. Kinner.
    Dr. Kinner. Yes. Mr. Chairman, I don't know, again, oil 
spill or oil company profits, but I can give you the data that 
we collected. From the mid '70s to the mid '90s there was $50 
million expended by API from '75, to '96. There is a 
corporation that the oil companies pay into for cleanup called 
MSRC, and they conducted a $30 million research effort that was 
terminated in the mid 1990s. And since 2000 API has spent about 
$40,000 a year for research.
    Chairman Baird. So relatively small amounts.
    Dr. Kinner. Yes, sir.
    Chairman Baird. Mr. Costner.
    Mr. Costner. I would just like to say I don't know how much 
they have spent, but I have spent all my profits on oil spill 
cleanup.
    Chairman Baird. I was just going to ask. And without 
government subsidy, it sounds like.
    Mr. Costner. That is right. And after taxes.
    Chairman Baird. Significant. That gap is tremendously 
instructive and let us then look at the consequences of that 
gap.

                      Impacts on Corals and Algae

    Dr. Joye, you have been looking at this. Dr. Joye, I know 
you come from a research background and been in the region. 
This committee has actually passed legislation dealing with 
harmful algal blooms and dead zones in the Gulf. I am 
particularly interested in coral around the world, both the 
temperature increase and ocean acidification.
    Can you talk to us a little bit about the impact of this 
spill on both harmful algal blooms, dead zones, and then if you 
have got some knowledge on deep sea corals in particular.
    Dr. Joye. Sure. The--I think one thing that people need to 
realize is that there--it is not just a matter of oil on the 
surface and oil in these deep plumes. The use of dispersants at 
the surface has resulted in oil being distributed throughout 
the water column. The whole point of dispersants is to get it 
off the surface and have it sediment out.
    The impacts of that on the offshore system--I will talk to 
you first and then I will touch a little bit on the deep sea 
floor and the coastal systems. The most pronounced, immediate 
impact is on the oxygen budget of the system.
    The ocean anywhere is at a condition that scientists refer 
to as ``steady state.'' It is in balance. Inputs equal outputs. 
Right now there has been a tremendous perturbation of that 
balance, and that input of carbon is resulting in a strong 
depletion of oxygen and consumption of oxygen by microbial 
processes.
    That--this is not an issue of harmful algal blooms, per se. 
It is, rather, the opposite. You are putting carbon into the 
system in the form of gas and consuming oxygen. The signature 
in the upper water column right now, oxygen is very much 
depleted compared to what it is normally. In the deep water 
plumes it is 30 to 50 percent depleted in places. We measured 
two milligrams per liter of oxygen as the level where organisms 
like fish, anything that requires oxygen, start to be stressed 
out. We measured concentrations that were very close to that at 
two-point-five milligrams per liter already in the upper water 
column and in the deep plumes, as well.
    So oxygen is a serious concern. The repercussions for the 
system in terms of carbon flow are potentially tremendous. We 
really don't have them constrained at this point. The system is 
de facto turning into a heterotrophic system. It is trying its 
best to consume all the oil and gas that is being put out.
    Chairman Baird. Tell us what heterotrophic means.
    Dr. Joye. Heterotrophic--sorry.
    Chairman Baird. I may do that from time to time today.
    Dr. Joye. Probably will need to. A system that produces 
carbon is an autotrophic system. A tree, a phytoplankton is an 
autotrophic system. We are heterotrophs. We consume carbon and 
oxygen in the process. So the organisms in the ocean that are 
responding to this oil spill are predominantly ones that eat 
methane and eat oil, so those organisms are all heterotrophic, 
and in the upper water column they are oxygen-consuming 
heterotrophs.
    So those organisms are being turned on by the--stimulated, 
if you will, by the input of oil and gas. What that does to the 
heterotrophic levels in the system is it is an abnormal 
simulation. How that will cascade up to heterotrophic levels is 
very unclear, and you always also have to worry about 
incorporation of oil and gas-derived toxins, particularly in 
benzene and PAHs and things like that, into organisms and 
transport of that material up the food web.
    In terms of the benthic ecosystems, the Gulf of Mexico----
    Chairman Baird. I am going to ask you to be very brief. 
Tell us what benthic organisms are and then--I know this but--
--
    Dr. Joye. So they are--yeah. So they are organisms that 
live on the seafloor all around the Gulf of Mexico, and these 
organisms include deepwater corals, Lophelia-type organisms, as 
well as kinesthetic communities that are driven basically by 
the oil and gas. If you take away oxygen from the water, those 
organisms will not be able to survive.
    So the implications and repercussions of the oil and gas 
imputed into the water column will be immediately felt by any 
creature that needs oxygen, if oxygen is depleted in the water.
    Chairman Baird. So the oil doesn't--the oil is consumed by 
a certain category of organisms. In the process of doing that 
they also consume oxygen that deoxygenates the water column, 
and that has adverse repercussions throughout the food chain?
    Dr. Joye. Exactly. So the bottom line is that it is good 
that they are getting rid of the oil, but you are also getting 
rid of oxygen.
    Chairman Baird. At what cost? Thank you.
    Ms. Biggert.

                        Early Warning Mechanisms

    Mrs. Biggert. Thank you, Mr. Chairman.
    Dr. Haut, in your statement you discuss a potential 
research program for response procedures and processes that 
would include early-warning sensors to identify potential 
hazards. Could you expand a little bit on this concept, and 
would it be similar to the tsunami warning system that NOAA has 
set up in the Pacific, or could these sensors be used to--
installed on existing infrastructure, or would new 
infrastructure be needed?
    Dr. Haut. There are currently quite a few sensors already 
offshore. One of the issues that we would like to look at 
actually comes from Oakridge National Laboratory. We would like 
to look at a sensor wiki, where through the internet we could 
link all these sensors and have all the data available to the 
public, and we can call up different sensors around the nation 
and offshore.
    So we want to look at incorporation of an entire system of 
these sensors, and this way we could also identify wildlife, 
certain time periods certain ecosystems are going to be more 
valuable than at other times. So what is the value of the 
ecosystems themselves.

                         R&D Budget Priorities

    Mrs. Biggert. Okay. Then you also stressed the importance 
of technology research that would prevent the spills from 
happening in the first place. If you were given an R&D budget 
of say $100 million, how much would you spend on preventative 
technologies and how much would you spend on cleanup 
technologies?
    Dr. Haut. That is a really good question. And is $100 
million even enough? One of the things that we would want to do 
is to incorporate first a meeting of all different 
stakeholders, get them engaged to fully understand what the 
different priorities are and where that money should actually 
be spent based on the priorities of all stakeholders. Invite 
environmental organizations, predominant environmental 
organizations to sit down with industry, to sit down with 
government agencies and regulators to fully understand where 
that money should be spent.
    Mrs. Biggert. So many of you do seem to suggest 
communication between everyone, which I think is a really very 
important idea that our agencies don't always talk to each 
other enough, I think, or to the industry or to the scientists 
or whatever.
    Let me see. Mr. Short or Dr. Short, in your testimony you 
state that Federal agencies need to insist that scientific 
standards are met before relying on the results touted for new 
approaches to oil spill response and mitigation.

                     Existing Cleanup Technologies

    How widespread is the use of technology for oil spill 
cleanup, whose effectiveness relies on data that does not meet 
the rigorous scientific standards?
    Dr. Short. My concern there really was originated from 
recent experiments that were reported for the in-situ burning 
of oil in the Arctic, but in general the saga of dispersants--
actually to speak more generally to your question--has a very 
shaky basis as far as evaluating their efficacy in the field.
    And in part that is because it is difficult, and mostly it 
is because of inadequate attention to, you know, normal 
scientific norms and adequate support to carry out the 
experiments that need to be done and for long enough to be 
done.
    For example, Environment Canada--Merv Fingas, in 
particular, ran the Emergency Sciences Technology Division 
there--made quite a stink about the fact that when you apply 
these dispersants and dispersion actually occurs, you can have 
leeching of the dispersant out of the oil and then they 
resurface somewhere else, and then you have, you know, 
essentially just recreated the oil spill.
    So that is an example of something where people----
    Mrs. Biggert. Okay. Thank you, and if I have time to ask 
Mr. Costner then, if--with your machine wouldn't it be better 
just to have not the dispersants but to really have the oil to 
absorb that----
    Mr. Costner. Yes.
    Mrs. Biggert. --with your machine rather than have it 
dispersed?
    Mr. Costner. I think that is ideal, as it serves as a 
first-response situation wherever you are at, and the 
dispersants----
    Mrs. Biggert. Uh-huh.
    Mr. Costner. --begin to muck things up, but the machine, 
again, is highly, highly technical, and with the work of 
aerospace and who works with us, all those things can be 
overcome, but ideally right at the source we are not only able 
to collect the spill, but we are able to recover the asset for 
whomever has lost it. So ideally, yes, that is not what we need 
to be doing.
    Mrs. Biggert. Okay. Thank you. I yield back.
    Chairman Baird. You have asked the very question I was 
interested in. Thank you very much for that.
    Mr. Gordon is next.
    Chairman Gordon. Thank you, Mr. Chairman.

                          Technology Transfer

    Many thanks to the panel for joining us today. This is not 
another ``who shot John'' investigation, but rather an attempt 
to try to determine what is the research and technology that we 
need to develop and actually through legislation for the future 
both to hopefully avoid and, if not, to mitigate these kind of 
problems.
    You know, 50 percent of our U.S. GDP since World War II is 
the result of either developing technologies or adopting that 
technology, and much of that resulted out of Federal Government 
basic research: internet, GPS, we can go on.
    So really my interest here is more specifically in the 
transfer of technologies in oil spill mitigation from basic 
research either to Federal, universities, on into the 
marketplace.
    Do you see that there are barriers or not, and, if there 
are barriers, what do we need to do to break those down?
    Dr. Kinner. Yes, Representative Gordon, I would like to 
take a shot at that. One of the real problems, as you pointed 
out, is technology transfer, and there are a couple of reasons 
for that.
    For instance, if you run a request for proposal process to 
ask for ideas, oftentimes the researchers respond in the way 
that they think might be practical, but they have very little 
experience in the field. So they don't know a lot of those 
practical constraints that responders actually face.
    So there are a couple of things you can do there. First of 
all, you can have a person who acts kind of as a point of 
contact, and that individual is a practitioner who understands 
the needs and then can relate to the scientists that are 
trying--or engineers who are trying to respond.
    Secondly, I think one of the things that has shown to be 
quite effective is that once a proposal gets funded and it has 
met all the standards of peer review, you then assign a liaison 
who is a practitioner to the team to kind of keep that team 
focused on some of the constraints we face.
    Chairman Gordon. Who should be the person or the agency 
that makes that assignment?
    Mr. Kinner. I think that one of the issues is that the 
agencies haven't. They have R&D programs, but they don't make 
those assignments, and I think that needs to become part of the 
process.
    Chairman Gordon. We tried to do that in the America 
COMPETES Act where there is the National Science Foundation and 
the Department of Energy, to help them develop a business model 
to get them over that Valley of Death. So really it should come 
from whatever the funding agency would be and not a specific 
agency somewhere else just to do that.
    Dr. Kinner. That is correct.
    Dr. Haut. Mr. Chairman, if I can say, RPSEA, when we put 
out requests for proposals, we--particular for the deepwater 
technologies, we demand that we have a company that is a 
champion for that effort, and so that company then becomes the 
chairman of a review panel to monitor the progress of that 
research, and so we have that technology transfer function from 
the beginning of the initial research.
    Chairman Gordon. Mr. Costner, you have been sitting on this 
for 15 years, so in your experience was there a problem going 
from the Federal Government, that basic research to you, or was 
it a problem of the industry accepting it, or you know, what 
lessons do we have to learn here?
    Mr. Costner. No. The--we had a successful transfer and that 
actually came from the Idaho National Laboratory, so they said, 
go, man, go, and so I did. But the problems that we ran into 
was when we developed a successful machine that--in going to 
the government agencies, be it the Coast Guard or--there are so 
many initials--I have a hard time, the Minerals, MS.
    Chairman Gordon. Yeah.
    Dr. Kinner. MMS.
    Mr. Costner. Yes.
    Chairman Gordon. We have the same problem.
    Mr. Costner. All these agencies were very aware of this 
equipment, saw it work, and many times saw it work 
successfully. It was what I said in my testimony, there was a 
general apathy. As far as business industry is concerned, there 
is a lot of human nature, and that is if--you have to be 
realistic--when you are in industry, if you have your own 
private company, you have to be a very evolved person, which is 
sometimes you look past your profits and you say, we are going 
to do the right thing. Those people are--they are out there, 
but they are far and few between.
    In a public company when your mandate is profit and loss, a 
person who is running a public company looks at somebody like 
myself and all they can see is $500 million or $100 million or 
$10 million or $100,000 of capital investment to something that 
would be, in effect, a seatbelt, and I don't want to minimize 
my equipment. If they are not mandated to take it, the common 
shareholder will say, where did that $500 million go? You put--
you spent $1 billion? Really? Of our money on safety when we 
really don't have that many oil spills? Because that is what we 
read.
    And so, you know, that person has to be a giant himself, 
and when I mean a giant, I mean a person that is willing to put 
their job on the line. It is, I guess it can be found in the 
political arena, the person who is not willing--who is willing 
to do the right thing and forego their next term.
    Chairman Gordon. Well, they buy fire insurance, they 
probably buy insurance, you know, on their other types of 
equipment.
    Mr. Costner. That is correct.
    Chairman Gordon. And so you might say that if you have--$75 
million is a lot of money, but if you have a $75 million cap, 
then you--that is the distance then for you trying to buy your 
type of insurance.
    Mr. Costner. It really is.
    Chairman Gordon. The cap came off, people knew that they 
were going to be fully responsible, then just like fire 
insurance and other types of insurance, this would be an 
insurance that maybe they would be more interested, not so much 
out of the good graces but just out of good business sense.
    Mr. Costner. I think there was a bar that I couldn't get 
over, and I think there was a bar that industry, and I believe 
that--and government hid behind. And--but those days are, you 
know, that is what--that was awhile ago, and but as far as the 
transfer, no, I did not have a problem. My problem came into 
being when I exposed the product on a national and 
international level that it wasn't mandated and it wasn't 
legislated, and it was easy to just not go there.
    Chairman Gordon. Yeah. Well, I think it would be difficult 
to mandate your product, but we can mandate that you have to 
have full expense of mitigation, and when you do that, then 
they need to be out looking for products and ways to mitigate 
that damage, and you would get that additional insurance.
    Thank you, Mr. Chairman.
    Chairman Baird. Thank you very much.
    Mr. Rohrabacher.

              Challenges for Implementing New Technologies

    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I 
apologize that I have missed some of the testimony here today. 
I had actually another meeting that I am running back and forth 
from with some--another foreign affairs committee at the same 
time as this committee.
    Mr. Costner, I understand that you have some technology 
that could--you believe that could be put to use in meeting the 
current challenge.
    Mr. Costner. That is right.
    Mr. Rohrabacher. And are you suggesting that there are 
regulatory roadblocks that are preventing you from--this 
technology from being utilized?
    Mr. Costner. Well, I think that if you look at it 
carefully, I think it has somehow been intertwined between 
government agencies. When we wanted to originally test the 
machine, I said that we had volunteered the machine when oil 
spills would occur, those that we would see on television, not 
to the extent of the Valdez or what we are experiencing now, we 
would offer to take our machines out there, and we couldn't get 
out onto the spots because the Coast Guard would regulate that 
we couldn't get there. There was--I called it an ugly catch-22.
    You know, what we wanted--as a government agency they would 
like to know if it works. Well, let us go out and show you. We 
will show you the data. Well, we can't get you officially out 
on the spill, and there was just this kind of ineptness that 
kind of really silenced the company.
    That is changing now. We have conducted 12 years later 
which two very successful tests with BP. BP is moving towards 
and placed an initial order towards these machines and have 
acknowledged that they do the job, but they are actually doing 
the job where they were not even originally intended, which is 
now closer to shore, groundwater, and things like that.
    Mr. Rohrabacher. So we could have, without spending any 
money on our part, and we are always looking for money here 
because we spent a trillion and a half dollars more than we 
took in last year, but actually being a little bit more 
responsible in terms of regulatory----
    Mr. Costner. Wow.
    Mr. Rohrabacher. Yeah.
    Mr. Costner. Really?
    Mr. Rohrabacher. Wait until your currency devalues then you 
will really go, wow, because that is what people----
    Mr. Costner. I am at wow now.
    Mr. Rohrabacher. But if--what you are suggesting then is 
actually without a great expenditure of money, more money from 
this committee and from doing our job, by simply perhaps making 
sure that we didn't have regulatory and other type of 
roadblocks we could have been a lot further along and been able 
to meet this challenge?
    Mr. Costner. That is correct.
    Mr. Rohrabacher. Maybe you could let me know--you say the 
Coast Guard--was there--has any other agency or anything like 
that that----
    Mr. Costner. You know, it is in the testimony. You know, I 
will say this. BP mentioned to me that they would support the 
oil service suppliers and require them--maybe that is the wrong 
word, but they would support the idea that these machines are 
on boats. People are--somehow this wheel is coming around, and 
it is unfortunate that it is late, but, yeah, that is correct.
    Mr. Rohrabacher. Well, there is an intransigence in the 
private sector as well as the government sector. What I have 
personally learned is that some people in business basically 
know how to do their job based on what exists today, and they 
resist changing it because then they wouldn't know how to do 
their job as well, and they are afraid of that.
    But on the government side, we just have basically people 
who don't want to work sometimes, they don't want to change 
anything because that is their job, and there is a similarity 
in the intransigence, but I think I find it--on the 
bureaucratic level maybe there is even a greater intransigence, 
because at least in the private sector we got guys like you who 
are using, and congratulations for using your notoriety to try 
to do good things----
    Mr. Costner. Well, it was my money actually, and I found 
the initials. The NOAA, the MSRC, MMS, EPA, and the United 
States Coast Guard. You know, I think maybe when you talk about 
the energy transfer, there must be a relationship when you 
actually test or something where maybe you follow me in 
industry a little bit and the terms of if the government would 
have seen that number one, the taxpayer paid for this at first, 
and then I took it out of the DOE. But if there was an agency 
that could have like, I guess like a parole officer, I know I 
am going to use wrong words here. I just know it.
    But the ideal thing would be to say, yes, this does work, 
and bring it back to a body like yourself and find a way for 
government to be a little more fluid with this situation 
because these should have been on every ship transferring oil, 
they should be on every oil derrick, they should be at every 
port and every harbor, and that is--and they work incredibly 
efficiently. And, you know, sometimes we are pointing at the 
larger oil spills, and it is easy to minimize the spills that 
are occurring every day.
    Mr. Rohrabacher. Yeah.
    Mr. Costner. And those things can be handled immediately by 
anybody that is conducting commerce where oil is about to touch 
water.
    Mr. Rohrabacher. You are an orange--you come from Orange 
County?
    Mr. Costner. I was born in Compton, California.
    Mr. Rohrabacher. Right. Well, thank you very much.
    Dr. Kinner. Representative Rohrabacher, if I might just add 
something, I think there are a couple things you have to 
consider.
    One is that Mr. Costner pointed out that they didn't want 
him to take the technology out during a spill. His technology 
may be excellent. I don't know his technology, but there are 
issues of trying new technologies during a spill where you have 
to basically be sure that you are not increasing the risk by 
using those technologies.
    So that is one reason why we try sometimes to be a little 
bit more careful about using new technologies during a spill 
but----
    Mr. Rohrabacher. As long as there is ample reason to 
suggest that it might make it worse and I would have to say 
that I found a lot of intransigence and people with new ideas 
that there wasn't any type of ample reason to justify that 
intransigence.
    Dr. Kinner. Absolutely, but I would point out, also, that 
the United States is the only country that does oil spill R&D 
that has no opportunity to actually have on-water controlled 
spills to test technology. They do it in Canada, they do it in 
Norway, and I believe that you heard Ms. Buffington talk about 
MMS participating in a Norwegian spill. That is because there 
is no capability to do that in this country, and I think we 
need to open up that possibly, that we have small releases 
where we can have on-water testing outside of OHMSETT to test 
these in real world conditions instead of in a big test tank.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Chairman Baird. Thank you, Mr. Rohrabacher.
    Ms. Woolsey.

          The Cosco Busan Spill and the Interagency Committee

    Ms. Woolsey. Thank you, Mr. Chairman, and thank you very 
much, panel. I was looking forward to you as the balance to our 
first panel.
    For those of you that may not know this, on November 7, 
2007, the container ship, Cosco Busan, collided in the San 
Francisco Bay with the Bay Bridge, and 58,000 gallons of oil 
were spilled into the San Francisco Bay, and that is considered 
a minor spill.
    Well, it had huge impacts on my district north of the 
Golden Gate Bridge, and that was why I introduced H.R. 2693 
with the Chairman, and thank you very much, Dr. Short, for 
mentioning that and giving us a shout out.
    But it was then that I realized the question was who is in 
charge. Who is in charge? And this bill for research and 
development would put some answers around that and some 
parameters.
    But this whole situation proves once again who is in 
charge, and panel one proves to me one time over who is in 
charge. The government panel convinced me more than ever that 
we have to have one agency in charge because certainly 14 
agencies are not acceptable at all, and certainly a group of 
agencies that were sitting here in front of us who are not--it 
didn't appear that they were outraged by the BP blowout and the 
response to it. It seemed to me that they were very willing to 
defend each other from agency to agency. And I just thought it 
was unacceptable. We have to have somebody in charge.
    Dr. Kinner, you suggest that we have an interagency 
committee, possibly NOAA and the Coast Guard, you know, and for 
me that would be the perfect way to go because I love them 
both, but I don't think so. I think we have to have some agency 
in charge. Where does the buck stop in an interagency 
committee? I mean, we have got to a place where the buck stops. 
The buck stops where?
    Dr. Kinner. Well, Representative Woolsey, I think that the 
reason I suggested that co-chair----
    Ms. Woolsey. Uh-huh.
    Dr. Kinner. --is because there are two different issues as 
I see them for oil spill R&D going forward. One is the 
technology questions, the mitigation devices, et cetera, and 
the other one is the more science-based questions, the fate, 
the behavior, the effects of the oil. While Coast Guard or MMS 
or whomever are great on the technology, they are not really 
able to answer some of those fundamental research issues with 
respect to fate, behavior, effects, et cetera. And restoration 
certainly. So that is why I recommended the co-chair.
    What I also think is very important about my recommendation 
was this executive agent, and those might not be the right 
words. I am not a politician here, but I think----
    Ms. Woolsey. Parole officer.
    Dr. Kinner. Parole officer. Yeah. But, anyway, I think that 
that is really the very important point about what I said, 
because I don't think you can expect any of these Federal 
agencies with their multiple mandates to be bird-dogging what 
that committee has to do to oversee oil spill R&D, and that is 
where I think the rubber hits the road.
    Ms. Woolsey. Well, I agree with you totally, but I--
because--but I believe there needs to be something over those 
two. Certainly we don't need 14. It seems like you agree with 
me on that.

                      More on Technology Transfer

    Mr. Costner, your level of involvement, thank you very 
much. You brought some good, you know, thank you for bringing 
this to the whole issue.
    But I am curious. In your exploration of bringing your 
technology to the Federal Government, were you involved in 
levels where if you were turned down, you could appeal, or were 
you right at the top from the beginning?
    Mr. Costner. Well, I sat with the--hosted meetings with the 
Coast Guard in New York, went to their facility, the Coast 
Guard facility. Representative Lois Capps, I demonstrated in 
Santa Barbara where I live and look at out seven oil derricks 
that sit, you know, out there at the Channel Islands, and those 
groups attended that meeting. I brought in one of those four-
foot high swimming pools.
    Ms. Woolsey. Uh-huh.
    Mr. Costner. And I dumped in Alaskan crude oil into there 
and put a V-10, one of my machines, and drained in about--after 
having something like this for an hour, people talk, I said, 
well, let us go out in parking lot, and I dumped in two 50-
gallon barrels of crude oil, and I said, there is your oil 
spill. Oh, my goodness. And I flipped the switch on my machine, 
and five minutes later the oil was out. It was so quick that it 
kind of was a little underwhelming because we talked and then 
people weren't looking, so I said, do you want to do it again? 
So we dumped the oil back in, and again, it happened.
    So that is a reality. I kind of forget what your question 
was. What was it?
    Ms. Woolsey. Well, did you have an appeals process?
    Mr. Costner. Well, it is not called appeals. It is probably 
called squeal, you know. It is how loud can you be, and I don't 
know if I am embarrassed about the amount of money that I 
spent, I don't know if I am proud about it, but at a certain 
point I knew that I was exhausted. It was a moment where I 
couldn't go forward. When I hear people talk about $100 billion 
in an agency, I am sitting over here, my skin is crawling. I 
would have liked some of that.
    But I didn't need it because I am there, and what is 
interesting is during this talk that pipe is still leaking, and 
I think we have a unique moment. Am I up here hawking my 
product? I guess. I don't know. Don't take mine. Take somebody 
else's, because I have been to all these oil response 
conventions around the country and around the world, and all I 
see are booms and the latest helicopter, but I have never seen 
one machine that deals with getting the oil out.
    Ms. Woolsey. Uh-huh.
    Mr. Costner. That is me, and so with the moratorium on 
there has to be a responsible action at this moment, which is 
can we effectively take care of a spill that will occur? And 
that answer is yes, and so we have a long-term problem, a 
short-term problem, and we have an emergency right now where 
people aren't going to be able to make their mortgages if they 
can't go back to work. They can't go back to work if it is not 
safe, and they can't go back to work if there is not a 
reasonable application.
    That is what this represents, and I know you can't endorse 
a product. I get that, but I am dying to see anybody that 
cleans up oil in any kind of response on the scale that I am 
talking about.
    Ms. Woolsey. Okay. I know I am overtime.
    Mr. Chairman, I just want to say to both Mr. Chairmans and 
to our Ranking Member, that in our legislation we have to make 
certain that people who already have good ideas, workable ideas 
don't have to go back to scratch in order to----
    Mr. Costner. Thank you.
    Ms. Woolsey. --compete. Thank you.
    Chairman Baird. Thanks, Ms. Woolsey, and I have just a few 
more questions I would like to ask. I don't know if other 
colleagues will as well, but I would like to just ask just a 
couple follow-up points.

                     Dispersants vs. Oil Collection

    A fundamental issue seems to me to be this issue of 
dispersant versus recollection and separation, and the science, 
the environmental impacts, and the economics of the two, it 
seems, you know, that it used to be this old adage, the 
solution to pollution is dilution, but that doesn't really 
solve it. I mean, if we are just making micro-particles that 
are consumed by microorganisms that then suck up oxygen and 
thereby possibly re-release the chemicals, I have been told by 
coral reef scientists that the dispersants are lethal for a lot 
of corals. I mean, if you just dump the dispersant on the 
coral, you have done the coral in right there.
    So the received standard operating procedure seems to dump 
the dispersant on it as quickly as you can. My hunch is that is 
more for PR purposes than science. My hunch is that that is so 
that it looks like there is less oil. I may be wrong on that, 
but that may be part of it.
    To what extent have we really evaluated the science, the 
economics, the environmental impacts of dispersants versus 
collection? And whether it is Mr. Costner's device or some 
other device, the dispersants make it very difficult for a 
recollection and separation mechanism to work, and they skew 
the economics in a bad direction for that and maybe for the 
environment. So this is a core question. What do we know about 
this?
    Dr. Kinner. Mr. Chairman, as I mentioned a few weeks ago, 
Dr. Short was one of 50 scientists that we had at a meeting 
down at LSU. We were asked to convene that meeting, the Center 
was, by the Regional Response Teams in charge of the cleanup, 
and we were asked that very question. Going forward, if in that 
case the top kill didn't work, what should be the extent of 
dispersant use in this spill?
    And what we tried to do was bring scientists from Federal 
agencies, from academia, from other countries, and 
practitioners together to answer that question, and here is 
what we concluded, and the report is online. It was released 
last Friday.
    That in the best of all possible worlds you don't want to 
have to make this decision, but as Dr. Short pointed out, this 
is a catastrophic spill. So to this point that group of 
independent scientists felt that the use of dispersants for 
this spill was less environmentally harmful than allowing that 
oil to go into the wetlands and the near-shore environments 
because of the sensitivity of organisms, et cetera.
    Was it desirable? No, but you have to make a decision, and 
mechanical recovery, as Mr. Costner's device is, is the best 
choice, but you can't always use it because of the weather 
conditions. This is a nightmare scenario because we have 
prevailing winds that are onshore that create a lot of wind and 
waves that prevent mechanical recovery from working, that are 
driving the oil into the near-shore environments.
    The second thing that the scientists said is going forward 
what should be done continually is a risk assessment, a 
tradeoff evaluation to make sure whether or not that conclusion 
still holds going forward as the species in the water change, 
as the wind conditions change with the season. All of those 
things really change and potentially, as work like Dr. Joye's 
shows, that the threshold concentrations in the water column 
are going up above one part per million or ten parts per 
million for toxicity concerns.
    Chairman Baird. I appreciate that. I am going to give Dr. 
Joye and Dr. Short a chance to respond in a second, but a 
question that is running through my head here, though, is it 
seems like--let us oversimplify, but every gallon of un-
recovered oil has some level of cost to the environment. Every 
gallon of added dispersant has some level of cost. To the 
extent that there is a penalty linked to those two variables, 
it affects the economics of how we deal with these things. It 
affects the economics of whether one initiates an initiative 
like Mr. Costner's or some other entrepreneur.
    We need to get that economics straight and we need to 
really start pricing those kinds of things because--and we 
can't just say, well, in this catastrophe--I am looking long 
term.
    Dr. Kinner. Yes, sir.
    Chairman Baird. Okay? Yes, it is--we got to stop this 
thing, but in the long term we have got to really make some 
serious question about where our economics and our investments 
are going to go, and we really need to evaluate the costs of 
the per gallon dispersant costs, not just in terms of what it 
costs to make the stuff, but what the environmental impacts are 
and economic impacts of those environmental impacts.

                       Entrepreneurial Solutions

    It just seems we really ought to look at this, and then the 
other thing I want to just put out there and then I will open 
it up for response, is you are noticing, Dr. Kinner, that, 
well, we need to do--and I am mixing things up here, but I am 
going to just put it out, we need to--we are constrained for 
our ability to do small scale releases as a test bed. I see it 
a little differently. I see it if you have got a catastrophic 
event, unless you are doing something that has likely added 
affergenic harmful affects by the treatment, you ought to let 
the entrepreneurs get out there and do it.
    Now, we are not saying dump a bunch of chemicals or light 
the thing on fire, drop a nuke on it or something, but if 
somebody is saying, I have got a mechanical device that the 
worst thing that happens is we put the same oil and water back 
into the system that we started with, that seems to be a fairly 
low-risk enterprise. And so we ought to find ways of using 
these tragedies as natural experiments to unleash entrepreneurs 
on them, again, not with harmful substances, but I think we 
ought to really take advantage of this and this idea that we 
deny people access who might have devices that work when we 
have natural experiments, I would rather do that than dump 
100,000, you know, gallons in and say, let us see if we can 
clean this up. We have already got the gallons. Let us go clean 
it up.
    Anyway, let me open this up.
    Dr. Kinner. Representative Baird, with all due respect, we 
would call that in the field a spill of opportunity.
    Chairman Baird. Yes.
    Dr. Kinner. And we do actually have plans for spill of 
opportunity testing. In this particular spill we are so 
undermanned with personnel that to actually go out and do 
testing would be very, very difficult, sir, but I do think 
there is opportunity at certain spills of opportunity.
    Chairman Baird. I am told Ms. Biggert has a question. I am 
going to ask you to hold onto your answer in response to mine 
so that Ms. Biggert can ask her question. But then if you 
leave, I want to stay here and ask my question. All right.
    Sometimes in the absence of our colleagues from the other 
side, they freak out that we will pass legislation or 
something.
    Mrs. Biggert. Legislation will come up very quickly.
    Chairman Baird. In fact, I have written it here.
    Mrs. Biggert. She wants her bill. Thank you.

                      More on Technology Transfer

    Just as a follow up, Mr. Costner, you know, we deal a lot 
here with what we call the Valley of Death, and the Valley of 
Death is when there is an industry or a company that develops 
something, and they get to the demonstration process, and then 
they want--to get to the commercialization is very difficult, 
and coming to the Federal Government is one way to do that.
    That doesn't--I don't know if that really helps you, but 
Ms. Buffington in the first panel talked about OHMSETT and that 
is an acronym that means Oil and Hazardous Materials Simulated 
Environmental Test Tank. And I wasn't sure whether you said you 
had been tested by that group or MMS or not.
    Mr. Costner. I have demonstrated the equipment numerous, 
numerous times successfully. It is--make no mistake, the 
equipment is working in other industries. I am separating 
highly-toxic chemicals in the cosmetic industry and the mining 
industry.
    Mrs. Biggert. I just wondered if you had been before that--
gone to OHMSETT.
    Mr. Costner. Who are they?
    Mrs. Biggert. That--well, I can only----
    Mr. Costner. I mean, I am sure--okay. Wait a second. Yes. 
They are with the Navy.
    Mrs. Biggert. Okay. All right. So----
    Chairman Baird. If I may, Ms. Biggert, Mr. Costner, it is 
so refreshing to have a panelist who does exactly what we do up 
here when we are asked tough questions. Our staff slips us 
things, and then we get to sound like we really know what we 
are doing.
    Mr. Costner. This is the first time you can actually copy 
and not get in trouble for it.
    Mrs. Biggert. He is giving away our secrets up here.
    Dr. Haut. Congresswoman, if I may, we have also tested Mr. 
Costner's technology at Texas A&M, actually in their food 
laboratory, and I think one of the key things here that we are 
looking at as Mr. Costner pointed out is the cost effectiveness 
of it as well.
    And as Chairman Baird has mentioned, what is the value of 
those ecosystem services? We have done a project up in--
actually offshore Alaska to look at the value of ecosystem 
services. Ecosystems provide various benefits, whether it be 
fishing, climate change, prevention of hurricanes coming 
onshore, or whatever. But the key thing about the wetlands also 
is that is where our food source starts. At certain time 
periods of year as well where we can model this and come up 
with certain values of those ecosystem services. So we could 
actually then go in and do a comparison of what is that value 
versus the comparison of what does it cost to use Mr. Costner's 
technology or other technologies.
    Mrs. Biggert. Well, Dr. Haut, would you think then that 
because of this crisis that either BP or the Federal Government 
should use this in a crisis like this?
    Dr. Haut. I think there are various things that may be 
tested. I am extremely interested. I know Mr. Costner has about 
a half a dozen of his systems offshore right now at ground 
zero, and I will be very interested to see what those results 
are in terms of the separation of it.
    Mrs. Biggert. Okay. Then, Dr. Short, following up, what 
agencies, Federal agencies are relying on technology that was 
not tested using the rigorous scientific standards that you 
talked about earlier, and does this--go ahead. Can you answer 
that question for me?
    Dr. Short. Well, the--as far as what agencies----
    Mrs. Biggert. Uh-huh.
    Dr. Short. --who--I suppose it would be the Coast Guard and 
EPA. There is a lot of work that has been done on--to use 
dispersants as an example--on how well they work in a 
laboratory setting. There is very little that has been done on 
how they work in an actual field setting, and the scientific 
standards that are brought to power when it is is not something 
that gives one confidence.
    And part of the reason for that is, as Dr. Kinner pointed 
out, we can't do field testing in the United States. If we 
could go field testing in the United States with, you know, 
small scale oil spills, it would help a lot.
    Mrs. Biggert. Okay. So do you think that this contradicts 
the Federal Government's policy on scientific integrity then?
    Dr. Short. Well----
    Mrs. Biggert. By using something like that when they 
haven't been tested.
    Dr. Short. Tested adequately you mean?
    Mrs. Biggert. Uh-huh.
    Dr. Short. Yes, I do.
    Mrs. Biggert. Okay. Thank you very much. I yield back.
    Chairman Baird. Ms. Woolsey has a brief question, but I 
want to give the opportunity to follow up, and thank you, Ms. 
Biggert, follow up on the other issues that I approached.
    Dr. Short. Thank you. I have been squirming in my seat to 
do so. I want to, I hope, point out to the Subcommittee the--
what the actual facts on the ground appear to be when the oil 
first hits the surface that was described to us at this meeting 
the first time I heard--that Dr. Kinner convened a couple of 
weeks ago.
    It was a very sobering description from NOAA, ORNR, and 
what they described was that after the pipeline ruptured and 
oil began to appear on the surface, it did so in a rising cone 
of dispersed oil that would show up anywhere within a circle of 
about 9,000 feet.
    Then they said the biggest skimmer we have can sweep 300 
feet. Do the math. The mechanical ability to concentrate the 
oil so that you can use separation technologies effectively 
just wasn't there.
    And so as Charlie Henry said, the first line of defense 
that we, as a matter of routine, would employ was mechanical 
recovery, was overwhelmed, and they had to go to dispersants.
    And so that kind of put the Agency in a very difficult 
position right away.
    Dr. Joye. Can I comment on your question?
    Chairman Baird. Please.
    Dr. Joye. I think one of the biggest issues that I have in 
thinking about this crisis is that there are two major areas of 
impact. One is the coastal ecosystems, the wetlands, the 
fisheries, tourism. The other is the offshore oceanic impacts, 
and, I think--and this is just my perception and opinion--but 
it seems to me that the oceanic impacts, the open water 
offshore impacts have received little to no attention while the 
coastal impacts have--that is where the decisions have been 
made. They have been targeted for reducing the amount of the 
oil on the beaches, and the goal, to achieve that goal, what 
has been done is use of dispersants.
    And those dispersants may well be the last line of defense, 
but I am not convinced that this is the best thing we should be 
doing, because the entire water column is now--I mean, you have 
got--it is a huge body of water, and instead of having the oil 
concentrated on the surface where you at least have a chance of 
recovering it and removing it, you have now basically diluted 
it and dispensed it into the entire body of water of the Gulf 
of Mexico, and how in the world are you ever going to clean 
that up?
    To me that is a serious consideration.
    Chairman Baird. Dr. Short.
    Dr. Short. If I may just add to that, you know, we weren't, 
any of us, real comfortable with that decision. It was--we 
recognize it was sort of like, well, you are going to lose a 
big toe or are you going to lose a thumb? Which one?
    And on the basis of the information we had before us, which 
included monitoring results that was conducted by EPA, what we 
knew about hydrocarbon degradation rates in the Gulf, and about 
how oil might affect the coastal ecosystems should it get 
there. It seemed, on balance, that the wisest course was to 
apply dispersants, provided that we continue to monitor what 
goes on subsurface as a result of that application to make sure 
that we are not getting into a situation where we actually made 
a mistake and the impacts are actually greater.
    Chairman Baird. But, my concern is, you said do the math. 
The math changes if you--based on your assumptions.
    Dr. Short. Uh-huh.
    Chairman Baird. And so if we get away from the dispersant 
approach or we fully cost the dispersant approach versus a 
recollection approach, then maybe the financial incentive, then 
maybe when people do the math, especially, I think, Mr. Gordon 
may have--I don't know if he meant to allude to it, but, you 
know, lift the cap, increase the tax, change the economics of 
the dispersant, and then maybe the economics go towards, how do 
we reduce the scale of the cone to begin with? Can we lower 
things to concentrate the plume as it rises versus just let it 
go out? And certainly the dispersants expand that plume 
immeasurably.
    Then maybe the economics go to how do we concentrate the 
plume as it rises to the surface, and then the other math is X 
amount of volume divided by X or Y amount of cleaners, how many 
of these vessels do we need.
    Dr. Short. Uh-huh.
    Chairman Baird. And so instead of saying we are going to do 
the cheap, short-term fix, we say we are going to concentrate 
it, and we are going to figure out how many of these vessels we 
need, and then with the cap eliminated and the real costs on 
the amount of dispersants or un-recovered oil. Then that 
economics comes in, and the oil companies are going to start 
saying, by golly, we are having to pay a heck of a lot of money 
for every gallon not recovered. Then we do the math in a 
different way, and then, again, whether it is Mr. Costner's 
device or something else, we are actually trying to absorb this 
stuff, recover this stuff, and it changes.
    And my fear is it is not just about this spill. If we are 
going to continue to drill anywhere, we need to change the 
economics of the recovery process, and we need--this business 
of ``we will make this right.'' No, you will not. We will 
disperse this problem in space and in time so that you can feel 
that it is right, but that slogan is bologna. It is bologna. We 
will recapture this, we will remove it from the environment. 
That is getting close to making it right.
    I just don't think dispersants are making anything right in 
my mind.
    Chairman Gordon. Just a moment. We are going to be having 
votes soon, so we need to start concluding.
    Chairman Baird. Yes. We will wrap this up shortly.
    Chairman Gordon. This is not a hearing about who is at 
fault. This is not a hearing about, unfortunately, what do we 
do now. This really is a hearing about from what we have 
learned of the problems here what is the type of research, what 
is the technology that we need to have when this will 
unfortunately occur again, whether it is small or large or 
whatever.
    So I would like to quickly, again, for our purposes to get 
your thoughts on where we need to concentrate our research for 
future technologies? Or--and whether or not Mr. Costner's--I 
would assume it does work well, but, you know, does it need to 
be expanded so it has a larger field or by catching the oil 
earlier? Where do we need to spend our time and money, the 
Federal Government, right now?
    Dr. Haut. Congressman Gordon, there are four approaches to 
clean-up. We have touched upon mechanical, chemical, and 
biological. There is also the thermal part that we haven't 
touched upon today, and that is the prescribed burns. There is 
a whole series of research that also needs to be done 
concerning what is happening during these prescribed burns, 
what is happening with the light ends of the crude oil that is 
coming up? The B-Techs, the benzene, thalene, ethylene, xylene 
that is also contained there. What can we do to model that, to 
fully understand the health effects into the future of that?
    Chairman Gordon. Okay. Well, let me suggest this. Rather 
than you having--it won't be coming off the cuff because I know 
you have all thought about this--if you would submit to the 
committee your recommendations on what are the areas for future 
research where we could develop the technologies to deal with 
the kind of problems that we are seeing here presently.
    I yield back. Thank you.
    Chairman Baird. That is a very good suggestion, Mr. 
Chairman.
    Ms. Woolsey, did you want a brief comment or question 
before we close?
    Ms. Woolsey. Well, the Chairman closed it up, but I want to 
add one thing. With this, if we have an interagency committee, 
I would suggest we add EPA to it and have--not have 14 but have 
three. And then we still need to have a leader--a lead agency, 
that is, on top of this.
    Mr. Costner, I would like to point out that James Cameron 
was brought into the room. You should have been there, too, to 
talk about technology so.
    Mr. Costner. My wife was having a baby.
    Ms. Woolsey. Oh. All right. As long as you were invited. 
Okay. That is all for me.
    Chairman Baird. Congratulations on the baby.
    With that and the gratitude of this committee, again, 
following up on the Chairman's comments, if you have additional 
material you feel is important to add that we haven't been able 
to cover, we would certainly welcome that, and we will take it 
seriously as we look forward to trying to move forward in some 
sort of response, not only to this bill but to broad direction 
in the future.
    As is traditional and required, the record will remain open 
for two weeks for additional statements from members and for 
answers to any follow-up questions the committee may ask of the 
witnesses, and with that the witnesses are excused. The hearing 
is now adjourned with our gratitude. Thank you.
    [Whereupon, at 1:23 p.m., the Subcommittee was adjourned.]


                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Mr. Douglas Helton, Incident Operations Coordinator, 
        Office of Response and Restoration, National Ocean Service, 
        National Oceanic and Atmospheric Administration (NOAA)

Questions submitted by Chairman Brian Baird

Q1.  To quote Secretary Chu in a June 8th BP Deepwater Horizon press 
release, ``Transparency is not only in the public interest, it is part 
of the scientific process . . . We want to make sure that independent 
scientist, engineers and other experts have every opportunity to review 
this information and make their own conclusions.'' Scientific freedom, 
access to data, and transparency are key to informing decisions that 
benefit society. How are the Federal team and external experts working 
today to increase access to data and to deliver findings in a 
transparent manner?

A1. We believe transparency is important and NOAA is working to share 
its data with the public. We recognize the public's interest in the 
Federal Government's response to this crisis, and we are committed to 
providing verified data and information with clarity and transparency. 
To that end, NOAA has launched a Federal website--http://
www.geoplatform.gov/gulfresponse--a central online location for 
detailed near real-time information about the response effort, as well 
as data collection associated with the Natural Resource Damage 
Assessment.

Q2.  There has been unprecedented response to the Deepwater Horizon 
Spill, but it is worrisome that we seem to have few metrics to actually 
measure how effective our response is.

        a.  For example, how do we know if adding 5,000 gallons of 
        dispersant per day is enough, or if 50,000 gallons are needed? 
        How do we know what quantity is appropriate?

        b.  What resources or research are needed to establish such 
        metric?

A2. As the Federal On-Scene Coordinator (FOSC) for this spill response, 
the U.S. Coast Guard is responsible for approving the use of the 
specific dispersant used from the National Oil and Hazardous Substances 
Pollution Contingency Plan, more commonly called the National 
Contingency Plan (NCP), Product Schedule. Because of the unprecedented 
nature of the dispersant operations, the monitoring and constraints on 
application volumes and methodologies were closely managed. In 
particular, the Environmental Protection Agency (EPA) specified 
effectiveness and impact monitoring plans, application parameters, and 
action thresholds. Any changes to specific BP Deepwater Horizon oil 
spill dispersant plans required the concurrence of EPA and other 
Regional Response Team decision agencies, including NOAA, under the 
NCP.
    For all dispersant operations, the FOSC must activate the Special 
Monitoring of Applied Response Technologies (SMART) Monitoring Program 
monitoring team to monitor the effectiveness of the dispersant. SMART 
relies on small, highly mobile teams that collect real-time data using 
portable, rugged, and easy-to-use instruments during dispersant 
application and in situ burning operations. Data collected by the SMART 
program are channeled to the Unified Command to help address critical 
questions, such as whether the current volume of dispersants being 
applied is appropriate. NOAA advises the FOSC on when and where 
dispersants should be used to help determine the most effective and 
appropriate use of dispersants. The authorization given to BP to use 
the dispersant on oil present on the surface of the water included 
specific conditions to ensure the protection of the environment and the 
health of residents in affected areas.
    The BP Deepwater Horizon oil spill has underscored the need for 
prioritizing research efforts on the environmental impacts of 
dispersant use, three-dimensional trajectory modeling including effects 
of dispersant use at the surface and at depth, fate and transport of 
oil at deep depths, medium and long term forecasting of oil fates, 
techniques for communicating risk to the public, long-term impacts of 
oil on shorelines, and improved spill clean-up and restoration methods 
to expedite ecological recovery.

Q3.  What types of research need to be targeted, ecological as well as 
technology tools, for a more effective response to future spills?

A3. Existing research has resulted in advancing some response 
technologies; however, more can be done to strengthen our Nation's 
response capabilities, especially in deep water and Arctic 
environments. The BP Deepwater Horizon oil spill has underscored the 
need for prioritizing research on the environmental impacts of 
dispersant use, three-dimensional modeling, fate and transport of oil 
at deep depths, medium- and long-term forecasting of oil fates, 
techniques for communicating risk to the public, and long-term impacts 
of oil on shorelines, and improved clean-up and restoration methods. A 
better understanding of how oil behaves at depth and disperses within 
the water column is needed to improve our predictions of how much oil 
will come to the surface, how much will stay at depth, and where small 
droplets that remain at depth will go.

Q4.  What types of research infrastructure or funding mechanisms would 
help us truly advance the fields of oil spill prevention and cleanup? 
Specifically, what research do we need to invest in to significantly 
increase oil recovery rates? Is it physically possible to have greater 
recovery rates?

A4. Although NOAA is not the lead for developing technologies to 
advance the fields of oil spill prevention and cleanup, NOAA supports 
investment in research that would increase recovery rates. Most marine 
spills have recovery rates of 10 to 20 percent or less.\1\ Recovery 
rates depend on the type of oil, size of spill, type of shoreline, 
weather conditions, and speed of response. As a natural resource 
trustee that works with co-trustees to assess and restore natural 
resources injured by an oil spill, the most effective performance 
metric is not always the oil recovery rate, but rather metrics that 
seek to reduce environmental harm and expedite recovery.
---------------------------------------------------------------------------
    \1\ Etkin, D.S. Worldwide Analysis of Marine Oil Spill Cleanup Cost 
Factors. Proceedings of the Arctic and Marine Oilspill Program 
Technical Seminar, June 2000
---------------------------------------------------------------------------
    Currently, there exists a research infrastructure that is 
articulated in Section 7001 of the Oil Pollution Act of 1990 (33 USC 
2761). The Oil Pollution Control Act established an Interagency 
Coordinating Committee on Oil Pollution Research (ICCOPR), chaired by 
the U.S. Coast Guard, to coordinate a comprehensive program of oil 
pollution research and development among 13 Federal agencies in 
cooperation and coordination with industry, academia, research 
institutions, state governments, and other nations. NOAA is a 
participant in the ICCOPR.

Q5.  What additional challenges would NOAA face is the Deepwater 
Horizon spill had occurred in the Arctic?

A5. In general, there are many challenges to operating in the Arctic, 
including accessibility, remoteness of operations, communications, 
distance from support infrastructure for additional supplies and aid 
(beyond the resources and personnel that an operator is required to 
have on-site to respond to a ``worst case'' discharge), and 
unpredictable weather (including the severe nature of ice cover, winds, 
waves and other environmental conditions). The presence of ice in 
Beaufort Sea, Chukchi Sea, Bering Sea, and northern Bristol Bay from 
mid-September to late May effectively reduces the field season to only 
three months. Even in summer, ice and weather conditions can make day-
to-day operations uncertain. The sparse or outdated nature of existing 
charts, the lack of accurate latitude, longitude, and elevation 
coordinates, and the lack of physical infrastructure (e.g. access, 
piers, utilities, roads, and other transportation) pose additional 
challenges and risks for those conducting work in this region. 
Consequently, operational costs are significantly higher than in the 
contiguous U.S. because of such factors as the need to compensate for 
infrastructure limitations, increased fuel and supply requirements, 
increased technological demands due to environmental conditions, and 
the costs of lost operational days due to weather.
    With regard to oil spill response, injury assessment, and 
restoration, unlike the location of the BP Deepwater Horizon oil spill, 
the Arctic presents logistical support challenges (as noted above) for 
salvage and emergency response. The presence of ice during a potential 
oil spill in the Arctic presents additional layers of complexity that 
could severely limit responders' ability to conduct effective response 
operations, as compared to the open water conditions of the BP 
Deepwater Horizon oil spill. It is unclear how well the spill response 
equipment currently being deployed in the Gulf of Mexico would perform 
under the harsh environmental conditions in the Arctic. In addition, we 
understand much less about the natural resources in the Arctic than the 
Gulf of Mexico. Specifically, we lack baseline information and specific 
knowledge regarding the risks oil spills present to Arctic resources, 
or the best practices to restore Arctic resources.

Q6.  There is a vast resource of knowledge and experience amongst spill 
response professional across the globe. And the International Spill 
Control Organization was incorporated in London in 1984 as a non-profit 
organization dedicated to improving worldwide preparedness for oil and 
chemical spill response

        a.  How are we utilizing technologies from the international 
        community into our Federal oil spill response and how could 
        this be improved upon?

        b.  What specific measures is the United States taking to 
        keeping abreast of new technologies or advance technologies?

A6. The United States is a leader in oil spill prevention, control, 
mitigation, restoration, and recovery, however, we continue to learn 
much from the experience of nations around the world. The Unified 
Command has accepted offers of international assistance to the BP 
Deepwater Horizon oil spill from more than 20 countries and 
international organizations. Offers include standard response supplies 
such as containment boom and sorbents as well as advanced technologies 
such as high speed/high volume skimmers. NOAA is currently employing 
facets of deep water oil spill models that were developed in part from 
the findings of the MMS Deep Spill Joint Industry Research Project done 
in 1999-2000 with international participation.
    NOAA is able to keep abreast of new response technologies and best 
practices through academic partnerships and by actively participating 
in and benefiting from the work of the International Maritime 
Organization (IMO) Protocol on Preparedness, Response and Cooperation 
to Pollution Incidents by Hazardous and Noxious Substances (OPRC-HNS) 
Working Group. This includes a large conference held this past spring 
in Australia that included lessons learned from their recent deepwater 
drilling accident, the Montara Platform Spill. That conference, 
Spillcon 2010, was held in Melbourne. Australia from 12-16 April 2010, 
approximately 10 days before the BP Deepwater Horizon oil spill. NOAA 
has supported many international research efforts in the past, 
particularly in regards to oil behavior in the arctic climate.

Questions submitted by Representative Bob Inglis


Q1.  Some have suggested that we transition our regulatory system from 
the current prescriptive-based framework to a ``performance-based 
framework,'' noting that this is a trend among safety regulators 
worldwide, particularly in Norway. The argument is that the 
prescriptive-based regulatory approach tends to create a passive 
attitude among companies, which aim to pass regulatory inspections 
instead of focusing on system performance.

        a.  What is your reaction to this general approach?

        b.  Could it potentially improve drilling safety without adding 
        excessive regulatory costs and other burdens on producers?

        c.  Is the Federal Government considering such an approach?

A1. NOAA defers to the Department of the Interior for response to this 
question, which is outside NOAA's area of expertise. NOAA is not a 
regulatory agency for oil and gas exploration and production. NOAA's 
role in the BP Deepwater Horizon oil spill is to provide technical and 
scientific support to the National Incident Commander, to conduct a 
natural resource damage assessment pursuant to the Oil Pollution Act of 
1990 with co-trustees to assess and restore natural resources injured 
by the oil spill, represent the Department of Commerce in spill 
response decision-making activities through the National Response Team.

Q2.  At last year's hearing, Mr. Edinger of the California Fish and 
Game listed in his testimony four technology areas that required 
improvements: reduced visibility or nighttime oil detection 
capabilities, containment in high velocity currents, greater use of 
chemical dispersants, and ship simulators for ship pilots to improve 
maritime navigational safety.

        a.  Given these suggestions, what, if any, progress has been 
        made in the past year improving these technology areas?

A2. The four areas of technology development identified by Mr. Edinger 
last year are still relevant today. NOAA defers to the U.S. Coast Guard 
(USCG) regarding information on the advancements of these technologies 
over the past year. It is our understanding that the USCG has done some 
additional work on fast water booming strategies, and there are some 
promising remote sensing applications, but there is still much that 
could be done to advance these efforts.

Q3.  What new technologies have been identified as having the potential 
for impact on oil spill cleanup methods and what is the current status 
of these technologies, both from a research and development standpoint 
and for current implementation in the BP spill?

A3. This question is outside NOAA's area of expertise as NOAA's role in 
the BP Deepwater Horizon oil spill is to provide scientific support to 
the Unified Command and National Incident Commander, to conduct a 
natural resource damage assessment pursuant to the Oil Pollution Act 
with co-trustees to assess and restore natural resources injured by the 
oil spill, and represent the Department of Commerce in spill response 
decision-making activities through the National Response Team.

Q4.  In your testimony, you list ten areas of research that are needed 
to improve spill response effectiveness. How many of these research 
areas were being actively pursued before the current incident in the 
Gulf? Will you please provide the Committee with a list of the research 
activities and funding outlays NOAA has engaged in for the time since 
last June and up until this April?

A4. The Oil Pollution Act grants NOAA the authority to carry out 
research and development. Past research focused on spill preparedness, 
response, assessment, and implementation of optimum oil recovery 
strategies. For example, past efforts facilitated the development of 
the Environmental Response Management Application (ERMA). ERMA has been 
adapted for use in the BP Deepwater Horizon oil spill and was launched 
by NOAA to provide data and information with clarity and transparency. 
This Federal website serves as a central online location for detailed 
near real-time information about the response as well as data 
collection associated with the Natural Resource Damage Assessment 
(http://www.geoplatform.gov/gulfresponse/).
    As the BP Deepwater Horizon oil spill is demonstrating, there is a 
need to understand how oil behaves and disperses within the water 
column when released at deep depths. The enhancement of three-
dimensional models will improve our ability to predict the movement of 
oil at depth and allow us to direct precious resources to validate the 
model's trajectory. In FY 2010, Congress appropriated $20.1 million for 
the Office of Response and Restoration base, which included $1.4 
million to build and maintain state-of-the-art three-dimensional models 
to predict contaminant movement in the environment 24 hours a day, 7 
days a week. Specifically, $525,000 of the enacted funds are being used 
to support improved oil spill modeling through the development of an 
improved three-dimensional oil spill modeling capability and support 
for improvements to other innovative tools. NOAA is also working to 
implement FY 2010 funds to enhance three-dimensional models.

Q5.  Last year when you testified in front of this Committee, you 
stated that, ``Most of the models that we have focus on the surface 
layer, how the oil will move. We have less rigorous models predicting 
how the oil will move once it is dissolved into the water column?

        a.  In this admitted research gap, what advancements had been 
        made from the time of your testimony up until the explosion on 
        the Deepwater Horizon on April 20th of this year?

        b.  You talked about surface models, and models predicting what 
        will happen once oil is dissolved in the water column. Up until 
        two months ago, had there been any research on models for 
        predicting the movement of oil from the sea floor to the 
        surface? Do the models include the use of dispersants on the 
        surface and sea floor?

A5. NOAA's surface trajectory models predict where the oil on the 
surface is going based upon wind, currents, and other processes, and 
visual overflights validate where it is now. As the BP Deepwater 
Horizon oil spill is demonstrating, there is a need to understand how 
oil behaves and disperses within the water column when released at deep 
depths. The emerging advancement in modeling three-dimensionally can 
greatly enhance response operations and mitigation efficacy. In FY 
2010, Congress appropriated $525,000 to NOAA's Office of Response and 
Restoration to support improved oil spill modeling through the 
development of an improved three-dimensional oil spill modeling 
capability and support for improvements to other innovative tools. As 
this is the first year for appropriations, implementation is underway 
and therefore we have not made specific advancements since I testified 
before the Committee last year.
    In regards to models that can predict the movement of oil from the 
sea floor to the surface, there has been work on the Comprehensive 
Deepwater Oil and Gas Blowout Model (CDOG), developed by Clarkson 
University researchers. This model simulates the behavior of oil and 
gas accidentally released from deepwater and helps predict whether 
gases will come to the surface, where the oil and gas will surface, and 
in what concentrations. In deepwater, the ultra-high pressure and cold 
temperature causes phase changes (changes from gas to liquid to solid 
states) in the released oil. These physical changes, combined with 
deepwater currents in some regions, present extraordinary challenges 
for modeling jets/plumes from deepwater oil and gas blowouts. The CDOG 
model is three-dimensional and incorporates the phase changes of the 
released material, associated changes in thermodynamics, and the 
resulting impact on the hydrodynamics of the jet/plume. The CDOG model 
was integrated into the NOAA's trajectory model, the General NOAA 
Operational Modeling Environment, or GNOME, through a partnership with 
the Coastal Response Research Center at the University of New 
Hampshire. NOAA is using the GNOME model to support the response to the 
BP Deepwater Horizon oil spill by predicting when oil leaked at depth 
will reach the surface and, once surfaced, where and how fast the oil 
may travel from there. The currently available models do not take into 
account the use of dispersants.

Q6.  In NOAA's role as the conduit of scientific information to the 
Federal On-Scene Coordinator, did NOAA inform the Coast Guard of the 
results of EPA's scientific testing of dispersants, or did EPA provide 
this information directly to the Coast Guard? How do the roles mandated 
by the Oil Pollution Act of 1990 help with the organization of the 
National Response Team?

A6. EPA provided the results of its toxicity testing of dispersants 
directly to the Federal Unified Command, which is led by the U.S. Coast 
Guard.
    Given NOAA's role in the BP Deepwater Horizon oil spill is to 
provide technical and scientific support to the National Incident 
Commander, we did review the results of the EPA dispersant studies and 
continue to actively consult with the National Incident Commander to 
determine operational efficiency and effectiveness of dispersant use, 
both at the surface and sub-surface.
    OPA, in Title IV, Subtitle B--Removal, calls for the development of 
the National Oil and Hazardous Substances Pollution Contingency Plan, 
more commonly called the NCP. The NCP is the Federal Government's 
blueprint for responding to both oil spills and hazardous substance 
releases. The NCP also sets out the structure and functions of the 
National Response Team (NRT), which is co-chaired by U.S. Coast Guard 
(USCG) and Environmental Protection Agency (EPA). The NRT's purposes 
are to develop a national response capability, promote overall 
coordination among the hierarchy of responders and contingency plans, 
and to provide the organizational structure and procedures for 
preparing for and responding to discharges of oil and releases of 
hazardous substances, pollutants, and contaminants. The NRT consists of 
representatives from: USCG; EPA; Federal Emergency Management 
Administration; Department of Defense; Department of Energy; U.S. 
Department of Agriculture; Department of Commerce, through NOAA; Health 
and Human Services; Department of Interior; Department of Justice; 
Department of Labor; Department of Transportation; Department of State; 
Nuclear Regulatory Agency; and General Services Administration. Each of 
these agencies has expertise to lend to the coordinated response to a 
spill, in addition to other responsibilities, such as natural resource 
damage assessment and restoration by the natural resource trustees.
    For a coastal oil spill, the USCG is the FOSC and has the primary 
responsibility for managing response and clean-up activities in the 
coastal zone. During an oil spill, NOAA's Scientific Support 
Coordinators deliver technical and scientific support to the USCG. 
NOAA's Scientific Support Coordinators are located around the country 
in USCG Districts, ready to respond around the clock to any emergencies 
involving the release of oil or hazardous substances into the 
environment.

Q7.  As NOAA's role in developing the damage assessment, you state in 
your testimony that NOAA has been collecting data that will be used to 
determine what natural resources have been compromised. Further, you 
state that several technical working groups are gathering existing 
scientific information and developing a baseline.

        a.  Given NOAA's mission in protection and restoration, why 
        doesn't NOAA already keep baseline data on natural resource 
        values for all U.S. coasts on hand?

        b.  Is such a collection even feasible? Would updates be 
        necessary? How often would these baselines be updated?

A7. The collection of such information at a national scale would be 
tremendously challenging and resource intensive. NOAA's 
responsibilities in the coastal and ocean environment are articulated 
through a number of laws. NOAA does not have a specific mandate to 
collect baseline data on natural resources for all U.S. coasts.
    However, NOAA has directly conducted or sponsored numerous 
systematic, long-term monitoring studies thoroughly analyzing the toxic 
effects of contaminants, such as spilled petroleum, on endemic coastal 
and marine species in the Gulf of Mexico. For example, since 1986, the 
NOAA Mussel Watch program has managed the longest running estuarine and 
coastal pollutant monitoring effort conducted in the United States, 
including more than 100 sites from Texas to South Florida. At each 
site, more than 140 chemical contaminants, chosen through consultation 
with experts and scientists from academia and government, are measured 
and have served as a baseline for hundreds of scientific journal 
articles and technical reports since the program's inception. In 
response to the BP Deepwater Horizon oil spill, three teams of NOAA 
scientists and partners were mobilized to the Gulf to collect oyster, 
sediment, and water samples in advance of oiling in coastal Louisiana, 
Mississippi, Alabama, and Florida; thus, providing valuable pre-spill 
contaminant data and continuing the unbroken quarter-century record of 
the status and trends of chemical contaminants in the Gulf of Mexico.
    Given the spatial extent of this spill and the biological diversity 
of the Gulf of Mexico, NOAA is working closely with other Federal 
agencies, including the Department of the Interior as a natural 
resource co-trustee, as well as all five Gulf Coast states and academic 
partners to gather existing historical base-line information and pre- 
and post-spill data for the Natural Resource Damage Assessment.

                   Answers to Post-Hearing Questions
Responses by Captain Anthony Lloyd, Chief, Office of Incident 
        Management and Preparedness, United States Coast Guard

Questions submitted by Chairman Brian Baird

Q1.  To quote Secretary Chu in a June 8th BP Deepwater Horizon press 
release, ``Transparency is not only in the public interest, it is part 
of the scientific process . . . We want to make sure that independent 
scientists, engineers and other experts have every opportunity to 
review this information and make their own conclusions.'' Scientific 
freedom, access to data, and transparency are key to informed decisions 
that benefit society. How are the Federal team and external experts 
working today to increase access to data and to deliver findings in a 
transparent manner?

A1. The Unified Area Command and National Incident Commander (NIC) are 
employing various means to inform and solicit ideas from the public, 
and to leverage the domestic and international community of scientists, 
engineers, academia and experts.
    The Flow Rate Technical Group (FRTG), led by the Director of the 
U.S. Geological Survey (USGS), is comprised of Federal scientists, 
independent experts, and representatives from universities around the 
country. The Group's activities generally follow USGS procedures for 
data quality and transparency. Data is made publicly available through 
publication and dissemination of the FRTG science products, and much of 
the original data is posted on a DOE-hosted web site http://
www.energy.gov/open/oilspilldata.htm. All FRTG science products undergo 
independent peer-review before release. As mandated by Federal law and 
policy, data that is proprietary or business sensitive is not available 
to the public. USGS is also involved in many other science activities 
related to the Deepwater Horizon oil spill. Policies for planning and 
conducting data collection and research to ensure that scientific goals 
are achievable, in addition to scientific ethics and peer review, are 
outlined in the Survey Manual http://www.usgs.gov/publishing/
policies.html.
    Additionally, in an effort to ensure the best available methods are 
used in the ongoing response to the Deepwater Horizon oil spill, the 
NIC established the Interagency Alternative Technology Assessment 
Program (IATAP) working group to collect and review oil spill response 
solutions from scientists and vendors. The Coast Guard's Research and 
Development Center (RDC), in collaboration with interagency partners, 
to include the Environmental Protection Agency, National Oceanic and 
Atmospheric Administration, and Department of Interior, issued a Broad 
Agency Announcement on www.FedBizOpps.gov calling for the submission of 
white papers that cover the following topics: oil sensing improvements 
to response and detection; oil wellhead control and submerged oil 
response; traditional oil spill response technologies; alternative oil 
spill response technologies; and oil spill damage assessment and 
restoration. The IATAP and the RDC screen submissions based on 
technical feasibility, potential effectiveness and deployment 
capability.
    There is also an abundance of information posted at the following 
websites:
    http://www.deepwaterhorizonresponse.com  RestoreTheGulf.gov.

Q2.  What types of research need to be targeted, ecological as well as 
technology tools, for a more effective response to future spills?

A2. Prior to the Deepwater Horizon spill, the Coast Guard's spill-
related research plan included the following focus areas:

        <bullet>  High Latitude (Arctic Region) Spill Response;

        <bullet>  Submerged Oil Response;

        <bullet>  Existing Wrecks Response; and

        <bullet>  Spill Response Analysis and Tools.

    Subsequent to the current spill, the Coast Guard adjusted this 
research plan to include a category titled ``Deep Water Oil Spill 
Response.'' This category will include items such as:

        <bullet>  Improved methods for removing and handling emulsified 
        oil;

        <bullet>  Use of biodegradable materials to bind oils and 
        reduce exposure to birds and other shoreline flora and fauna;

        <bullet>  Improve the efficiency of removing and treating oil 
        from sandy beaches while minimizing sand removal;

        <bullet>  Improve the mass handling/disposal of oiled debris/
        sand;

        <bullet>  Advance the capability and efficiency of skimmers and 
        booms in the open sea environment including handling of 
        recovered oil;

        <bullet>  Detection and extraction of subsurface oil in the 
        water column and;

        <bullet>  The use and effectiveness of dispersants on 
        subsurface oil.

    The Coast Guard will continue to apply the lessons learned from the 
current spill to make any further adjustments to this plan.

Q3.  What types of research infrastructure or funding mechanisms are 
needed?

A3. The Coast Guard believes that it has the appropriate and sufficient 
infrastructure and funding mechanisms to address this research plan.

Q4.  What additional challenges would we face if the Deepwater Horizon 
spill had occurred in the Arctic?

A4. We would expect to face substantial response challenges for a 
Deepwater Horizon-type of spill in the Arctic. For example, even if the 
same number of assets and infrastructure were applied to an Arctic 
spill as have been used in the Gulf of Mexico, it is likely that much 
larger quantities of spilled oil would end up in the sediments and on 
the shoreline where it would reside in the environment for much longer 
periods of time than in the Gulf Due to the colder conditions and 
shorter days, natural weathering processes for oil would be greatly 
reduced. These same conditions would also impact the operational 
effectiveness of response equipment and personnel. Most of the existing 
booms and skimmers have been constructed for operation in temperate 
environments rather than the extremes of the Arctic. Sea states in 
Arctic waters typically exceed the known operational limits of existing 
skimmers and booms so that on-water recovery and in situ burning would 
be much less effective if it could be employed at all. Chemical 
dispersion is much more effective in temperate waters than in arctic 
waters and oil trapped in ice can't be skimmed. Biological activity is 
reduced in colder climates and therefore would not support extensive 
biodegradation of spilled oil as a possible mitigation mechanism. 
Finally, the Arctic region has sparse infrastructure to support the 
buildup of resources needed for a response. Not only are resources 
scarce, but so too are facilities where those resources can be 
marshaled and organized for deployment and launching.

Q5.  There is a vast resource of knowledge and experience amongst spill 
response professionals across the globe. And the International Spill 
Control Organization was incorporated in London in 1984 as a non-profit 
organization dedicated to improving worldwide preparedness for oil and 
chemical spill response.

     How are we utilizing technologies from the international community 
into our Federal oil spill response, and how could this be improved 
upon?

     What specific measures is the United States taking to keeping 
abreast of new technologies or advice technologies?

A5. The U.S. oil spill response community continually shares 
information, best practices, and lessons learned with their 
international counterparts. This interaction occurs when both groups 
mutually support each other in incidents, during training, or when they 
attend the Triennial International Oil Spill Conferences (Spillcon in 
Australia 2007, International Oil Spill Conference in North America 
2008, and Interspill 2009 in Europe). One of three conferences is held 
annually on a rotating basis.
    In an effort to ensure that the best available methods are used in 
the administration's ongoing response to the Deepwater Horizon oil 
spill, the National Incident Commander (NIC) directed the establishment 
of the Interagency Alternative Technology Assessment Program (IATAP) 
working group to collect and review oil spill response solutions from 
scientists and vendors from around the globe. The Coast Guard's 
Research and Development Center (RDC), in collaboration with 
interagency partners, including the Environmental Protection Agency, 
National Oceanic and Atmospheric Administration, and Department of 
Interior, issued a Broad Agency Announcement on www.FedBizOpps.gov 
calling for the submission of white papers that cover the following 
topics: oil sensing improvements to response and detection; oil 
wellhead control and submerged oil response; traditional oil spill 
response technologies; alternative oil spill response technologies; and 
oil spill damage assessment and restoration. The IATAP and the RDC 
screen submissions based on technical feasibility, potential 
effectiveness and deployment capability.
    Finally, the NIC has also established an interagency workgroup 
focused on offers of foreign assistance. This workgroup is responsible 
for screening and facilitating for the Federal On-Scene Coordinator 
offers of equipment, personnel, expertise, and technology from the 
international community.
    The U.S. oil spill response community interacts in a variety of 
venues where the latest cleanup technologies and techniques are 
demonstrated. Academia, industry, and Federal responders attend 
numerous workshops and conferences. Several major conferences host 
technology exhibitions and professional presentations. These 
conferences include:

         Annual Clean Gulf Conference

         Biennial Fresh Water Spills Symposium

         Annual Inland Spills Conference

         Biennial Clean Pacific Conference (inaugural conference held 
        in September 2007)

         Triennial International Oil Spill Conferences (Spillcon in 
        Australia, International Oil Spill Conference in North America 
        2008, and Interspill 2009 in Europe)

    At these conferences, Federal, state, and non-government officials 
from around the world display state-of-the-art oil spill response 
equipment and products. They also exchange information on the latest 
advances in spill prevention, preparedness, response, and restoration.
    In addition, Federal and industry responders exchange information 
at various meetings throughout the year facilitated by Spill Control 
Association of America, Association of Petroleum Industry Cooperative 
Managers (APICOM), and the American Salvage Association (ASA).

Q6.  What does the Coast Guard need to do, as Chairman of the 
Interagency Coordinating Committee on Oil Pollution Research, to truly 
improve our ability to respond to oil spills through research and 
technology?

A6. Annual oil spill totals have dropped dramatically since new 
regulations took effect in 1990 as a response to the Exxon Valdez 
tanker accident. Part of the reason for this significant decrease in 
spill numbers is due to the success of new prevention technologies 
developed and implemented, such as the design of double-hulled tankers. 
Lessons learned from this accident helped to shape 16 major research 
areas for the 1997 Interagency Oil Pollution Research and Technology 
Plan. Research conducted in these areas over the past decade has 
advanced oil spill cleanup techniques and strategies. These advances 
are currently being used in the Deepwater Horizon Response. For 
example, in situ burning, dispersants, vessel of opportunity skimming 
systems, and spill fate and behavior modeling, have all been researched 
heavily over the past decade by members of the ICCOPR. Consequently, 
the 1997 Interagency Oil Pollution Research and Technology Plan has 
proven to be an important strategic guidance document for oil pollution 
research.
    Prior to the Deepwater Horizon spill, the ICCOPR had begun the 
process of revising the 1997 Interagency Oil Pollution Research and 
Technology Plan. The ICCOPR will need to closely examine the lessons 
learned from the current spill to better update the research strategies 
needed for the next decade. Just as the Exxon Valdez established a 
suite of needed research areas, the Deepwater Horizon accident will 
identify new problems and response challenges that will guide the 
response community for the next decade. The ICCOPR's updated research 
plan needs to reflect this. In addition, the ICCOPR will need to 
continue examining what response challenges will be presented by the 
Arctic and other sensitive ecosystems, which are facing increased oil 
exploration and transport activities.
    The ICCOPR recognizes that progress in oil pollution research best 
occurs through continued collaboration between academia, industry, and 
government. Funding was initially authorized and appropriated in the 
early 1990s for the ICCOPR to award research grants to universities. 
The ICCOPR will continue to develop strategies for ensuring that 
universities, industry, and the government have a common awareness and 
collaboration concerning ongoing research.

Questions submitted by Representative Bob Inglis

Q1.  Will you please give the Committee a brief overview of Coast 
Guard's role as chair of the Interagency Coordinating Committee for 
research and development? How frequently does the Interagency 
Coordinating Committee meet? As the Chair of the Interagency 
Coordinating Committee, does Coast Guard assess research gaps and ask 
the appropriate agencies with expertise in those areas to look into 
these gaps?

A1. The Oil Pollution Act of 1990 (OPA 90) designates the Coast Guard 
as the chair of the Interagency Coordinating Committee on Oil Pollution 
Research (ICCOPR). The role of the Coast Guard is to ensure the 
provisions of Title VII of OPA 90 are addressed by the ICCOPR. This 
includes the creation of a research and technology plan, the execution 
of Port Demonstration Projects, the awarding of Regional Grants, and 
the continued coordination and awareness of funded oil pollution 
research projects. The chair is also responsible for providing a 
biennial report to Congress on the progress of these activities.
    The ICCOPR continues to serve as a forum for its Federal members to 
coordinate and maintain awareness of ongoing oil pollution research 
activities. Members of the ICCOPR interact in a number of venues, 
including conferences, workshops, meetings of the National Response 
Team Science and Technology Subcommittee, and through formal meetings. 
The ICCOPR originally met on a quarterly basis. In recent years, formal 
meetings of the Interagency Committee are typically scheduled on a 
semi-annual basis.
    Research under the ICCOPR is carried out individually by each 
agency within the committee. Each agency decides which specific 
research projects they will conduct. The goal of the member agencies is 
to align their respective projects with the oil pollution R&D focus 
areas specified in the ICCOPR's 1997 Oil Pollution Research and 
Technology Plan. The 1997 Plan highlights research need areas and 
directs research priorities for each member agency for R&D planning 
purposes. The ICCOPR, including the Coast Guard, examines lessons 
learned from incidents or issues encountered during conferences and 
workshops to determine where new research areas are needed. The plan 
revision the ICCOPR is currently conducting will incorporate many 
lessons learned from the Deepwater Horizon response.

Q2.  The Oil Pollution Act of 1990 authorizes the Coast Guard to use 
more than $20 million from the Oil Spill Liability Trust Fund to use 
for research purposes. However, in the last several years, Coast Guard 
has only been using $0.5 million from the Fund for research purposes.

     How is Coast Guard managing to coordinate the Interagency 
Committee set up in the Oil Pollution Act and conduct its own research 
with this amount of funding?

     What research has the Coast Guard been able to conduct in the past 
five years with $0.5 million per year? What technology or best 
practices have resulted from this research?

     Given the importance of research in preparing for future oil 
spills, does the Coast Guard plan to step up its role in the research 
and development of new technologies and best practices? If so, how will 
this be accomplished?

A2. $0.5 Million of funding appropriated for Coast Guard Research, 
Development, Test, and Evaluation (RDT&E) is derived from the OSLTF. 
The $0.5 million that the Coast Guard receives from the OSLTF is not 
specifically used by the Interagency Committee. Rather, the funding is 
used by the Coast Guard's Research, Development, Test, and Evaluation 
(RDT&E) Program to execute a research plan developed in conjunction 
with the Coast Guard Program Office that chairs the Interagency 
Committee. The RDT&E Program augments the $0.5 Million with a limited 
amount of additional funding from the RDT&E appropriations.
    Coast Guard RDT&E research and focus areas are derived from 
requirements and capability gaps articulated by Coast Guard program 
offices as well as through input from other government agencies and, to 
a certain extent, private industry. Based on this information, the past 
five year's RDT&E Program efforts have focused on development of 
capabilities to detect and predict oil and hazardous materials spills, 
dispersant research, and submerged/heavy oil detection and collection. 
In fiscal year 2010, the program began research into development of 
capabilities to detect, contain and recover spills in ice-choked waters 
(Arctic and Great Lakes). The results of the RDT&E Program's 
initiatives include the following:

         Laser Fluorometery: Compared various sensing technologies that 
        can locate oil on or just below the surface of the water. 
        Evaluated laser fluorometers and frequency-scanned radiometers 
        for cost-effectiveness. Determined that the most promising 
        technology(ies) were effective but cost prohibitive.

         HAZMAT Spill Behavior and Trajectory Modeling: In conjunction 
        with National Oceanic and Atmospheric Administration (NOAA), 
        provided an enhanced Coast Guard standard model suite called 
        CAMEO Front End, which was able to process more sophisticated 
        Hazardous Material (HAZMAT) spill scenarios including effects 
        on plumes as they float over water, development of a simple 
        river dilution model to calculate chemical concentrations, and 
        an evaluation of an existing oil tool for adaptation to 
        chemical spills. This enhanced model was implemented by NOAA.

         Dispersant Research: Cosponsored National Academy of Science 
        (NAS) Study to evaluate the change in the state-of-the-art of 
        dispersant science and toxicology since the NAS published its 
        last report in 1989. Reviewed protocols developed by NAS to 
        address monitoring and toxicity issues with new equipment and 
        provided recommendations for guidelines on operational use of 
        dispersants that address all stakeholder concerns, and 
        identified further research needed to evaluate the safe use of 
        dispersants for near-shore oil or large offshore blowout 
        spills.

         Submerged Heavy Oil (Type-V): Developed a blueprint for 
        method(s) within the oil response industry to detect and 
        recover heavy oil located on the sea bottom. Leveraged industry 
        to develop three proofs of concept for heavy oil detection 
        technologies and develop prototypes. Currently, recovery proofs 
        of concept are under development. Prototype devices for the 
        recovery of heavy oil will then be developed. Note that the 
        work has not yet focused on detection/removal at the depths 
        associated with the current spill.

         Oil-in-Ice: Work has just begun in this area, and the emphasis 
        includes the following: detection of oil-in-ice and under ice, 
        tracking/monitoring of oil in ice, decision tools for Federal 
        On-Scene Coordinators (FOSC), and removal/recovery of oil in 
        ice.

    Subsequent to the Deepwater Horizon Oil Spill, the Coast Guard 
modified this plan to include research items based on preliminary 
lessons learned from the current spill such as

        <bullet>  Improved methods for removing and handling emulsified 
        oil;

        <bullet>  Use of biodegradable materials to bind oils and 
        reduce exposure to birds and other shoreline flora and fauna;

        <bullet>  Improved efficiency of removing and treating oil from 
        sandy beaches while minimizing sand removal;

        <bullet>  Improvements in the mass handling/disposal of oiled 
        debris/sand;

        <bullet>  Advance the capability and efficiency of skimmers and 
        booms in open sea environment including handling of recovered 
        oil;

        <bullet>  Detection and extraction of subsurface oil in the 
        water column; and

        <bullet>  Use and effectiveness of dispersants on subsurface 
        oil.

Q3.  The printed record for the hearing held last year in this 
Committee included the Oil Pollution Research and Technology Plan that 
was issued in 1997. Does Coast Guard have any intention of updating 
this plan? If so, when can we expect to see this report?

A3. Yes, the Interagency Coordinating Committee on Oil Pollution 
Research (ICCOPR) began the process of revising the 1997 Oil Pollution 
Research and Technology Plan in the fall of 2009. Currently, the ICCOPR 
is conducting several public meetings, which are advertised in the 
Federal Register, to receive public comment on the priorities of oil 
pollution research to incorporate in the plan revision. The ICCOPR is 
also gathering lessons learned from the Deepwater Horizon oil spill 
response to incorporate in the plan update as well. The revision of the 
plan will take place over the next two fiscal years, as specified in 
the latest ICCOPR Biennial Report.

Q4.  Last June, this Committee held a hearing to discuss H.R. 2693, the 
Federal Oil Spill Research Program Act. In this legislation, NOAA would 
replace the Coast Guard as the chair of the Federal Oil Spill Research 
Committee.

     Do you think this would be an appropriate change in leadership?

     If you believe Coast Guard is better suited to chairing the 
Interagency Coordinating Committee for research and development, why 
has there been no plan in 13 years?

A4. The Coast Guard has served as the chair of the Interagency 
Coordinating Committee on Oil Pollution Research (ICCOPR) since its 
inception. By law, the Coast Guard is the lead Federal agency for 
ensuring that spills in coastal waters are effectively managed. NOAA 
currently delivers detailed research ideas and initiatives through the 
ICCOPR process, and the Coast Guard is positioned to harmonize R&D 
objectives with statutory oil spill response mandates and best 
operational practices as the ICCOPR chair.
    Title VII of the Oil Pollution Act of 1990 did not mandate a 
revision timeline for its Oil Pollution Research and Technology Plan 
requirement. The most recent plan was developed by the ICCOPR as a 
strategic guidance document for Federal oil spill research and 
development envisioned over the next decade. Prior to the Deepwater 
Horizon oil spill, the ICCOPR determined the need for a plan revision. 
The ICCOPR has scheduled several public meetings, which will be 
advertised in the Federal Register, to receive public comment on the 
priorities of oil pollution research. This input will be used by the 
ICCOPR as it continues its revision of the 1997 Plan. The ICCOPR is 
also gathering lessons learned from the Deepwater Horizon oil spill 
response to incorporate into the plan update. The revision of the plan 
will take place over the next two fiscal years as specified in the 
latest ICCOPR Biennial Report for Fiscal Years 2008 and 2009.

Q5.  Some experts have suggested that we transition our regulator 
system from the current prescriptive-based framework to a ``performance 
-based framework,'' noting that his is a trend among safety regulators 
worldwide, particularly in Norway. The argument is that the 
prescriptive-based regulatory approach tends to create a passive 
attitude among companies, which aim to pass regulatory inspections 
instead of focusing on system performance.

     What is your reaction to this general approach?

     Could it potentially improve drilling safety without adding 
excessive regulatory costs and other burdens in producers?

     Is the Federal Government considering such an approach?

A5. Performance standards express requirements in terms of desired 
outcomes rather than specifying the means to those ends. The trade-offs 
of using performance based regulations rather than prescriptive 
regulations can include high initial compliance costs to the regulated 
parties due to the investment needed to identify and evaluate the most 
cost-effective alternatives for a specific application. Not all 
companies have the capacity to do this type of customized development, 
particularly in industries dominated by small companies that prefer 
clear, direct, and simple regulations. In addition, using performance 
based regulations places a huge burden on agency reviewers and field 
enforcement personnel because every company's solution to regulatory 
requirements might be custom-made and detracts from a consistent 
enforcement approach. Prescriptive requirements are easier to implement 
and enforce.
    All leasing and operations on the Federal offshore are governed by 
laws and regulations that are designed to ensure safe operations and 
preservation of the environment, while balancing the Nation's needs for 
energy development. The Bureau of Ocean Energy Management Regulatory 
and Enforcement (BOEMRE), within the Department of the Interior, is the 
lead Federal regulatory agency for enforcing compliance with Outer 
Continental Shelf drilling regulations and periodically updates rules 
to reflect advancements in technology and new information.
    Before recommending Federal regulatory action, an agency must 
demonstrate that the proposed action is necessary. Executive Order 
12866 requires agencies to conduct a regulatory analysis for regulatory 
actions; OMB Circular A-4 provides guidance to Federal agencies on the 
development of regulatory analysis. Regulatory analysis is a tool 
agencies use to anticipate and evaluate the likely consequences of 
rules; the motivation is to (1) learn if the benefits of an action are 
likely to justify the costs, or (2) discover which of various possible 
alternatives would be the most cost-effective. The consideration of 
performance standards rather than design standards is one of several 
alternative regulatory actions evaluated during rulemaking development.
    Coast Guard regulations in appropriate instances already use 
performance standards (for example, the vessel and facility response 
plan requirements at 33 CFR parts 154 and 155) and are replete with 
opportunities for regulated parties to request and justify alternate 
means of compliance. In countless cases, the Coast Guard has accepted 
alternatives that meet the performance objectives of prescriptive 
regulations. In our regulations, we seek a balance that accommodates 
the needs of sophisticated parties capable of pushing the technological 
envelope and other parties that operate best when given simple and 
predictable regulations to follow. In all cases, stakeholders are given 
the opportunity to influence the outcome of rulemaking proposals 
through public comment.

Q6.  At the last year's hearing, Mr. Edinger of the California Fish and 
Game listed in his testimony four technology areas that required 
improvement; reduced visibility or nighttime oil detection 
capabilities, containment in high velocity currents, greater use of 
chemicals dispersants, and ship simulators for ship pilots to improve 
maritime navigational safety.

     Given these suggestions, what, if any, progress has been made in 
the past year improving these technology areas?

A6. The Interagency Coordinating Committee on Oil Pollution Research 
(ICCOPR) is required to submit biennial reports on activities carried 
out under Section 7001 of the Oil Pollution Act of 1990. The latest 
report summarizes activities carried out and ongoing in fiscal years 
2008 and 2009. The 2008 and 2009 report documented that extensive 
research was conducted for both chemical dispersants and oil detection 
capability technology areas. However, research in these two subject 
areas has been occurring for many years previous to the latest biennial 
report. In the past 13 years, ICCOPR member agencies have executed a 
number of projects related to fast water booming response, dispersants, 
and oil spill modeling and detection.
    Although the ICCOPR members have not pursued specific research 
initiatives pertaining to ship simulators as a way to improve maritime 
navigational safety, maritime training facilities throughout the 
country have invested heavily in this concept. There are five advanced 
simulators at different facilities that provide invaluable safety 
navigation training to professional mariners, to include the Maritime 
Pilots Institute in Covington, LA, the Pacific Maritime Institute in 
Seattle, WA, the Maritime Professional Training Center in Fort 
Lauderdale, FL, the Massachusetts Maritime Academy in Buzzards Bay, MA, 
and SUNY Maritime in Throggs Neck, NY.

Q7.  What are the technologies have been identified as having the 
potential for impact on oil spill cleanup methods and what is the 
current status of thee technologies, both from a research and 
development, standpoint and for current implementation in BP spill?

A7. The Coast Guard Research and Development Center (RDC), in 
partnership with the Interagency Alternative Technology Assessment 
Program (IATAP), have currently identified another thirty-three 
technologies for further evaluation. Since these evaluations fall 
within the Broad Agency Announcement process and contracting actions 
may be pending, only the technology groups are releasable. The 
technology areas are:

         Traditional Oil Spill Response Technologies  -6

         Oil Sensing Improvements to Response and Detection  -15

         Alternative Oil Spill Response Technologies  -2

         Oil Spill Damage Assessment and Restoration  -8

         Wellhead Control and Submerged Oil Response  -2

    The IATAP has so far identified seven technologies as having 
immediate potential for impact on oil spill clean-up methods. Of these 
technologies, the Federal On-Scene Coordinator (FOSC) is immediately 
procuring two technologies for operational testing, and evaluating 
several others against the operational gaps, requirements and existing 
capabilities to determine the feasibility of implementation. Details on 
these technologies are described below with the first two currently 
under procurement.

Traditional Oil Response Technologies

        1.  A two wheel tractor with sand cleaner attachment that can 
        remove debris from the sand to a depth of 8 inches. (also an 
        Oil Spill Damage Assessment and Restoration item)

        2.  An absorbent sponge and its constituent polymers designed 
        to filter, absorb, encapsulate, and solidify petroleum 
        hydrocarbons and other contaminants on contact, while not 
        absorbing water. The material can be made into two different 
        types of booms, Emergency Absorbent Line Skimmer Boom and 
        Emergency Tubular Oil Absorbent Boom.

        3.  An oil containment boom with added tension member that is 
        combined with closed cell foam flotation. This oil and minimal 
        debris barrier is typically for protected water and fast 
        current.

        4.  Vacuum equipment that incorporates the ability to vacuum 
        and pressure offload oil and other liquids or sludge.

Alternative Oil Response Technologies

        1.  A rapid deployment flood wall is a protective sand filled 
        barrier. It is used to contain the oil spill materials at the 
        shoreline and prevent the oil from migrating further on to the 
        beach heads, wetlands, or other ecological habitats. Once the 
        oil is captured, it can be removed by a skimmer or vacuum 
        machinery furnished by others.

Oil Spill Damage Assessment and Restoration

        1.  Recycling oil-contaminated sands, waters, and soils, and 
        equipment, in particular absorbent booms rather than 
        incineration or landfill. Proposed recycling mitigates solid 
        waste in landfills, costs less than incineration, and creates 
        employment opportunities in the disaster area.

    The RDC is currently conducting an extensive efficacy evaluation of 
the A WHALE, which is a very large tanker that has been modified as a 
skimmer. The RDC is also involved in the drafting, observing and 
evaluating the efficacy of a Navy Airship as a platform for sensing and 
detecting oil as well as coordinating command and control efforts in 
directing surface assets.
                   Answers to Post-Hearing Questions
Responses by Ms. Sharon Buffington, Chief, Engineering and Research 
        Branch, Offshore Energy and Minerals Management, Minerals 
        Management Service

Questions submitted by Chairman Brian Baird

Q1.  To quote Secretary Chu in a June 8th BP Deepwater Horizon press 
release, ``Transparency is not only in the public interest, it is part 
of the scientific process . . . We want to make sure that independent 
scientists, engineers and other experts have every opportunity to 
review this information and make their own conclusions.'' Scientific 
freedom, access to data, and transparency are key to informed decisions 
that benefit society. How are the federal team and external experts 
working today to increase access to data and to deliver findings in a 
transparent manner?

A1. The Bureau of Ocean Energy Management, Regulation and Enforcement 
(BOEMRE), formerly known as the Minerals Management Service (MMS), 
disseminates the results of research and development (R&D) projects as 
widely as possible in appropriate scientific and technical journals, 
technical reports, and public information documents. The BOEMRE 
Technology Assessment and Research Program maintains a website at, 
www.boemre.gov/tarphome, which contains a listing of all R&D projects 
funded by BOEMRE as well as downloadable reports. The intent is to make 
our research results available to oil spill response personnel and 
organizations worldwide.
    BOEMRE routinely participates in the exchange of oil spill research 
and technological information with Canada, France, Germany, Japan, 
Norway and the United Kingdom through cooperative research projects, 
workshops, and technical meetings such as the International Oil Spill 
Conference (IOSC), Interspill, and the Arctic and Marine Oil Spill 
Program Technical Seminar (AMOP). BOEMRE is also a member of National 
and International government research coordination groups to 
disseminate research results and to minimize duplication
    BOEMRE works cooperatively with representatives from state and 
federal government agencies, academia and industry on the American 
Society of Testing and Materials (ASTM) F-20 Main Committee to develop 
test methods, specifications, (including equipment specifications), 
classifications, standard practices, definitions, and other standards 
pertaining to performance, durability, strength of systems and 
techniques used for the control of oil and hazardous substances spills. 
The work of the F-20 Main Committee is coordinated with other ASTM 
Committees and organizations having similar interests.
    US Federal agencies share research data and findings through 
coordination committees such as the Interagency Coordinating Committee 
on Oil Pollution Research (ICCOPR).
    They also share research by publishing reports such as the Biennial 
Report to Congress, publishing data on the Internet, and delivering 
presentations at oil spill conferences.

Q2.  There is a vast resource of knowledge and experience amongst spill 
response professionals across the globe. For example, the International 
Spill Control Organization was incorporated in London in 1984 as a non-
profit organization dedicated to improving worldwide preparedness for 
oil and chemical spill response.

        a.  How are we utilizing technologies from the international 
        community into our federal oil spill response, and how could 
        this be improved upon?

A2a. BOEMRE works cooperatively with all major North American and 
European research and development programs. More than 40 percent of the 
projects initiated by the BOEMRE Oil Spill Response Research Program 
were jointly funded with state, Federal and foreign government 
agencies, academia and private industry. Results from these research 
projects and programs (e.g., improved containment booms and skimmers, 
dispersant application systems, new remote sensing and mapping 
capabilities) have been incorporated into our Federal response to the 
BP Deepwater Horizon spill. Improvements could be made by having access 
to more resources to conduct more projects.
    BOEMRE interacts with the International Spill Control Organization 
(ISCO) through the International Maritime Organization and the 
International Petroleum Industry Environmental Conservation 
Association. We attend the same meetings, including the International 
Oil Spill Conference. We review the ISCO newsletter to keep informed 
about International Research and send information on our latest 
research results. BOEMRE has worked with other countries to improve 
skimmers, to develop fire booms, to test in situ burn effectiveness and 
on Project ``Deep Spill.'' Project ``Deep Spill'' was done off Norway 
to simulate a blowout or pipeline rupture in deep water and obtain data 
to verify the predictions of a deep water blowout model.

        b.  What specific measures is the United States taking to 
        keeping abreast of new technologies or advance technologies?

A2b. BOEMRE routinely participates in the exchange of oil spill 
research and technological information with Canada, France, Germany, 
Japan, Norway and the United Kingdom through cooperative research 
projects, workshops, and technical meetings such as the International 
Oil Spill Conference (IOSC), Interspill and the Arctic and Marine Oil 
Spill Program Technical Seminar (AMOP).
    BOEMRE works cooperatively with representatives from state and 
federal government agencies, academia and industry on the American 
Society of Testing and Materials (ASTM) F-20 Main Committee to develop 
test methods, specifications, (including equipment specifications), 
classifications, standard practices, definitions, and other standards 
pertaining to performance, durability, strength of systems and 
techniques used for the control of oil and hazardous substances spills. 
The work of the F-20 Main Committee is coordinated with other ASTM 
Committees and organizations having similar interests.

Q3.  MMS grants permits for oil exploration and drilling in the Outer 
Continental Shelf and MMS granted BP's permits for the Deepwater 
Horizon well. Therefore, MMS has a unique perspective on this industry 
and the environment that could well be used. How has MMS used this 
perspective to advance our ability to assess future oil spill hazards?

A3. The authority/oversight granted to BOEMRE regarding exploration and 
development drilling on the Outer Continental Shelf (OCS) allows the 
agency to fund uniquely-related studies that assist in the assessment 
of spill impacts and subsequent response efforts. The information is 
pulled into the programmatic analyses conducted under the National 
Environmental Policy Act (NEPA) to ensure compliance regarding program 
planning, lease sale activities, and other related issues. The adaptive 
nature of the agency's Environmental Studies and Environmental 
Assessment Programs allows for the continual flow of data needs and new 
information distribution between the two groups.
    Information is currently being gathered on specific Macondo spill 
characteristics, response efforts, and known impacts to develop better 
deepwater scenarios to be analyzed in upcoming Environmental Impact 
Statements (EISs) and site-specific NEPA analyses. BOEMRE scientists 
are also assisting with several ongoing Natural Resource Damage 
Assessment (NRDA) teams and working groups looking into the 
environmental impacts of the spill and subsequent response efforts. 
Additionally, the agency's Studies Program has developed/proposed 
several Macondo-related studies which have benefited from the NRDA 
involvement as it has helped ensure that BOEMRE efforts are 
complementary and not duplicative of research led by other resource 
agencies.

Q4.  What has MMS done to advance our understanding of oil spills from 
deepwater drilling operations?

A4. The BOEMRE oil spill response research program includes numerous 
projects which advance our understanding of oil spills. Research and 
development projects specifically associated with deepwater oil spill 
response include:

        <bullet>  Technology Assessment Research (TAR) Project 32--
        Recapture of Oil from Blowing Wells

        <bullet>  TAR Project 85--Subsea Collection of Blowing Oil and 
        Gas

        <bullet>  TAR Project 287--Fate and Behavior of Deepwater 
        Subsea Oil Well Blowouts in the Gulf of Mexico

        <bullet>  TAR Project 311--Oil Spill Containment, Remote 
        Sensing, and Tracking from Deep Water Blowouts--Status of 
        Existing and Emerging Technologies

        <bullet>  Tar Project 324--Experimental and Analytical Study of 
        Multi-phase Plumes in a Stratified Ocean with Application to 
        Deep Ocean Spills

        <bullet>  TAR Project 377--Project ``Deep Spill"

    Following the investigation of the Deepwater Horizon oil spill and 
the Secretary-directed safety review of offshore drilling, BOEMRE will 
be reviewing the research to fill in any gaps.

Questions submitted by Representative Ben R. Lujan

Q1.  It is my understanding that MMS has categorically excluded 
exploration and drilling plans from environmental review.

        <bullet>  Does MMS still consult with other federal agencies on 
        drilling plans, such as the one BP was operating under when the 
        Deepwater Horizon spill happened?

        <bullet>  If not, how do such drilling plans evade 
        consultation?

A1. Exploration and drilling plans are not automatically exempted from 
an environmental review.
    The National Environmental Policy Act (NEPA) and Council on 
Environmental Quality (CEQ) Regulations allow agencies to establish 
categorical exclusions (CEs) for categories of projects, plans, 
programs, and policies that the agency has determined do not normally 
have individual or cumulative significant environmental effects. In the 
case of the Macondo well, MMS categorically excluded the decisions 
associated with approval of BP's exploration plans and the approval of 
BP's four applications to permit drilling.
    On August 16, CEQ released a report on NEPA procedures for 
environmental reviews by the former Minerals Management Service (MMS). 
Following the release of the Council on Environmental Quality's (CEQ) 
report on the former Minerals Management Service's NEPA program, 
Secretary Salazar and BOEMRE Director Bromwich announced that the 
department will restrict its use of some of its categorical exclusions 
for offshore oil and gas development to activities involving limited 
environmental risk, while it undertakes a comprehensive review of its 
NEPA process and the use of categorical exclusions for exploration and 
drilling on the Outer Continental Shelf. In addition to a programmatic 
EIS and subsequent sale-specific EAs or supplemental EISs prepared 
before any leases are offered for sale, BOEMRE will conduct an 
activity-specific NEPA/environmental analysis of each and every 
exploration/drilling plan under its Categorical Exclusion Review (CER) 
process.
    BOEMRE consults with the National Marine Fisheries Service (NMFS) 
and Fish and Wildlife Service (FWS) on a programmatic basis during the 
coordination and preparation of each program/lease sale EIS. The 
associated opinions or consultation documentation provided by NMFS and 
FWS are developed to cover all of the exploration and drilling 
activities resulting from the OCS lease sales.

Questions submitted by Representative Bob Inglis

Q1.  Could you please provide a more detailed explanation of the ``over 
120 projects directly related to oil spill research'' that MMS has 
funded in accordance with the Oil Pollution Act that is cited in your 
written testimony?

        a.  How are these projects directly impacting current efforts 
        to combat the BP spill?

A1a. Results from BOEMRE research are being directly used to support 
the response to the BP Deepwater Horizon spill. Projects are broken 
into topic areas below.

Remote sensing--A new aerial sensor for remotely mapping the extent and 
thickness of an oil spill was developed and successfully flight tested. 
The technology involves using a portable aerial multispectral camera 
and thermal imager mounted in an aircraft that flies over an oil slick, 
gauges the thickness of the oil, and rapidly maps the extent and 
thickness of an oil spill with greater accuracy than previous methods. 
The data are electronically relayed to a secure server that can be 
accessed by the command post and responders where cleanup equipment can 
be quickly deployed to the highest concentration of oil before it has 
time to spread. This new remote oil spill mapping and detection 
technology has been used in California three times in the past year to 
assist in response operations. It is currently being used for the 
Deepwater Horizon oil spill. The system collects, processes and 
disseminates digital Geographic Information System compatible oil slick 
thickness maps in near real time and transmits this information 
directly to response personnel in the command post to assist with 
operational response decisions and deployment of manpower and response 
countermeasures.

Mechanical Containment and Recovery--In most countries, mechanical 
recovery of spilled oil is the first and preferred response option. A 
containment boom is normally used in combination with an oil recovery 
skimmer. BOEMRE research has focused on methods to improve the 
effectiveness of equipment and techniques for the mechanical recovery 
of oil spills. Research on the processes of oil adhesion to the surface 
of oil skimmers improved recovery efficiency by 20 percent; however 
further research demonstrated that changing the surface pattern of the 
drum improved recovery efficiency by over 200 percent. Results from 
this research project were patented and there are at least six types of 
grooved skimmers being commercially sold around the world. Many types 
of grooved skimmers were employed for the BP Deepwater Horizon spill.

Development of Standard Test Protocols--The U.S. Coast Guard (USCG) and 
BOEMRE have collaborated in an effort to develop a standard protocol 
for testing oil skimmers. The American Society of Testing and Materials 
(ASTM) Subcommittee on Skimmers recently adopted the standard 
methodology (ASTM F631-99 (2008)), for measuring the effective daily 
recovery capacity (EDRC) for a given skimmer system. The USCG uses EDRC 
as a key component in rating and regulating the oil spill response 
capability of responsible parties and oil spill removal organizations. 
Skimming systems being used for the BP Deepwater Horizon spill response 
have been tested at Ohmsett--The National Oil Spill Response Test 
Facility, in Leonardo, New Jersey, using this new ASTM protocol.

In Situ Burn--BOEMRE was designated as the lead agency for in situ burn 
research (ISB) in the Oil Pollution Research and Technology Plan 
prepared under the authority of Title VII of the Oil Pollution Act of 
1990. Between 1995 and 2003, the BOEMRE partnered with the National 
Institute of Standards and Technology to conduct more than ten 
different ISB research projects involving hundreds of laboratory, small 
and full-scale and at sea burn experiments. Emphasis was on the 
emissions to air and water, equipment evaluations including fire 
resistant booms, smoke plume modeling, and research to extend the 
``Window of Opportunity'' through the use of chemical herders and 
emulsion breakers.
    BOEMRE and the Canadian Coast Guard funded development of a near 
full-scale screening test protocol for the effectiveness and durability 
of fire resistant oil containment boom that incorporates simultaneous 
testing in waves and flames. An enhanced propane underwater bubbler 
system designed to allow the testing of fire resistant booms in flames 
was installed at Ohmsett in the fall of 1998. Since the air-enhanced 
propane system was developed, eleven fire resistant boom systems have 
been tested. These include: three refractory fabric booms, one 
stainless steel boom, three water-cooled blanket prototypes, three 
reflective/insulating blanket prototypes and one water-cooled boom.
    The technology to effectively predict downwind smoke plume 
trajectories and monitor particulate concentrations has evolved with 
the BOEMRE ISB research program. Smoke plume models and monitoring 
protocols have been developed and are available. A Large Outdoor Fire 
Plume Trajectory model was developed to predict and analyze the 
downwind distribution of smoke particulates and combustion products 
from large burns. Two versions are available one for flat terrain and 
the other for mountainous terrain. Monitoring capability can be readily 
deployed to support in situ burn operations.
    To disseminate results of eight years of intensive ISB research, 
the BOEMRE assembled a comprehensive compendium of scientific 
literature on the role of in situ burning as a response option for the 
control, removal and mitigation of marine oil spills. All operational 
aspects of burning are covered in detail. The BOEMRE has distributed 
more than 5,000 ISB CD sets worldwide. Results from the BOEMRE ISB 
research program are currently being used to make operational decisions 
on use of burning as a countermeasure for the BP Deepwater Horizon 
spill.

Chemical Dispersants--The use of chemical dispersants is another 
important option in oil spill response. In the past seven years fifteen 
major dispersant research projects were conducted at Ohmsett addressing 
five critical operational areas described below.

        <bullet>  Quantifying under simulated at sea conditions the 
        influences of the major factors limiting dispersant 
        performance, namely properties of oils and emulsion (e.g., 
        viscosity), wave energy and dispersant type and dose.

        <bullet>  Improving dispersant effectiveness monitoring by 
        validating and improving existing visual and instrumental 
        monitoring protocols, conducting in-use testing of monitoring 
        instruments and methods and developing materials for monitoring 
        training and practice.

        <bullet>  Addressing specific operational questions including 
        a) how long do surfactants remain in dispersant treated slicks 
        when slicks are treated and then sit on calm seas for many 
        hours or days; and b) how effective are skimmers in collecting 
        dispersant-treated but undispersed oil?

        <bullet>  Bridging the gap between bench-scale tests (e.g., the 
        Swirling Flask Test) and the sea by, a) developing the 
        capability of predicting dispersant performance at Ohmsett from 
        results of bench scale tests, and b) relating test conditions 
        and dispersant performance at Ohmsett to conditions and 
        performance at sea.

        <bullet>  Addressing specific controversial questions about 
        dispersant usefulness under local conditions (e.g., 
        dispersibility of Grand Banks or Alaskan oils under Arctic 
        conditions) by conducting tests under simulated at-sea 
        conditions.

    Results from the BOEMRE research program were used to make 
operational decisions on use of chemical dispersants as a 
countermeasure for the BP Deepwater Horizon spill.

Training--Ohmsett is also the premier training site for spill response 
personnel from state and federal government agencies, private industry 
and foreign countries. While receiving state of the art training, 
students use full-size equipment with real oil in varying oceanographic 
conditions to increase their recovery proficiency. Many of the first 
responders from state and federal agencies and industry have received 
oil spill response training at Ohmsett.

        b.  What progress was made as a result of these projects, and, 
        if they are not directly impacting the current effort, what 
        research should have been done instead?

A1b. The progress that has been made as a result of these research 
projects is exemplified in the previous response. Moreover, the 
technologies described above were critical components of the unified 
command response efforts.
    For example, an August report developed by an interagency team of 
scientific experts found that response efforts--and specifically many 
of the technologies described above--were successful in addressing 33% 
of the spilled oil. This includes oil that was captured directly from 
the wellhead by the riser pipe insertion tube and top hat systems 
(17%), burning (5%), skimming (3%) and chemical dispersion (8%).

Q2.  With 7,400 active oil and gas leases in the Outer Continental 
Shelf region of the Gulf of Mexico, why hasn't MMS been more proactive 
in deep water oil spill response research, specifically addressing the 
research recommendations from Project ``Deep Spill?''

A2. A joint industry project (JIP) was formed between the MMS (now 
BOEMRE) and 23 different oil companies to conduct Project ``Deep 
Spill''. The project consisted of an experimental release of oil and 
gas conducted in June 2000 off the coast of Norway. The most important 
recommendations from Project ``Deep Spill'' were studied by the 
University of Hawaii and Massachusetts Institute of Technology 
following the deep spill.
    The experiments were conducted to provide qualitative insight into 
basic physical phenomena and quantitative data for the development and 
calibration of mathematical sub-models. The primary objectives of the 
laboratory investigation were to simulate 1) the break up of 
contaminants discharging into the deep ocean environment from well 
blowout and other deep oil spills; 2) the interactions between sea 
water, gas bubbles, and oil droplets within the plume; and 3) the 
macroscopic (global) behavior of multiphase plumes rising in a 
stratified water column. Experiments were also performed to study the 
behavior of multi-component plumes in a cross-flowing current. The 
experimental component of the research program is the subject of the 
subsequent report referenced as, Study of Multi-Phase Plumes with 
Application to Deep Ocean Oil Spills, Masutani, S.M., Adams, E., Hawaii 
Natural Energy Institute, University of Hawaii, 2001. The final report 
can be found at http://www.mms.gov/tarprojects/377.htm.
    A workshop on Remotely Operated Vehicles was also done under 
project 446--http://www.boemre.gov/tarprojects/446.htm. This BOEMRE 
project was a technical assessment of present and future autonomous 
underwater vehicle (AUV)/ROV capabilities relevant to subsea deepwater 
oil and gas developments.

        a.  One of the recommendations that resulted from Project 
        ``Deep Spill'' was more research specifically on the droplet 
        size and exit velocity of subsea oil release. What research has 
        been done in this area since the project concluded 10 years 
        ago?

A2a. BOEMRE funded dispersant research that has focused on the 
technologies to measure the particle size and their distribution 
throughout the water column. Results of these studies can be found at: 
http://www.BOEMREre.gov/tarprojectcategories/chemical.htm. During all 
BOEMRE funded dispersant experiments, the dispersed oil particle size 
and their distribution are routinely measured.

Q3.  The resultant study from the Project ``Deep Spill'' indicated that 
the lifetime of the water-oil emulsion was judged to be short enough to 
allow for natural dispersion--there was even some question as to 
whether the slick would surface at all from such depth. The researchers 
even offer a third response option: monitor the surface and subsea 
spreading with no combat measures.

        a.  Could this information have been misleading and contributed 
        to an ill-informed and ineffective response plan?

A3. No, this information was an integral part of the response to the BP 
Deepwater Horizon Oil Spill . Under the direction of the Federal On-
Scene Coordinator for the area, each Area Committee is responsible for 
developing an Area Contingency Plan (ACP) that, when implemented in 
conjunction with the National Oil and Hazardous Substances Pollution 
Contingency Plan will be adequate to remove a worst case discharge of 
oil or release of a hazardous substance. The ACP must also mitigate or 
prevent a substantial threat of such a discharge from a vessel, 
offshore facility, or onshore facility operating in or near the 
geographic area. Each Area Committee is responsible for working with 
state and local officials to pre-plan for joint response efforts, 
including appropriate procedures for mechanical recovery, dispersant 
use, shoreline cleanup, protection of sensitive environmental areas, 
and protection, rescue, and rehabilitation of fisheries and wildlife. 
The Area Committee is required to work with state and local officials 
to expedite decisions for the use of dispersants and other mitigating 
substances and devices. The intent is to foster a consistent team 
approach to managing a significant marine oil spill by initiating a 
Unified Command that is consistently structured and organized using the 
National Incident Management System's Incident Command System.

Q4.  In your testimony, you indicate that a Secretarial Order was 
signed on May 19th to separate three distinct missions of MMS: energy 
development, enforcement and revenue collection.

        a.  Do you believe this separation will assist in more 
        enforcement of the regulations that are already in place and 
        prevent further oil spills offshore?

A4a. On June 15, Secretary Salazar appointed Michael R. Bromwich as the 
Director of the Bureau of Ocean Energy Management, Regulation and 
Enforcement (BOEMRE). Mr. Bromwich is leading the changes in how the 
agency does business, including how it implements reforms that will 
raise the bar for safe and environmentally sound offshore oil and gas 
operations, and that will help our Nation transition to a clean energy 
future. The Secretary has asked his management team to develop a 
reorganization plan in consultation with others within the 
Administration and with Congress.
    As was announced by the Secretary on July 14th, the structure 
established in Secretarial Order No. 3299 reflects DOI's conclusions 
regarding how best to achieve the goals of mission independence, 
appropriate checks and balances, and rigorous oversight, while 
maintaining ongoing communication and coordination necessary to 
facilitate an effective, efficient, and predictable process. 
Specifically, MMS's successor organization will be divided into three 
new entities. First, the Office of Natural Resources Revenue will 
perform the roles of the former Minerals Revenue Management 
organization and report to the Assistant Secretary for Policy, 
Management and Budget. Second, the Bureau of Ocean Energy Management 
and the Bureau of Safety and Environmental Enforcement will divide the 
duties of the former Offshore Energy and Minerals Management 
organization, with the former managing the development of conventional 
and renewable resources and minerals on the OCS, and the latter 
providing safety and environmental oversight. These new Bureaus will 
report to the Assistant Secretary for Land and Minerals Management.
    In addition to the reorganization of MMS, the Secretary ordered the 
establishment of an Investigations and Review Unit (IRU) within the 
Bureau of Ocean Energy Management, Regulation and Enforcement (BOEMRE), 
formerly MMS. The purpose of the IRU is to establish the internal 
capability in BOEMRE to: (1) promptly and credibly respond to 
allegations or evidence of misconduct and unethical behavior by BOEMRE 
employees as well as by industry; (2) oversee and coordinate BOEMRE's 
internal auditing, regulatory oversight and enforcement systems and 
programs; and (3) assure BOEMRE's ability to respond swiftly to 
emerging issues and crises, including significant incidents such as 
spills, accidents and other crises. As appropriate, the IRU's functions 
and capabilities will continue in the new organizations.

        b.  Which Bureau or Office within the newly reformed MMS will 
        have the responsibility for oil spill research and oil spill 
        response technologies?

A4b. Oil spill research and response technologies will be the 
responsibility of the Bureau of Safety and Environmental Enforcement.

Q5.  In your testimony, you highlight all the methods that have been 
developed for use in cleaning up an oil spill.

        a.  Which of these methods have been used to address the spill 
        in the Gulf?

A5a. All 8 of the methods listed in the testimony have been used in the 
response efforts to the BP Deepwater Horizon spill.

        b.  How effective have they been and what have you learned 
        about their limitations from this incident?

A5b. There will be lessons learned and BOEMRE will use all data that 
are gathered including information on research gaps. Specific lessons 
learned about the effectiveness of different techniques include:

Remote Sensing--The new aerial thickness sensor and mapping system, 
developed through BOEMRE funded research and development is working 
above expectations. The system was flown twice a day during the oil 
spill response effort providing maps of oil thickness used for the 
response efforts. Information from the flights is downloaded to a 
secure server that can be accessed by responders and response vessels. 
The National Oceanic and Atmospheric Administration (NOAA) uses this 
information to validate their model predictions and to document 
potential oil beaching. Flights are also being conducted in 
coordination with the application of dispersants to document their 
effects. The NOAA Natural Resource Damage Assessment (NRDA) Shoreline 
Technical Workgroup Lead is applying the aerial imagery to document 
shoreline/marsh oiling assessments.

Mechanical Containment and Recovery--Mechanical containment and 
recovery worked to the capabilities of the equipment. Many different 
types of containment booms and skimmers were used in the response. In 
general, the mechanical equipment worked in calm seas and performance 
declined in bad weather and high sea states.

Dispersants--Dispersants applied surface and subsea have been effective 
in reducing the amount of oil impacting the shoreline.

In Situ Burn--In situ burn operations worked above expectations. 
Controlled burns were employed to efficiently remove oil from the open 
water in an effort to protect shoreline and wildlife. As of July 11, 
2010 more than 10.3 million gallons of oil have been removed from the 
water by controlled burns.

        c.  Can you estimate what percent of the oil we have been able 
        to effectively contain or mitigate through these efforts?

A5c. On August 4, 2010, an interagency science team assembled by the 
National Incident Command issued a report on the fate of the spilled 
oil. In summary, it is estimated that burning, skimming and direct 
recovery from the wellhead removed on quarter (25%) of the oil released 
from the wellhead. One quarter (25%) of the total oil naturally 
evaporated or dissolved, and just less than one quarter (24%) was 
dispersed (either naturally or as a result of operations) as 
microscopic droplets into Gulf waters. The residual amount--just over 
one quarter (26%)--is either on or just below the surface as light 
sheen and weathered tar balls, has washed ashore or been collected from 
the shore, or is buried in sand and sediments. Oil in the residual and 
dispersed categories is in the process of being degraded. The report 
below describes each of these categories and calculations. These 
estimates will continue to be refined as additional information becomes 
available.
    Response efforts were successful in addressing 33% of the spilled 
oil. This includes oil that was captured directly from the wellhead by 
the riser pipe insertion tube and top hat systems (17%), burning (5%), 
skimming (3%) and chemical dispersion (8%).''
    The report can be found at: http://www.restorethegulf.gov/release/
2010/09/09/bp-deepwater-horizon-oil-budget-what-happened-oil

Q6.  How much time and resources at OHMSETT are dedicated solely to 
testing technologies and best practices for oil spill cleanup? How much 
time and resources are dedicated to other pursuits?

A6. Ohmsett--The National Oil Spill Response Research & Renewable 
Energy Test Facility is the only facility where full-scale oil spill 
response equipment testing, research, and training can be conducted in 
a marine environment with oil under controlled environmental conditions 
(waves and oil types). The facility provides an environmentally safe 
place to conduct objective testing and to develop devices and 
techniques for the control of oil and hazardous material spills.
    Ohmsett is a government owned, contractor operated facility; and is 
utilized by state, federal, and foreign government agencies, industry 
and academia. On average, Ohmsett is used approximately 65 percent for 
testing and developing equipment, technologies and methodologies for 
oil spill response and for conducting basic research to support oil 
spill response. The facility is used approximately 30 percent for 
training first responders and emergency response personnel assigned to 
oil spill response duties. Since 2009, when the capability was added, 
about 5 percent of the usage days were used for testing renewable 
energy wave and hydrokinetic devices.

Q7.  Some experts have suggested that we transition our regulatory 
system from the current prescriptive-based framework to a 
``performance-based framework,'' noting that this is a trend among 
safety regulators worldwide, particularly in Norway. The argument is 
that the prescriptive-based regulatory approach tends to create a 
passive attitude among companies, which aim to pass regulatory 
inspections instead of focusing on system performance.

        a.  What is your reaction to this general approach?

A7a. To provide effective regulation, BOEMRE's regulatory framework is 
designed with a mix of performance-based and prescriptive rules. 
Performance based standards describe the safety, environmental, 
property, and resource protection goals that are expected to be 
achieved. These standards identify the purpose of the detailed 
requirements and provide a basis for approving an alternative method 
for achievement of the stated purpose.
    However, some regulations need to be prescriptive when there is 
just one best way to achieve the goal. Usually this means that data 
were gathered to determine the best approach.
    We offer an example of a performance based standard under our 
training rule found at 30 CFR 250, Subpart O. The lessee must establish 
and implement a training program so that employees are trained to 
perform their assigned well control and production safety duties. 
However, lessees are free to determine the type, method, length, 
frequency, and content of the training program. The program material is 
included in a training plan which is made available to BOEMRE so we may 
periodically assess the training program by conducting an audit, 
interviews or testing, as needed. During an audit the lessee needs to 
show documented proof that they have actually implemented the 
provisions included in their program.
    BOEMRE is considering the merits and appropriate use of performance 
based and prescriptive approaches to safety regulations.

        b.  Could it potentially improve drilling safety without adding 
        excessive regulatory costs and other burdens on producers?

A7b. In general, there is no strict correlation between the burden cost 
and whether a regulation is either performance-based or prescriptive. 
The cost is a function of the goal to be achieved. Some goals are more 
costly than others to the industry and the regulator. However, the 
fundamental goal of any regulation is to ensure safety and 
environmental protection .

        c.  Is the Federal government considering such an approach?

A7c. BOEMRE is evaluating the appropriateness of increasing the use of 
performance-based regulations.

Q8.  What new technologies have been identified as having the potential 
for impact on oil spill cleanup methods and what is the current status 
of these technologies, both from a research and development standpoint 
and for current implantation in the BP spill?

A8. Please see response to Congressman Inglis's question #1 above.
                   Answers to Post-Hearing Questions
Responses by Dr. Albert Venosa, Director, Land Remediation and 
        Pollution Control Division, National Risk Management Research 
        Laboratory, Office of Research and Development, Environmental 
        Protection Agency

Questions submitted by Chairman Brian Baird

Q1.  We have an unprecedented response happening to this spill, but it 
is worrisome that we seem to have few metrics to actually measure how 
effective our response is.

        <bullet>  For example, how do we know if adding 5,000 gallons 
        of dispersant per day is enough, or if 50,000 gallons is needed 
        in order to be effective? How do we know what quantity is 
        appropriate?

A1. Applying the optimal amount of dispersant to effectively disperse 
oil depends on several factors including the type of oil, temperature, 
and ambient conditions. Typically, the amount of dispersant needed for 
effective dispersion relative to the volume of spilled oil, called the 
dispersant-to-oil ratio (DOR), is approximately 1:20 to 1:50 (5% to 2% 
based on surface application). The U.S. Coast Guard, as the Federal On-
Scene Coordinator (FOSC) for the Deepwater Horizon oil spill, in 
consultation with the EPA, is responsible for daily operational 
decisions on dispersant application and amounts. As a result of the 
capping and sealing of the well, dispersants have not been applied 
since July 19, 2010.
    In addition, a recent peer-reviewed report, issued by the Federal 
Interagency Solutions Group, estimated that 16% of the oil had been 
chemically dispersed: (http://www.restorethegulf.gov/sites/default/
files/documents/pdf/OilBudgetCalc<INF>-</INF>Full<INF>-</INF>
HQ-Print<INF>-</INF>111110.pdf) . Based on the information available to 
date, EPA believes the dispersant application amounts were effective in 
achieving oil dispersion.

        <bullet>  What resources or research are needed to establish 
        such metrics?

A1. Much is already known about the optimum DORs needed for effective 
dispersion of surface oil into the water column. EPA has done a 
substantial amount of research in the laboratory on DOR and has found 
that a DOR of about 1:25 works best for light to medium weight crude 
oils. The peer-reviewed literature supports this DOR, where most 
reports show good dispersion takes place at a DOR between 1:20 to 1:50. 
EPA in conjunction with the Department of Fisheries and Oceans Canada 
(DFO) built a wave tank on the property of DFO's Bedford Institute of 
Oceanography in Nova Scotia in 2004. In these studies, a DOR of 1:25 
was always used, and the research showed that such a DOR was effective 
in accomplishing adequate dispersion. Application of dispersants into a 
subsurface oil plume, such as the case in the Deepwater Horizon spill, 
by directly injecting dispersant into a blowout well had never been 
studied prior to this event. EPA found that subsurface application, in 
effect, reduces the volume of chemicals applied because the dispersant 
can be added based on the estimated oil flow rate.
    Nonetheless, more wave tank research is needed in this type of 
blowout situation to confirm the best DOR approach, especially for 
other types of oils. Specifically, injecting light crude oil heated to 
100 +C into the wave tank at extreme velocity with and without 
dispersant injection would help answer the critical question of how 
much oil is chemically dispersed vs. physically dispersed. Obviously, 
the 150 atm pressure characteristic of the deep sea cannot be 
reproduced, but just about every other condition can be. We can also 
determine the best tools to answer the question of how best to monitor 
effectiveness in the field. For this, we would use the LISST droplet 
size distribution analyzer and further develop a better fluorometric 
method that quantifies dispersion effectiveness using two different 
emission wavelengths (one for 2-ring PAHs and the other for 3-ring and 
higher PAHs) and an excitation wavelength that is more suited for the 
PAH fraction in crude oil. This kind of research will be extremely 
useful not only for future spills involving deep sea blowouts but also 
for surface applications.

Q2.  What types of research need to be targeted, ecological as well as 
technology tools, for a more effective response to future spills? What 
types of research infrastructure or funding mechanisms are needed to 
support these research priorities?

A2. EPA has been engaged in oil spill research for over 20 years. The 
Deepwater Horizon oil spill demonstrates that gaps in the knowledge 
base regarding response technologies remain and that a larger 
commitment to researching the near- and long-term effects of spilled 
oil and dispersant use is needed. With the $2 million appropriated to 
EPA under the Supplemental Appropriations Act of 2010, EPA plans to 
issue grant awards to universities to study the potential human and 
environmental risks and impacts of the release of crude oil and the 
application of dispersants, surface washing agents, and other 
mitigation measures listed in the National Contingency Plan Product 
Schedule. Planned research will determine the potential exposure and 
human health and environmental impacts of chemical dispersants and 
dispersed oil; the efficacy of dispersants and other oil spill 
mitigation measures; and the potential near and longer-term impacts of 
the Gulf Spill to human health and a broader range of aquatic and land 
species.

Q3.  What additional challenges would EPA face if the Deepwater Horizon 
spill had occurred in the Arctic?

A3. EPA has responded to oil spills in the Arctic and Subarctic 
regions. Responding to oil spills in this region raises challenges such 
as the potential remoteness of the response, the extreme temperature 
changes experienced throughout the year and the difference in 
properties of oil in this region compared to the crude oil in the Gulf. 
The unique nature of the Arctic region imposes additional technology 
challenges for oil spill prevention and response, such as predicting 
the behavior of dispersants and dispersed oil at low temperatures and 
in an environment where snow and ice are prevalent. Dispersants that 
were developed and evaluated at room temperatures may function 
differently in the cold Arctic waters. Likewise, staging an oil spill 
response on the remote Alaska's North Slope would add significant 
logistical challenges, including disposal of the oil spill waste 
material.

Q4.  There is a vast resource of knowledge and experience amongst spill 
response professionals across the globe. And the International Spill 
Control Organization was incorporated in London in 1984 as a non-profit 
organization dedicated to improving worldwide preparedness for oil and 
chemical spill response.

        a.  How is the U.S. utilizing technologies from the 
        international community into its federal oil spill response, 
        and how could this be improved upon?

        b.  What specific measures is the United States taking to 
        keeping abreast of new technologies or advance technologies?

A4. EPA actively participates with the international community through 
a number of research projects and conferences. For example, EPA 
partnered with Department of Fisheries and Oceans Canada in a jointly 
owned wave tank facility built to study dispersant effectiveness as a 
function of mixing energy. EPA's international collaboration on the 
wave tank was recognized in the National Academy of Science (NAS) 2005 
report entitled Oil Spill Dispersants--Efficacy and Effects. EPA has 
also developed a working relationship with the French group CEDRE 
(Centre of Documentation, Research, and Experimentation on Accidental 
Water Pollution) in studying dispersants and surface washing agents as 
spill mitigation technologies. Future collaborations are planned with 
this research body.
    In addition, EPA sponsors or participates in several oil spill 
technical conferences, including the International Oil Spill Conference 
(IOSC), Freshwater Spills Symposium, Clean Gulf Conference and 
Exhibition, and the Arctic and Marine Oil Spill Program (AMOP).

Q5.  As a member of the Interagency Coordinating Committee on Oil 
Pollution Research, how does the EPA solicit and respond to proposals 
from non-federal entities, such as private companies and university 
laboratories, regarding oil spill response technologies?

A5. Periodically, other federal agencies such as NOAA and BOEMRE 
advertise Broad Agency Announcements (BAAs) or Requests for Proposals 
(RFPs) to solicit white papers (similar to pre-proposals) or full 
proposals that address research needs specified in the BAA or RFP. EPA 
has responded and successfully received funding on four such 
advertisements in the recent past and will continue to do so in the 
future. In addition, EPA will be soliciting academic partnerships in FY 
2011 through the Supplemental Appropriations Act of 2010 as noted in 
response to Question 2.
    As for the private sector, EPA is actively engaged through 
participation in several oil spill-related conferences and workshops 
that includes non-federal entities such as private companies and 
university laboratories. As a result of the Deepwater Horizon spill, 
EPA has established a relationship with several private companies 
interested in partnering with EPA in Cooperative Research and 
Development Agreements (CRADAs) to further develop spill mitigation 
techniques.
    EPA also participated in the Interagency Alternative Technology 
Assessment Program (IATAP), a cross government effort to more 
efficiently and responsively address and evaluate possible technology 
solutions for the oil spill response efforts. EPA has primary 
``jurisdiction'' for submissions deemed by the USCG RDC as 
``Alternative Oil Spill Response Technologies.'' The category 
``Alternative Oil Spill Response Technologies'' includes in-situ 
burning, alternative chemical treatment, and innovative applications 
not commonly used for oil spill response.
    Once a submission was referred to EPA, it was quickly evaluated by 
the appropriate EPA technical expert(s) to determine whether the 
submission was either immediately deployable, supported the current 
response, or required further evaluation. For submissions that were 
determined to require further evaluation, EPA sought additional 
information from the vendor/submitter that might entail laboratory 
testing for toxicity or field testing for feasibility in order to 
evaluate environmental impacts.

Q6.  MMS collaborated with over 20 companies in a Norwegian experiment 
on deepwater oil spills. How did EPA coordinate with MMS to leverage 
the findings of this study?

A6. EPA was not specifically involved in the Department of the 
Interior's Bureau of Ocean Energy Management, Regulation and 
Enforcement (BOEMRE), formerly Minerals Management Service (MMS)/
Norwegian research study mentioned. The study did not involve use of 
dispersants in the deep sea. It was intended to study the behavior of 
oil in a deep sea blowout. EPA works closely with the international oil 
spill community either through collaboration or by joint participation 
in international conferences and/or workshops. EPA's interaction with 
the international oil spill community allows EPA to share its research 
findings and listen and engage in dialogue relating to emerging and 
relevant internationally research. The Department of the Interior is 
one of the 15 member agencies on the National Response Team (NRT) 
engaged in interagency sharing of research in oil spill response 
technologies, training drills, and actual real time response 
collaboration. EPA and BOEMRE have collaborated on several research 
studies both in the past and currently involving the study and testing 
of dispersants for treating oil spills on the surface of the water.

Questions submitted by Representative Bob Inglis

Q1.  Last year when you testified in front of this Committee and 
discussed the Interagency Coordinating Committee, you admitted that 
``we haven't been as good about reporting to Congress as much as we 
should, but at least we do what we are supposed to be doing in terms of 
the directive''. Admiral Watson of the Coast Guard agreed, but 
expressed some concern with the quality of leadership in the area 
private sector involvement and University research.

        a.  What has been done to remedy this situation, and what needs 
        to be done to make improvements in this area?

A1. EPA meets regularly with our federal partners and academia in a 
variety of forums, including the Interagency Coordinating Committee on 
Oil Pollution Research (ICCOPR) semiannual progress review meeting. 
Many federal agencies that participate in the ICCOPR meetings also 
participate on the National Response Team's (NRT's) Science and 
Technology (S&T) monthly subcommittee meetings. Therefore, we are 
actively engaged on several levels within the federal government. Like 
the NRT S&T subcommittee, the ICCOPR led by USCG has met on a regular 
basis over the years to provide research coordination, including 
reporting to Congress every two years. This year, the ICCOPR has 
already met twice and is planning two more meetings in the coming 
months to address research needs and lessons learned from the Deepwater 
Horizon oil spill. Based on these meetings and telephone communications 
with the USCG, it is anticipated that the coordination among the 
federal ICCOPR members will continue to be engaged much more actively 
than ever before. EPA will be awarding research grants to the academic 
community as part of the Supplemental Appropriations Act of 2010.

Q2.  How effective are dispersants in assisting in the overall clean up 
effort and what are the perceived advantages of their continued 
application?

        a.  As you may recall from last year's hearing, the California 
        Fish and Game mentioned that one gap in oil spill technology 
        was the delivery system for dispersants and that gel or 
        encapsulating forms showed promise. Have these technologies 
        been developed?

A2. The application of dispersant is part of a broader environmental 
response strategy to minimize environmental impacts. The spill 
management strategies, practices, and technologies that have been 
implemented include containment, mechanical removal techniques (booming 
and skimming operations), in-situ burning, and dispersant use. 
Environmental tradeoffs are associated with the widespread use of large 
quantities of dispersant. However, dispersants are generally less toxic 
than oil, they reduce risks to shorelines, and degrade quickly over 
several days to weeks, according to modeling results. To be clear, 
dispersants were only used in the Gulf where oil was present.
    Evidence suggests that dispersants were effective in mitigating the 
ecological damage from the Deepwater Horizon spill by dispersing the 
oil into tiny droplets that biodegrade over time. The advantages of 
continued use during the spill (before the well was permanently capped) 
include reducing extensive ecological damage to the coastal land 
environment by limiting the amount of oil reaching land, mitigating the 
suffocating effect on waterfowl that come in contact with oil floating 
on the surface, and mitigating the need for excessive handling and 
disposal of waste debris from use of conventional cleanup options.
    EPA encourages the development of non-toxic dispersant products 
that minimize the ecological and environmental effects of using such 
chemicals to clean up oil spills in seawater. Of course, any new 
product would still have to undergo protocol testing to be listed on 
the NCP Product Schedule for use in an oil spill response. We are aware 
of new products on the market that promise to be effective and safer 
technologies for spill mitigation, but they have not been submitted to 
the Agency for testing and inclusion on the NCP Product Schedule for 
use in an oil spill. There are gelling and encapsulating agents on the 
NCP Product Schedule and new technologies have been submitted to the 
Agency for review. The challenge for these technologies is the ability 
to apply sufficient agent on a large oil spill surface area and then to 
recover the gel or encapsulated oils to remove them from the 
environment.
    EPA will also encourage the use of Cooperative Research and 
Development Agreements (CRADAs) with private industry to help further 
the development of such technologies and advance the marketability of 
domestic products. Any new technology will need to be tested for 
ecological, human health, and environmental effects in addition to 
efficacy of treatment.

Q3.  EPA is responsible for providing recommendations on the 
concentration and application of dispersants listed on the National 
Contingency Plan (NCP) product schedule, a preapproved list of 
dispersants that may be used in the event of an oil spill.

        a.  What volume of dispersant listed on the NCP is approved for 
        use?

        b.  It has been widely reported that the amount of dispersant 
        used in the current clean up far exceeds what has been used 
        before. If a spill of this magnitude was supposed to be planned 
        for in the NCP, why was the volume of dispersant approved far 
        below actual needs?

A3. The National Contingency Plan does not stipulate volumes or 
concentrations for dispersants, the criteria are site-specific. 
Applying the optimal amount of dispersant to effectively disperse oil 
depends on several factors including the type of oil, type of 
dispersant, temperature, and ambient conditions. Typically, the amount 
of dispersant needed for effective dispersion relative to the volume of 
spilled oil, called the dispersant-to-oil ratio (DOR), is around 1:20 
to 1:50 (5% to 2% based on surface application). However, based on the 
more limited impact to the shoreline than initially expected compared 
to initial estimates, EPA believes, to date, the dispersant application 
amounts in the Gulf were effective in reducing impacts to the 
shoreline.

Q4.  EPA was to have conducted toxicity testing for the use of 
dispersants in a sub-sea environment.

        a.  Given that this is a relatively new application of the 
        technology, what tests were conducted? How long did these tests 
        take?

        b.  Why is EPA confident about the testing procedures used in 
        this case, yet under normal circumstances, testing would take a 
        much longer time? Is EPA relaxing its standards for this 
        emergency? Or is the agency capable of conducting testing at a 
        much quicker pace but is ordinarily hampered by bureaucracy?

A4. EPA conducted toxicity testing on dispersants prior to the Gulf oil 
spill as well as more recent toxicity tests on eight dispersants listed 
on the National Contingency Plan (NCP) Product Schedule, including 
Corexit 9500A, the dispersant in use in the Gulf. EPA's testing showed 
that for all eight dispersants tested in both test species, the 
dispersants alone were less toxic than the dispersant-oil mixtures. Oil 
alone was found to be more toxic to mysid shrimp than the eight 
dispersants when tested alone. Oil alone had similar toxicity to mysid 
shrimp as the dispersant-oil mixtures. Results are published on EPA's 
website: http://www.epa.gov/bpspill/dispersants-testing.html.
    In order for any product to be listed on the NCP Product Schedule 
for use in an oil spill response, the manufacturer must report to EPA 
the results of standard acute toxicity tests on its product, the same 
tests that were conducted by EPA. Dispersant manufacturers are required 
to submit test results and supporting data, along with a certification 
signed by responsible corporate officials of the manufacturer and its 
testing laboratory stating that the test was conducted on a 
representative product sample using generally accepted laboratory 
practices, and confirming that they believe the results to be accurate. 
The difference between the standard testing required in the NCP and the 
one used by EPA in the Gulf is that the test oil for listing a product 
on the NCP Product Schedule is No. 2 fuel oil, whereas the oil released 
from the Deepwater Horizon spill that was tested by EPA is Louisiana 
crude oil. In addition, EPA conducted the tests for the all dispersants 
in one laboratory, ensuring a more effective consistent, reproducible, 
and repeatable way to compare the data.
    Prior to applying the dispersants subsea, several tests were 
conducted subsea to ensure the efficacy of the application. In 
addition, the EPA/USCG May 10, 2010 directive required BP to test 
samples of the seawater at various depths using the Rototox assay as 
well as testing for dissolved oxygen, and other parameters whenever 
subsea dispersants were used. The Rototox assay is specified in the BP 
dispersant monitoring directive because it is a rapid test that can be 
performed on a ship. The data was collected and reviewed daily by the 
Unified Command as well as by EPA and NOAA Headquarters and Regional 
staff to ensure subsea application could continue the next day.

Q5.  At the time of the hearing, MMS issued a release that announced 
their development of a preliminary estimate of the amount of oil 
flowing from BP's well. They estimate a flow rate range between 12,000 
and 19,000 barrels per day.

        a.  Given the fact that the range has a difference of almost 
        60%, how is the concentration of dispersant to be applied 
        determined?

        b.  What type of monitoring is EPA conducting that tracks the 
        effectiveness of the dispersant?

A5. Applying the optimal amount of dispersant to effectively disperse 
oil depends on several factors including the type of oil, type of 
dispersant, temperature, and ambient conditions, and these conditions 
were evaluated on a daily basis by EPA and the Unified Command in 
determining the amount of dispersant to use The most important factor, 
however, is the amount of oil spilled, which directly influences the 
dispersant dosage. Typically, the amount of dispersant needed for 
effective dispersion relative to the volume of spilled oil, called the 
dispersant-to-oil ratio (DOR), is around 1:20 to 1:50 (5% to 2% based 
on surface application). However, based on the limited impact to the 
shoreline compared to initial estimates, EPA believes that the 
dispersant application amounts were effective in reducing impacts to 
the shoreline.
    The joint USCG/EPA May 10, 2010 directive to BP outlined a 
monitoring plan for surface and subsurface application of dispersants 
which for subsurface include shut-down criteria for dissolved oxygen 
levels and rotifer toxicity tests. Concerns were not raised regarding 
depletion of dissolved oxygen or toxic effects measured by the Rototox 
assay.

Q6.  Is it possible that the subsurface application of dispersants 
limits the effectiveness of in situ burning? How does the subsurface 
application of dispersants and subsequent surface application of 
``chemical herders'' affect the recovery/ in situ burn efforts?

A6. Both in-situ burning (ISB) and the subsurface application of 
dispersant occurred on a regular basis. To EPA's knowledge, chemical 
herders were not used in the Gulf response effort. While the subsurface 
application of dispersants reduced the amount of oil on the surface 
that would need to be burned, it is believed that dispersant 
application did not limit the effectiveness of in-situ burning. 
Typically, if the seas are calm, dispersant use on the surface is less 
effective, while ISB is more effective. The reason is that dispersants 
need wave energy or turbulence to create the small dispersed oil 
droplets, and ISB requires calm seas to enable effective containment 
and ignition of the oil. On days when the weather was calm, the Unified 
Area Command and Incident Commander were in a position to decide to use 
ISB in favor of surface application of dispersants. On days when the 
seas were rough, decisions would be more favorable to use surface 
dispersant application instead of ISB.

Q7.  Some experts have suggested that we transition our regulatory 
system from the current prescriptive-based framework to a 
``performance-based framework,'' noting that this is a trend among 
safety regulators worldwide, particularly in Norway. The argument is 
that the prescriptive-based regulatory approach tends to create a 
passive attitude among companies, which aim to pass regulatory 
inspections instead of focusing on system performance.

        a.  What is your reaction to this general approach?

        b.  Could it potentially improve drilling safety without adding 
        excessive regulatory costs and other burdens on producers?

        c.  Is the Federal government considering such an approach?

A7. EPA defers to the Department of the Interior (DOI) with respect to 
its regulation of offshore oil and gas drilling safety, and notes that 
DOI is taking a series of steps to strengthen its oversight regime.

Q8.  At last year's hearing, Mr. Edinger of the California Fish and 
Game listed in his testimony four technology areas that required 
improvements: reduced visibility or nighttime oil detection 
capabilities, containment in high velocity currents, greater use of 
chemical dispersants, and ship simulators for ship pilots to improve 
maritime navigational safety.

        a.  Given these suggestions, what, if any, progress has been 
        made in the past year improving these technology areas?

A8. Because nighttime oil detection capabilities, containment in high 
velocity currents, and ship simulators are not in EPA's jurisdiction, 
we defer to NOAA, the USCG, and BOEMRE to address these issues. EPA 
focused on monitoring the use of dispersant in the spill response. 
Through its monitoring and sampling plans, EPA ensured that dispersant 
use was minimized to preclude negative ecological and environmental 
effects. The Deepwater Horizon response has brought greater attention 
to the need for oil spill technology development.
    The Interagency Alternative Technology Assessment Program workgroup 
(IATAP), established by the National Incident Commander for the 
Deepwater Horizon oil spill, (USCG), established a process for 
collecting and reviewing oil spill technology solutions. EPA was 
involved in reviewing these proposals and providing recommendations on 
which ones merited consideration for trial testing. The Deepwater 
Horizon oil spill reminds us that new technologies to meet our domestic 
energy needs will require new response technologies not previously 
envisioned. Progress has been made in our wave tank with collaboration 
with our Canadian neighbors, especially in the areas of determining the 
mixing energy needed for effective dispersion, developing better means 
of measuring dispersion effectiveness using particle size analyzing 
equipment and innovative fluorescence measurements, and conducting 
caged fish assays to quantify induced toxicity to various species. 
However, much more definitive work still needs to be done to fully 
understand dispersant technology.

Q9.  What new technologies have been identified as having the potential 
for impact on oil spill cleanup methods and what is the current status 
of these technologies, both from a research and development standpoint 
and for current implementation in the BP spill?

A9. The Interagency Alternative Technology Assessment Program workgroup 
(IATAP), established by the National Incident Commander for the 
Deepwater Horizon oil spill (USCG) established a process for collecting 
and reviewing oil spill response solutions from scientists and vendors. 
The IATAP and the USCG's Research and Development Center (RDC) screened 
and triaged submissions based on technical feasibility, efficacy, and 
deployability. Several thousand proposals were submitted to the IATAP 
workgroup, and EPA worked with the USCG to review various proposals, as 
needed. However, we defer to USCG for an account of these submissions.

                   Answers to Post-Hearing Questions
Responses by Dr. Jeffrey Short, Pacific Science Director, Oceana

Questions submitted by Chairman Brian Baird


Q1.  We have an unprecedented response happening to this spill, but it 
is worrisome that we seem to have few metrics to actually measure how 
effective our response is.

     For example, how do we know if adding 5,000 gallons of dispersant 
a day is enough, or if 50,000 gallons is needed in order to be 
effective? How do we know what quantity is needed to be effective?

     What resources or research is needed to establish such metrics?

A1. We have reasonably good data from laboratory studies on the ratio 
of dispersant dissolved into oil needed to be effective. Ratios of 
dispersant to oil between 1:10 and 1:100 usually achieve substantial 
dispersion, at least with relatively fresh oil (Fingas 2001). 
Evaluating effectiveness in the field is considerably more problematic 
for a number of reasons. First, it is difficult to know how much oil is 
in a given area as methods for estimating the volume of oil contained 
within a surface slick are very imprecise. Further, judging the amount 
of dispersant that should be applied to effect dispersion requires 
allowance for the proportions of dispersant that are swept away in the 
air and that fall useless outside oil patches. Once applied, the 
proportion of oil dispersed is almost never estimated; success is 
usually judged on the basis of the appearance of a brownish-white 
suspension below the sea surface soon after application. Without 
knowing how much of the oil targeted for dispersion remains, how much 
would have dispersed naturally had no dispersant been applied, or how 
much of the dispersed oil recoalesces because of leaching of the 
dispersant back into seawater, the reliability of claims for dispersant 
effectiveness in the field will remain questionable.
    More generally, progress on developing better oil spill response 
methods is hampered by three institutional barriers: aversion to 
exploiting spills of national significance as research opportunities to 
rigorously compare response methods, the inability to conduct realistic 
field tests in the waters of the United States and reluctance to 
embrace statistically-rigorous sampling and other measurement methods.
    The first, best way to address this problem would be to dedicate 
resources to measuring, in a robust manner, our successes and failures 
in responding, especially during spills of national significance. For 
example, currently it is nearly impossible to assess differences in the 
performance of oil skimmers deployed during a spill because the 
proportion of oil in the collected material is rarely measured--only 
the sum of oil and water is. Part of the reason for this failing is 
that spill responders are reluctant to divert resources from response 
efforts toward studies on the effectiveness of the different methods 
used for fear of losing the opportunity to capture more oil. This leads 
to a vicious circle that materially retards identification of more 
effective methods.
    Evaluating the effectiveness of response methods is also hampered 
by the complexity of oil and its behavior once released into the 
environment. Crude and refined oils vary considerably in properties and 
composition, which can change dramatically following discharge. 
Response officials need to be able to identify which combinations will 
be most effective with the least collateral damage for the particular 
situation confronting them. What worked well in one spill may not work 
as well in the next. This suggests the need to develop a robust body of 
performance results, quantitatively measured, in a broad variety of 
situations.
    An obvious remedy would be to conduct experimental oil spills in 
waters of the United States, but the U.S. Environmental Protection 
Agency has not to my knowledge allowed willful discharge of crude oil 
for such research purposes for decades.
    The resources and research most urgently needed to establish 
performance metrics for response methods include reliable field methods 
for measuring oil once it is released. These methods can be either new 
technologies, such as optical sensors for remote sensing, or adoption 
of statistical methods for quantifying oil in diverse environmental 
compartments. Currently, estimates of oil in the environment tend to be 
given as minimums, with little effort devoted to estimating the 
precision of such estimates. While efforts to estimate the precision 
are more expensive, they are considerably more informative. For 
example, knowing how much oil is in an oiled coastal marsh is much more 
useful for policy makers than simply knowing there is at least some 
minimal amount, with little idea of what the maximum might be. Such 
methods were first developed for the 1989 Exxon Valdez spill (Brodersen 
et al. 1999, Short et al. 2004), and will hopefully be developed 
further and adopted more widely for the Deepwater Horizon blowout.

Q2.  What types of research infrastructure or funding mechanisms would 
help us truly advance the fields of oil spill prevention and cleanup? 
Specifically, what research do we need to invest in to significantly 
increase oil recovery rates? Is it physically possible to have greater 
recovery rates?

A2. There are three factors that limit the effectiveness of current 
response methods: weather, scale, and substrate complexity. At small 
scales in calm weather and in open water, there are many methods 
available for collecting and separating oil from surface water once the 
oil is sufficiently corralled by booms or other means. Unfortunately, 
booms are only effective for corralling oil at sea states below about 5 
feet, so these approaches only really work in calm weather. Development 
of larger-scale skimmers that can operate effectively in higher sea 
states would, therefore, be especially helpful.
    Further, surface oil can spread and fragment so rapidly in large-
scale spills that the primary difficulty becomes keeping track of where 
all the fragments are, prioritizing them for response, and then getting 
the oil recovery equipment to the highest-priority fragments before 
knowledge of their location is lost. On the basis of discharge rates 
produced since my written testimony was submitted it appears that the 
rate of oil slick creation in the case of the Deepwater Horizon 
blowout, is closer to a football field per second. Given that rate and 
the fact that oil is appearing at random within a circle of about 2 
miles in diameter and immediately fragmenting and drifting apart 
(especially at night), our ability to corral the oil near the discharge 
site is simply overwhelmed, and there probably are not enough skimmers 
in the world to keep up. Tracking the largest fragments of oil slick 
that escape the immediate area by aircraft surveillance or satellite is 
helpful and, to a considerable extent is already being done, although 
the effectiveness of these methods as also limited by weather. 
Nonetheless, development of better methods for remotely sensing oil 
slicks on water and estimating their volume would be very helpful. 
Unfortunately, such methods are unlikely to work for oil that attains 
near-neutral buoyancy, when slight disturbance of the sea surface by 
wind can temporarily submerge much of the oil associated with the 
surface, obscuring it from surface observation.
    It may be feasible to maintain an inventory of oil spill response 
capacity capable of dealing with very large spills. It is likely, 
however, that the cost of maintaining several such inventories near 
regions of large-scale offshore oil development would be prohibitive, 
especially given the very low frequency of such catastrophic events (on 
the order of once per decade or less).
    Better methods for removing oil from complex habitats such as 
porous rocky shorelines or coastal marshes are urgently needed, and the 
prospects for developing more effective methods are considerably 
brighter. Research on the application of bioremediation techniques has 
lead to noteworthy improvements over the last two decades, and 
additional support is likely to prove rewarding. One of the main 
difficulties limiting the effectiveness of these methods is in keeping 
oil-degrading microbes continuously supplied with the nutrients they 
need to remain active. A related area where research may well prove 
rewarding is development of microbes that can degrade oil in the 
absence of oxygen. Development of methods to deliver the right microbes 
and nutrients on a sustained basis should be feasible and would be very 
helpful if successful.
    One obvious source of funding for these efforts would be the Oil 
Spill Liability Trust Fund. Ideally, these funds would be administered 
through a permanently-constituted body similar to that described below 
in my response to Chairman Baird's question number 6. As for 
infrastructure, NOAA's Office of Response and Restoration has 
experience overseeing such research, as does the U.S. Coast Guard and 
the Bureau of Ocean Energy Management, Regulation and Enforcement. An 
oversight body composed of representatives from these Federal agencies 
should provide guidance as to the research agenda and priorities, to 
review proposals and monitor performance. Federal agencies, academic 
institutions, and industry should be eligible to apply for funds, but 
only provided strict scientific standards are met (see my response to 
Chairman Baird's question number 4 below). Finally, such research 
should be coordinated and, as appropriate, in collaboration with the 
considerable on-going efforts in Canada, France, the United Kingdom and 
Norway.

Q3.  Since April 20, 2010, the country has seen many Federal agencies 
actively responding to the Deepwater Horizon spill.

     In your 30 years experience dealing with oil spills, how has this 
response been different?

     How have research findings from the larger oil spill response 
community been adopted into the response of the Federal Government 
overall?

A3. Federal agencies have developed procedures for coordinating their 
responses to oil spills, which work reasonably well for small to 
moderate discharges and have not changed dramatically since 
implementation of the Oil Pollution Act of 1990. These procedures come 
under increasing strain with large spills, because they can overwhelm 
staff trained for such purposes and because staff are required to train 
others who are re-assigned to help. Consequently, although agencies 
strive to address their ongoing responsibilities along with the 
dramatically increased burdens placed upon them by catastrophic events, 
performance necessarily suffers in one if not both domains. Making 
matters worse, as the interval between major spill events increases, 
there is increasing pressure to reduce budgets for agency resources and 
infrastructure to deal with large-scale events. This is rather like 
constantly cutting the budget for the fire department, then wishing it 
were bigger when a serious fire breaks out.
    Because agency budgets have been so constrained, resources for 
research and evaluation of response options have been severely limited, 
so that agencies find it difficult to independently assess how well 
various response options actually work in the field, in turn 
constraining their ability to improve response efficiency. Because most 
funding for research on oil spill response technology comes from the 
private sector, government agencies are often placed in the unfortunate 
position of having to accept industry claims for performance without an 
independent means of verifying it.
    This situation could be remedied if sufficient inducements were in 
place to encourage industry to adhere to higher scientific standards 
when developing new response technologies. For example, Federal 
permitting agencies could decline to recognize any response technology 
that has not been demonstrated to meet specified performance 
requirements under field conditions, if such performance is relied upon 
to satisfy oil spill response capability in environmental impact 
statements and other regulatory documents to assure the public that 
proposed oil field development is environmentally safe.

Q4.  Rigorous scientific standards are very important as the country 
engages in a variety of oil pollution and cleanup research and 
development initiatives. In your written testimony you note that ``all 
too often, field tests fail to meet basic scientific criteria for 
experiments''.

     What steps should the Federal Government take to ensure that 
reasonable criteria for studies are developed?

     Should the development of criteria be a public-private activity?

A4. Research on oil spill response technologies is primarily driven by 
the fact that industry has to demonstrate capability to deal with 
accidents in order to obtain regulatory approval to explore for and 
develop oil fields. Because most of the funding for such research comes 
from industry, industry currently decides which standards to use for 
evaluating performance. These standards may amount to little more than 
a demonstration of limited success under ideal conditions. In contrast, 
rigorous scientific standards include clear answers to questions such 
as: (1) are the results repeatable? (2) what results would have been 
found had the treatment not been applied? (3) what range of conditions 
are the results valid under? (4) what range of oil products and 
weathering states are the results valid for? (5) what is the 
uncertainty of the results (i.e. how precise are the results claimed)?
    New response methods that have limited actual utility are routinely 
recommended by private industry. For example, private companies made 
enthusiastic claims to the Exxon Valdez Oil Spill Trustee Council in 
support of a commercial product and application method to remove 
residual oil on beaches of Prince William Sound, Alaska, despite scant 
actual hard data on performance in the field. The EVOSTC reluctantly 
agreed to a limited test, insisting that performance be rigorously 
assessed by NOAA. My colleagues and I at NOAA's Auke Bay Laboratories 
did the evaluation. In the end, we found the method did succeed in 
removing a significant amount of oil from the treated beaches, but at a 
cost of around $1 million dollars to recover about 65 gallons of oil. 
Worse, our monitoring indicated that several more such treatments would 
have to be applied over the course of several years to clean the 
beaches completely (Brodersen et al. 1999). Most agreed this was not 
worth the expense and collateral damage inflicted on the treated 
beaches, and the project ended after the first year. A program to 
evaluate these new technologies coupled with a stringent requirement to 
demonstrate their efficacy before drilling occurs would help to 
alleviate this circumstance.
    More often, such projects go forward with little or no monitoring 
to determine effectiveness. We see an example now in the Deepwater 
Horizon blowout with the proposal to bulldoze oiled sand farther into 
the surf zone to facilitate oil removal, with no data put forward to 
inform us of how much oil such a procedure would actually remove from 
the sand, or what the cost per gallon of oil removed would be. 
Currently, plausible-sounding ideas such as this are put forward and 
all too often adopted with little or no attempt to evaluate their 
effectiveness.
    This situation could be largely remedied if the Federal agencies 
involved simply insisted on adherence to scientific standards similar 
to those imposed by the Food & Drug Administration on applicants for 
product approval. Such products must be demonstrated to be safe and 
effective under the conditions of their proposed use. Experiments to 
demonstrate this would be facilitated by allowing experimental oil 
spills in U.S. waters, because then we could perform un-biased 
performance trials.

Q5.  In your testimony you cite that NOAA's Office of Response and 
Restoration has lost about 30% of its staff over the last eight years. 
This office is responsible for providing scientific advice to guide oil 
spill response efforts and to evaluate the environmental damages caused 
by oil pollution.

     How could the Federal Government's response to the BP Deepwater 
Horizon spill be different if OR&R were better funded and OR&R staff 
had not been cut?

     Since NOAA's staff has been cut, who in the Federal Government has 
been doing scientific research on oil spill response?

A5. One immediate consequence of the shortfall is that OR&R has had to 
suspend work on most if not all the other oil spill cases on which it 
was working in order to marshal its response to the Deepwater Horizon 
blowout. The interests of the United States are not well served if 
smaller-scale polluters, whose impacts in aggregate over the span of 
several years may rival those of the Deepwater Horizon, are ignored for 
want of investigative capacity. Furthermore, OR&R has had to focus on 
its response capability per se, leaving little capacity available to 
conduct or even oversee research that would improve the efficiency of 
oil spill response. Also, while OR&R could and should support research 
on the environmental damage caused by oil spills, such efforts 
currently receive scant attention.
    Other Federal agencies that do scientific research on oil spill 
response include the U.S. Coast Guard, the Environmental Protection 
Agency, and the Bureau of Ocean Energy Management, Regulation and 
Enforcement.

Q6.  BP has pledged $500 million for independent research into the 
consequences of the Deepwater Horizon spill. How should these funds be 
managed to ensure they go to the most appropriate institutions and are 
used most effectively?

A6. I strongly urge that the example set by the Exxon Valdez Oil Spill 
Trustee Council be followed as a model for administrative oversight of 
the funds pledged by BP. The essential elements of this model include: 
(1) a clear statement of the scope, issues, questions and objectives 
that the research is intended to address, at minimum including the 
perturbations caused by the Deepwater Horizon blowout in comparison 
with natural variability in the functioning of marine and coastal 
ecosystems, the fate and effects of the oil, the identification of the 
most important ecological areas that are vulnerable to either direct 
impacts from the oil or to indirect impacts from cleanup efforts or 
from ecosystem disruption; (2) a rigorous scientific peer-review 
process for proposals submitted for consideration; (3) subsequent 
review by a public advisory group to ensure that studies address 
questions deemed important by the public; (4) co-ordination of these 
procedures by a Chief Scientist; (5) a final review and approval 
process by the Trustee Agencies; (6) an administrative process that 
monitors performance of funded proposals to ensure that progress and 
final reports are submitted in a timely manner; and (7) an Executive 
Director to co-ordinate the overall process. It is crucial that the 
scientific review be conducted first, to eliminate proposals that lack 
scientific merit or do not address the objectives identified, before 
review for other considerations.

Questions submitted by Representative Bob Inglis

Q1.  What skimming technologies or advancements do you believe to be 
available that have not been, fully developed?

A1. As noted in my response above to Chairman Baird's question number 2 
above, development of oil skimmers that can operate in heavier seas 
would improve our ability to collect oil from surface slicks 
substantially. Also, technologies to allow operations to be conducted 
safely into the night would be very useful.

Q2.  Are you aware of any technologies developed overseas, as have been 
referenced by representatives of the Unified Command, which could have 
been, further developed or procured prior to the Deepwater Horizon 
spill?

A2. The international community involved with oil spill response 
technology meets biannually at the International Oil Spill Conference 
(www.iosc.org) to exchange information on, among other things, new 
developments in response technologies. U.S. Federal agencies, including 
the Coast Guard, NOAA, EPA and BOEMRE are among the sponsors of this 
conference, along with several petroleum industry organizations. This 
sponsorship and participation ensures that U.S. agencies remain at the 
leading edge of developments and awareness regarding advances in oil 
spill response technology.

Q3.  In your written statement, you claim that ``response options at 
sea cannot be applied to more than a small fraction of the oil 
discharged during a large-scale release'' and that this is due to ``the 
difficulty of bringing the necessary resources. for applying these 
mitigation methods at the scale required''.

     One of the purposes of the Oil Pollution Act of 1990 was to 
facilitate and expedited the movement of resources to where they are 
needed. Are you saying that the problems exhibited with moving 
resources during the response to the Exxon Valdez spill still exist 
today?

     What can be done to bring these resources together? Does it 
require a greater understanding of existing response resources and 
where they are located?

     Would a national clearinghouse for response equipment and latest 
technological advancements alleviate some of these difficulties?

A3. I have substantially addressed these issues in my response to 
Chairman Baird's question number 2 above. Basically, when very large 
spills such as the Deepwater Horizon occur, they overwhelm our capacity 
to deal with them. While the Oil Pollution Act of 1990 succeeded in 
improving our ability to move resources where needed, we still face 
serious limitations in keeping track of a rapidly expanding oil slick 
that is fragmenting and dispersing, and in getting skimmers or other 
response hardware to even a fraction of the oil fragments that are 
floating away from each other in the ocean. So, it is not a matter of 
having the response resources located in the right places prior to a 
spill, it is a matter of tracking thousands of oil slick fragments and 
getting boats to them before nightfall.
    While a national clearinghouse for response equipment and use of 
the latest technological advancements (provided they can be 
demonstrated to actually work; see my response to Chairman Baird's 
question number 4 above) might marginally improve responses in some 
instances, for very large spills we should be realistic about what to 
expect even if all goes perfectly.

Q4.  In your written testimony, you state that Federal agencies need to 
insist that scientific standards are met before relying on results 
touted for new approaches to oil spill response and mitigation.

     How wide-spread is the use of technology for oil spill cleanup 
whose effectiveness relies on data that does not meet rigorous 
scientific standards? Are you aware if this practice violates any 
Federal policies regarding scientific integrity?

     Has any of this technology been used in the current Gulf oil spill 
response and cleanup? If so, how has that technology performed? Has it 
hampered or impeded cleanup efforts in any way?

     Do you have any recommendations for the Committee on any 
legislative fixes that might address this potentially disastrous 
loophole?

A4. This question is very similar to Chairman Baird's question number 4 
above, to which I refer for my answer. However, I want to emphasize 
here that I do not think Federal agencies are violating existing 
Federal policies regarding scientific integrity. Rather, they are too 
often confronted with a difficult choice between accepting industry 
claims about the effectiveness of technologies with little capacity for 
verifying those claims independently, or rejecting them again on little 
basis and thus exposing themselves to criticism for impeding progress.
    Dubious technologies are recommended routinely by those that 
developed them. It is usually difficult to assess whether these 
technologies actually helped or impeded the response effort because 
quantitative evaluations of performance are so often simply not done.
    As noted above in my response to Chairman Baird's question number 
4, however, there are two legislative fixes that would go a long way 
toward improving the utility and reliability of technological advances 
for oil spill response. First, standards comparable to those used by 
the U.S. Food and Drug Administration for their approval of new 
products could be modified for application to oil spill response 
technologies, whereby candidate technologies must demonstrate they are 
safe and effective under the conditions of their recommended use. 
Second, agencies involved in the oil field permitting process could 
simply refuse to acknowledge any technology that fails to meet these 
standards when considering spill response plans submitted by the 
industry for new oil field development. Such an oversight standard 
would quickly lead to clear-cut and reliable data on performance.

References

Brodersen, C., J. Short, L. Holland, M. Carls, J. Pella, M. Larsen, and 
        S. Rice. 1999. Evaluation of oil removal from beaches eight 
        years after the Exxon Valdez oil spill. Proceedings of the 
        Twenty-second Arctic and Marine Oilspill Program (AMOP) 
        Technical Seminar, Environment Canada, Ottawa, Ont. pp. 325-
        336.

Fingas, M. 2001. The Basics of Oil Spill Cleanup. Second edition, J. 
        Charles, ed. Lewis Publishers, CRC Press LLC, 2000 N.W. 
        Corporate Blvd, Boca Raton, FL 33431.

Short, J. W., Lindeberg, M. R., Harris, P. M., Maselko, J. M., Pella, 
        J. J., and Rice, S. D. 2004. An estimate of oil persisting on 
        beaches of Prince William Sound, 12 years after the Exxon 
        Valdez oil spill. Environmental Science and Technology, 38:19-
        26.
                   Answers to Post-Hearing Questions
Responses by Dr. Samantha Joye, Professor of Marine Sciences, 
        University of Georgia

Questions submitted by Chairman Brian Baird

Q1.  ``How are experts working with the Federal team to increase access 
to data and to deliver data in a transparent manner?''

A1. With respect to Deep water research, independent scientific experts 
submit data from their research cruises, along with daily reports, to 
the Deep water Integrated Ocean Operations Planning commanders and 
these data are being posted on a Wiki site (https://
www.st.nmfs.noaa.gov/confluence/display/OOP/Home). I was told such data 
would be used to plan/organize the response but it is unclear to me how 
this process works. The urgent nature of this disaster has required all 
scientist involved in the response to expedite the usual scientific 
vetting process and provide data in ways (e.g. to the media) and on 
timescales (e.g. within days to weeks instead of months) that we are 
not accustomed to. While it is essential to convey information as soon 
as possible, the emergency response situation makes it even more 
critical than usual to analyze the data critically and thoroughly so 
that the message conveyed is robust and correct.
    From my own experiences, I feel there is, at best, opaque, 
inefficient transfer of information from Federal agencies to 
independent scientists--the situation is one-sided: independent 
scientists provide data to agencies but agencies do not provide data to 
scientists. The lack of rapid, free exchange and discussion of ideas, 
missions, and effort allocation has slowed and seriously impacted 
(negatively) the response effort; this is a particularly serious issue 
with respect to blue water work.

Q2a.  ``. . . we seem to have few metrics to actually measure how 
effective our response is. How do we know if adding 5,000 gallons of 
dispersant per day is enough, or if 50,000 gallons are needed to be 
effective? How do we know what quantity is effective?''

A2a. Most of what we know about dispersant effectiveness is based on a 
very limited number of studies performed by academic scientists, the 
EPA or NALCO (the company who produces COREXIT). The effective ratio 
stated in most of the literature is 10:1 (oil:dispersant) but in 
reality, the ratio may vary depending on the type of oil (weathered, 
fresh), its composition, etc. Further, it remains unclear to me how the 
scale/size of the dispersant application is being determined, 
particularly at the seafloor. I believe there are more unknowns (esp. 
regarding ``costs'') than knowns (both ``benefits'' and ``costs''), 
with respect to the efficacy and potential negative impacts of 
dispersants, and together these unknowns leave me extremely concerned 
about the level of dispersant use in this incident response and about 
the potential the long term negative impacts of dispersants on both the 
oceanic system, the coastal systems, and on humans exposed to these 
chemicals and their breakdown products, some of which may be harmful.

Q2b.  ``. . . we seem to have few metrics to actually measure how 
effective our response is. What resources or research is needed to 
establish such metrics?''

A2b. Using dispersants as one example, clearly there was a strong need 
to study the environmental impacts and degradation kinetics, for 
example, of these compounds prior to their large-scale introduction to 
the Gulf of Mexico. A basic research program, potentially funded by oil 
and gas industry royalties, on efficacy, toxicity and biodegradation of 
dispersants is sorely needed. Along those lines, more basic research on 
oil and gas degradation and what controls their degradation in the 
environment (with and without dispersants) is absolutely necessary. 
Much of these sorts of data are needed now, but ``better late than 
never''.

Q3.  ``What types of research and research infrastructure or funding 
mechanisms would help us truly advance the fields of oil spill 
prevention and cleanup? Specifically, what research do we need to 
invest in to significantly increase oil recovery rates? It is 
physically possible to have greater recovery rates?''

A3. This is outside my area of expertise but I want to make a few 
comments. As long as research funding related to oil spill cleanup is 
only available for a year or two after a major spill, there will be 
essentially no progress. Indeed, our understanding of the natural 
processing of oil and gas in the ocean is extremely limited because 
there are very few funding mechanisms available to support this work. 
``Biodegradation'' of hydrocarbons is often considered too applied for 
some funding agencies; that, or the topic is said to be ``more 
appropriate'' for MMS or EPA. One could argue that spill prevention and 
cleanup research should be funded by the industry. I agree but I feel 
the funds should be distributed through a Federal agency. Perhaps such 
a research program could be administered through an arm of the new 
Bureau of Ocean Energy Management, Regulation and Enforcement?
    With respect to the recover rates, YES, recovery rates could have 
been much higher, much earlier in the incident. The biggest issue, in 
my opinion, is that BP underestimated the size of the leak (5000 bbl 
rather than 50000 bbl or more) and their capacity to recover was based 
on the 5000 leak rate. Had they documented the size of the leak 
correctly, early on, recovery would have been improved (in all 
likelihood).

Q4.  ``What additional challenges would we face if the Deepwater 
Horizon spill had occurred in the Arctic?''

A4. This is a possibility I have spent quite some time thinking about 
since the Deepwater Horizon sank: I believe this incident would have 
been 100 (or more) times worse had it occurred in the Arctic. The 
Arctic is ice covered much of the year. The nearest source of booms is 
likely Seattle. The nearest Coast Guard station is likely 1000-2000 
miles away. How would an under ice blowout be controlled in such an 
isolated, extreme environment? Answer, it might not be controllable; 
establishing control would take much longer; the environmental impact 
could be catastrophic. The mere possibility of a blowout in the Arctic, 
particularly in ice-covered regions, is, in my opinion, reason enough 
to take Arctic Ocean drilling ``off the table''.

Q5.  ``Please describe potential targeted research programs that you 
think should be conducted on the BP Deepwater Horizon Oil Spill to 
truly advance our understanding of oil pollution and cleanup.''

A5. First, let me say that this is not an ``oil spill'', it's a 
hydrocarbon--oil + gas--spill and we need to understand the impacts of 
hydrocarbons, in general, on the system. I will outline what I see as 
the phases of research and since my expertise is oceanography, I will 
focus on the blue water impacts rather than coastal, nearshore impacts 
though I stress that by doing so, I am not inferring that one system is 
more or less important than the other. I will divide the research into 
what I see as the critical components for dealing with deepwater 
blowout.
    If a situation like this ever arises again--and I sincerely hope it 
does not--the first step taken should be to assemble a diverse, 
interdisciplinary scientific advisory panel. This panel could serve 
both as a source of ideas regarding research effort and it would help 
guide the Federal Response. I believe it would be wise to establish 
regional advisory boards in advance so that they are in place in the 
event of such a disaster. Perhaps the National Academy of Science 
``Ocean Studies Board'' or the ``Oil in the Environment'' group could 
assemble such teams.

Research Areas and Needs

    I. Spill Verification: Document the magnitude of oil and gas 
release immediately and continuously during the event. Such 
measurements should be made by an independent science team comprised of 
the most qualified experts, preferably those with experience in the 
habitat in question, rather than the company in charge of containment/
control of the wellhead. Understanding the temporal signature of 
leakage could teach us a lot about how the reservoir is behaving. Such 
measurements require sophisticated acoustic and optical 
instrumentation, access to ROVs (which are limited in availability in 
the UNOLS fleet), and development and continual improvement of 
mathematical models to simulate fluid jets and plumes.
    II. Determine hydrocarbon distributions and concentrations in the 
spill zone: Weeks went by before field measurements of oil 
concentration and vertical distribution in the water column began. More 
than a month went by before similar studies commenced on dissolved 
gases such as methane. Subsequent to the Pelican cruise, many vessels 
have used optical sensors to map the distribution of colored dissolved 
organic matter in the water column. Only a handful of research cruises 
have measured dissolved gases (perhaps two other cruises aside from my 
cruise). No studies that I am aware of to date have looked at the 
sedimentation of oil on the seafloor. The distribution of 
hydrocarbons--gas and oil--needs to be determined and tracked through 
time. How much is on the surface? How much is at depth and where is it? 
How much is on the bottom? What are the sizes of surface slicks and how 
do they change? Where are the subsurface plumes of oil and gas and how 
are they changing over time? How fast is oil sedimenting to the bottom? 
There are people who can make these measurements and answer these 
questions. Unfortunately, there is not a cohesive structure to the 
scientific response (i.e. NOAA's efforts ) and there has not been 
enough additional funding (i.e. through the NSF) to allow independent 
scientists to make the required measurements.
    III. Determine breakdown rates of hydrocarbons (biotic and abiotic) 
and how these rates(s) impact/influence other important elemental 
budgets (e.g. oxygen): How fast are oil and gas degraded biologically? 
Do dispersants increase or decrease such processes (why)? What are the 
relative proportion of biotic vs. abiotic degradation of oil and how 
does this split vary with time and space? What factors regulate 
(biotic) oil and gas breakdown? Do these factors vary? How does oil and 
gas breakdown influence carbon and oxygen cycling? Does breakdown lead 
to low oxygen waters? Does breakdown lead to ocean acidification? Are 
the impacts localized or large scale?
    IV. Which hydrocarbons [oil and gas] are incorporated into the food 
web? How does this happen? What are the fisheries implications? The 
general assumption is that not much oil ends up getting bioaccumulated. 
What about the dispersants? Are they bioaccumulated? Does dispersant 
application alter bioaccumulation of oil and gas?
    V. Background Research to provide baseline data and basic 
understandings. There is a critical need for baseline data on 
hydrocarbon distributions and metabolism in the Gulf of Mexico (and 
other systems). Establishing a series of basic research programs on 
``hydrocarbon ecosystems'' could go a long way in providing both of 
these needs. In the past, MMS has supported some research along these 
lines but much of this work was focused on chemosynthetic animal 
communities. These habitats are critical but more work on basic 
biodegradation, microbiology, and environmental regulation of 
biodegradation in both sediments and the water column is needed. Again, 
royalty revenue could be used to fund such a research program but the 
program could be jointly administered by NSF, NOAA, and the new 
``MMS''.

Q6.  ``BP has pledged $500 Million for independent research into the 
consequences of the oil spill. How should these funds be best managed 
to ensure they go to the most appropriate institutions and are the most 
effective?''

A6. For the sake of transparency and fairness, the funds should be made 
available through competitive grants and the competition should be 
administered by a Federal agency with experience in this area. It is 
still unclear to me how these funds will be distributed; the process 
has already been politicized and become far too complicated (i.e. why 
should state Governor's have a say in how the funds are distributed? 
What makes a Governor the appropriate judge of a study's scientific 
merit or lack there of? Having a single institution (LSU?) or a person 
at an institution (Chris D'Elia at LSU) in charge of disbursing funds 
could be problematic.
    I feel strongly that these funds should be distributed in a non-
political way-and that would b best done via a competitive grants 
process that is administered by a Federal agency (NSF, NOAA, SeaGrant) 
or by some third party (consulting firm or non-profit, Nature 
Conservancy) that has no vested interest in the process.
    Finally, I do not believe $500M ($50M a year for ten years) is 
nearly enough to evaluate properly the various impacts and long term 
consequences of this oil spill on coastal and offshore habitats. In 
reality the cost to do this right would be 2-4 times that amount.

Questions submitted by Representative Bob Inglis

Q1.  ``. . . provide a brief summary of your understanding of what 
research has been done on sub-surface dispersants since the Oil 
Pollution Act of 1990? Do you believe this research has been executed 
appropriately and in a manner that considers the overall environmental 
impact of oil spills as well as oil spill response methods, like the 
use of dispersants?''

A1. I am not an expert on dispersants but I have learned a lot more 
about them since April 22, 2010. There is insufficient data to conclude 
with any certainty that an oil spill is less dangerous to the 
environment (reduced toxicity or increased bioremediation) when 
dispersants are employed. Quite the contrary, we learned from the Exxon 
Valdez Oil Spill that dispersants are toxic to many larvae. We do not 
know the impacts of dispersants on oceanic neuston nor do we know the 
impact on oceanic microbial communities or their activity. We know next 
to nothing, yet dispersants are being applied as if there is absolutely 
no problem. I fear this [large-scale dispersant use and use of known 
toxic dispersants] may end up being one of the most costly gambles of 
this oil spill.

Q2.  ``You point out that the Gulf of Mexico system is accustomed to 
natural inputs of oil and gas and biological communities have adapted 
to endure, and in some cases metabolize these materials. What impact do 
you think a spill like the DWH incident will have on the biota of the 
GoM? What adaptation mechanisms currently exist that would give the 
Gulf ecosystems the resiliency needed to recover?''

A2. On a daily basis, the DWH spill is introducing 25-60 times the 
volume of oil (35000 to 60000 bbl) that is naturally introduced across 
the entire GoM (1000 bbl); this oil and gas is being injected into a 
very localized area. The impacts will be severe. Aromatic components of 
oil can be toxic (quickly). Microbial metabolism of oil and gas will 
result in concomitant consumption of molecular oxygen that is dissolved 
in the water. Oxygen consumption below critical levels (2 mg/L) makes 
water uninhabitable to higher organisms (any oxygen-respiring 
creature). Sedimentation of oil to the bottom could suffocate organisms 
there. The biotic impacts are likely widespread and severe and we are 
not quantifying these impacts sufficiently at present (in my opinion).
    Because natural seepage is diffuse, most organisms around natural 
seeps are not exposed to high concentrations of toxic compounds. The 
exception is some oil seeps where invertebrates, like mussels and 
clams, can be exposed to high levels of PAH. These organisms have 
developed or many hundreds if not thousands of years, quite a tolerance 
for PAH. The majority of the pelagic biota are not similarly adapted so 
would be susceptible to toxicity effects related to, e.g., PAH. Other 
mechanisms to endure the spill include movement (i.e., flee affected 
areas) or biological selection, though selection would only prove an 
efficient mechanism in this situation for organisms with a very short 
lifetime (i.e. high turnover rate), like microorganisms.

Q3.  ``. . . Mr. Helton has testified that NOAA is currently gathering 
all available data and building a baseline from existing, yet cobbled 
together, data? Do you think this will be sufficient to build an 
accurate baseline? If not, what would you suggest to remedy this type 
of situation for future oil spills?''

A3. A baseline cannot be built when there is no data and for some 
things, like dissolved methane and higher alkane concentrations, 
microbial distributions and activity, there is next to no data. What 
NOAA puts together will certainly be useful but I fear there will be 
enormous holes in the data set that severely restrict its use.
    I believe we need a routine monitoring program for the Gulf of 
Mexico where critical parameters are tracked over time. I am only aware 
of one offshore, blue water site where biological, geochemical, and 
geophysical monitoring is ongoing: Mississippi Canyon 118 (1000m water 
depth), a site 8 miles or so upslope of MC252. Sediments at this site 
have been collected and various parameters measured, roughly annually, 
since 2006. The MC118 Gas Hydrate Observatory program is funded by the 
National Institute of Undersea Science and Technology, which is a NOAA-
funded Institute. The goal for the program this year is to expand the 
monitoring program into the water column. This program could serve as a 
model for others in the Gulf of Mexico. In fact, the program director 
would like to expand the program down slope to include two to three 
deeper sites but he has not secured the funding to expand the program 
to date.

                   Answers to Post-Hearing Questions

Responses by Dr. Richard Haut, Senior Research Scientist, Houston 
        Advanced Research Center

Questions submitted by Chairman Brian Baird

Q1.  What types of research need to be targeted, ecological as well as 
technoloical, for a more effective response to future spills?


A1. The Houston Advanced Research Center (HARC) has worked with the 
Research Partnership to Secure Energy for America (RPSEA) to establish 
a process to determine an effective research program to address the 
needs of all stakeholders. On July 22, 2010, HARC will host a RPSEA 
Technical Forum where all stakeholders will meet to discuss the issues 
and determine research priorities. The forum will focus on identifying 
and prioritizing research and technology development required in four 
main areas:

        <bullet>  Enhance Technologies to Minimize Incidents--What is 
        needed to prevent incidents from occurring?

        <bullet>  `What else can go wrong'? in Ultra-Deepwater.

        <bullet>  Identify, Develop and Improve Proactive and Reactive 
        Response Procedures and Processes--What is needed to minimize 
        the time to respond to an incident? What is needed to minimize 
        the environmental impact?

        <bullet>  Develop Understanding of the Value of Ecosystem 
        Services and Identify Locations of High Value in a Seasonally 
        Dynamic Ecosystem--what is needed to understand the movement of 
        marine life/wildlife that may be affected by an incident? What 
        is needed to understand the impact on ecosystems? What is 
        needed to understand the value of ecosystems at risk?

    The agenda for the forum and the current list of participants that 
have registered are given in Appendix A: Research and Technology Needs 
for Deepwater Development_Addressing Oil Recovery and Effective Cleanup 
of Oil Spills.
    A white paper will be written and available to all stakeholders 
after the forum. A copy of the white paper will be sent to Janie Wise 
when it is available. Types of research needed to be targeted, 
ecological as well as technological, for a more effective response to 
future spills fall into three categories:

        <bullet>  Technology enhancement to minimize incidents--A 
        program aimed at preventing incidents from occurring in the 
        first place may be developed. A review of the state-of-the art 
        of technologies that may be used to improve safety, protect the 
        environment, and ensure wellbore integrity of offshore 
        operations will identify priorities, as well as technology gaps 
        and further research needs. The review should consist of an 
        evaluation of existing safeguards and international offshore 
        procedures, standards, and practices. It should also identify 
        promising technologies to address safety and environmental 
        concerns associated with deepwater, harsh environments.

        <bullet>  Identification, development, and improvement of 
        proactive and reactive response procedures and processes will 
        address the research required to minimize response time to an 
        incident, so that environmental impact is minimized. The 
        primary response objectives in any open-water marine spill are:

                  Prevent the spill from moving onshore

                  Reduce the environmental impact

                  Speed the degradation of any unrecovered oil while 
                minimizing the harm on the ecosystems

                  Mobilize rapid well intervention/containment standby 
                equipment

        <bullet>  Development of an understanding of the value of 
        ecosystem services and location identification of high value in 
        a seasonally dynamic ecosystem--This program will aim to 
        determine the value of ecosystems. The goal is to study 
        deepwater, coastal regions and Gulf Coast wetlands, in order to 
        identify high value areas to place monitoring and early warning 
        devices. Valuation of ecosystem services can furthermore be 
        used to prioritize spending on ecosystem protection.

Q2.  What types or research infrastructure or funding mechanisms would 
help us truly advance the fields of oil spill prevention and cleanup? 
Specifically, what research do we need to invest in to significantly 
increase oil recovery rates? is it physically possible to have greater 
recovery rates?

A2. The Research Partnership to Secure Energy for America (RPSEA: 
www.rpsea.org) is an effective research infrastructure that could 
manage a program to advance the fields of oil spill prevention and 
cleanup. RPSEA is a multi-purpose entity established to facilitate a 
cooperative effort to identify and develop new methods and integrated 
systems for exploring, producing, and transporting-to-market energy or 
other derivative products from ultra-deepwater and unconventional 
natural gas and other petroleum resources, and to ensure that small 
producers continue to have access to the technical and knowledge 
resources necessary to continue their important contribution to energy 
production in the U.S.
    Through the Energy Policy Act of 2005 Section 999, RPSEA 
administers a public-private partnership that performs research and 
development for the ultra-deepwater in the Gulf of Mexico, 
unconventional onshore natural gas, and other petroleum resources of 
the United States, namely for small producing companies. RPSEA has over 
172 members, including 26 research universities, companies, and other 
organizations and manages the 37.5 million dollars per year of U.S. 
Government funds, plus cost share funds from project groups. Government 
funds are generated from royalties and funneled to RPSEA through the 
National Energy Technology Laboratory (NETL), on behalf of the U.S. 
Department of Energy. Additionally, NETL has a $12.5 million dollar per 
year complementary program under the same Act. The two groups work 
together to ensure that research is properly prioritized and funding is 
effectively utilized.
    Deepwater offshore exploration and production is challenging in 
many respects. Each prospect is full of unknowns, and the industry must 
be prepared for the worst. Its toolkit is vast but it has not kept up 
with the challenges. A proactive approach that studies possible 
outcomes, plans and prepares people, contains the proper amount of 
safety features and methods to employ them, sets responsible oversight 
and regulations, and is available to all for use is paramount to the 
safe and environmentally responsible success of the judicious use of 
America's oil and gas resources. RPSEA, through its oversight by the 
Department of Energy through NEIL, stands at the forefront of the 
development of systems to enable the industry to improve energy 
security. RPSEA uniquely provides the structure for researchers and 
other interested parties from a multitude of companies, research 
universities, environmental and safety organizations, and others to 
exchange ideas, transfer technologies, and provide unbiased science to 
develop sound policy. It is because of the role of the Federal 
Government through the EPAct Section 999 Program that RPSEA has been 
successful and that its members are willing and anxious to 
participate--to lead--in these activities that are so important to our 
country.
    RPSEA was recently named as part of the coalition of the Gulf 
Project in response to the Deepwater Horizon incident by the governor 
of Texas.
    RPSEA's various experts, who cover all technical disciplines, 
develop a plan that is updated annually. Specifically, the annual plan 
(http://www.rpsea.org/annual-plans) is submitted by RPSEA only after an 
exhaustive and comprehensive review of technology ideas generated by 
nine committees of subject matter experts. More than 700 individuals 
work to identify and develop these ideas and the subsequent plan. RPSEA 
takes its direction from the Secretary of Energy when he approves the 
annual plan after consultation with a Federal Advisory Panel. The needs 
are prioritized, RPSEA balances near and long term goals, and then 
publicly issue requests for proposals. Proposals are evaluated by 
independent experts and projects are selected that follow Federal 
Acquisition Regulations. Each project must not only meet the technical 
objectives, but it must also provide a plan that ensures that the 
technology will be safe and have no adverse environmental impact. In 
fact, some of the current projects specifically address improved safety 
and environmental performance. Although the projects are managed by 
RPSEA, they utilize industry advisory boards to assure that they meet 
their objectives. This process is meant to act as a check-and-balance, 
and it also assists in early development and commercialization of any 
related technologies, ensuring effective technology transfer. The 
aggressive technology transfer efforts ensure the work being conducted 
is applied in a cost effective manner.
    The value of collaborative research is important. It is precisely 
because of government funding that a combined group from academia, 
research organizations, and industry can perform this type of research, 
which otherwise would not be cost effective. Thanks to government 
funding through the Energy Policy Act, coupled with significant 
industry cost share, the higher risk technology challenges are being 
addressed. The Section 999 funding of $50 million per year ($37.5 
million to RPSEA and $12.5 million to NETL for complementary research), 
has been far from sufficient to address all the concerns. The program 
could be far more effective if additional funds that have been 
authorized were appropriated.
    RPSEA is currently in the process of developing their 2011 Annual 
Plan for research. The Deepwater Horizon incident has greatly 
influenced the Plan, and, as a result, even more emphasis will be 
placed on safety and environmental research. We must do all we can to 
make certain that an incident like that involving the Deepwater Horizon 
never happens again.
    RPSEA's annual plans identify the needed research to increase oil 
recovery rates in a economically, safe, and environmentally sensitive 
manner.

Q3.  Across the Federal Government there appear to be barriers to tech 
transfer. Please elaborate on what you see as the most restrictive 
practices or policies currently obstructing the transfer of innovations 
to both the private sector and Federal agencies. Has there been a lack 
of demand by industry, a lack of supply by the research sectors, or a 
communication disconnect between industry and research sectors?

A3. Effective technology transfer requires a public/private partnership 
that has sustained funding to develop, promote and sustain 
relationships. For example, The Houston Advanced Research Center (HARC) 
managed the Shared Technology Transfer Program to effectively transfer 
technology from NAVSEA Carderock, one of the Navy's laboratories, to 
the offshore and maritime industry. This program established a web-
based catalog of Navy technologies available to the public, held 
technology workshops and forums five times a year, and established 
relationships with NAVSEA technology experts and industry 
representatives. The program was co-funded by the U.S. Department of 
Energy and industry. Another effective technology transfer effort is 
the university/national laboratory alliance that HARC has established 
in the Environmentally Friendly Drilling Systems Program, see: http://
www.efdsystems.org/EFDResearch/UniversityNationalLabAlliance.
    One of the issues that industry faces is that there are numerous 
companies that are involved in activities associated with operations in 
the Gulf of Mexico. Many of these are small to medium size companies 
that do not have research organizations. To make real progress with 
breakthrough technologies and technology transfer, it takes a group 
such as RPSEA to be properly funded and supported by both the U.S. 
government, state governments and by industry. The original concept of 
funding RPSEA at $150 million per year, as authorized in the Energy 
Policy Act, should be revisited, with the majority of this funding 
going towards safety and environmental issues. RPSEA should be 
responsible for organizing and supervising this research and technology 
development, as RPSEA can do it a cost-effective manner.
    A very successful technology transfer event was recently held in 
Houston June 22-23 by RPSEA in which over 300 leading offshore 
researchers and users of technology met to review and comment on the 
program's current projects. This event was made possible by the Section 
999 funds of the Energy Policy Act.
    Through various organizations, industry has been successful in 
technology transfer that hold technical conferences and workshops. 
Examples include the largest energy technology transfer event in the 
world, the Offshore Technology Conference held each year the first week 
of May in Houston. This year some 70,000 people participated. Since the 
U.S. government has such a minor role technology development it has 
traditionally had a small presence. However, many other international 
governments that have an offshore role, and that have invested in 
technology, had a significant presence at the OTC promoting their 
industry and new technologies--countries such as Norway, Canada, 
Nigeria, China, The Netherlands, Brazil, and Australia, just to name a 
few.
    There are also several technical organizations like the Society of 
Petroleum Engineers, International Association of Drilling Contractors 
and the Society of Exploration Geophysics that hold annual technology 
conferences and regional workshops focused on offshore and safety that 
excel in technology transfer. They also publish the results. Other 
organizations like the American Petroleum Institute (API), NOIA, and 
ASME hold regular technical committee meetings that work on standards, 
best practices, and reporting on new technologies.
    Technology transfer is only truly successful through application, 
not by publishing papers. Face-to-face meetings among researchers and 
between technology developers and end users within industry are 
required for effective transfer. Only in this way are research 
challenges identified and prioritized, making sure the technology 
provider and the users have common goals that are aligned.
    The former MMS (now the Bureau of Ocean Energy Management, 
Regulation, and Enforcement: BOEMRE) has held the Gulf of Mexico Region 
Information Transfer Meetings (ITM) for many years. These meetings 
began in 1980 as an annual meeting to foster sharing results, 
methodologies, and ideas related to environmental studies, both inside 
and outside of MMS. Scientists in these meetings present, discuss, and 
share their findings in support of the Offshore Energy and Minerals 
Management Program. To date, during this meeting series, exciting 
discoveries have been presented, such as chemosynthetic communities, 
observations and sound of sperm whales in the Gulf, technological 
advances by the offshore oil and gas industry, and new developments in 
alternative energy technology, guidance, and regulations.
    A significant deterrent to technology transfer results from the 
stringencies of the Federal procurement rules, which discourage many 
organizations from participating in the early stages of government-
funded research and development. Most companies do not have a cost 
accounting standard that is acceptable under the current procurement 
rules. Intellectual Property (IP) issues are also usually huge 
barriers. Negotiating an acceptable Cooperative Research and 
Development Agreement (CRADA) takes a long time and consumes manpower--
discouraging industry from working with government laboratories, or 
government entities from working with one another in some cases.
    Communication is enhanced by local contacts. Opening the U.S. 
Department of Energy's office in the greater Houston area has enabled 
closer cooperation and collaboration between the DOE, RPSEA, industry, 
universities and others. Communication at the local level needs to be 
encouraged, supported and enhanced. Only in this manner can appropriate 
oversight be achieved along with successful technology transfer.

Questions submitted by Representative Bob Inglis


Q1.  You describe a research program to develop ecosystem management 
tools and metrics applicable to coastal and offshore regions that would 
include data collection from satellite observations and ecosystem 
service models that could evaluate the changes in benefits received by 
humans from the environment.
        a.  Are you aware of this type of research being performed by 
        any of the agencies that sat on the first panel?
        b.  What about agencies that we have not called to testify, 
        such as the Department of Energy?

A1. I believe it is best to answer both parts of these questions 
together. The Houston Advanced Research Center (HARC) has worked with 
the Research Partnership to Secure Energy for America (RPSEA) to engage 
all stakeholders, to ensure that there is communication between various 
research organizations, to minimize duplication of effort and to 
enhance collaboration. On July 22, 2010, HARC will be hosting a RPSEA 
technical forum where all stakeholders will come together to discuss 
research and technology needs. Information about the forum, including a 
list of participants that are currently registered, is given in 
Appendix A: Research and Technology Needs for Deepwater Development_
Addressing Oil Recovery and Effective Cleanup of Oil Spills.
    HARC currently chairs RPSEA's Environmental Advisory Group (EAG). 
In 2009, the EAG was requested to provide comments to RPSEA's 
management concerning onshore and offshore environmental issues and how 
RPSEA's research efforts might better take these into consideration. 
This effort included a review of the tremendous amount of environmental 
research funded by the Federal and state governments as well as through 
private foundations. A copy of the report is given in Appendix B: 
Environmental Research.
    One of RPSEA's funded programs, the Environmentally Friendly 
Drilling Systems Program, compiled a review of the U.S. Department of 
Energy's Environmental Program. A copy of the report is given in 
Appendix C: Review of the U.S. Department of Energy's Environmental 
Program.
    The National Oceanic and Atmospheric Administration (NOAA) has 
funded ecosystem services work on the value of coastal wetlands and 
marine resources. The Environmental Protection Agency (EPA) and its 
Office of Research and Development has the Ecosystem Services Research 
program which undertakes ecosystem services research with the goal of 
better protecting or restoring ecosystem services. The Department of 
the Interior's Bureau of Ocean Energy Management, Regulation and 
Enforcement (Formerly the Minerals Management Service (MMS)) has 
conducted work related to ecosystem services valuations, most 
relevantly as related to the market and non-market valuation 
methodologies referred to in CERCLA and the Oil Protection Act related 
to the estimation of damages from oil spills.
    Other U.S. Government agencies involved in ecosystem services 
research include the USDA's Forest Service which has conducted work 
related to the development of markets and payments for ecosystem 
services from forested areas and watersheds. The Agriculture and Food 
Research Initiative issues competitive grants for research on the 
maintenance of ecosystem services with the context of agroecosystems 
management. The Department of Defense (DOD) pursues work on ecosystem 
services as part of their sustainability drive for DOD installations. 
In particular, the Environmental Security Technology Certification 
Program has issued a Request for Proposals for demonstrations of 
ecosystem services technologies and models that can be applied to DOD 
installations on a large scale. The U.S. Department of Energy (DOE) has 
undertaken research of ecosystem services related to the development of 
bio-fuels. DOE-funded research has examined ecosystem services 
including soil fertility, crop productivity, control of greenhouse 
gasses, water supply and contamination, and biodiversity. This work has 
taken place under the DOE's Office of Biological and Environmental 
Research.
    Additionally, the NOAA Gulf of Mexico Regional Coordination Team 
sent a letter to populate a database (http://gulfseagrant.org/oilspill/
database.htm) to share research activities regardless of the funding 
source. As of July 12, there were 56 projects listed in the database. A 
copy of the letter and the abstracts to the projects listed are 
included in Appendix D: Oil Spill Research Activities Clearinghouse.
    In 2009, HARC, with funding from industry, initiated a project 
concerning ecosystem services measurement and assessment. An executive 
summary of this project is given in Appendix E: Ecosystem Services 
Measurement and Assessment Project. Although the project focused on 
Alaska, the project included a review of ecosystem management tools and 
metrics applicable to coastal and offshore regions that included data 
collection from satellite observations and ecosystem service models.
    The goal for the first phase of this ongoing project was to review 
available remote sensing technologies and ecosystem service models and 
then to apply them to a pilot study to monitor and measure ecosystem 
attributes in relation to the production and delivery of ecosystem 
services. The review included research that has been or is being 
undertaken by Government agencies, universities, and businesses. In 
total, more than 150 experts actively working in various fields related 
to remote sensing, marine ecosystems, and ecosystem services modeling 
were utilized for this project. From this work, HARC developed a 
research program that brought together the best elements from 
accomplished experts, available technologies and models.
    A key driver for the HARC research effort is the need to develop a 
method for monitoring changes in ecosystem functioning and delivery of 
benefits that is both reliable and cost-effective. This will be 
essential as ecosystem services continue to gain traction on all sides 
of natural resource management issues. In particular, many of the 
market and non-market valuation methodologies are individually referred 
to under CERCLA and the Oil Pollution Act to evaluate damage from oil 
spills (and other environmental accidents). HARC's efforts offer a 
methodology that holistically considers ecosystem functioning and 
ecosystem service benefit values.
    The HARC review included leading ecosystem services models such as 
the Multi-scale Integrated Models of Ecosystem Services (MIMES) model 
at the Gund Institute for Ecological Economics at the University of 
Vermont and the Integrated Valuation of Ecosystem Services and 
Tradeoffs (InVEST) model being developed through the Natural Capital 
Project at Stanford University. Both the U.S. Business Council for 
Sustainable Development and the World Business Council for Sustainable 
Development have reviewed numerous ecosystem services models, 
frameworks and guidelines; however, MIMES and InVEST are the most 
advanced toward achieving broad modeling capabilities. During the 
initial phase of the project, neither MIMES nor InVEST had developed 
modeling capabilities for marine environments, although both have since 
initiated activity in this area. In particular, MIMES has begun 
examining ecosystems based management approaches. The MIMES team has 
developed a spatial dynamic model to look at species dynamics as 
influenced by externalities from different economic sectors In 
Massachusetts, they are looking into LNG pipelines, wind farms, freight 
routes, fishing commercial and recreational, and whale watching.
    The Houston Advanced Research Center (HARC) is working with the 
Research Partnership to Secure Energy for America (RPSEA) to ensure 
that there is appropriate communication among all stakeholders 
concerning research and technology needed to produce energy from 
deepwater reservoirs in an economically, safe and environmentally 
sensitive manner.

                   Answers to Post-Hearing Questions

Responses by Dr. Nancy Kinner, University of New Hampshire, Co-
        Director, Coastal Response Research Center

Questions submitted by Chairman Brian Baird

Q1.  To quote Secretary Chu in a June 8th BP Deepwater Horizon press 
release, ``Transparency is not only in the public interest, it is part 
of the scientific process. We want to make sure that independent 
scientists, engineers and other experts have every opportunity to 
review this information and make their own conclusions.'' Scientific 
freedom, access to data, and transparency are key to informed decisions 
that benefit society. Flow are experts working together and with the 
Federal team to increase access to data and to deliver findings in a 
transparent manner?

A1. Data that is collected under the auspices of Federal agencies or by 
agency scientists is posted on a variety of websites (e.g., http://
www.epa.gov/bpspill/dispersants-testing.html and http://
ecowatch.ncddc.noaa.gov/). Distribution of the information is not 
instantaneous because the data must undergo rigorous quality control to 
insure it is as accurate, precise, and representative as possible. In 
addition, most of the data is released with some form of analysis. 
While the delay in the release of data is often viewed skeptically by 
the public, as if something were being hidden, it is standard practice 
in all peer reviewed studies to subject the data to standard quality 
assurance/quality control metrics prior to its being released to be 
sure it is valid. EPA has detailed criteria for precision and accuracy 
of most established chemical analyses. In addition, statistical 
analysis of the data is standard to ensure that the conclusions drawn 
from the data are valid with a certain confidence (e.g., 95% confidence 
intervals).

Q2.  We have an unprecedented response happening to this spill, but it 
is worrisome that we seem to have a few metrics to actually measure how 
effective our response is.

     For example, how do we know if adding 5,000 gallons of dispersant 
per day is enough, or if 50,000 gallons is needed in order to be 
effective? How do we know what quantity is appropriate?

     What resources or research are needed to establish such metrics?

A2. There are standard metrics that have been used in spills prior to 
the DWH incident. These include: the volume of oil recovered by 
mechanical means (e.g., skimmers); the volume of oil burned; the number 
of birds recovered--dead, cleaned, released; the miles of protective 
boom deployed; and other similar metrics. The difference in the DWH 
incident is that the source was so large and unabated that it was 
equivalent to a very major spill every day. In addition, because of the 
difficulty of assessing the size of the release and accessing the site, 
there were a large number of key unknowns (e.g., the volume of oil 
released per day; in the early days of the spill the location of the 
leaks). These unknowns were the focus of much of the media attention, 
especially as it became clear that initial estimates were very low 
compared to what ``visual'' observations seemed to indicate. 
Ironically, some of the data such as the number of dead animals has 
been low, especially when compared to the numbers at previous large 
spills (e.g., dead birds in the Exxon Valdez 34,000 vs. <5,000 in the 
DWH.
    Peer-reviewed research by Tuler and Webler, funded by our Coastal 
Response Research Center (www.crrc.unh.edu), on previous oil spills, 
indicates that there is often a disconnect between what responders deem 
as metrics and success (e.g., low numbers of birds killed; gallons of 
oil recovered, evaporated or burned; miles of beaches protected from 
fouling) vs. the public (e.g., number of fisherman out of work, square 
miles of waters closed to commercial fishing). They determined that the 
success of a response is more likely to be viewed with similar metrics 
if, during the planning, preparation and training phases there is more 
interaction between responders and the public. For example, if 
nearshore waters are closed and fisherman are out of work for a period 
of time, it may be a necessary public health precaution. Equally 
important may be to have the fishing community etc, understand before 
spills occur, why dispersants may be the most viable response to 
protect nearshore fisheries.
    With respect to the question of 5,000 gallons vs. 50,000 gallons of 
dispersant being used, the dispersant:oil ratio (DOR) for a variety of 
crude oils and several dispersants is known and published in the peer-
reviewed literature. For specific oil and dispersant mixtures, there 
are standard tests that have been developed to assess the DOR (e.g., 
swirling flask test). The key is knowing the volume of oil being 
dispersed, and the efficacy of the dispersant release and mixing in 
situ.
    In many cases, the research and resources needed have been fairly 
well defined already. For example, there is a dispersants R&D plan that 
establishes what research must be performed to determine the efficacy 
and effects of dispersants used on the surface (http://
www.crrc.unh.edu/dwg/index.htm). What is new in the DWH incident is the 
subsurface use of dispersants at the wellhead. No R&D plan exists for 
those conditions. Similar R&D plans exist for submerged oil, human 
dimensions related metrics and many others. Even for those new topics 
related to deepwater spills, the consensus R&D plans can be developed 
fairly rapidly. The difficulty is obtaining the funding for their 
implementation, ensuring that this research meets rigorous peer review 
standards, and that the results are translated into practice in a 
timely manner.

Q3.  What types of research and research infrastructure or funding 
mechanisms would help truly advance the fields of oil spill prevention 
and cleanup? Specifically, what research do we need to invest in to 
significantly increase oil recovery rates? Is it physically possible to 
have greater recovery rates?

A3. The question regarding spill prevention and preparedness is best 
handled by the U.S. Coast Guard and BOEM with respect to marine 
transportation and offshore spills. Greater recovery rates are clearly 
possible for deepwater wellhead releases with the proper equipment; 
investments need to be made in this type of research. However, I do not 
believe it is reasonable to assume that percent recoveries will ever 
exceed 30-50% when the release is uncontrolled (i.e., when a ship's 
fuel tank is breached or prior to capping a well). This is because true 
recovery of oil is limited to mechanical methods (e.g., skimming and 
oil/water separation methods). These typically require devices, which 
must be transported and deployed at the site. For a large and rapid 
release, the oil spreading rate on the water is so great that the issue 
is often not the capacity of the skimmer (e.g., 200,000 gallons oil/
day), but the encounter rate (i.e., the oil spreads to a layer a few 
millimeters thick on the surface and covers 100s of square miles and a 
given device can only recover oil from a swath 100ft wide). In 
addition, mechanical recovery devices are much less effective as wind 
and waves build, mixing the oil into the water.
    The reality is that in most spills there will be environmental 
impacts and restoration will be necessary. R&D on restoration and 
recovery is rarely funded as the focus is almost always on improving 
response and preparedness. This is clearly demonstrated by the fact 
that NOAA's Office of Response and Restoration (ORR) was given no R&D 
budget in OPA 90.

Q4.  What additional challenges would we face if the Deepwater Horizon 
spill had occurred in the Arctic?

A4. The Arctic challenges would include:

        <bullet>  Lack of any spill response infrastructure in the 
        region

        <bullet>  Limited R&D on response technologies

        <bullet>  Lack of baseline information/data on the ecosystems 
        and species

        <bullet>  Lack of information on physical conditions (e.g., 
        currents; weather; ice thickness; movement; location)

        <bullet>  Little integrated ocean observing equipment (e.g., 
        buoys, satellite information)

        <bullet>  Limited under ice observing and detection 
        capabilities

        <bullet>  Limited information on effects of oil on Arctic 
        species

        <bullet>  Lack of restoration technologies

        <bullet>  Logistical issues to support response (e.g., housing 
        and food for responders, transportation of needed resources to 
        response sites, poor operating conditions (e.g., winder 
        darkness, storms, cold))

    For more information see CRRC's report on ``Opening the Arctic 
Seas: Envisioning Disasters and Framing solutions'' (link below). The 
CRRC will be releasing a workshop report on Natural Resource Damage 
Assessment Issues and R&D in September 2010 and a copy will be 
forwarded to the Committee upon its completion.

Q5.  Across the Federal Government there appear to be barriers to tech 
transfer. Please elaborate on what you see as the most restrictive 
practices or policies currently obstructing the transfer of innovations 
to both the private sector and Federal agencies. Has there been a lack 
of demand by industry, a lack of supply by the research sectors, or a 
communication disconnect between industry and research sectors?

A5. Of the many barriers, I will highlight three major impediments to 
technology transfer:

        a.  Often, R&D conducted in the private sector or academia is 
        difficult to translate into practice because it has been 
        developed without consultation with responders. As a result, 
        some aspects of the technology may not be practical or useful. 
        This can be overcome by ensuring, interaction between 
        practitioners, responders and researchers during the 
        development phase.

        b.  If academics are spearheading in the R&D, it is crucial to 
        involve industry (potential licensees or manufacturers) of the 
        product in the process as soon as possible.

        c.  The lack of demand and long periods of time between major 
        spills discourages investment in response R&D. Unless 
        regulatory requirements for response equipment are imposed, 
        there is little demand for the equipment. Even then, few pieces 
        of equipment are even purchased and most sit idle because the 
        occurrence of spills is relatively rare. This combination of 
        factors makes the demand for response R&D and the technology 
        transfer limited.

Questions submitted by Representative Bob Inglis


Q1.  You repeatedly state in your written testimony that the main 
reason for the apparent current shortfall in oil spill cleanup research 
and development is the general belief that another spill on the scale 
of the Exxon Valdez simply would not occur again in light of 
regulations and prevention measures. Could you please list the relevant 
government agencies that operated under this notion despite the passage 
of the Oil Pollution Act of 1990? What research was ignored and what 
funding was not requested as a result?

A1. The historical oil spill data since 1990 and the advancement of 
agencies such as NOAA, MMS and Coast Guard support the notion that the 
probability of another Exxon Valdez occurring was extremely low. The 
key to this decrease in oil spilled post Exxon Valdez requirements that 
all tankers in the U.S. waters must be double hulled. The spills since 
that time have been mostly associated with Hurricane Katrina and with 
freighters which remained single hulls, but which contain large fuel 
tanks to operate the engines. The Coast Guard's emphasis on prevention 
was also key (e.g., booming around vessels off loading oil). The 
platforms associated with the DWH are more closed linked to the lack of 
regulation. enforcement of the offshore oil and gas industry, largely 
by MSS, coupled with the difficulty of operating in very deep waters. 
As I said in testimony before the U.S. House Committee on 
Transportation and Infrastructure on May 19, 2010, I believe these 
agencies had pressing budge issues with meeting other parts of their 
missions and they could not justify increased funding to spill response 
when the data showed a decreasing trend in oil volume spilled.
    The R&D needs regarding oil spills were clearly identified, 
especially since 2005, and are outlined in a number of workshop reports 
found on the CRRC's website (www.crrc.unh.edu). Topics include: 
dispersed oil, submerged oil, liquid asphalt, human dimensions, 
integrated modeling, PAH toxicity, Arctic Disasters and NRDA in the 
Arctic. These R&D plans were developed by workshop participants 
representing Federal and state agencies, NGOs, industry, practitioners, 
scientists, engineers, from the U.S. and abroad.

Q2.  One of the main issues facing the implementation of oil spill R&D 
is the lack of a robust system for peer review, not only within private 
industry, but at the state and Federal level. How would you address 
this issue and in what ways could you provide incentive to private 
stakeholders to ensure the R&D is universally accepted, and conducted 
in a way that is both efficient and useful?

A2. Peer review can be conducted at several levels. I have outlined 
some of these below.

        <bullet>  Peer review of R&D program: Each R&D program should 
        have a five year review of its activities to be certain it is 
        meeting its mission. The review can be conducted by an 
        independent board that consists of independent scientists and 
        practitioners.

        <bullet>  Peer review of proposals: Proposal review is often 
        conducted using only personnel from within the organization 
        (e.g., agency staff). This is called peer review, but is 
        problematic because it breeds parochial and self-fulfilling 
        project funding. For example, an agency many begin to 
        repeatedly fund on one research entity because they know that 
        group will produce results. This does not mean the research 
        entity is bad, but it does often result over time in less 
        innovation and scientific inquiry. Proposal review by a mix of 
        internal and external scientists and practitioners is much more 
        time consuming, but will results in a wider pool of scientific 
        discovery and information.

        <bullet>  Peer review of ongoing projects: Once funded, peer 
        review should continue on at least an annual basis by both 
        agency staff and either a project advisory committee or liaison 
        as well as the agency's dedicated project officer. This insures 
        the project starts off and remains on track and anticipated 
        issues that often arise during research are addressed promptly.

        <bullet>  Peer review of project upon completion: Most programs 
        require a final report on the project results. This should 
        undergo external as well as internal peer review. If at all 
        possible, the results of the project should also be published 
        in the peer-reviewed literature (e.g., Journals). This 
        disseminates the research more widely and lends credibility to 
        the findings because they have met the high standards of 
        journal review.

    There are few incentives to private sector to conduct peer reviews 
research, especially if it results in proprietary information (e.g., 
revealing information about a cleanup device). One area where this can 
be over come is to conduct the research using a team experimental 
design approach. In this case, the Project Committee (PC), consisting 
of public and private sector scientists and practitioners, jointly 
agreed on an experimental design that is in the Request for Project 
(RFP) released. Once a project team is selected by peer-review, they 
conduct the research (with the appropriate peer review). The incentive 
in this model for industry to join the PC is to have a say in how the 
project is conducted. Put simply, it is better to be at the table with 
a say in the process than looking on from the outside.

Q3.  You mention in your testimony that one issue with the research 
conducted by some academicians Is the practical usefulness their 
findings; particularly in development of technology to address the 
problem. In addition to an assigned NOAA point of contact, how could we 
address this issue?

A3. The point of contact (POC) is any practitioner who would be an end 
user or beneficiary of the research. Another approach (mentioned 
above), is to designate a Project Committee comprised of a mix of 
advisers to the project team that reviews interim reports and meets (in 
person or virtually) with the project team annually or semi-annually to 
discuss the progress being made. This oversight during the project 
(from start to finish) is crucial to insure the results are useful. 
Furthermore, there should be a mechanism through the funding agency to 
help formulated the transfer of the information or technology into 
practice. Most R&D funding ends when the research is completed and the 
technology transfer is not pursued.

Q4.  What other response tools, such as the various models and field 
guides you reference in your testimony, are currently being developed 
for or as a result of the Deepwater Horizon spill? Which tools or 
products have been the most successful and how can this be incorporated 
into further models for R&D?

A4. This is covered in my testimony of July 21, 2010 to the Senate 
Committee on Commerce, Science and Transportation, Subcommittee on 
Oceans, Atmosphere, Fisheries, and Coast Guard. Please see the attached 
copy of it.

Q5.  What deficiencies from workshops held by the Coastal Response 
Research Center are the most relevant to the current spill or other 
large-scale spills going forward?

A5. The CRRC's dispersants R&D plan that identifies numerous 
deficiencies is probably the most relevant (links to 2005 report and 
May 2010 report below). Also many of the issues identified with respect 
to submerged oil and human dimensions (links below) also apply. There 
are also some relevant issues in the 2009 five-year R&D plan (notably): 
ecological monitoring during spills; environmental forensics; 
ecological effects of spills; acquisition synthesis and management of 
information; and response technology. In addition, there should be a 
workshop on issues unique to deepwater release.

Report links:

2005 Dispersant R&D: http://crrc.unh.edu/dwg/
        dispersant<INF>-</INF>workshop<INF>-</INF>report-final.
        pdf

May 2010 DWH Dispersant Report: http://crrc.unh.edu/dwg/
        dwh<INF>-</INF>dispersants<INF>-</INF>
        use<INF>-</INF>meeting<INF>-</INF>report.pdf

Submerged Oil R&D: http://cac.unh.edu/submerged<INF>-</INF>oil/
        submerged<INF>-</INF>oil
        <INF>-</INF>workshop<INF>-</INF>report.pdf

2009 Oil Spill R&D: http://crrc.unh.edu/workshops/
        r<INF>-</INF>and<INF>-</INF>d<INF>-</INF>09/2009<INF>-</INF>r&d
        <INF>-</INF>workshop<INF>-</INF>report.pdf

Opening the Arctic Seas: Envisioning Disaster & Framing Solutions: 
        http://crrc
        .unh.edu/workshops/arctic<INF>-</INF>spill<INF>-</INF>summit/
        arctic<INF>-</INF>summit<INF>-</INF>report<INF>-</INF>final.pdf

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                   Answers to Post-Hearing Questions
Responses by Mr. Kevin Costner, Partner, Ocean Therapy Solutions, 
        WestPac Resources

Questions submitted by Chairman Brian Baird

Q1.  We learned from the first panel of witnesses that the Minerals 
Management Service (MMS) Ohmsett facility in New Kersey is the world's 
only full-scale oil spill response testing facility. Has your 
technology been tested by the MMS Ohmsett facility?

A1. Yes, we had a very successful demonstration at OHMSETT, the U.S. 
Navy and Coast Guard facility in New Jersey in January 1999. We 
successfully tested our oil water separator under real-life oil spill 
conditions. Then in 2002 we again hosted a demonstration for the U.S. 
Coast Guard Task Force for Contingency Planning at Terminal Island in 
California. Attendees included representatives from the California 
Coastal Commission, MMS, EPA, FEMA and Fish and Game. Over the past 
decade we also hosted numerous other demonstrations for government 
leaders and the oil industry with all the same results, absolutely no 
follow-up action by the government or industry. We hosted these 
demonstrations on our own dollar, as we were repeatedly told that there 
was not sufficient funding to test our machine in each subsequent round 
of new equipment testing. This also raises another interesting point. 
If you look at all the agencies involved in the interagency group 
responsible for spill response, it could take you years and thousands 
of dollars, which I know about because that is what I did, to 
demonstrate and prove your technology in front of them. A lot of time, 
money and effort for no results. That doesn't seem right. There should 
be one entity and that entity should either accept the technology and 
be the one to help navigate through the bureaucracy or tell the 
industry to go back to the drawing board and come back with a more 
refined product. In my case, I was not looking for a handout, just a 
helpful hand. So consequently no one moved forward, we didn't as a 
company and the government and industry was left with decades old 
technology to respond to this catastrophic spill.

Q2.  Across the Federal Government there appear to be barriers to tech 
transfer. Please elaborate on what you see as the most restrictive 
practices or policies currently obstructing the transfer of innovations 
to the private sector and Federal agencies. Has there been a lack of 
demand by industry, a lack of supply by the research sectors, or a 
communication disconnect between industry and research sectors?

A2. I myself did not have problems with the actual technology transfer, 
the purchasing of a licensed patent from the Department of Energy (DOE) 
facility. Actually working with the Idaho National Laboratory on this 
technology transfer for a centrifugal force oil-water separator was 
never the problem; the problem arose once we developed the machine as a 
commercially viable technology. After all the demonstrations and tests, 
not one door opened for us, it was difficult as a company to figure out 
how to move forward. Our product sat on the shelves for more than ten 
years while we watched on the sidelines powerless to assist in the 
cleanup of the oil spills occurring on a regular basis. During the 
Valdez, like now, everyone was focused on the devastation of the oil 
spill and what to do to address it more effectively. After the Valdez 
spill, Congress passed the 1990 Oil Pollution Act (OPA) designed to 
research and develop oil spill prevention and spill clean-up measures. 
The Executive Branch was directed to conduct research to develop more 
advanced spill clean-up technology. Today as we look out in the Gulf 
and see booming and skimming and rubber boots, we know now that more 
could have been done. That is exactly what we ran up against time after 
time, no one in authority either in government or industry who wanted 
to move the ball forward to find and/or develop the next best available 
technology. Instead of looking at our technology as a way forward, we 
were met with regulations as impediments. It may be fair to assume that 
that lack of demand within the private sector to take on a technology 
transfer from the government is rooted in the understanding that even 
if you are able to do a successful transfer and succeed with R&D to 
produce a commercially viable product, you won't have a market to sell 
to, and the government won't be willing to listen or advise you 
further. It is critical that government develop a structure to follow 
up with industry after a technology transfer to see the fruits of that 
labor come to fruition. If they do not, private industry is going to 
have little interest in developing environmental technologies that are 
highly valuable and often necessary for the safety and benefit of the 
general public. The industry and government spent very little to 
develop new technologies over the last 20 years, that is clear. Looking 
back at what went right and what fell deficient after implementation of 
the 1990 OPA, we can chart a way forward. I think this spill and our 
collective response to it has identified exactly where we need to be 
putting research funds: developing and deploying 21st century 
technologies to address spills, both small and catastrophic. In the 
recently passed America COMPETES bill, the Committee included a 
provision that creates Federal funding for research and development 
agreements (CRADAs) to be used by the national labs to partner with 
industry. Would such instruments be helpful in overcoming the 
technology transfer issues you describe? What else would you recommend?

Q3.  In the recently passed America COMPETES bill, the Committee 
included a provision that creates Federal funding for research and 
development agreements (CRADAs) to be used by the national labs to 
partner with industry. Would such instruments be helpful in overcoming 
the technology transfer issues you describe? What else would you 
recommend?

A3. I believe that the establishment of the Cooperative Research and 
Development Fund in the recently passed COMPETES bill is a step in the 
right direction. As you are well aware, I solely funded the research 
and development of the oil-water separator once I obtained the patent 
from DOE. In addition, during the Committee hearing I mentioned we 
needed someone akin to a ``parole officer'' to assist in the transition 
from Federal research to commercial applicability. I believe it would 
be very beneficial to both the national laboratories and the businesses 
investing in these patents to have an ongoing cooperative working 
relationship, an entity or person that understands the uniqueness of 
this technology transfer. These technology transfer patents should be 
considered in a new category because these technologies were funded 
partly by U.S. taxpayers and brought to commercial viability by the 
private sector. American ingenuity found in the public sector and the 
private sector partnered together for the betterment of the Nation and 
the American people. I cannot tell you how their status should change 
or what competitive advantages they should be given, I leave that to 
you, but I do think it requires some study to figure out how to 
maximize the taxpayers funding in this type of process.

Questions submitted by Representative Bob Inglis

Q1.  As I am sure you are aware, the Deepwater Horizon Response website 
has a link for the general public to offer suggestions on how to cap 
the well and how to clean up the spill. After hearing your experiences, 
it is conceivable that there are other technologies out there that have 
had the same difficulties you have had. Did you use this outreach tool? 
Do you think it's an effective means of making stakeholders aware of 
what technologies are out there? If not, what would you suggest?

A1. At the beginning of the catastrophe, we called the 800# to register 
with the Unified Command and left our information. We knew we had a 
product that could be extremely effective in cleaning up this spill. We 
knew we should be deployed immediately for maximum effectiveness. 
Luckily, a local official who had seen one of our demonstrations in 
Houston a decade ago, and someone who was desperate to save his beloved 
coast and way of life, and desperate to get on with the job of cleaning 
up his waters, gave us the opening we needed, and made sure our 
technology was put directly in front of the Unified Command, the very 
people who should have been seeking us out. I believe the same issues 
that prevented us for the last 15 years to get recognized are evidenced 
still in the Unified Command structure. I understand the importance of 
the Unified Command, that all relevant agencies need to be represented, 
but it also makes the group too unwieldy to work to quickly assess and 
deploy new technologies. There needs to be one entity, one decision 
maker that the private sector can go before and demonstrate their 
technology, both during a crisis and in times of no crisis. In 
addition, it is important to allow the deployment of technology during 
a crisis, not as an experiment, but as a calculated decision to change 
the economies of spill clean-up. This seems to have been done with 
dispersants, but not with our technology. We were held to a different 
standard that needs to be looked at seriously. My company has partnered 
with a UCLA scientist who is in the field right now collecting 
scientific data on the V-20, our largest machine currently deployed in 
the Gulf. This data will give us quantifiable data on the machines 
performance with and without chemical dispersants in the water. We will 
be glad to share this data with the Committee when our research 
completed. Once again, my company is undertaking this, at our own 
expense, because we do not have on-water controlled spills in this 
country to test technology. Other countries use these spills as a tool 
to get to the best available technologies for spill clean-up. The 
Committee should review this policy as you move forward. Thank you for 
this opportunity.


                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


   Letter from Noel Jones, Legislative Affairs Specialist, National 
                 Oceanic and Atmospheric Administration

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
